<html>
<title> - DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION, AND RELATED AGENCIES APPROPRIATIONS FOR 1999</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]


<DOC>
 
                 DEPARTMENTS OF LABOR, HEALTH AND HUMAN
               SERVICES, EDUCATION, AND RELATED AGENCIES
                        APPROPRIATIONS FOR 1999

========================================================================

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION
                                ________

  SUBCOMMITTEE ON THE DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, 
                    EDUCATION, AND RELATED AGENCIES

                 JOHN EDWARD PORTER, Illinois, Chairman

C. W. BILL YOUNG, Florida        DAVID R. OBEY, Wisconsin
HENRY BONILLA, Texas             LOUIS STOKES, Ohio
ERNEST J. ISTOOK, Jr., Oklahoma  STENY H. HOYER, Maryland
DAN MILLER, Florida              NANCY PELOSI, California
JAY DICKEY, Arkansas             NITA M. LOWEY, New York
ROGER F. WICKER, Mississippi     ROSA L. DeLAURO, Connecticut
ANNE M. NORTHUP, Kentucky        

NOTE: Under Committee Rules, Mr. Livingston, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

  S. Anthony McCann, Robert L. Knisely, Carol Murphy, Michael K. Myers,
                and Francine Salvador, Subcommittee Staff
                                ________

                                 PART 7B
                            (Pages 1373-2898)

               TESTIMONY OF MEMBERS OF CONGRESS AND OTHER

                INTERESTED INDIVIDUALS AND ORGANIZATIONS

                              <snowflake>

                                ________

         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
48-995 O                    WASHINGTON : 1998
------------------------------------------------------------------------

             For sale by the U.S. Government Printing Office            
        Superintendent of Documents, Congressional Sales Office,        
                          Washington, DC 20402                          













                       COMMITTEE ON APPROPRIATIONS                      

                   BOB LIVINGSTON, Louisiana, Chairman                  

JOSEPH M. McDADE, Pennsylvania         DAVID R. OBEY, Wisconsin            
C. W. BILL YOUNG, Florida              SIDNEY R. YATES, Illinois           
RALPH REGULA, Ohio                     LOUIS STOKES, Ohio                  
JERRY LEWIS, California                JOHN P. MURTHA, Pennsylvania        
JOHN EDWARD PORTER, Illinois           NORMAN D. DICKS, Washington         
HAROLD ROGERS, Kentucky                MARTIN OLAV SABO, Minnesota         
JOE SKEEN, New Mexico                  JULIAN C. DIXON, California         
FRANK R. WOLF, Virginia                VIC FAZIO, California               
TOM DeLAY, Texas                       W. G. (BILL) HEFNER, North Carolina 
JIM KOLBE, Arizona                     STENY H. HOYER, Maryland            
RON PACKARD, California                ALAN B. MOLLOHAN, West Virginia     
SONNY CALLAHAN, Alabama                MARCY KAPTUR, Ohio                  
JAMES T. WALSH, New York               DAVID E. SKAGGS, Colorado           
CHARLES H. TAYLOR, North Carolina      NANCY PELOSI, California            
DAVID L. HOBSON, Ohio                  PETER J. VISCLOSKY, Indiana         
ERNEST J. ISTOOK, Jr., Oklahoma        ESTEBAN EDWARD TORRES, California   
HENRY BONILLA, Texas                   NITA M. LOWEY, New York             
JOE KNOLLENBERG, Michigan              JOSE E. SERRANO, New York           
DAN MILLER, Florida                    ROSA L. DeLAURO, Connecticut        
JAY DICKEY, Arkansas                   JAMES P. MORAN, Virginia            
JACK KINGSTON, Georgia                 JOHN W. OLVER, Massachusetts        
MIKE PARKER, Mississippi               ED PASTOR, Arizona                  
RODNEY P. FRELINGHUYSEN, New Jersey    CARRIE P. MEEK, Florida             
ROGER F. WICKER, Mississippi           DAVID E. PRICE, North Carolina      
MICHAEL P. FORBES, New York            CHET EDWARDS, Texas                 
GEORGE R. NETHERCUTT, Jr., Washington  ROBERT E. (BUD) CRAMER, Jr., Alabama
MARK W. NEUMANN, Wisconsin             
RANDY ``DUKE'' CUNNINGHAM, California  
TODD TIAHRT, Kansas                    
ZACH WAMP, Tennessee                   
TOM LATHAM, Iowa                       
ANNE M. NORTHUP, Kentucky              
ROBERT B. ADERHOLT, Alabama            

                 James W. Dyer, Clerk and Staff Director













DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION, AND RELATED 
                    AGENCIES APPROPRIATIONS FOR 1999

                              ----------                              

                                       Wednesday, February 4, 1998.

 TESTIMONY OF MEMBERS OF CONGRESS AND OTHER INTERESTED INDIVIDUALS AND 
                             ORGANIZATIONS

                               WITNESSES

HUGH DOWNS, ABC 20/20
DR. MICHAEL EHRLICH, M.D., AMERICAN ACADEMY OF ORTHOPAEDIC SURGEONS
    Mr. Porter. The subcommittee will come to order.
    This is our seventh session of public witnesses, and we 
have heard approximately 120 witnesses over the last three days 
of hearings. We will have hearings this morning, this 
afternoon, and tomorrow, with additional public witnesses.
    Let me say that we have done our very best to accommodate 
as many witnesses as we possibly can. We realize that there are 
more who would like to testify, and we do our very best to 
include as many as possible and to give everyone a chance.
    We would admonish witnesses that because we have so many in 
each panel, we would ask that you keep your remarks to five 
minutes. Witnesses have been very good at doing that. The staff 
is a little tough because they've obtained a timing device, 
which you will hear, to remind you when the time is up. At some 
point in the morning I will probably give my ``sermonettes 
number one and two'' about the budget process, which some of 
you have heard many times over now, but let me thank each one 
of you for coming to testify. It helps us a great deal, and I 
can tell you that as far as the Chair is concerned, I learn a 
great deal from our public witnesses.
    We have scheduled you early because this is a time when 
votes do not interrupt us, or are less likely to interrupt us. 
As a matter of fact, up to this point we have not been 
interrupted at all, and that allows us to hear everyone on our 
panel without having to run to the floor and cast votes, where 
we lose a great deal of time. I hope that that happens today; 
it may not, because there are matters being debated on the 
floor this morning, and we probably will have recorded votes at 
some point during the day.
    With all that said, our first witness is Hugh Downs of 
ABC's 20/20, testifying on behalf of the American Academy of 
Orthopaedic Surgeons.
    Hugh, it's nice to see you. Please make yourself at home.
    Let me say that it is, in my judgment, extremely important 
that people who are well-known to the American people stand up 
for the things that they believe in and make them known to the 
public. It captures the public imagination, and we very much 
appreciate your coming here and spending your valuable time to 
inform us of your concerns regarding orthopaedic matters and 
the orthopaedic surgeons. Thank you very much.
    Mr. Downs. Thank you, Mr. Chairman and members of the 
subcommittee. I am Hugh Downs, anchor of ABC News' 20/20. I am 
accompanied by Dr. Michael Ehrlich, who is Chairman of the 
Committee on Research of the American Academy of Orthopaedic 
Surgeons, and he is available to answer any medical questions 
that you might have afterwards.
    He also has a prepared statement that will be submitted for 
inclusion in the record.
    It is a real honor for me to speak before this subcommittee 
in support of the research being conducted at the National 
Institute of Arthritis and Musculoskeletal and Skin Diseases. 
This Institute supports basic and clinical research on many of 
the most debilitating diseases affecting the Nation's health. 
Your past investments are paying off, and a continued 
investment in biomedical research will offer the potential for 
individuals to resume a productive, functional, pain-free 
lifestyle which is so important to all of us, of which I am a 
prime example.
    Two years and six days ago, I had bilateral knee 
replacement at Massachusetts General in Boston. The 
deterioration over a 15-year period had reached a point where 
if I walked seven or eight city blocks, I was ready to sit on a 
curb and wait for a cab because the pain was too overwhelming. 
It's a source of shame that I don't have a Heismann Trophy to 
show for ruined knees, but the fact is it was a series of dumb 
accidents that caused me to fetch up lame. An automobile 
accident in 1948 stove in my right knee.In 1966, an off-field 
landing--if you could call it that--in a light plane jammed both knees 
to the point of mild injury. During an off-trail caper in 1971 in the 
Tonto National Forest in Arizona, my horse and I parted company and I 
landed, left knee first, on a stump.
    These injuries all appeared to heal, and I had trouble at 
that time--and up to that time--believing that there was such a 
thing as a permanent injury. My philosophy was that you got 
hurt, and then you got well.
    Well, I learned that this was not true after the final 
folly in the saga of my knee joints. In 1981, I ran down 34 
flights of stairs in a foot race with my grandson, who at that 
time was 10 years old. Before I got to the bottom, I knew that 
I had done something very bad to my right knee. In the ensuing 
weeks, favoring that knee threw enough strain on the left one 
to harm it, and recovery was not in the cards.
    Disappearance of the cartilage, with subsequent bone 
erosion and traumatic arthritis, got a foothold and began to 
whittle away at my quality of life. Over the years I adjusted 
and accommodated, and being a denier of some skill, I convinced 
myself that the feelings produced by that sorry state of my 
legs were annoyance and not pain, and that was okay, up to a 
point.
    On getting medical advice about whether and when to 
consider total joint replacement, the answer that orthopedists 
always gave was, ``You'll know when.'' Well, they were right, 
and I knew when in the early months of 1995. The date was set 
for January 27, 1996, to get total joint replacement in both 
knees.
    From what I knew of the technology and the current skills 
of orthopaedic surgeons, I expected a lot from this operation, 
and I got more than I expected. First of all, it was possible 
to avoid general anaesthesia. I was able to watch the entire 
procedure, which was an extremely educational experience.
    I was able to be back in the studio and anchoring 20/20 13 
days after the operation, getting around on crutches. As a 
result of the physical therapy and continuing regimen, I 
recovered muscles that had atrophied over the years, notably 
quadriceps, and the pain, of course, disappeared almost 
instantly. I am amused when people ask me now whether weather 
changes affect my knees and if I can feel it. I have to remind 
them that there are no nerves in an artificial joint, and this 
is a real silver lining.
    After 10 months I found I could run upstairs again. That's 
something I hadn't done for 12 years. All this was possible 
because of research. Knees, I am told, are very tricky. The 
first hip replacement was done in 1914, but the first total 
knee replacement was 1968, and the rapid progress in the 
techniques and materials that followed are really impressive. 
This would not have been possible without the kind of research 
that produces breakthroughs and improves every aspect of such a 
procedure.
    However, I find it curious--somebody told me recently that 
60 percent of the total joint replacements are performed on 
women. I think this may be an area that may need to be pursued. 
I'm not sure I know why that is.
    I am, obviously, an enthusiastic booster of orthopaedic 
work, having had successful surgery on the lower spine. It was 
a fusion in the lumbar region, L4-5, in 1965. In my neck, I had 
a cervical procedure, C5-6, a bone spur removal, in 1968, in 
addition to the knee replacements two years ago.
    My bionic constitution, with two and a half pounds of 
cobalt chromium in my knees, sets off airport security machines 
more or less automatically. That inconvenience is an easy trade 
for the agony that I used to have, limping through those 
things, when I didn't set them off.
    Mr. Chairman, I want to thank you for the opportunity to 
appear before the subcommittee today and register my support 
for a continued Federal investment in research, which will 
allow the remarkable progress and achievements in 
musculoskeletal research to continue. I believe these are the 
``good old days'' of medicine, right now, and I'm sure they're 
going to get even better.
    Thank you.
    Mr. Porter. Thank you, Mr. Downs.
    Can I ask the doctor what the 60 percent reason is? Because 
you've got my curiosity up.
    Dr. Ehrlich. Women do have a higher incidence of 
osteoarthritis, sir, than men in the population. In fact, it 
will afflict about one out of every four adults over the age of 
45. That is why the incidence is high.
    Mr. Porter. I think I will launch into ``sermonette number 
one,'' if I may, and simply say that this subcommittee has put 
biomedical research, as you may know, at a very, very high 
priority. We think that it is among the best-spent money in 
America in Government because the payback in health care cost 
savings is huge, and the improvements, obviously, in the 
quality and length of life are evident to anyone who looks at 
it.
    I believe that the subcommittee will continue to put it at 
a high priority. Many of our witnesses have been testifying 
that what we really ought to do--and we agree with this--is to 
increase funding for biomedical research, indeed all basic 
research funded by Government, double over the next five years.
    I believe that this is possible to do, but it depends in 
large part on what the Budget Committee gives us to work with. 
I have been asking all of our witnesses to consider that 
impacting the budget process, as well as impacting the 
appropriations process, is very, very important in determining 
what we have to work with and what we can do in respect to 
funding biomedical research.
    So I am asking all of you to go see John Kasich and tell 
him that this is important, and perhaps we can get the kind of 
allocations that will allow us to do the kinds of things that 
we think are necessary to provide the resources to our research 
scientists who engage in further breakthroughs in all these 
areas. They can make a real difference in people's lives.
    We can't tell you how much we appreciate your coming here 
to highlight this for us. I think it makes all the difference 
with the American people; after all, the policies that are done 
in Washington are done in response to what the American people 
want us to do, and if they believe that this is a high 
priority, it will find its way at the highest priority in our 
deliberations.
    Mr. Stokes.
    Mr. Stokes. Thank you, Mr. Chairman.
    Mr. Chairman, I don't have any questions, but I certainly 
want to take this opportunity to express my appreciation to Mr. 
Downs for his appearance here today and to say to him that I, 
like so many other Americans, have sat in front of my TV set on 
so many occasions and admired the manner in which you have 
brought the news and other commentary into all of our homes.
    I also might share with you the fact that, being a 
grandfather, a few years ago I was trying to play basketball 
with 10-and 12-year-old grandsons, and in trying to show off 
and make a three-pointer, I threw one knee out of place and 
wound up with arthroscopic surgery. The tragedy was, I didn't 
make the shot. [Laughter.]
    It's a real pleasure to have you here. Thank you so much.
    Mr. Downs. Thank you so much.
    [The prepared statements of Hugh Downs and Michael G. 
Ehrlich, M.D., follows:]


[Pages 1377 - 1394--The official Committee record contains additional material here.]



                                         Tuesday, February 3, 1998.

                               WITNESSES

DR. DEBORAH PROTHROW-STITH, M.D., NATIONAL COALITION OF SURVIVORS OF 
    VIOLENCE (YOUTH VIOLENCE PREVENTION)
HELEN BASSETT
    Mr. Porter. Dr. Deborah Prothrow-Stith, Associate Dean and 
Professor, Harvard School of Public Health, representing the 
National Coalition of Survivors of Violence, Youth Violence 
Prevention.
    Dr. Prothrow-Stith.
    Dr. Prothrow-Stith. Thank you very much, Chairman Porter, 
for allowing us to come before the subcommittee. I want to have 
this opportunity to give particular thanks to Congressman 
Stokes for his work on health. When I heard that he was 
retiring, I knew that one of the Generals in the efforts to 
promote health in America would be retiring.
    I want to wish you the best, but I want you to know how 
much we're going to miss you. We hope that you will enjoy 
retirement and keep us in your prayers as we continue some of 
this work. We will come to see you and get your advice, but we 
will miss you, and I wanted you to know that.
    What we would like to do this morning is share with you 
three things.
    The first is that the epidemic of youth violence in the 
United States, considered a public health epidemic, is not 
over. We have been celebrating reductions in violence and 
violent crimes in the United States; those reductions are 
primarily among adults. Young children and teenagers are still 
becoming more and more involved in some pretty tragic episodes. 
Now is not the time to retreat. We have some prevention that 
works, and now is the time for the Federal Government to 
continue the kind of efforts that it has put in this regard.
    The second point is that prevention works. Across the 
country we have school-based programs, community-based 
programs, collaborations between public health and police and 
social service agencies that work, and Boston is an example of 
this. We had two and a half years in Boston where we had zero 
deaths to children 16 and younger by firearms. We had had 30 in 
the three years prior. It is remarkable that we had zero. And 
policing has something to do with what happened in Boston, but 
for 15 years public health people and community people have 
been working with police, and really set the stage for that 
decline.
    The second point is that success can work. Prevention can 
work; we've had those successes, and Boston is an example.
    The third point that I would like to make is that Federal 
agencies have been working together in a way that is pretty 
remarkable and somewhat new. We are really impressed with the 
way DOE, CDC, OJJDP and NCH have come together to do some 
training around violence prevention and to fund that. It is 
important because CDC's Injury Center really reflects the 
growth in looking at violence as a public health problem, and 
those successes are directly connected to that growth.
    I have with me Helen Bassett, who is from Minneapolis, and 
is the founding treasurer of the National Coalition of 
Survivors. This group reminds me of Mothers Against Drunk 
Driving. The issue of violence for them is one that we must 
continue to address, and I would like her just to say a few 
words.
    Ms. Bassett. Thank you.
    Good morning, Mr. Chairman and panel. I, too, will miss 
you, Congressman Stokes, and my best to you as well.
    I am happy for this opportunity and I am thankful to Dr. 
Prothrow-Stith for her work that she does in violence 
prevention. She is a champion for us who are out in the 
communities, losing children.
    I wanted to say that in Minneapolis, you may have heard, we 
have had some success as well. Attorney General Janet Reno was 
in Minnesota two weeks or so ago and applauded the efforts of 
the public-private partnership there. I am active with the 
group that she brought lauds to, Minnesota Heals, and what I 
would say is that the prevention side of that are partners 
around the table in Heals, which includes business and public 
health and others. We have the resources for law enforcement 
and we're happy for those. We need help on the community side 
for public health and for prevention, because it's parents like 
myself who have lost loved ones who could easily go the way of 
prosecution and talk about more punishment, but in the end, in 
the long term, is that really going to save our children? The 
answer to that is no.
    We want to save our children, make no mistake about that, 
and we are ready to partner with whomever we need to partner, 
if that's law enforcement, if that's business. Whoever that is, 
we stand ready, but we cannot partner without adequate 
resources, and those resources we want in prevention and 
intervention, because our kids can be saved. They are not a 
lost generation; they are not unsalvageable. At 9 years old, 10 
years old, 12, 13, 14, they are still children, just as your 
children are still children and just as your grandchildren are 
still children. They are our children, and we absolutely want 
them saved.
    Dr. Prothrow-Stith. We will be working with Congressman 
Stokes' staff to really think about the appropriation for CDC 
and the Injury Center in particular, but we really appreciate 
this opportunity to make sure that the issue stays on your 
agenda, and say that the epidemic is not over. There may be a 
second wave in rural communities and a third wave involving 
girls and violence. Now is not the time to stop our efforts.
    Thank you.
    Mr. Porter. Thank you very much. We hear what you're 
telling us and its importance. We will do the very best that we 
can to provide the resources that are needed to getus past this 
ongoing problem for our country and for our kids. I think all of us 
feel that way. You already heard my sermonette about how we get those 
resources, but we'll do our very best.
    Thank you for testifying.
    Mr. Stokes.
    Mr. Stokes. Thank you, Mr. Chairman.
    I would just like to take a moment to express my 
appreciation both to Dr. Deborah Prothrow-Stith and to Ms. 
Bassett for their very kind and warm remarks.
    But also to say, Mr. Chairman, that I've had the pleasure 
over a number of years now working directly with Dr. Stith. I 
am very appreciative of the fact that I've had the benefit of 
her counsel and her expertise, particularly in the area of 
violence and violence prevention, in the work that she's done 
with reference to violence in the African American community as 
it relates to youth. Of course, she is also the author of a 
very excellent work relative to this subject.
    I just want to say to both of you that it's a pleasure to 
have had you here this morning. I don't know of any subject 
that is more important than preventing violence in our society, 
and I appreciate the reception that the Chairman has given you. 
I'm sure we'll work with him to try to see if we can't do even 
more in this area in terms of our appropriations process.
    Thank you very much for coming.
    Dr. Prothrow-Stith. Thank you.
    Mr. Porter. Thank you, Mr. Stokes.
    [The prepared statement of Deborah Prothrow-Stith, M.D., 
follows:]
    [Clerk's note.--Information required pursuant to clause 
2(g)(4) of Rule XI of the Rules of the House of Representatives 
was not received from this witness or from an entity 
represented by this witness.]


[Pages 1398 - 1400--The official Committee record contains additional material here.]



                                         Tuesday, February 3, 1998.

                                WITNESS

ARNOLD MITCHEM, NATIONAL COUNCIL OF EDUCATIONAL OPPORTUNITY 
    ASSOCIATIONS
    Mr. Porter. Our next witness is Dr. Arnold Mitchem, 
Executive Director, National Council of Educational Opportunity 
Associations, testifying on behalf of those associations.
    Dr. Mitchem.
    Dr. Mitchem. Good morning, Mr. Chairman, members of the 
subcommittee----
    Mr. Porter. I'm sorry, I neglected to recognize my 
colleague from Texas, Mr. Bonilla.
    Mr. Bonilla. Thank you, Mr. Chairman.
    I would just like, before you offer your testimony, to 
point out to those on the subcommittee who may not know your 
background and what you're doing, and for those who are here 
with us at the hearing today, about the outstanding work that 
you're doing and how you overcame such great odds. I know that 
you are known officially, of course, as Dr. Arnold Mitchem, but 
most of your friends call you Mitch. A lot of people may not 
know that you overcame significant odds to be where you are 
today, having helped so many young people in communities across 
the country. Growing up in the 1940s and 1950s on Chicago's 
West Side, then you had a case of polio when you were younger 
which also caused you to not have as much use out of your arm 
as you would like to have, and in spite of having all those 
things going against you, you graduated from the University of 
Southern Colorado and then received your Ph.D. from Marquette.
    The National Journal--I enjoyed that article about you 
recently--did a wonderful piece entitled, ``Making Miracles, 
One at a Time.'' I think that's an appropriate title for the 
work that you do, and specifically with the TRIO program that 
your organization has strongly represented.
    As you know, I can identify with you to some degree. I was 
also born in a housing project on the west side of San Antonio. 
No one in my family had ever had an opportunity to attend a 
university. The TRIO program helps students that come from 
families like yours and mine to get that first step to go to 
college. It's a transitional program in which I believe very 
strongly. It just helps give you that boost to get started; 
it's almost like getting a jump start, to get your life going 
into a university.
    I thought people should know that today before you began 
your testimony, so welcome, Mitch.
    Dr. Mitchem. Well, thank you very much, Mr. Bonilla. That 
was very kind and it is deeply appreciated. Thank you.
    Mr. Chairman, members of the subcommittee, on behalf of the 
National Council of Educational Opportunity Associations I wish 
to thank each of you for your support of postsecondary 
education, and the TRIO programs in particular. I would also 
like to take this opportunity to acknowledge you, Mr. Stokes, 
for the historic role that you have played over the decades in 
building a very strong and positive consensus for these 
programs.
    I want to make two points today. First, we need to invest 
in TRIO programs in order to ensure that more TRIO students can 
succeed in a more complex and expensive higher education 
environment.
    Second, we need to take a serious look at the erosion of 
per student funding, particularly in Student Support Services, 
and its connection with the retention of low income students in 
higher education.
    Now, in order to expand the services provided by TRIO 
programs to reach more students, and to provide more intensive 
services, NCEOA is requesting a $655 million appropriation for 
fiscal year 1999. This increase will allow TRIO programs to 
serve an additional 51,000 youth and adults who are seeking or 
who are currently pursuing a college education.
    Before I go any further, I want to pause again to applaud 
the steps this subcommittee has taken in past fiscal years to 
increase resources which help needy students attend andgraduate 
from college, for increasing the maximum Pell Grant to an all-time high 
of $3,000, for increasing work study funds, and, of course, for 
increasing the TRIO funding to $529.6 million, with the significant 
role that this committee played in conference with the Senate last 
year. In my view, your dollars have been well spent. In the case of 
Upward Bound, national evaluations show us now that Upward Bound makes 
a difference in a student's aspirations and preparations for college. 
We also know that our Talent Search and Educational Opportunity Centers 
continue to play a vital role in advising low income families and 
providing supplemental educational services. The latter, gentlemen, is 
critical, because studies show that without some intervention, only 28 
percent of students from low income families complete the college prep 
sequence, compared to 65 percent of upper income students who do so 
without any intervention. No doubt, with increased support Talent 
Search will enable more low income students to complete a college prep 
curriculum.
    My second point is that over the past two decades the 
number of Student Support Services projects has grown 
dramatically, from 121 to over 800 today, and the number of 
students served per year from 30,000 in 1970 to more than 
175,000 today. The national evaluations of Student Support 
Services programs show that these programs are having a highly 
significant effect in terms of the retention of their students 
in college. Students in Student Support Services were 22 
percent more likely to be retained through their third year of 
attendance at the college where they began than were similar 
nonparticipants, and had a 77 percent chance of continuing for 
a third year in college.
    The last point is especially significant and stands in 
sharp contrast to some data we have from the National Center 
for Education Statistics. They found that more than 53 percent 
of students from the lowest income quartile who entered college 
had not achieved a degree or a certificate and were no longer 
enrolled four years later.
    The ability of Student Support Services programs to 
continue to have such a dramatic impact on the retention of low 
income students depends upon their ability to deliver intensive 
and effective services. This ability, gentlemen, stands at risk 
today, and it stands at risk because the funding for Student 
Support Services participants has declined from its peak in 
1990 dollars of $1,123 in 1970, to a low of $507 per 
participant in 1981. For fiscal year 1996, the per participant 
funding is now $867.
    Thus, I ask you to take this into consideration as you 
consider our request.
    Again, Mr. Porter, Mr. Bonilla, Mr. Stokes, thank you very 
much for giving me this opportunity.
    Thank you again, Mr. Bonilla, for those very, very kind 
comments.
    Mr. Porter. Thank you, Dr. Mitchem.
    I think you have in Mr. Stokes and Mr. Bonilla two really 
strong advocates for the programs that you have mentioned. Lou 
has been there on the TRIO program, and the members of the 
subcommittee believe that it is one of the best programs that 
we know of for getting results for young people, and have been 
very supportive. Henry, of course, has been there very strongly 
on our side of the aisle.
    I think that in our deliberations there are going to be at 
least two strong voices, and maybe more. All of us hear you 
very strongly and appreciate very much your coming here to 
testify and reminding us of the importance of these programs to 
young people.
    Dr. Mitchem. Thank you very much, Mr. Porter.
    Mr. Porter. Mr. Stokes.
    Mr. Stokes. Thank you, Mr. Chairman. I will just take a 
moment.
    I would just like to concur with the accolades that were 
accorded you by Mr. Bonilla. I certainly cannot improve upon 
the fine treatment he gave of what you have meant to this 
country and to the field of education. In the years that I've 
worked with you, I don't know of anyone in the field of 
education in this country for whom I have greater respect and 
higher admiration than I have for you.
    At the same time, I want to commend Chairman Porter and the 
other members of this subcommittee. While for years I have been 
an advocate on behalf of TRIO programs, the type of increases 
that we've received over the years could not have been achieved 
had it not been for the receptivity on the part of the Chairman 
and the other members of this subcommittee, all of whom have 
been very sensitive to the types of concerns that you have 
expressed here today. During the time that I am accorded here, 
the rest of this term, I look forward to working with them in 
trying to continue that type of response to the needs of 
disadvantaged, and in particular minority, children who fall in 
this range.
    Thank you very much.
    Mr. Porter. Thank you, Dr. Mitchem.
    [The prepared statement of Arnold L. Mitchem follows:]
    [Clerk's note.--Information required pursuant to clause 
2(g)(4) of Rule XI of the Rules of the House of Representatives 
was not received from this witness or from an entity 
represented by this witness.]


[Pages 1404 - 1409--The official Committee record contains additional material here.]



                                         Tuesday, February 3, 1998.

                                WITNESS

NINA SHOKRAII, REPRESENTING HIMSELF
    Mr. Porter. Our next witness is Nina Shokraii, Education 
Policy Analyst, The Heritage Foundation, testifying on her own 
behalf.
    Ms. Shokraii. Mr. Chairman and members of the committee, 
thank you very much for inviting me today to discuss with you 
ways to reform education programs within your committee's 
jurisdiction. I will concentrate on three specific programs, 
and I offer my recommendations on how to make them more 
effective by sending them to States--and, more importantly, to 
families and parents.
    The programs that I am going to focus on are impact aid, 
bilingual education, and Title I.
    With impact aid, I recommend voucherizing and sending the 
entire program to the Department of Defense. This program was 
established during World War II, providing support to school 
districts affected by Federal activities, mostly related to 
relocation of military personnel.
    Because Federal lands are not subject to local taxation, 
local education agencies receive payments to compensate for 
revenue losses that resulted from the Federal Government's 
acquisitions of significant portions of their district's tax 
base. Today the program receives about $615 million, and it has 
really, in our opinion, outgrown its usefulness. Since this 
program is largely designed around children of Federal 
Government workers who tend to relocate a lot, we feel that 
it's best to tie the money to the children who move around with 
their parents from one military base to another military base, 
and I would like for the money to follow the child from the 
school to any school of choice, be it public, private or 
parochial. Transferring this money to the Department of Defense 
at a $1,000 voucher per child as part of an expanded 
compensation package would save an average of $285 million. It 
would also assure that the areas most affected by this influx 
of students receive the most amount of money.
    The second program I will focus on is bilingual and 
immigrant education. We recommend block granting it to the 
States. This program was started in 1967 as part of the 
Elementary and Secondary Education Act. Initially, Congress did 
not limit bilingual education support to any one particular 
instructional method. As you know, in 1974, upon the 
establishment of the Office of Bilingual Education and Minority 
Languages, this policy was reversed. Congress mandated at that 
point that schools use transitional bilingual education 
instruction methods by which students are introduced to English 
while receiving their coursework in their native tongue. The 
Department of Education itself has found that using this method 
has so far been detrimental to the extent that it takes the 
kids about six additional years to learn English.
    Now, the Federal dollars really are only 3 percent of the 
entire budget of bilingual education, but the Federal mandate 
and influence in local school districts has made it so that a 
lot of these school districts are relying more and more on 
bilingual education instead of other instructional methods. 
This is actually despite a lot of Hispanic opposition to this 
program. I'm sure you've heard of the California initiatives by 
now. Last February, dozens of working-class Latino parents 
boycotted a school in Los Angeles, protesting that they 
basically did not want their kids taught in bilingual education 
courses because they were not learning English. As a result, 
there was an initiative on the California ballot this year 
which gives the option of enrolling children in bilingual 
education courses to the parents of those children. Support for 
this initiative, according to the Los Angeles Times in October, 
was 84 percent amongst Latino parents.
    By sending this $261 million program to States, the 
Governors can use the money to develop whatever programs they 
deem most appropriate and effective in teaching English as a 
second language, not one mandated by the Federal Government.
    Finally, with Title I, we are big advocates of voucherizing 
this program. This program provides funding for local education 
agencies and schools in areas with high poverty rates. The 
program benefits approximately 5 million low-achieving 
students, but unfortunately, three decades and over $100 
billion later, the only two longitudinal studies of the program 
have shown that this program has not been successful in helping 
children overcome poverty's negative impacts.
    As you know, we are big advocates of school choice. The 
only two school choice programs existing in this country that 
help low income minorities primarily are in Milwaukee and 
Cleveland, and the studies of those programs by Harvard 
Professor Paul Peterson and University of Texas at Austin 
Professor Jay Greene have shown that both of those programs are 
extremely beneficial in teaching low income kids and increasing 
their academic achievements. In Milwaukee, for instance, the 
researchers concluded that after staying in the program for 
five years, the gap in test scores between whites and blacks--
and minorities, excuse me--narrowed by 33 to 50 percent, to the 
point that if these trends continued, that gap would ultimately 
disappear.
    In Cleveland, the researchers studied two specific schools 
that were solely designed to take care of the vouchered 
children, and they found that the kids who were accepted to 
this school increased their reading scores by 15 percentile 
points and their math scores by 5 percentile points, just after 
being in the program for a year. Now, a year is really not long 
enough to measure anything, but studies have shown that in the 
inner cities, especially in places like Cleveland, just being 
able to maintain your test score at the level that it was when 
you first started is a big accomplishment. So the fact that 
these children did better by these percentile points is 
extremely significant.
    Mr. Chairman, sending these three programs to States as a 
block grant, or to families as a voucher, instead of 
bureaucrats, will save the American people money while 
improving the academic futures of our children, especially 
those from disadvantaged backgrounds.
    Mr. Porter. Ms. Shokraii, thank you for your testimony. I 
have to say that you are in the wrong store. We are 
appropriators and we have to do what the authorizers tell us, 
and until we have authority to do the kinds of things that 
you've suggested, making Title I a voucher program and 
basically the same with bilingual and impact aid, we have to 
continue funding them through the existing programs that are 
authorized by law.
    So your message is really one, in the first instance, at 
least, for the authorizing committee that sets up the law.
    Let me say that a lot of what you said, I agree with, andI 
think other members of the committee do; others don't. Let me talk 
about impact aid, though, because this is a subject that I think I know 
a fair amount about.
    Impact aid ought to be, in my judgment, an entitlement 
program. It's an absolute obligation of the Federal Government 
to support kids whose parents don't pay the local property 
taxes that fund the school system, and I think the Federal 
Government has to meet that obligation. I have in my district 
the largest primary naval training facility in the world at 
Great Lakes in North Chicago, Illinois. Like many military 
bases, the community around it is a very poor community, the 
third poorest in our State. They don't have a good base on 
which to tax in the first place, and with 50 percent of the 
kids in the school system coming from the military base, they 
absolutely are dependent upon the Government providing some 
share of the funding, or the school system could not exist. In 
fact, it almost went bankrupt about four years ago when the 
Federal Government payments were so low that it actually voted 
itself into bankruptcy because it had no funds left, until we 
could straighten that out.
    You might think that Defense wants this program. They 
absolutely do not. They don't consider themselves responsible 
for the education of military kids; they think that's a local 
responsibility, which it is, and they don't want to get 
involved with it. Therefore if you tell Defense that you want 
them to take the program--I'm talking about our colleagues in 
the committees--they will say, ``No way, we don't want it.''
    So if I were to make a change in this program, I would make 
it an entitlement. I would suggest, by the way, that a $1,000 
voucher is way, way short of what the Federal Government has to 
provide for kids. In this very poor school district that I just 
described to you in North Chicago, in one of the poorest cities 
in Illinois, the cost of educating that child is about $6,500, 
and that's about the lowest in the region. And $1,000 would not 
do anything to get that kid that education because, again, the 
school system would simply go bankrupt. It's way short of the 
Federal Government's obligation, and thank goodness we are 
providing more money than that, and not shifting the costs of 
those kids onto local taxpayers who simply can't afford it.
    That was sermonette number three, I think.
    Anybody else? Mr. Miller.
    Mr. Miller. I'm glad that we actually have speakers coming 
before the committee that raise questions about how we spend 
money, and I commend you for allowing them to participate in 
this process because, as you know, 98.5 percent--or something 
like that--are here advocating more spending and more programs, 
which are good programs and we do support them. But we need to 
have organizations and individuals willing to step forward and 
say, hey, we should look at some of these programs.
    I admire you for coming. I appreciate it, and thank you for 
being here today.
    Mr. Porter. Let me emphasize that, Dan.
    I think Mr. Miller is absolutely right. We've had a number 
of witnesses now from Heritage and from AEI and others who are 
interested in this process and giving us their analysis, and 
you're one of them, and we very much do appreciate it. I wish 
we could respond to some of the things you said. The bilingual 
program, for example, I think you're exactly right on that. I 
think Henry would agree with what you said, although I 
certainly don't speak for him. But our subcommittee doesn't 
have the authority to do what you want us to do, and you've got 
to get Bill Goodling's subcommittee to look into these matters 
and see if they can make some changes that make sense for the 
country and for the kids that we serve.
    Thank you very much.
    [The prepared statement of Nina Shokraii follows:]


[Pages 1414 - 1417--The official Committee record contains additional material here.]



                                         Tuesday, February 3, 1998.

                               WITNESSES

VERA DORSEY, CITY OF COMPTON, CALIFORNIA
ROBERT THOMAS
    Mr. Porter. Vera Dorsey, Director, Department of Employment 
and Training Services, testifying on behalf of the city of 
Compton, California.
    Ms. Dorsey. Good morning. I bring you greetings from the 
city of Compton, from the Mayor, City Council and the citizens 
of Compton, California. We thank you for the opportunity to be 
here today to testify.
    On a personal note, from my Mayor, Council and citizens, 
Mr. Stokes, we learned recently of your retirement, and I was 
asked to make sure that they give you warm wishes for a 
healthful, restful, peaceful, and relaxed retirement.
    Mr. Chairman and members of the subcommittee, on behalf of 
the Mayor and City Council of the city of Compton, California, 
I would like to thank you for the opportunity to provide 
testimony related to the city's Department of Employment and 
Training Services, also referred to as DETS, and the pervasive 
and very serious challenges facing our community, reducing 
illiteracy, unemployment, and moving many of our residents from 
welfare to work.
    For the sake of time, I have abbreviated my written 
remarks, and I urge the members of the committee to review my 
full statement when time permits.
    Mr. Chairman, last week the President stood before a 
national audience and proclaimed that America was experiencing 
record economic growth and low unemployment. Unfortunately, the 
rising tide of economic prosperity has yet to reach the 
battered shores of Compton, California. While we are resilient 
and determined to bring about an economic regenesis within 
Compton, city leaders continue to grapple with a stagnant local 
economy and double digit unemployment levels. While the Los 
Angeles County unemployment rate is 5.8 percent, and the State 
and national rates are 5.5 and 4.4 percent respectively, the 
unemployment rate in Compton is an appalling 14.7 percent, 
three times the State and county rates and nearly four times 
the national rate. Additionally, more than 40 percent of the 
city's residents receive some type of public assistance.
    Over the last two years, DETS has been working towards 
redesigning its service delivery system in response to Federal 
and State initiatives geared toward development of a nationwide 
career center system. DETS is slated to open Compton's one-stop 
career and human services center this summer. At the same time, 
the agency is preparing to mount aslate of services for hard-
to-serve welfare clients under the new welfare-to-work program passed 
last year by Congress. Under this workforce program, DETS will provide 
services which will aid welfare clients in becoming self-sufficient by 
transitioning them to employment opportunities which offer long-term 
job retention.
    Clearly, the program priorities described above provide 
DETS with ample challenges and a significant workload. 
Moreover, management and staff are acutely aware that the 
current financial resources are still insufficient to meet the 
overwhelming employment and training needs of the community. It 
is in this vein, Mr. Chairman, as the committee considers 
funding priorities for fiscal year 1999 Labor/HHS/Education 
appropriations bills, that the city of Compton respectfully 
urges the committee to support the following recommendations.
    Number one, Compton urges the committee to support, above 
the Administration's fiscal year 1999 request, funding for 
youth training grants proposed at $130 million, and summer 
youth employment and training programs proposed at $871 
million, as well as providing funding for new out-of-school 
youth programs proposed at $250 million.
    Over the last several years, Federal workforce funding for 
youth programs has vacillated. With nearly 30 percent of 
Compton residents between the ages of 13 and 20, DETS continues 
to struggle to identify solutions for youth employment needs in 
light of decreased and unstable Federal youth funding. 
Increased youth funding is desperately needed in order to 
promote a positive work ethic in youth during their high school 
years. Such programs also serve as a means of promoting 
diversion activities for adjudicated youth and others who are 
at risk of dropping out of school or participating in 
nonproductive or illegal activities.
    Number two, Compton recommends that the committee continue 
to support adult training grants, proposed at $1 billion, and 
increase the Federal one-stop career center program, proposed 
at $146.5 million. Recently, Congress has attempted to pass 
legislation to consolidate a wide variety of Federal 
unemployment and training programs. As stated previously, 
Compton has taken a leadership role in developing a one-stop 
center delivery system for its residents; however, this role 
has brought the financial burden of covering the lion's share 
of costs for implementing and maintaining the center and 
associated support systems. Although Congress has made recent 
appropriations for one-stop system development, additional 
resources are needed to ensure that all local centers have 
sufficient financial resources necessary to operate a well-
functioning one-stop system of delivery.
    Compton recommends that the committee continue to support 
the Department's welfare-to-work initiatives.
    Finally, Mr. Chairman, Compton requests that you support 
the Administration's request for $250 million, to be split 
evenly between the Department of Labor and the Department of 
Education, for the purpose of school-to-work, and $1.5 billion 
for educational opportunity zones that will aid urban and rural 
schools with high concentrations of children from low income 
families.
    Mr. Chairman, this concludes my testimony. Again, thank you 
for the opportunity to express the views and recommendations of 
the city of Compton, California.
    Are there any questions?
    Mr. Porter. Ms. Dorsey, thank you for your testimony.
    I was asking the staff to provide me with the figures in 
the President's budget, but my recollection on youth training, 
for example, and summer youth, was that the President had 
level-funded those from the previous year, and that on one-
stop, he had actually cut it. I may be wrong; I'm trying to get 
the figures right now. Is that what you saw in his figures?
    Ms. Dorsey. I'm not quite sure that it had been cut.
    Mr. Porter. I was surprised when I saw them because I 
thought the President would put them at a higher priority, and 
he hadn't in his own budget. The difficulty often in Congress 
is that if the President doesn't give weight to these kinds of 
programs, Congress tends to take his advice on it. So I'm a 
little bit concerned about his budget on these items.
    Mr. Thomas. Mr. Chairman, I'm Robert Thomas, from the City 
Council as well.
    Mr. Porter. Yes.
    Mr. Thomas. We do realize that he did ask for level 
funding, but if you would look in Ms. Dorsey's full statement, 
she outlines why there is a need for increased funding for both 
those programs pertaining to youth training, as well as summer 
jobs. I think she touched on it briefly in her statement, 
saying that roughly 30 percent of Compton's residents are 
between the ages of 13 and 20. Most of them, especially during 
the summer, have nothing to do, and as you know, there are 
plenty of other things to do for kids outside of doing the 
right thing. What we're trying to do is bring about a positive 
change; instead of being involved in gangs and drugs, to have 
programs that they can come into and get involved with. I don't 
know if you know, but Shaquille O'Neal has just opened up a 
manufacturing plant and has hired kids and has them working 
within Compton----
    Mr. Porter. That's great.
    Mr. Thomas [continuing]. There are a lot of children who 
have never worked and who have dropped out of school who are 
now considering going back to finish their education because 
they've received a job from this plant and other activities.
    Mr. Porter. You know what I would like to see, and maybe 
I'm wrong in this--you can correct me if I am--but I think 
often, and this applies to a lot of different programs, we've 
gone through a process over a number of years of trying to 
attract votes for programs by giving some of the money to 
everybody. I'm not sure that these programs are on that 
formula, but I can tell you this, that I think we've got to get 
over that. We've got to put the money where the problems are, 
and we've got to address those problems forcefully instead of 
sending the money all of the country where, in some places, 
it's not needed at all; it simply makes their local tax burden 
less.
    Mr. Thomas. That's what we're saying about the 
unemployment.
    Mr. Porter. Exactly. You've got serious problems that need 
to be addressed; you need the resources, and in many cases 
we're sending them places that don't need them at all. I can't 
do anything about that as an appropriator, but I would hope 
that you would also--I just told the previous witness the same 
thing--impact Mr. Goodling and the authorizing committee that 
have authority over these matters, because I think we need to 
do a much better job of targeting these resources to where they 
are most needed.
    Mr. Stokes.
    Mr. Stokes. Mr. Chairman, you're absolutely correct, and 
they're absolutely correct. The problem is a political one, as 
you and I know. Oftentimes for these types of programs, in 
order to get them passed to affect the areas where they're 
needed, we've got to get the votes for them. Therefore, the 
money winds up going to other places where it's not even 
needed.
    Mr. Porter. Lou, I would hope that somehow we're past that, 
but you probably are right. I just hope this country gets the 
idea that we've got to get these problems solved.
    Thank you both for your testimony.
    Ms. Dorsey. Thank you very, very much.
    Mr. Porter. You came a long way to testify, too.
    Ms. Dorsey. It's very important to us.
    Mr. Porter. That means it's important, right.
    [The prepared statement of Vera Blanche-Dorsey follows:]
    [Clerk's note.--Information required pursuant to clause 
2(g)(4) of Rule XI of the Rules of the House of Representatives 
was not received from this witness or from an entity 
represented by this witness.]


[Pages 1422 - 1428--The official Committee record contains additional material here.]



                                         Tuesday, February 3, 1998.

                                WITNESS

DR. JOHN L. SEVER, M.D., ROTARY INTERNATIONAL
    Mr. Porter. Dr. John Sever, Professor of Pediatrics, 
Children's National Medical Center and George Washington 
University Medical Center, testifying on behalf of Rotary 
International.
    Dr. Sever, nice to see you.
    Dr. Sever. Nice to see you, sir.
    Chairman Porter, Mr. Stokes, members of the subcommittee, 
thank you for this opportunity to testify on behalf of Rotary 
International in support of the effort to eradicate polio and 
the activities of the U.S. Centers for Disease Control and 
Prevention. As you mentioned, I am Dr. John Sever; I am 
Professor of Pediatrics and Infectious Diseases at the 
Children's National Medical Center here in Washington, D.C., 
and I am here today representing a broad coalition of health 
advocates for children, including Rotary International, the 
March of Dimes Birth Defects Foundation, the American Academy 
of Pediatrics, Task Force for Child Survival and Development, 
and the U.S. Committee for UNICEF, to seek your continued 
support for the global program to eradicate polio.
    Allow me first, on behalf of Rotary International and the 
coalition, to express our sincere gratitude to you and this 
committee for your support. For 1997 and 1998, you recommended 
$47.2 million be allotted each year for polio eradication 
activities of the Centers for Disease Control and Prevention. 
This investment makes the United States the leader among donor 
nations in the drive to eradicate this crippling disease.
    The target year is the year 2000, and that's a thousand 
days remaining between now and the end of year 2000, to defeat 
this disease in countries where the polio virus still causes 
death and disability. The eradication of polio has been and 
will be achieved through your leadership, and it will not only 
save lives but also save our financial resources.
    Eradicating polio will save the United States at least $230 
million annually. We must continue to immunize children in this 
country for polio, although there has been no polio in this 
hemisphere for more than five years. When polio is eradicated 
worldwide, however, which we're very close to, we will be able 
to stop immunization, and this will result in an average saving 
of over $230 million annually.
    Thanks to your appropriations, the international effort to 
eradicate polio has made tremendous advances during the past 
two years. Preliminary estimates that are reported for polio 
cases in 1997, the last year that this information is available 
for, indicate there were approximately only 3,500 cases 
anywhere in the world, and we're well on the way to eradicating 
polio by the year 2000, as has been projected.
    The CDC is participating very actively in eradication 
efforts, particularly in those two areas where polio remains, 
South Asia and Africa. The United States' commitment to polio 
eradication has stimulated other countries to increase their 
support. Belgium, Canada, Finland, France, Italy, Korea, 
Norway, Sweden, Switzerland, Japan, Australia, Denmark, and the 
United Kingdom are among those countries which have followed 
America's lead and have recently announced special grants for 
polio eradication.
    By the time polio has been eradicated, Rotary International 
will have expended over $400 million on that effort. This is 
the largest private contribution ever made to a public health 
initiative.
    For fiscal year 1999, we respectfully request that you 
provide $67.2 million for the targeted polio eradication 
efforts of the Centers for Disease Control and Prevention. This 
is an increase of $20 million over the fiscal year 1998 level, 
and it is $20 million more than the President's fiscal year 
1999 budget request, which was submitted by the President 
before WHO released the latest estimates of unmet polio 
eradication needs. The additional $20 million is particularly 
needed to meet the enormous costs of eradicating polio in its 
final pockets of strongholds, in sub-Saharan Africa.
    Of this amount, $6 million would be used to purchase 
vaccines which are needed for these mass immunizations; $5 
million would be provided for operational support of national 
immunization days in countries such as Liberia, Somalia, and 
the Democratic Republic of the Congo, which are difficult 
countries to work in but need to have the disease eradicated to 
complete the job.
    A further $9 million would go to develop an Africa-wide 
polio surveillance system and strengthen and expand the 
existing network of regional and national laboratories to 
document the eradication of polio.
    Without this additional appropriation, we may not be able 
to eradicate polio by the target date.
    In conclusion, polio eradication is an investment, but few 
investments are as risk-free or can guarantee such an immense 
return. The world will begin to break even on this investment 
in polio eradication only two years after the virus had been 
vanquished. The financial and humanitarian benefits of polio 
eradication will then accrue forever. This will be our gift to 
the children of the 21st century.
    I thank you for this opportunity to testify and I 
appreciate your support.
    Mr. Porter. Dr. Sever, first let me apologize because I 
think I have mispronounced your name two or three times, and 
the reason is that I know someone with the same name at home 
who pronounces it Sever. It's SEV-er.
    Dr. Sever. Thank you, sir. I answer to anything.
    Mr. Porter. Secondly, I'd like to say how strongly I admire 
the work of Rotary International in taking on this tremendous 
challenge, and the success that you've achieved and the 
resources that you've put into it. I think Rotary is on what I 
consider the cutting edge of the future in public-private 
partnerships to achieve specific worthwhile ends. I think it's 
an example for other organizations across our country as to 
what can be done if people work together. You, of course, have 
a worldwide membership, but people working together can really 
put their sights on getting something accomplished. You've just 
done a wonderful job, and we on the subcommittee want to 
continue to be as supportive as we possibly can. I can tell you 
that we will do our very best to do exactly that.
    Dr. Sever. Thank you, sir.
    Mr. Porter. Thank you, Dr. Sever.
    [The prepared statement of John Sever, M.D., follows:]


[Pages 1432 - 1440--The official Committee record contains additional material here.]



                                         Tuesday, February 3, 1998.

                               WITNESSES

GLORIA E. REICH, AMERICAN TINNITUS ASSOCIATION
DAN PURJES
    Mr. Porter. Gloria E. Reich, Executive Director, American 
Tinnitus Association, testifying on behalf of the association.
    Dr. Reich.
    Ms. Reich. Good morning, Chairman Porter.
    I am hearing impaired and I experience tinnitus. It is a 
condition that is shared by more than 50 million Americans. 
With me today is Dan Purjes from New York. Dan is Chairman of 
Josephthal & Company and Hearing Innovations, Inc., and a 
member of our board of directors. In just a few moments he will 
tell you about his tinnitus.
    Tinnitus is most often described as the perception of sound 
when there is no external sound present. It can take many forms 
and be described in many ways. It can strike people of all 
ages, and for the most part, it doesn't go away.
    For the 50 million Americans who experience tinnitus, about 
10 million to 15 million suffer severely and seek help through 
the health care system. There are still many questions that 
remain unanswered. The mechanism that causes tinnitus is 
unknown, and that fact alone makes it impossible to properly 
diagnose and treat this elusive symptom.
    Furthermore, the personal and social consequences of 
tinnitus, particularly depression and anxiety disorders, have 
generally been ignored in favor of a more strictly hearing-
based approach, relying on the definition of tinnitus as a 
symptom of auditory dysfunction. Many people who are the most 
troubled by tinnitus have relatively normal hearing and are 
thus deprived the cachet of a legitimate illness. Their head 
noises are for the most part subjective and idiopathic, and 
poorly understood, not only by themselves but by the health 
professionals who treat them.
    The mission of the American Tinnitus Association is to 
promote relief, prevention, and the eventual cure for tinnitus 
for the benefit of present and future generations. Since our 
inception in 1971, we have seen more than 3,000 scholarly 
papers, a dozen books, and the formation of workshops, 
seminars, and support groups to aid tinnitus management. 
Effective treatments for tinnitus have also proliferated, and 
most patients can now expect a reasonable degree of relief for 
this symptom. However, from the point of view of the tinnitus 
sufferer, research still hasn't produced a cure, and a cure, 
let me assure you, is what sufferers want.
    Three years ago the National Institute on Deafness and 
Other Communication Disorders conducted a tinnitus workshop and 
recommended strategies for research. Last year they funded five 
studies about tinnitus that addressed these issues. Most 
recently, they awarded $1.5 million to Doctors Salvi and 
Lockwood in Buffalo, New York, to study the activity in the 
brain that may be triggering tinnitus. The Salvi-Lockwood 
studies and four of the five previous studies were initially 
funded by ATA with grants that enabled the investigators to 
produce the pilot data necessary to qualify for Federal grants. 
These events represent a great stride forward for tinnitus 
research within the NIDCD, and for that we are truly grateful. 
Just five years ago the word ``tinnitus'' was not even 
mentioned in the NIDCD plan.
    The tinnitus community is very grateful to you, Congressmen 
and Congresswomen, for providing the necessary funding for the 
NICDC to undertake these projects. We hope this is just the 
beginning.
    It is extremely important for Congress not only to fund 
medical research, but to require that the Institutes receiving 
that funding really respond to the public's need. Hearing 
problems, and tinnitus specifically, are the most prevalent 
health issue in this country, but receive little attention in 
comparison to the more visible life-threatening diseases. 
Additionally, in an effort to contain medical costs, insurers--
both public and private--effectively deny most people treatment 
for their hearing problems.
    We know people are concerned because whenever there is a 
public mention, our phone lines ring off the hook. This week we 
have received thousands of calls just from one mention in a 
syndicated column.
    There is a great social cost on society from tinnitus. Up 
to 15 percent of the people who have it are forced to change 
jobs or quit their jobs, and these people could be productive 
members of society if they were relieved of that problem. We 
ask you to generously support the funding for the National 
Institute on Deafness and Other Communication Disorders, and to 
urge them to fund more studies about tinnitus.
    Now I would like to introduce Dan Purjes.
    Mr. Purjes. Congressman Porter, thank you for the 
opportunity to address the committee.
    A few months ago my friend, an attorney, called me late one 
night, saying he was sitting on the edge of his bed with a 
revolver in his hand, about to blow his brains out. He had just 
come down with tinnitus, with a ringing sound in the ears, it 
made his life unbearable. Doctors told my friend he may have to 
live with tinnitus for the rest of his life, and he could not 
face the prospect of lifelong suffering.
    Over 30 years ago my hearing was damaged in a head injury. 
Since that time I have had to live with this constant high-
pitched hissing sound in my head, 24 hours a day, every day of 
the year.
    It is urgent that you support the research of the National 
Institute on Deafness and Other Communication Disorders through 
increased funding. People are dying by their own hands, and 
many more are suffering endlessly while they hope for a cure. 
I'm one of the lucky ones; I've learned to cope with this 
condition, though it interferes with my hearing. Many others 
are so intensely afflicted, the sound in their head is so loud 
and debilitating, that they end their lives because today there 
is still no glimmer of a cure. Fortunately, my friend was not 
one of them, but how close he came that night when he called 
for my help and understanding, I will never forget. I ask that 
you give your understanding and help.
    It is estimated that over the coming years, something like 
one-third to one-half of all Americans will suffer hearing 
impairment of one kind or another. I have been active in this 
field, and we desperately need additional funding for more 
research.
    Thank you.
    Mr. Porter. Mr. Purjes, thank you very much for your 
testimony.
    Dr. Reich, do you suffer from this disease also, 
personally?
    Dr. Reich. I hear the tinnitus, yes; is that what you're 
asking?
    Mr. Porter. Yes. I'm asking whether you have tinnitus, as 
well.
    Dr. Reich. I consider myself one of the people who are 
naturally habituated to it. It's there, but it's not an issue 
in my life.
    Mr. Porter. It's there, as in Mr. Purjes' case, 24 hours a 
day, always?
    Dr. Reich. Absolutely. I can always call it up and listen 
to it.
    Mr. Porter. As I assume you know, we had William Shatner 
here last year who talked about his tinnitus and what it meant 
in his life and his career. We consider it, obviously, a very 
serious matter that affects a lot of people in our country, 
millions and millions of people, and I think NIDCD takes it 
very seriously as well and is doing everything it can to put it 
at a high priority. We certainly will continue to press them on 
that.
    We'll do our best to get the funds that they need. You 
heard sermonette number one or two earlier; we ask you to take 
that to heart. We'll do our best to put this at a high 
priority.
    Thank you for testifying.
    Dr. Reich. We very much appreciate your help. We know that 
you have been doing it, and thank you very much.
    Mr. Porter. Thank you.
    Mr. Purjes. Thank you.
    Mr. Porter. Thank you, Mr. Purjes.
    [The prepared statement of Gloria E. Reich and Dan Purjes 
follows:]


[Pages 1444 - 1450--The official Committee record contains additional material here.]



                                         Tuesday, February 3, 1998.

                                WITNESS

DR. TALMADGE E. KING, JR., AMERICAN LUNG ASSOCIATION/AMERICAN THORACIC 
    SOCIETY
    Mr. Porter. Our next witness is Talmadge E. King, Jr., 
M.D., F.A.C.P, F.C.C.P., President of the American Thoracic 
Society and Chief, Medical Services, San Francisco General 
Hospital, testifying on behalf of the American Lung Association 
and the American Thoracic Society.
    Dr. King.
    Dr. King. Chairman Porter, I want to thank you for your 
leadership in supporting biomedical research. Without your 
leadership and the strong bipartisan support of this committee, 
many of the recent advances would not have been possible.
    I am here on behalf of the American Lung Association and 
the American Thoracic Society to speak about the importance of 
biomedical research in public health programs. This year marks 
the 50th anniversary of the National Heart, Lung, and Blood 
Institute. The NHLBI has been steward to phenomenal advances in 
research and public health. We are pleased by this progress, 
but note that more work needs to be done. We would like to 
highlight two areas of concern regarding the fiscal year 1999 
budget, and two threats to public health that we need to 
address.
    The first note of caution is with the Administration's 
fiscal year 1999 budget proposal. While encouraged with the 
investment in research in public health programs, we are 
concerned that much of the Administration's budget is 
predicated on revenues from the tobacco deal. Enactment of the 
tobacco deal is neither imminent, nor is it necessarily in the 
best interests of America. I strongly urge Congress and the 
Administration to make funding decisions based on the normal 
appropriations process.
    The second concern is with NIH's management budget. For the 
past two years NIH's management budget has gotten smaller, 
while the programs have gotten bigger. To be good stewards, NIH 
will need appropriate resources to manage their growing 
research portfolio. We encourage the committee to be mindful of 
this when providing funds for NIH.
    Mr. Chairman, although we are making progress in prevention 
and cures of many lung diseases, I want to focus my comments on 
two diseases--one new public threat, and one old.
    The new public threat is asthma. Asthma is on the rise. An 
estimated 14.6 million Americans have asthma. Since 1984,the 
prevalence of childhood asthma has risen 72 percent. Asthma is 
expensive. Currently, asthma costs the U.S. over $12 million a year. 
Asthma kills; in 1994, 5,487 children died as a result of an acute 
asthma attack. That is over a 100 percent increase from 1979. A 
disproportionate share of these deaths were in African American 
families, with an age-adjusted rate three times higher than that of 
whites.
    Research is bringing answers, and with answers come hope 
for new treatments and cures for asthma. Within the foreseeable 
future we expect researchers to fully describe the unique 
combination of genetic and environmental factors that can 
successfully address the prevention and cure of asthma. To get 
to a cure will require a continued commitment to funding asthma 
research at NIH.
    Asthma also requires a public health response. Supporting 
asthma surveillance, reducing exposure to environmental asthma 
triggers, and patient education are needed to control asthma. 
CDC must play a role in providing the public health response to 
asthma. This will likewise require a funding commitment.
    The old disease is tuberculosis. Tuberculosis has been with 
us literally since the dawn of man. Although tuberculosis is a 
preventable and curable disease, it persists as a health care 
problem in the United States and globally. Worldwide, there are 
over 7.5 million new cases of active tuberculosis and 3 million 
deaths annually. The newest twist on this old disease is the 
development of multi-drug resistant strains, or MDR-TB. In the 
United States, some strains of MDR-TB are resistant to as many 
as seven drugs. Recent investment in domestic TB control 
programs are beginning to pay off. While the data is still 
preliminary, we expect the CDC will announce a fifth straight 
year of decline in domestic TB rates.
    The good news is a direct result of efforts by CDC and 
public health officials. It is important to continue this area 
of support throughout the period necessary to establish control 
of TB.
    Progress is also being made globally. In fiscal year 1998, 
the Foreign Operations Appropriations Subcommittee provided 
USAID with funds for international TB control. To ensure 
appropriate coordination between U.S. domestic TB control, 
research, and international efforts, we strongly encourage CDC, 
NIH, and USAID to enter a formal interagency cooperative 
agreement regarding U.S. TB control activities.
    We also recommend that USAID, in conjunction with CDC, NIH, 
the World Health Organization, and voluntary professional 
organizations, develop an international plan to eliminate TB.
    Mr. Chairman, thanks largely to the generous support of 
this committee, the research and public health communities 
continue to make advances against lung disease. We urge this 
committee to continue to supply us with the tools that we need 
to achieve a world free of lung disease.
    Thank you for this opportunity to testify and for your 
ongoing support.
    Mr. Porter. Dr. King, thank you for your testimony. I have 
to say that I agree with you, that it's very unlikely that 
we're going to have--and not a desirable thing to have--a 
tobacco deal that allows the industry to escape liability for 
damage already caused. I don't think there's going to be any 
such deal this year, and a lot of the spending in the 
President's budget, of course, is supported by that revenue 
source and others that I believe will not materialize. That 
means it's going to be much tougher for us to get the kind of 
allocation that we need to do the things that we put at a high 
priority.
    I did hear you very clearly about the management at NIH. 
When NIH was provided a substantial increase in a budgetary 
environment in 1995 for fiscal year 1996, that was very much 
against what was happening in almost every other line item in 
our budget. We felt that NIH had to take the same burden of 
restraints on management costs as every other agency under our 
jurisdiction. We recognize that that has had a pretty heavy bit 
at NIH in terms of management. They've managed to deal with it 
quite well, but it is still a great difficulty.
    But we will take into account your concern in that area, 
and we appreciate your expressing it to us.
    Asthma and TB, obviously, are very serious diseases. My 
sister suffers from asthma, so I know a bit about it firsthand. 
We will do the best that we possibly can to provide the funds 
that are needed to address these diseases of the lungs that 
affect so many Americans.
    Thank you for testifying.
    Dr. King. Thank you.
    [The prepared statement of Talmadge King, Jr., M.D., 
follows:]


[Pages 1454 - 1463--The official Committee record contains additional material here.]



    Mr. Porter. You all heard the series of bells that have 
gone off. What it is is a series of votes on the House floor. I 
don't know how many votes are involved, at least two. What we 
are going to do is take one more witness, and then we're going 
to have to take a recess. I hope that the members can stay. I 
will come back as quickly as I possibly can and resume the 
hearing and stay until we complete our morning panel, but 
obviously it's going to set us back at least 25 minutes, maybe 
longer. I regret that. This is the first vote that we've had, 
but there's nothing that we can do about it.
                              ----------                              

                                         Tuesday, February 3, 1998.

                                WITNESS

B. R. ``PETE'' KENNEMER, NATIONAL COUNCIL FOR COMMUNITY BEHAVIORAL 
    HEALTHCARE
    Mr. Porter. B.R. ``Pete'' Kennemer, Chairman, Board of 
Directors of the National Council for Community Behavioral 
Healthcare, and Executive Director, Western Arkansas Counseling 
and Guidance Center, testifying on behalf of the National 
Council for Community Behavioral Healthcare.
    Mr. Kennemer, you're not going to get your testimony in 
before I'm going to have to leave, unfortunately. I thought we 
were a little bit ahead of the second bell but obviously we're 
not. If you start, I would have to leave in the middle of it, 
so I'm afraid that this is probably the time for me to declare 
the subcommittee in recess. We'll get back as quickly as we 
can.
    We stand in recess until the end of this series of votes.
    [Recess.]
    Mr. Porter. Mr. Kennemer, welcome.
    Mr. Kennemer. Thank you, Mr. Chairman.
    My name is Pete Kennemer, and I am the Chairman of the 
National Council for Community Behavioral Healthcare, or NCCBH. 
Thank you for the opportunity to testify before you today 
concerning the need for the Federal Government to make an 
increased investment in the provision of community-based mental 
health and addiction services. Specifically, we are asking for 
an increase of $80 million for the Community Mental Health 
Performance Partnership Block Grant (Mental Health PPG) which 
has been level funded at $275 million for the last four years. 
We are also asking for increases of $10 million in the Projects 
for Assistance in Transition from Homelessness (PATH) and $200 
million for the Substance Abuse Performance Partnership Block 
Grant.
    NCCBH, organized in 1970, is a national trade association 
representing community behavioral healthcare through its 
diverse membership of nearly 800 community-based behavioral 
health provider organizations (community mental health 
centers), including state and regional associations of 
providers, networks of providers, and public authorities 
(State, county and local) which are responsible for the 
delivery of behavioral healthcare. NCCBH members comprise the 
spectrum of community behavioral healthcare from inpatient care 
and intensive outpatient treatment, to addiction treatment, 
residential programs, and funding of services. In many areas, 
our members are the gateway to accessing the public health 
system through both inpatient and ambulatory systems of care.
    One of NCCBH's members is my own organization, the Western 
Arkansas Counseling and Guidance Center (WACGC), located in 
Fort Smith, Arkansas. It is one of 15 community mental health 
centers (CMHCs) in Arkansas and it is similar to the more than 
600 CMHCs throughout the United States which provide services 
to those with mental illness and addiction disorders.
    WACGC's founding mission in 1960 was to provide affordable 
psychological services to the citizens of Sebastian and 
Crawford Counties in western Arkansas. Today, WACGC provides a 
wide range of coordinated behavioral healthcare services in its 
15 locations throughout the six counties it now serves. We 
provide a comprehensive network of quality behavioral 
healthcare services to help prevent mental illness and treat 
the emotionally disturbed. Our programs are designed to be 
consumer sensitive, outcome oriented, and cost effective.
    Like other community mental health centers across the 
country, WACGC provides a continuum of services through its 
network of 15 treatment locations. Services provided include: 
outpatient care, acute care, individual, group and family 
therapy, medication management, testing, community support, 
psychosocial rehabilitation, residential services, vocational 
and educational services, supported employment, and referrals 
to primary care physicians, external programs and agencies.
    As President and CEO of WACGC, I know first-hand of the 
great need for services funded through the Community Mental 
Health Performance Partnership Grant (formerly known and the 
Community Mental Health Block Grant). In fiscal year 1997, my 
home State of Arkansas received $2,232,840 through the Mental 
Health PPG and $300,000 through the PATH program. Last year, 
WACGC received $224,585 of those Mental Health PPG funds (which 
accounts for 3.5 percent of our $6.543 million budget) with out 
about $88,000 of that being used for children's programs.
    Although the block grant represents a relatively small 
portion of program spending for my organization, it provides 
stability for our center--and others like it--which require a 
reliable source of funding to ensure continuity of care for our 
clients. Block Grant funds are often used to fund services 
where gaps may exist in programs or they act as seed money for 
new programs offering innovative services. However, in some 
States it provides up to 39.5 percent of the community mental 
health services budget--a significant base for stability.
    An example of how WACGC used Mental Health PPG funds during 
the last year is a nine-year old child, his mother and two 
brothers who moved into our service area from another State. 
The boy, ``Brian,'' not his real name, has a history of 
multiple hospitalizations and special education placements due 
to behavior problems which include fire setting, physical 
aggressiveness toward other children and teachers, and poor 
academic performance.
    Through case management and our juvenile services program, 
partially funded by the Mental Health PPG, WACGC was able to 
coordinate treatment for Brian and his whole family. 
Transportation, child care and temporary food assistance were 
found through fee community resources for Brian's hard-working 
mother who held down two jobs. Individual and family therapy 
was successful in teaching effective parenting skills, finding 
an after-school program, teaching Brian coping skills and 
determining better medication levels for him.
    After several months, Brian's behavior improved 
dramatically. He became less aggressive, stopped playing with 
fire, running away from home, and hitting his brothers. Peer 
relations and frustration tolerance improved, as did task 
completion and eventually his own self-confidence. His mother 
also benefitted by learning to take charge of her destiny. She 
is now better equipped to identify problems, seek help, and is 
more skilled and setting limits with all of her children. She 
has since bought a car and is independently going to a 
community college. Her family is functioning at a higher level, 
consuming fewer services and is in a position to make positive 
contributions to their community.
    As you can see, services provided through the Mental Health 
PPG not only improve the lives of those treated, by have the 
potential to improve the quality of life for entire 
communities. By providing critical care in a coordinated, 
timely manner, we are more likely to avoid the long-term costs 
of more serious health and safety problems which are the 
results of an over-extended system of care.
    Over the last 30 years, a growing body of evidence has 
demonstrated that most people with mental illnesses can be 
treated more efficiently and more cost-effectively in community 
settings than in traditional psychiatric hospitals. However, 
funding to organizations which provide these services through 
the Mental Health PPG have been left out in the cold.
    In 1993, the first year that community mental health 
spending by the States surpassed State spending at psychiatric 
hospitals, the Mental Health PPG received $300.1 million on 
Federal appropriations. Since that time, its annual funding was 
reduced to $275.4 million for fiscal 1995 through 1998. If 
inflation is taken into account, funding has actually decreased 
by more than $56 million per annum, despite the fact that the 
demand for community based services has significantly increased 
since that time.
    Adding to the pressures of an already under-funded program, 
at least 13 States have closed an additional 21 State hospitals 
and six more States are planning to close eight more hospitals 
over the next two years, with four more States planning to 
merge two or more hospitals.
    Beginning in fiscal year 1998, many State mental health 
agencies face additional extraordinary and unanticipated new 
budgetary pressures as a result of the Balanced Budget Act of 
1997. The Act included restrictions on the use by States of 
Medicaid Disproportionate Share (DHS) to support State 
psychiatric hospitals and other mental health facilities.
    Because many States included mental health DSH as a revenue 
in their general revenue funds, we believe that the withdrawal 
of DSH funds will have a negative effect on community mental 
health services as well as on State-supported psychiatric 
hospitals. The National Association of State Mental Health 
Program Directors (NASMHPD) estimates that the new DSH 
restrictions will result in a loss to the public mental health 
system of $116 million in fiscal year 1999 and $1.5 billion 
over the five year period 1998-2002.
    Another threatening drain on overall State mental health 
budgets is the recent Supreme Court decision in Kansas v. 
Hendricks which opens the door to the civil commitment to State 
psychiatric hospitals of thousands of sexually violent criminal 
offenders, even if they do not have a diagnosable mental 
illness. At least 14 States currently have some form of law 
providing for the civil commitment of dangerous sex offenders 
and another 41 States submitted amicus curiae briefs in support 
of the Kansas law. Many of those States are expected to adopt 
similar laws within the next year.
    Even further, a number of other factors which have led to 
dramatic changes to our Nation's public mental health system in 
the last decade can only exacerbate the problem of under-
funding: the number of inpatient hospital beds has decreased; a 
growing number of States have privatized their public mental 
health system through Medicaid managed care for persons with 
severe mental illness; and eligibility rules for Supplemental 
Security Income (SSI) have had great impact on both adults and 
children. All these changes have compounded the pressure on the 
already strained local and State public mental health systems.
    Now, more than ever, Federal investment in community-based 
care is needed to provide the most essential services to our 
most vulnerable populations. Recent estimates show that the 
$275.4 million in Federal funds now appropriated to the Mental 
Health PPG is an increasingly critical source of funding for 
State and local mental health departments. Moreover, these 
dollars are being asked to fund a wider and more diverse array 
of community-based services.
    In order to provide the services which are so essential to 
our communities and to keep up with the overwhelming demand for 
those services, my organization's programs and the others like 
it across the country need an increase in Federal funding to 
the Mental Health PPG and the PATH programs.
    The PATH formula grant program, which helps States provide 
flexible, community-based services to persons who are homeless 
and mentally ill or who have a dual diagnosis of mental illness 
and substance abuse, are often the only monies available to 
communities to support the three levels of service necessary 
for success with homeless people who have serious mental 
illnesses, outreach to those who are not being served, 
engagement of the individuals in treatment services, and 
transition of consumers to mainstream mental health treatment, 
housing and support services.
    A 1994 study by the National Association of State Mental 
Health Program Directors (NASMHPD) documented that roughly 
127,231 homeless persons with mental illness were being served 
by PATH services. This is far below the most conservative 
estimation of the number in need.
    An increase in Federal appropriations are necessary in 
fiscal year 1999 to achieve four purposes: one, health care 
coordination, particularly for services related to HIV/AIDS, 
tuberculosis, hepatitis, and other communicable diseases and 
dental care; two, training of persons to work with people with 
a mental illness/substance abuse dual diagnosis; three, housing 
support services; and four, increased capacity.
    Although NCCBH and its member organizations were pleased to 
learn that the President's Balanced Budget Recommendations for 
fiscal year 1999 include a funding increase of $200 million for 
the Substance Abuse Performance Partnership Block Grant, we 
were terribly disappointed to see that the recommendation has 
left funding for the Mental Health PPG at 1995 levels and the 
PATH program at 1998 levels.
    On behalf of NCCBH, I respectfully request that this 
subcommittee recommend an increase in funding for the Mental 
Health PPG for fiscal year 1999 by at least $80 million, an 
increase in funding for the PATH program by at least $10 
million and an increase of $200 million for the Substance Abuse 
Performance Partnership Block Grant.
    As a final note, NCCBH would like to recognize SAMHSA's 
leadership in convening a consortium of mental health consumer 
and professional groups like ours in helping to raise awareness 
about mental illness and to dispel the negative perceptions and 
stigma surrounding behavioral disorders. On Saturday, May 2, 
1998, NCCBH is co-sponsoring a one-mile walk through 
Washington, D.C., to educate and alert people that appropriate 
mental health services can prevent minor behavioral health 
disorders from compounding and that there is the promise of 
recovery for many people who have serious mental illnesses. You 
will be hearing more about this effort in the coming months.
    Once again, I thank you for this opportunity to present our 
requests to your subcommittee concerning fiscal year 1999 
appropriations. I would be happy to answer any questions you 
may have or provide further information at your request.
    [The prepared statement of B.R. Pete Kennemer follows:]


[Pages 1469 - 1478--The official Committee record contains additional material here.]



    Mr. Porter. Mr. Kennemer, we appreciate your good 
testimony. You can be assured that the subcommittee will give 
it every consideration.
                              ----------                              

                                       Wednesday, February 4, 1998.

                                WITNESS

ROBERT A. WEINBERG, THE JOINT STEERING COMMITTEE FOR PUBLIC POLICY
    Mr. Porter. Our next witness is Dr. Robert A. Weinberg, 
Professor of Biology at the Whitehead Institute for Biomedical 
Research at the Massachusetts Institute of Technology.
    Dr. Weinberg, welcome, and we look forward to your 
testimony.
    Dr. Weinberg. Thank you, Mr. Chairman, and members of the 
subcommittee. I am Robert Weinberg, and I am here today as 
representative of the Joint Steering Committee for Public 
Policy and 25,000 of my colleagues in the basic biomedical 
research community, particularly my own Society, the American 
Society for Cell Biology. I thank you and your colleagues for 
the opportunity to present my views to you today.
    My own research is carried out at the Whitehead Institute 
for Biomedical Research, closely affiliated with MIT in 
Cambridge, Massachusetts. For the past three decades, I have 
been involved in research on the molecules inside the human 
cell; much of my research focuses on the molecular and genetic 
origins of human cancer. Last year, I was deeply honored to be 
presented with the National Medal of Science by President 
Clinton.
    I focus today on cancer research, using it as an example. 
It is only one of a dozen major human diseases that are now 
under successful attack by the research community. Like the 
others, autoimmune diseases, Alzheimer's, genetic and metabolic 
diseases and heart disease, cancer is finally revealing its 
secrets. The fallout from the discovery 40 years ago of the 
genetic code has descended on us, and now affects, indeed 
revolutionizes, our understanding of virtually every human 
disease. Two centuries from now, those looking back will say 
that we lived during a time of major scientific revolution.
    Still, I don't want to talk today about a century or two of 
future progress. My vision is limited to the next decade, or at 
most two. That time line is dictated by the delay between 
initial scientific discovery at the lab bench, and the 
resulting impact of that discovery on patient treatment in the 
clinic. In my own career, as an example, a discovery made in my 
lab in 1981 has only this year resulted in a new, and 
apparently highly successful treatment for breast cancer. By 
the same token, the basic research findings that are now in 
hand will only have their full impact on medical practice 
sometime over the next decade.
    I would like to generalize from my own personal experience 
to that of the research community as a whole. Over the past two 
decades, my colleagues and I have generated a rich storehouse 
of information on how cancer begins. Over the next decade, we 
will draw on this information to develop what I believe will be 
a number of dramatic new cures for cancers. These advances will 
flow directly from the rich scientific knowledge base that we 
have assembled since 1980, most of it deriving from research 
supported by our Government and enabled by this subcommittee.
    We now have a clear vision of how to kill tumor cells by 
forcing them to commit suicide, or by strangling their blood 
supply, or by crippling their ability to multiply without 
limit. We have the cells use to stoke their own growth; we have 
uncovered the molecular clock that prevents normal cells from 
growing without limit, and in broken form, allows cancer cells 
to multiply until they become lethal threats. These discoveries 
are just now being converted into treatments that will be 
effective in the treatment of people with cancer.
    I want to talk today about how all this can happen, or 
perhaps, how we may forego the opportunity for it to happen. In 
spite of the stunning opportunities that I've just mentioned, 
we are not prepared to take advantage of this rich knowledge 
bank that we have accumulated. Indeed we have now a data base 
to convert this basic research into a variety of cures over the 
next several decades.
    Ironically, at a time when we're poised so beautifully to 
take advantage of all this basic research information we've 
gained over this period of time, one thing is not in place, and 
we're not prepared in the way we should be. Ten, 15, 20 years 
ago, the young, the smartest and the best of the young people 
were pounding down the doors of ourlaboratories trying to get 
in. And that's changed now.
    Sadly, over the last 10 years, the best and the brightest 
are no longer flocking to do basic research. The reason being 
that careers in basic biomedical research are no longer 
attractive, not because the problems are not compelling, not 
because there aren't exciting opportunities to make really big 
advances, but simply because the career of being a researcher 
has become extraordinarily unattractive, for the simple reason 
that the career path is strewn with too many obstacles. The 
university departments are having difficulties to support the 
training grants to support the training of Ph.D. students. 
Laboratories have become outmoded.
    The biggest obstacle is the fact that research funding has 
become so tight that most young people see correctly at present 
that the chances of their launching a career and having a 
career after having gone through eight or ten years of post-
undergraduate research are remote, 20 percent probability.
    Therefore, the best and the brightest are becoming lawyers, 
some are becoming clinicians, some are becoming bond salesmen 
on Wall Street. They're making good livings, but they aren't 
staffing the laboratories when we're going to desperately need 
them, 5, 10, 15, 20 years from now. We've not been able to 
bring up a new generation of young researchers to take 
advantage of the enormous opportunities that have been 
generated by the last two decades of research, much of which, 
the great bulk of which was funded through appropriations of 
this subcommittee.
    So I want to make a plea that we begin to recognize the 
central role played by young people in the age range between 20 
and 40 years. They are the people who drive research forward. 
Yet they are a dwindling research. The quality of them has gone 
down because of the reasons I've just mentioned.
    One other problem, to close, has come to the fore, in the 
last five years. The ultimate development of cures for a 
variety of these diseases is going to depend on what is known 
as clinical research. Clinical research which is carried out by 
young physicians who are trained both in laboratory science and 
in the art of medicine.
    These young people are skilled in understanding basic 
biomedical research findings and developing new kinds of 
treatments and yet, clinical research is suffering grievously 
over the last five years, largely because of the fact that the 
restructuring of health care has really pulled the carpet from 
under those who in the past have been able to divert clinical 
revenues to support research.
    Therefore, even more than basic biomedical research, which 
I represent, clinical research in this country is under 
enormous threat, because the funds that have traditionally made 
it possible have now in many areas virtually evaporated because 
of managed health care.
    So I would like to put in a plea as well for that area. 
It's not my own bailiwick, but an area that is going to need 
attendance to over the next years if indeed we are going to 
take advantage of these research opportunities to develop new 
kinds of treatments for a wide variety of diseases. The 
information is there, but our ability to effect cures is now 
under threat for the reasons I've just described.
    Thank you for the opportunity to present these views, sir.
    [The prepared statement of Robert A. Weinberg follows:]


[Pages 1482 - 1489--The official Committee record contains additional material here.]



    Mr. Porter. Dr. Weinberg, I think you've presented very 
compelling testimony and put your finger on things that we had 
better be worrying about and addressing and solving. The 
training grants and infrastructure that you mentioned, 
obviously, we can address directly.
    The tightness of research funding, it's fascinating that we 
have, if you look historically at NIH, the rate of increase 
over its whole 50 year history has been at about 3 percent real 
terms. We have been doing actually a little bit better than 
that in the last couple of years with low inflation.
    Mr. Weinberg. Indeed.
    Mr. Porter. But you're exactly right, that the number of 
grants that can be funded as a percentage of those that are 
competed and determined to be worthy of funding has gone down. 
The chance of getting a proposal funded is less, even in the 
face of increasing amounts of money.
    That's because there is so much good research that is 
available if only we had the funds to do it. What that tells 
me, and I think a lot of people, is that we have to make a 
renewed commitment to really increase funding for NIH and basic 
research and not to look at the historic 3 percent real terms, 
but see if we can actually double the funding over the next 
five years, and attract the kind of young people and the kind 
of talent that is there, but is going elsewhere, as you point 
out, very forcefully.
    So that's to me a very high priority. Unfortunately, I 
don't have direct jurisdiction over it, but I'll do everything 
I possibly can to influence our Budget Committee to take this 
and run with it.
    I said yesterday, and I'll say it again today, I think the 
chances of doing that this year are probably not very strong. 
We can lay a foundation this year and get into peoples' minds 
that this is important, and what it means to our country, and 
what it means in terms of lost opportunity, if we don't do it.
    I'm doing everything I can, and I think other members of 
the subcommittee are as well, to do exactly that. I know you're 
doing that, and members of the research community and the 
patient advocacy groups and the pharmaceutical and biotech 
industries and the like, all I think are raising consciousness 
of the American people about this subject and why it ought to 
be a priority for the country.
    On the clinical research side, again, you're exactly right, 
the revolution that's gone on in the last few years in how we 
deliver health care has led managed care not to contract with 
our academic medical centers, and they are in tough shape in 
terms of funds to carry on their very important work. We are 
going to have to, again, it's not my jurisdiction, it's the 
jurisdiction of the authorizing committees, they're going to 
have to do something to address this problem and do it 
forcefully.
    I can do some. I can direct some resources there. But you 
really need a whole new way of providing a funding base so that 
clinical research can continue in the way it has in the past. 
If we don't do that, I think we're all going to be in real 
trouble.
    So your testimony is excellent, you put your finger exactly 
on the same problems I think we have to face. All I can say is 
that we're putting these on a high priority and doing 
everything possible to address them.
    We thank you for coming here to testify.
    Mr. Weinberg. Mr. Chairman, we have to build for the next 
generation. We need the young people.
    Mr. Porter. Absolutely. Can I ask you one question before 
you leave? When did MIT begin to do biomedical research?
    Mr. Weinberg. Seriously in the late 1950s. We now have one 
of the best, at the risk of sounding self-aggrandizing, one of 
the best departments in the country. But we started up really 
almost exactly 40 years ago.
    Mr. Porter. Right after I left. I was a student once at 
MIT.
    Mr. Weinberg. I didn't know that. A Tech man.
    Mr. Porter. Yes. Absolutely.
    Thank you, sir.
                              ----------                              

                                       Wednesday, February 4, 1998.

                                WITNESS

JOE MAUDERLY, LOVELACE RESPIRATORY RESEARCH INSTITUTE
    Mr. Porter. Joe Mauderly, Director of External Affairs, 
Lovelace Respiratory Research Institute, testifying in behalf 
of the Institute. Dr. Mauderly.
    Dr. Mauderly. Thank you, Mr. Chairman. I appreciate the 
opportunity to describe to you a new initiative that has 
special significance for the country. I'm here to propose that 
the Departments of Health and Human Services and Labor 
participate in an interagency effort called the National 
Environmental Respiratory Center, which is aimed at 
understanding the health risks of combined exposures to 
multiple or mixed pollutants.
    I don't need to recount the importance of respiratory 
disease to the Nation. My colleague, Dr. King, whom I know 
well, put that eloquently earlier. It is a very serious 
problem.
    We also need to remember that occupational lung disease is 
a part of that problem, in fact, it's the number one work-
related illness in terms of its severity, frequency and 
preventability, if you will.
    Now, the relationship between air contaminants, be they 
environmental or occupational, and respiratory disease, is 
really not very well understood, despite the publicity and the 
work that's been done. Air pollutants are known to aggravate 
respiratory illness, and that's easy to understand.
    What we don't understand very well at all is their 
potential contribution to causing respiratory illness. There is 
evidence from our lab and others that inhaled contaminants can 
contribute to causation of diseases like asthma and other 
respiratory illness.
    One part of this problem is that it's so difficult to 
understand the relative roles of different materials that 
people breathe. Different pollutants can have the same effect, 
some pollutants can enhance the effect of others. It's largely 
unknown but very plausible and generally agreed by the 
scientific community that mixtures of pollutants, each at their 
individually acceptable level, might have an unexpected or 
unacceptable aggregate risk that we don't really understand at 
all.
    Present environmental and work place air quality 
regulations address pollutants one at a time. That's a problem, 
because that's not true. Nobody ever breathes just one 
pollutant at a time. And that's intuitively understandable.
    When you think about it, under our present strategy, it 
would be considered that an individual breathing all 
environmental and occupational pollutants, all at the same 
time, each within their maximum allowable concentration, would 
have no greater health risk than if they were breathing one of 
them. Yet that doesn't really pass the laugh test.
    The real issue is not the regulation or their legislative 
basis. We know that can be changed. The real issue is that we 
don't have an understanding. There's a lack of research in the 
area of combined exposures to multiple inhaled materials.
    Now, this kind of research is difficult. It takes some 
special capabilities. It's not incentivized by the alternate 
prioritization of single air pollutants that is prevalent in 
the research community driven by regulatory issues. The 
National Environmental Respiratory Center is a new interagency, 
interdisciplinary initiative that's designed to catalyze a new 
body of research to address this issue.
    The effort was begun this year with start-up funding in the 
EPA appropriation, but no single agency has the responsibility 
for this issue. The Center is established at the Lovelace 
Respiratory Research Institute, which is an independent, non-
profit research institute totally focused on respiratory 
disease, in part because Lovelace happens to be one of the 
organizations in the country that has substantial experience in 
combined exposure studies. It also manages a recently 
privatized Federally-owned facility that's ideal as serving as 
a physical location for this center.
    The mission of the Center is to stimulate and facilitate 
and also participate in a national initiative that will be long 
range aimed at understanding the health effects ofmixtures of 
pollutants in the environment and the work place. The Center will 
conduct research, it will be guided by a competitive peer review 
process. That will be an intramural program. It has no intention of 
being another granting agency.
    The Center will maintain information resources available to 
Congress, agencies, researchers and the public. The Center will 
play an important role in assisting agencies and facilitating 
communication, planning and coordination to define this issue 
and define research approaches that will be needed to solve it. 
Especially in bringing communication to occur between health 
scientists and atmospheric scientists, which do not talk to 
each other nearly as much as they need to. And will make 
specialized facilities available.
    Now, it's very appropriate for the Department of Health and 
Human Services and Labor to participate in the Center. NIH, 
NIHS, NCI, has recognized this. It's especially appropriate for 
NIOSH, because of occupational concerns for mixed exposures are 
recognized in its strategic plan. But there's very little 
research support actually in this area. It's a very complicated 
problem.
    So Mr. Chairman, we seek your committee's help in 
encouraging the agencies under your purview to recognize the 
issue and to participate in moving this initiative forward.
    Thank you for the opportunity to testify.
    [The prepared statement of Joe Mauderly follows:]


[Pages 1494 - 1504--The official Committee record contains additional material here.]



    Mr. Porter. Dr. Mauderly, where is Lovelace Institute?
    Dr. Mauderly. It's in Albuquerque, New Mexico.
    Mr. Porter. Albuquerque. When was it established?
    Dr. Mauderly. Lovelace is an organization that goes back to 
the pre-World War II era. It developed a substantial research 
component as well as a health care activity in the post-war 
era.
    Mr. Porter. I'm sorry, I meant the National Respiratory 
Health Center. When was that established?
    Dr. Mauderly. The National Environmental Respiratory Center 
is being established as we speak. The initial funding was in 
this year's EPA appropriation. So it's a new initiative.
    Mr. Porter. Was that initial funding in the EPA 
appropriation according to an authorization that was previously 
passed?
    Dr. Mauderly. That was language that was put in the 
appropriation along with funding for a number of other centers 
and activities related to air pollution issues.
    Mr. Porter. What I think I'm hearing, I just want to get 
the concept that you want us to encourage certain agencies 
under the jurisdiction of these three Departments and under the 
jurisdiction of the subcommittee, to look into support for the 
work of the Center.
    Dr. Mauderly. That's right, the work of the Center and 
related support. I'm asking and encouraging your awareness of 
the issue, the awareness of the agencies of the issue, in 
general, as well as specific support for the Center. We know 
that 20 years from now, we can't be addressing either work 
place or environmental air contaminants one at a time in 
isolation as we have been for years. This is an initiative to 
move us forward into designing another paradigm.
    Mr. Porter. Well, we appreciate very much your testimony 
today. You've educated me on the existence of the Center and 
what Lovelace does, and I appreciate that very much.
    Dr. Mauderly. Thank you.
    Mr. Porter. We'll do our best.
                              ----------                              

                                       Wednesday, February 4, 1998.

                                WITNESS

KENNETH G. McINERNEY, COMMITTEE FOR EDUCATION FUNDING
    Mr. Porter. Kenneth G. McInerney, President, Committee for 
Education Funding, testifying in behalf of the Committee. Mr. 
McInerney.
    Mr. McInerney. Good morning, Mr. Chairman. I am Ken 
McInerney.
    Mr. Porter. Unfortunately, it's afternoon.
    Mr. McInerney. Good afternoon. [Laughter.]
    I am Ken McInerney, of the National Association of Student 
Financial Aid Administrators. I'm here today as the President 
of the Committee for Education Funding, which is a non-partisan 
coalition founded in 1969 with the goal of achieving adequate 
Federal financial support for our Nation's educational system.
    The Committee is the largest coalition of educational 
associations in existence, with over 90 members, whose 
interests range from preschool to adult and post-graduate 
education in both public and private systems.
    Let me first begin, Mr. Chairman, by recognizing the 
outstanding efforts of you and members of your subcommittee in 
making education funding a priority during the last two fiscal 
years. We are particularly appreciative of the strong, 
bipartisan support education programs have enjoyed in this 
subcommittee. We look forward to helping you make this a 
tradition that reaches many years into the future.
    During the past two years, Federal discretionary education 
spending has grown by $7 billion, which has helped restore cuts 
enacted in the previous two fiscal years, and provided growth 
and investment in critical programs that expand educational 
opportunities for Americans in all stages of life. These 
increases, however, must be considered in a larger context. 
Over the past 15 years, deficit reduction efforts forced cuts 
in Federal education funding, both as a share of the total 
Federal budget and as a share of the total support for 
education.
    America now faces a host of new challenges to our 
educational systems, including rising enrollments, more 
students with special needs, increasing teacher shortages, 
overcrowded, unsafe and outdated facilities, rapidly advancing 
technology and continued access to post-secondary education for 
low income students.
    Mr. Chairman, as we begin the debate on fiscal year 1999 
funding, which I note will affect the 1999-2000 school year for 
many programs, the Committee for Education Funding asks that 
you and your subcommittee, to carry forward your momentum from 
the previous two fiscal years, and make a comparable investment 
in America's children, youth and adults in fiscal year 1999.
    The United States today has a unique opportunity and a 
strong incentive to invest in the future. The American economy 
has never known such sustained growth. We have never been so 
free from external threat or domestic crisis. We enjoy the 
highest standard of living in the world. We have slashed 
Federal deficits and can anticipate years of surpluses, 
according to the Congressional Budget Office.
    If we are to maintain and enhance these accomplishments 
into the 21st century, the Federal Government must continue to 
provide and promote activities that ensure future economic 
vitality, personal security and expanded opportunity for all 
Americans. Investing in education now is the surest way to meet 
these goals.
    As you know, America's system of education, from preschool 
through graduate education, has played an essential role in our 
Nation's success. We must build on these successes and again 
make education a major part of America's strategic plan. We 
need substantial new Federal investment in education, not 
incremental increases, to meet these challenges.
    Mr. Chairman, you should know that CEF, the Committee for 
Education Funding, supports the President's efforts to open up 
new revenue streams for education through tax expenditures and 
mandatory spending. We must reiterate, however, that it is 
vital to maintain and enhance support for the core proven 
education programs within the jurisdiction of this 
subcommittee, which have been held back, not from poor design, 
but from inadequate funding.
    In addition, we urge you to provide adequate funding for 
those important education programs proposed for reductions or 
level funding in President Clinton's fiscal year 1999 proposal. 
We also note that the budget agreement reached last year 
continues spending constraints on discretionary spending for 
the next several years. We recognize the pressure that this 
creates by pitting health research programs and education 
programs in competition.
    We are ready to continue working with your subcommittee and 
with the health research community, with whom we have worked in 
recent years, to secure a budget allocation and new resources 
adequate to accommodate significant investment in both of these 
important areas, which may include re-examining the current 
statutory appropriations caps.
    In addition to creating a supportive climate for education, 
Mr. Chairman, we must understand that education is a pipeline. 
What we do for the youngest in our society has long term 
effects on test scores, graduation rates and success beyond 
school. Elementary education must provide a solid academic 
foundation to prepare for secondary school. Middle schools and 
high schools must challenge more students to meet higher 
standards, so they are successful in post-secondary education. 
Vocational technical community colleges and universities must 
assure students are prepared for lifelong learning on the job.
    We can sustain our success by preparing for the future. The 
Committee for Education Funding urges Congress and the 
Administration to prepare for a future that is brighter than 
ever before, and we thank you for the opportunity to testify 
today.
    [The prepared statement of Kenneth McInerney follows:]


[Pages 1508 - 1514--The official Committee record contains additional material here.]



    Mr. Porter. Mr. McInerney, I realize I'm keeping all the 
witnesses a long time, and I'll try to be brief. The sermonette 
that I gave earlier, often I give it in respect to someone who 
is testifying regarding biomedical research, because many of 
our witnesses are witnesses who testify on that broad subject.
    But it is meant for everyone. We have to get the 
allocations that we need to provide funding for all of the 
priorities under our jurisdiction. The help of people concerned 
about all of those priorities is needed to assure that the 
allocation is forthcoming.
    I don't want people to think that I'm limiting it at all. 
Obviously we have, I think, under our portfolio, very many very 
important programs to help particularly people at risk. Kids 
are always the most important, obviously, and education 
funding, as you say, is really the future of this country. With 
that we agree very much.
    So any help you can give us on the budgetary side will be 
reflected in our looking at these education programs in a much 
more favorable light with more resources available.
    Mr. McInerney. Thank you, Mr. Chairman.
    Mr. Porter. Sermonette number three. Thank you, Mr. 
McInerney.
                              ----------                              

                                       Wednesday, February 4, 1998.

                                WITNESS

JAMES T. CORDY, NATIONAL PARKINSON FOUNDATION, INC.
    Mr. Porter. James T. Cordy, Chairman, The Parkinson 
Alliance, testifying in behalf of the National Parkinson 
Foundation, Inc.
    Mr. Cordy.
    Mr. Cordy. Thank you, Mr. Chairman.
    You mentioned you have a new timing device. I brought a 
rather old one with me. If it holds together for five more 
minutes, I'll be happy.
    Mr. Porter. It looks like it has a lot more than five 
minutes in it.
    Mr. Cordy. Mr. Chairman, members of the Committee, my name 
is Jim Cordy, and I have Parkinson's disease. Formerly, I was 
an engineer in research and development in a specialty steel 
company. Parkinson's forced me onto disability three years ago.
    Currently, I am President of the Pittsburgh chapter of the 
National Parkinson Foundation, a member of the board of 
directors of the National Parkinson Foundation in Miami, and 
the new leader of the Parkinson's Alliance. I'm also proud to 
say I'm part of that magnificent grass roots effort that saw 
passage of the Morris K. Udall Parkinson's Research and 
Education Act. I'm here today to give testimony in support of 
fully funding that authorization.
    This hourglass serves several functions. Hopefully it will 
help me stay within my allotted time. It also is intended to 
convey to you that we who have Parkinson's are in a race 
against time. Just as the top chamber is depleted relentlessly 
grain after grain, so is my top chamber, my brain, losing brain 
cells which control movement day by day.
    The Parkinson's Alliance is not another organization. 
Rather, it's a loosely organized overlay of the current 
organizations. It's the voice of the people with Parkinson's. 
Those people first want to say thank you, to you and your 
committee, for allowing the Udall bill to be amended to the 
appropriations bill. Obviously you appreciate the broad based 
bipartisan support this bill has.
    This was demonstrated last year in the 95-3 roll call vote 
before the Senate and by the 255 cosponsors that we managed to 
amass in the House.
    The overwhelming majority of neuroscientists agree we are 
poised in the threshold of curing this sinister disease. This 
hourglass is an attention getter which I hope distinguishes my 
testimony at this busy hearing. Yet the promise of an near-term 
cure for Parkinson's disease is no gimmick. It's doable, and 
it's doable now.
    As I speak, researchers from all over the world are 
assembling in a meeting in Arizona to discuss that promise. Let 
us provide them with the resources to make that promise a 
reality. Find a cure and then direct those resources at other 
diseases.
    If we as a Nation don't find a cure or new effective 
treatment for these age-related diseases, when the baby boom 
ages, it's going to devastate any attempts we've made to date 
to balance the budget.
    There are two other economic points which favor increased 
funding of Parkinson's disease research. Currently, NIH 
research funding is measured by dollars per person afflicted. 
It's simply not equitable. Second, Parkinson's is estimated to 
cost society $25 billion a year. If this $100 million a year 
investment in research leads to a cure, every dollar spent will 
save $250. That's an ROI that any private industry would pass 
in a minute.
    I'm here today to help give Parkinson's a human face. 
Parkinson's disease is a degenerative disease of the brain. As 
a result, my hands and legs sometimes shake and my body 
stiffens. I have witnessed these slowly but sure erode my 
physical abilities. I can no longer tie my tie, wash my hair or 
tuck in my shirt. I can't shuffle papers in my office, nor 
drive my car.
    I have lost facial expression, a sense of smell, and I now 
have a monotone voice. I wouldn't be here today if that was the 
extent of my problem. Unfortunately, those are just previews of 
the horrors to come if we don't find a cure for this sinister 
disease.
    What terrifies me is the real possibility that I couldend 
up like Mo Udall, bedridden, unable to talk or move. I sometimes think 
I do not serve the Parkinson's community well when I come to 
Washington. For when my medications are working, I approach some degree 
of normalcy. Perhaps as I walk away from the table, some may think, he 
doesn't look so bad.
    Those medications without which I wouldn't be able to 
function lose their effectiveness with time. They're beginning 
to, they're just happening to me now. I'm falling behind in my 
race against time.
    The image I want to leave you is the image of the horror of 
Parkinson's. A woman from California wrote to tell me of the 
death of her mother, a former Olympic athlete who had 
Parkinson's. She described how this once athletic body had 
shriveled to 60 pounds and had assumed a constant fetal 
position for the last several years. That's the image of 
Parkinson's I want to leave with you, that and the promise of a 
cure.
    Let me assure you that I'm not going to sit back and wait 
for my body to stop working. I'm determined to win this race, 
but I need your help.
    Before closing, let me turn this hourglass over. The top 
chamber is replenished, just as a scientific breakthrough that 
cures Parkinson's will replenish my brain of the cells which 
control movement. Don't let time run out for me and the one 
million Americans who have Parkinson's. Not when the finish is 
in sight.
    Thank you.
    [The prepared statement of James Cordy follows:]


[Pages 1518 - 1523--The official Committee record contains additional material here.]



    Mr. Porter. Mr. Cordy, that was five minutes, wasn't it.
    Mr. Cordy. Four minutes and 56 seconds.
    Mr. Porter. Perfect. [Laughter.]
    I had the wonderful honor and pleasure of being able to 
serve part of my time in this body with Mo Udall. I often say I 
had a wonderful trip to Alaska with Mo Udall, best trip I ever 
took with anybody anywhere, in 1987, right about the time when 
the disease began to really slow him down.
    I don't think there is a member of this body in memory who 
has more respect or friends and more people who care about him. 
In addition to Mo, you know we have two members of the House, 
two members of the Appropriations Committee, as a matter of 
fact, Joe Skeen of New Mexico and Joe McDade of Pennsylvania, 
both who have Parkinson's disease.
    I can tell you without fear of contradiction at all that 
these two gentlemen, maybe particularly Joe, have just been 
absolutely the strongest advocates for getting research funding 
into Parkinson's that you can imagine. They would certainly 
tell you that out at NIH as well.
    We put this at a very, very high priority. We understand 
the nature of this disease and how it affects people. We want 
to do everything we possibly can to provide the resources and 
science so we can get a breakthrough and prevent if from 
happening in the future. We're going to do our best for you, 
absolutely.
    Thank you for coming here to testify.
    Mr. Cordy. Thank you. Mr. Chairman, this advocacy effort 
has been a learning process for me. One of the learning 
processes was today, when I gained new respect for you, sir, as 
you sit here individually and listen to each and every one of 
these witnesses.
    Thank you.
    Mr. Porter. Thank you. Can we borrow your hourglass? That 
might be far more effective than our device here. [Laughter.]
    [Clerk's note.--Information required pursuant to clause 
2(g)(4) of Rule XI of the Rules of the House of Representatives 
was not received from this witness or from an entity 
represented by this witness]
                              ----------                              

                                       Wednesday, February 4, 1998.

                                WITNESS

LAURIE FLYNN, NATIONAL ALLIANCE FOR THE MENTALLY ILL
    Mr. Porter. Laurie Flynn, the Executive Director, National 
Alliance for the Mentally Ill, testifying in behalf of the 
Alliance.
    Ms. Flynn.
    Ms. Flynn. Thank you very much.
    Good afternoon, Mr. Chairman. I want to say how pleased I 
am to have the opportunity to share some thoughts from NAMI 
members with you this afternoon.
    NAMI is the Nation's largest grass roots organization 
representing people with severe mental illnesses and their 
families. We are 172,000 strong in over 1,100 communities in 
all 50 States.
    As you well know, Mr. Chairman, research is vitally 
important to people with severe mental illness who live each 
day with devastating brain disorders such as schizophrenia, 
manic depressive illness, clinical depression and severe 
anxiety disorders. Scientific advances led by NIMH funded 
research is heralding today a new era of hope for persons who 
struggle with these illnesses. Treatment that's been made 
possible by new science is making a real difference in 
promoting independence and recovery for more and more 
individuals with these very difficult diseases.
    In fact, my organization has been able to use some of the 
results of NIMH science to help communicate an important 
message that these are brain disorders, despite myth and 
ignorance, and that treatment is increasingly successful. The 
clear evidence from this science also helps us enormously in 
our battle to reduce the stigma that's often unfairly attached 
to a mental illness diagnosis.
    Mr. Chairman, NAMI members across the country are deeply 
grateful to you and to members of your subcommittee on both 
sides of the aisle for your vigorous and sustained leadership 
in bringing record increases to the NIH budget. We are 
especially gratified to see and do applaud the President's 
recently announced budget proposing $1.15 billion increase in 
the NIH overall appropriation, and a nearly $60 million 
increase for the NIMH.
    These increases will be, we think, a wonderful way to close 
the decade of the brain and will build on the remarkable 
advances we have seen in neuroscience during this decade.
    While NAMI members enthusiastically support NIH and NIMH, 
we are urging that more attention be focused on the most severe 
and disabling illnesses. NAMI reviews the NIMH portfolio each 
year, and we continue to document a large share of the 
portfolio that is directed to broad behavioral and social 
science research that we think misses the importance of NIMH's 
historic mission focusing on severe mental illnesses as a 
public health priority.
    We have had a very extensive and productive dialogue with 
leaders at the NIMH who have recognized a 10 percent drop in 
research on schizophrenia in the past year, and have further 
recognized they need to strengthen their focus on bipolar 
disorder.
    Mr. Chairman, NAMI is not suggesting that Congress 
micromanage NIH or earmark funds. Rather, we are recommending 
that new and additional resources that may become available 
focus strongly on the most severe and disabling illnesses.
    NAMI believes research on these brain disorders has the 
greatest potential payoff for American taxpayers over the long 
run. Most importantly, we know that research on serious mental 
illness saves lives. My own daughter, Shannon, who was 
diagnosed with a severe mental illness, is one such example. 
Despite over 10 years of illness, Shannon today, thanks to 
research based treatment, graduated from Georgetown University, 
lives on her own in an apartment, holds a job. Last fall, in 
the realization of a long-held dream, she returned to graduate 
school.
    We know that this kind of success is possible for many 
thousands more who are afflicted with some of the most 
mysterious illnesses known to humankind.
    Finally, Mr. Chairman, with regard to the Substance Abuse 
and Mental Health Services Administration and the Center for 
Mental Health Services, NAMI wants to express disappointment 
that the President has once again proposed to freeze all 
funding for CMHS programs. As you've heard earlier, pressures 
on State and local mental health systems are growing by welfare 
reform efforts to put violent sexual predators in State mental 
institutions, Medicaid disproportionate share cuts, and most 
especially as you've heard, the growth of managed care in the 
public sector.
    This intense pressure to conserve dollars is felt most 
acutely by people with serious mental illnesses. They and their 
families are too often forced into the public system because of 
inadequate and discriminatory private health insurance and 
public programs that trap them in a dependency based system. 
While we are as a Nation making progress on these issues, with 
the focus on parity legislation at the Federal and State level, 
the availability of new treatments and efforts to reduce 
stigma, more needs to be done.
    One small step would be to urge greater effort by CMHS for 
initiatives that educate and support vulnerable consumers and 
their families in coping with systems change.
    Thank you very much, Mr. Chairman, for this opportunity to 
testify. Thank you again for your compassion and for your 
leadership on these health issues.
    [The prepared statement of Laurie Flynn follows:]


[Pages 1527 - 1532--The official Committee record contains additional material here.]



    Mr. Porter. Ms. Flynn, thank you for your testimony. I say 
often, and I think this is very important, that if you talk to 
scientists at NIH, they would I think very quickly agree, we 
know a great deal about the rest of the body. We don't know 
nearly enough about the brain. This is where we must put 
resources, and put it at a high priority, because this is where 
our knowledge is the least.
    I think often the public looks at the debates on the Floor 
of the House of Representatives and at hearings before 
committees as well, that that's where all the business of 
Congress goes on. Actually, I had a very good discussion on the 
way over to the floor on the last vote with Sander Levin, a 
member from Michigan, whose wife works out at NIMH, about 
priorities in mental health research funding that parallels 
exactly what your testimony has been highlighting for us today.
    Obviously, that helps me in working on the priorities and 
funding for the subcommittee as well. That's often the way 
legislation is addressed, member to member, that no one ever 
sees. It works well, along with the obvious input and education 
that we get in having the opportunity to hear from you and your 
fellow witnesses in hearings like this.
    So thank you for coming to testify today, we appreciate it 
very, very much.
    Ms. Flynn. Thank you very much, Mr. Chairman.
                              ----------                              --
--------

                                       Wednesday, February 4, 1998.

                                WITNESS

MARTIN STEVENS, PROSTATITIS FOUNDATION
    Mr. Porter. Martin Stevens, Pilot for United Airlines, 
testifying in behalf of the Prostatitis Foundation.
    Mr. Stevens. Good afternoon, Mr. Chairman.
    Mr. Porter. Good afternoon.
    Mr. Stevens. I can't tell you how many times I've flown 
over the Capitol and kind of wondered what was going on down 
there, and now I have a better appreciation.
    Mr. Porter. I was probably in a number of the planes that 
you've flown.
    Mr. Stevens. I am Martin Stevens, and I have chronic 
prostatitis. I was diagnosed with the disease at age 16, in 
1959. About a year after recovering from a urinary tract 
infection, and well before I was sexually active.
    At first, antibiotics relived my symptoms. However, 
episodes were recurring about every 18 months to two years. As 
I grew older, these episodes became more frequent and more 
intense.
    I flew more than 100 missions as a pilot in Vietnam, and I 
remember on one mission wondering whether I was going to make 
it back to base or not because of the pain.
    I would like to share with you what it's like to have 
chronic prostatitis. I wake up each and every morning with 
lower back pain. I have moderate pain when voiding and can 
never seem to void completely. This is why I have to make 
frequent visits to the bathroom during the day. That's, by the 
way, why I fly multi-engine airplanes, because they have 
bathrooms.
    At night, it's the same thing. There is always a sense of 
great urgency when I have to void. I have spent many a day 
sitting in a hot bathtub in order to find relief from the pain 
deep within my pelvic area.
    Most of the over-the-counter drugs provide just temporary 
relief. Prescription drugs would disqualify me from performing 
my job. Besides, most sufferers report getting hooked on these 
drugs just after a short time.
    Even my marriage has been severely affected by this 
disease, because of the moderate to severe pain that 
accompanies intercourse.
    Since my initial diagnosis, I have seen over 25 different 
urologists, spent thousands of dollars on drugs, doctor bills 
and traveling, not including the loss of work caused by 
incapacitation. I have sought medical care abroad, living for 
more than two months in a third world country where there were 
rumors of a possible cure.
    While abroad, I met many Americans afflicted with 
prostatitis. They all had very similar stories regarding the 
progress of their disease. Especially regarding the treatment 
received in America.
    Many of them were so upset that they held their personal 
physicians responsible for their condition. There is no 
standard of treatment for prostatitis. Most urologists give 
antibiotics without properly culturing the patient in order to 
determine the proper antibiotics to use. In time, like myself, 
most antibiotics become ineffective, and the disease just 
progresses.
    The urological community is not only split on the causes of 
the disease, but also its management. That is why finding the 
cause of this disease is so important. The cure rate for 
American patients seeking help in the overseas community I 
visited was dismal, just as it is in the United States.
    Additionally, my medical insurance company refused payment 
for any of the treatments or drugs I received overseas, because 
they considered it experimental. I returned home quite 
depressed to say the least. Psychologically, I've learned to 
cope with the ramifications of the disease, with the help of 
counseling.
    To top this all off, my sons, Mark and Danny, were 
diagnosed with prostatitis at age 16 and 17, respectively. 
Their diagnosis was also made before they were sexually active. 
Dr. Talia Toth, a medical doctor and fertilization specialist, 
and director of the McCloud Laboratory in New York City, first 
brought the possible familial aspect of the disease to my 
attention. He was of the opinion that prostatitis was a 
bacterial or viral infection that could be carried into the egg 
by the sperm during the fertilizationprocess and for unknown 
reasons not express itself until adolescence, when the prostate begins 
its growing.
    Clearly, more research needs to be done to get the answers 
we need and understand and treat the disease. The internet news 
groups are full of horror stories from fellow suffers, 
desperately seeking advice regarding what doctors to see, what 
medicines or therapies to try to be cured or find some relief 
from this disease.
    Many of these victims have gone to the professional 
journals, as I have, and gained an enormous amount of 
information on this subject. In fact, many prostatitis patients 
now know as much or more than the doctors who attend them.
    Many years ago, it was thought that ulcers were caused by 
psychological problems. Today, we know that the bacteria 
helicobacter pylori is the culprit in many of the cases. 
Moreover, this bacterium has now been implicated in adenyl 
carcinoma, or cancer of the g.i. tract. In other words, a 
bacterium caused the development of a cancer.
    It would be less than a coincidence if our researchers were 
to find that same mechanism at work, a bacterial infection at 
play in the development of prostate cancer. Is it possible that 
underlying each and every case of prostate cancer there is a 
case of prostatitis? Silent or otherwise.
    Can you imagine the ramifications of such a discovery? 
There's only one way to find this answer and in addition stop 
the needless suffering and loss of life that at some time or 
other will impact nearly two-thirds of American males in 
America. That way is through research, research and more 
research until we find the answers and create the cure.
    On behalf of those men whose lives have been adversely 
affected by diseases of the prostate, I want to sincerely thank 
you and the members of your committee for your past support of 
the NIH in search for clues to solving this mystery. Continuing 
this support is absolutely essential to solving this 
debilitating disease.
    Thank you, sir.
    [The prepared statement of Martin A. Stevens follows:]


[Pages 1536 - 1537--The official Committee record contains additional material here.]



    Mr. Porter. Mr. Stevens, when you talk about the 
progression of this disease, the progression doesn't 
necessarily lead to cancer of the prostate, is that correct?
    Mr. Stevens. That's correct, but the kicker that we are 
learning now is that when they remove a prostate from somebody 
who's had prostate cancer, they do find an inflammation of the 
prostate. The cause, they don't know. They haven't looked at 
it. We have asked them if they would be willing to take 
prostates that are removed from victims with prostate cancer, 
look at it to find out, is it being caused by a bacteria.
    So far, nothing. No answer. The fact of the matter that, as 
I cited, that there is evidence now that a bacteria can cause 
cancer of the g.i. tract. It seems logical that that could 
possibly be at work here in prostate cancer. I'm not a doctor.
    Mr. Porter. Is it fair to say that most men at some point 
in their life are affected by prostatitis?
    Mr. Stevens. Yes.
    Mr. Porter. Is it also fair to say that doctors don't in 
most cases take it very seriously? I mean, they sort of say, 
well, yes, we'll give you an antibiotic and go home.
    Mr. Stevens. That's exactly what happens. In fact, the 
first thing that usually brings an older man, somebody in his 
50s or so to a doctor, is trouble urinating. He will find upon 
examination that the prostate may be swollen, that's called 
BPH, or benign prostate hypertrophy.
    We don't know the cause of it. We think that in that case, 
there is evidence, or there would be evidence if they looked at 
it, of bacterial infection.
    Mr. Porter. BPH and prostatitis are not the same thing?
    Mr. Stevens. No, they're not. They're not classified at the 
present time as the same thing. We feel that, in fact, Dr. John 
Kreeger at the University of Washington just recently published 
a paper of people who had prostatitis but had no symptoms, or 
they couldn't grow any kind of bacteria from it. So he biopsied 
the prostate, and they found evidence through a DNA examination 
of these bacteria, typical bacteria.
    For instance, with me, I have a staphylococcus infection. 
The same bug that's on your skin, that's called staphylococcus 
epiderma, it's the same thing. How it got there, we don't know.
    Mr. Porter. Well, I think researchers have taken diseases 
of the prostate more seriously recently. And that's all for the 
good. Obviously we want to continue to nudge them in that 
direction if they need any. So we'll do what we possibly can to 
be of help. We appreciate your testimony.
    Mr. Stevens. Thank you.
    [Clerk's note.--Information required pursuant to clause 
2(g)(4) of Rule XI of the Rules of the House of Representatives 
was not received from this witness or from an entity 
representated by this witness.]
                                       Wednesday, February 4, 1998.

                                WITNESS

JAN SHAPIRO, NATIONAL ALOPECIA AREATA FOUNDATION
    Mr. Porter. Jan Shapiro, Volunteer Support Leader, the 
National Alopecia Areata Foundation.
    Ms. Shapiro. Good afternoon, Chairman Porter and staff. 
Thank you for many years of support in seeking a cure for 
alopecia areata, and all skin diseases. Alopecia areata is a 
disease that strikes over 4 million Americans. Alopecia areata 
is basically hair loss. For some it's a quarter sized patch 
that can be easily covered. For others, it's the loss of every 
single hair follicle on their body.
    I've had alopecia areata for 16 years, just a small patchy 
alopecia. Four years ago, I lost all the hair on my entire 
body. It's now what's called alopecia universalis. I'm the 
support group leader for D.C. Metro area, and I'm testifying on 
behalf of the National Alopecia Areata Foundation, NAAF. NAAF 
is dedicated to finding a cure for alopecia areata. It also 
provides support for those with alopecia areata through 
publication and support group programs.
    As a support group leader for NAAF, I am many times the 
first person outside the medical community that a person turns 
to with this disease. Alopecia areata strikes members of all 
ethnic groups, but young children get alopecia areata more 
often.
    Hair loss has several effects. It reduces the protection 
for the body that the hair provides. The loss of eyelashes 
means that even the simple act of opening and closing one's 
eyes is a difficult process at times.
    Alopecia areata is not just a physical problem. It has 
serious psychological effects on many people. Many people with 
this condition think they're the only ones in the world with 
the disease. They often go to their doctors to discover that 
even their physicians have very little knowledge as to the 
disease process.
    Unfortunately in our society, the lack of information is 
not the only problem. People with alopecia areata are 
vulnerable to stares and comments of others. A noted news 
anchor lost his on-air job because he was suddenly perceived as 
being unappealing to the public.
    This lack of being appealing or being considered normal 
causes many people to lose confidence in themselves, and they 
begin to withdraw from society. Recently two families called 
the Foundation within just hours of each other. A parent in 
each of these families has alopecia universalis, just like 
myself.
    In the first family, they have a 13 year old daughter who 
was just recently diagnosed with alopecia areata. In the second 
family, they have a one and a half year old and a four year old 
who were just recently diagnosed with this condition. These 
parents are trying to deal with the fears of what their 
children are going to have to go through, as well as the 
frustration of knowing that right now, there is no known cure 
for alopecia areata.
    Fortunately, people can help. In many of our support 
groups, people learn how to help, how they can help themselves 
both cosmetically and psychologically. The real solution will 
be when we finally find a cure for alopecia areata.
    Last week, one of our National Alopecia Areata Foundation 
funded researchers discovered the hairless gene. NAAF has 
raised and provided almost $1.5 million for research studies on 
genetic structure of hair, the function of the immune system in 
supporting non-human research studies for the cause of alopecia 
areata.
    Part of our research program is also to continue work with 
the National Institute of Arthritis and Musculoskeletal and 
Skin Diseases, the NIAMS. One of the results of this joint 
program was that NIAMS funded a significant study on the 
structure of the disease.
    The National Alopecia Areata Foundation and the 21 other 
lay skin disease groups in the Coalition of Patient Advocates 
for Skin Disease Research ask that you continue to support us. 
With an increase of funding of 15 percent, much more can and 
will be done in this area.
    Thank you.
    [The prepared statement of Jan Shapiro follows:]


[Pages 1541 - 1548--The official Committee record contains additional material here.]



    Mr. Porter. Ms. Shapiro, thank you for coming to testify. 
We certainly will do our best to put this as a high priority 
and provide the resources that are needed.
    I did read about the finding of the genetic base, let's 
hope it's the genetic base, of hair loss. So obviously there's 
wonderful things happening, if we can provide the resources we 
will continue to make them happen.
    Ms. Shapiro. It's starting, right.
    Mr. Porter. So thank you for coming to testify.
    Ms. Shapiro. Thank you very much.
    [Clerk's note.--Information required pursuant to clause 
2(g)(4) of Rule XI of the Rules of the House of Representatives 
was not received from this witness or from an entity 
represented by this witness]
                              ----------                              

                                       Wednesday, February 4, 1998.

                                WITNESS

DANIEL V. YAGER, LABOR POLICY ASSOCIATION
    Mr. Porter. Daniel V. Yager, General Counsel for the Labor 
Policy Association, testifying in behalf of the Association.
    Mr. Yager. Thank you, Mr. Chairman.
    I serve as Vice President and General Counsel of the Labor 
Policy Association, representing the senior human resource 
executives of over 255 major corporations. I appreciate the 
opportunity to present our views today regarding funding for 
the National Labor Relations Board and the Department of Labor.
    I'd like to begin by commending you, Mr. Chairman, and your 
subcommittee, for the active interest it has shown in the last 
three years on the NLRB. Clearly a by-product of that interest 
is the achievement of a fully confirmed board for the first 
time in seven years. You are to be congratulated for helping to 
move that process along by making it clear that the funding of 
the board is directly linked to its legitimacy.
    Despite this progress, however, you should not ease up in 
any way. This is clearly an agency that regardless of who is in 
charge needs to be watched very closely. Just last week, the 
Supreme Court itself, in the Allentown Mack case, highlighted 
the Board's frequent result-oriented approach, saying, an 
agency should not be able to impede judicial review and even 
political oversight by disguising its policy making as fact 
finding.
    Unfortunately, one area where this disguised policy making 
seems to be taking place involves the so-called single facility 
regulations that your subcommittee has successfully foreclosed. 
Two recent cases cited in our testimony indicate that the board 
may be reaching the same results as the regulations simply 
through adjudication on a case by case basis.
    Another area deserving your attention involves so-called 
corporate campaigns, where among other things, unions apply 
pressure on employers through governmental agencies. As one 
union manual, aptly titled a troublemakers handbook, succinctly 
observes, every law or regulation is a potential net in which 
management can be snared and entangled.
    Under this approach, government action is being driven not 
by evidence of serious violations of the law, but by organized 
labor strategies for increasing its market share of the work 
force. This comes at a time when public resources are stretched 
thin and these same agencies, and I'm not just talking about 
the NLRB at this point, are seeking more funding.
    We encourage you to explore the history of corporate 
campaign assists by the agencies in your jurisdiction. 
Meanwhile, as the NLRB continues to seek increased funds we 
suggest you examine whether the agency could better target its 
existing resources.
    For example, the agency's jurisdiction will continue to 
expand on an annual basis as long as there is no updating of 
the small business jurisdiction thresholds, which are still 
based on 1959 dollars. In addition, the agency continues to get 
involved in elections involving smaller and smaller units. In 
one recent case, the board actually conducted an election and 
certified a union representing only one employee.
    Finally, we commend this subcommittee for its efforts to 
bring the Department of Labor into the cyberspace age by 
requiring that union financial data be made available on the 
internet. Given the heightened public interest in insuring the 
financial accountability of unions to their membership, this 
should be a no-brainer.
    Unfortunately, it is our understanding that the Department 
has made little or no progress in complying with your 
directive, even though other comparable information is readily 
available through the internet from other agencies. We provided 
an example in our testimony.
    This year we encourage you to go another step further by 
requiring DOL to place the advisory opinion letters regarding 
technical areas of the wage and hour laws on the internet as 
well. Currently, these are very difficult to find, and 
therefore employers can only guess whether their work place 
practices are legal in the Department's view.
    Thank you for the opportunity to appear before you today. 
We look forward to working with you, and I'll be happy to take 
any questions, Mr. Chairman.
    [The prepared statement of Daniel Yager follows:]


[Pages 1551 - 1560--The official Committee record contains additional material here.]



    Mr. Porter. Mr. Yager, are you telling us that the agency 
has, there is a recognizable pattern of deciding cases that put 
them in the same place they would have been had they adopted a 
rule on single site bargaining?
    Mr. Yager. That is certainly the evidence, Mr. Chairman. In 
the last year, I've seen two cases decided by the agency. Now, 
typically, these issues are dealt with at the regional level, 
so they're harder to track at the Washington level.
    In both cases, and as you know, this is a very fact-
intensive area of the law, in both cases, the regional director 
had looked at the facts and decided that a multi-facility unit 
was appropriate in those situations, not just a single unit. It 
was a trucking facility--I'm sorry, it was a bus facility.
    Typically the board will defer to the agency's decision. I 
mean, they're out in the field, they know all the facts and 
circumstances. In both cases, they came up to the board and the 
board reversed the regional director. In both cases, there was 
a dissent by Member Higgins on the board.
    Mr. Porter. Is this case that you mentioned in the Supreme 
Court, does that deal with this subject matter?
    Mr. Yager. Similarly--no, it's a different subject. It 
deals with withdrawal of recognition from a union. They are 
calling attention to this pattern where the board will make a 
fact based determination, they'll say, we're not doing anything 
to change the rules. In effect, they change those rules by sort 
of looking at the right set of facts to reach the same result 
they would have reached if they would have changed the rules.
    Mr. Porter. As you know, many members of this subcommittee 
have been very concerned with the way this NLRB has approached 
the law that it is to administer. There have been a number of 
attempts to try to curb some of the things that members see as 
excesses of the board. And there's been, I think it's fair to 
say, a great deal of tension between the subcommittee and the 
NLRB over the last few years.
    I think you'll see a great deal of attention paid to this 
subject again this year. Last year, year before, year before 
that, each of the last three years, we have attempted to send 
messages by restraining budget. This is not the best way, in my 
judgment, to do that, because this is a body that is supposed 
to be resolving disputes between management and labor under the 
rule of law. Any time you restrain budgets, you can get the 
reaction of simply creating backlogs that probably don't serve 
anyone's interest.
    On the other hand, there are things that members have been 
very concerned about reaching, and we've had a number of 
meetings between Chairman Gould and members of the subcommittee 
in an attempt to resolve these matters.
    If I were to find that there is a pattern here, as you 
describe it, of getting around what the subcommittee had 
exactly told the NLRB not to do, and that is adopt a, basically 
adopt a rule on single site bargaining, that would be very 
serious indeed.
    So let me thank you for your testimony, for bringing these 
matters to our attention. I will be interested to share your 
testimony with members of the subcommittee and draw it to their 
attention. We appreciate knowing what you've provided to us. 
Thank you so much.
    Mr. Yager. Thank you, Mr. Chairman.
                              ----------                              

                                       Wednesday, February 4, 1998.

                                WITNESS

JOAN I. SAMUELSON, PARKINSON'S ACTION NETWORK
    Mr. Porter. Last but not least, Joan I. Samuelson, J.D., 
President, Parkinson's Action Network, testifying in behalf of 
the Network.
    Do I call you Dr. Samuelson, since you're a juris doctor?
    Ms. Samuelson. Absolutely not.
    Mr. Porter. Well, wait a minute, I am, I might want to be 
called that.
    Ms. Samuelson. Well, perhaps. I sometimes receive letters 
with that, and I kind of enjoy it. I find that working with the 
scientific community, I felt extremely lonely at times when 
everyone on a list of people would have initials after their 
names. I don't particularly like using the initials, but 
sometimes I feel a member of the club.
    I must begin by saying, I feel a bit of compassion fatigue 
just sitting here this morning. So I must just tell you how I 
appreciate the scope of your committee, the immense number of 
human problems that you have to address.
    In particular, your incredible leadership in the area of 
biomedical research. You have challenged your own body, you 
have challenged the Senate. Now even the Administration is 
rising to the call. I appreciate that personally from the 
bottom of my heart and on behalf of the Parkinson's community. 
It's been an enormous support for all of us.
    Having said that, what I have to do is beat our drum 
alittle more. I thought what I would do is just talk about a few 
highlights, then try to address the things that I know are of concern 
to you. Jim Cordy did a marvelous job of describing the necessary 
desperation with which we conduct our lives, every day waking up 
knowing that we're that much closer to the fate that many people we 
love are currently suffering.
    I know, I'm 11 years post-diagnosis. On Mo Udall's 
timetable, I've got a couple more years before I'm struggling 
terribly, and perhaps will take a terrible fall, as he did, 
which will really end my ability to live a productive life.
    On the timetable of a close friend, Millie Condrachey, Mort 
Condrachey's wife, I am overdue of the time when I would be 
relegated to walker or wheelchair and really unable to do this 
work. She used to accompany me in meetings on the Hill. Now 
it's treacherous for her to get anywhere, because she falls so 
frequently. She falls almost daily. Her voice is now so soft 
she really can't communicate unless someone is extremely close.
    I live with the same urgency that Jim does. He did a lovely 
job of describing it, and I know you've heard it before.
    Why do we need the Morris K. Udall bill funded to its 
fullest, to $100 million in Parkinson's specific research? And 
why Parkinson's specific? I know that's a concern of yours. 
That's what I'd like to spend my time talking about.
    The first is simply the enormous research potential. One 
thing I know the scientists in the Chicago area have talked 
about doing is bringing you to their lab. I'd like to help them 
try to arrange that. There's just tremendous work going on at 
Northwestern, Chicago Med School, the University of Chicago. In 
fact, one of them called me to tell me they've been on the 
phone talking about a collaboration to apply for one of the 
Udall centers that are proposed in the Udall bill, and a 
preliminary approach to that is being considered right now by 
the NINDS.
    I think in anticipation of the Udall bill's passage, they 
sent out an RFP in the fall and the proposals are due in April, 
so we don't really know the number that they will fund. The RFP 
is for up to three, and I'm sure they're going to get a virtual 
flood of proposals.
    This incredible research based in basic science, 
fascinating collaborations among basic science and clinical 
research, going on all over the country. And it's enormous 
backlog, because Parkinson's research has not been funded 
historically.
    I attached to my testimony two charts. One is a horizontal 
chart which shows Parkinson's funding over the last decade 
plus. It's just a very sad picture. It's essentially stagnant, 
the entire time. When Parkinson's advocacy really was in its 
infancy, in 1991-1992, the NINDS advisory council issued a 
report in which they said that by the end of the decade, there 
would be, with adequate funding, available therapies that would 
prevent or reverse Parkinson's. Which is of course exactly what 
we need, as the medication begins to cease its effectiveness.
    They're not there yet. They're very close. But they're not 
there yet. And it's because that money has been slow in coming. 
It's directly attributable to that, and it's just a terrible, 
terrible shame for the many people who may be beyond hope, as 
well as the rest of us who are so desperately hoping that the 
treatments will be delivered by the time we desperately need 
them.
    For that reason, I feel that the intent of the Udall bill 
must be funded to its fullest, with Parkinson's specific 
research. I know that's a concern of yours, both in terms of 
the notion of earmarking and the fact of focusing in on a given 
disease. The pent-up supply of incredible research 
opportunities is enormous, and is pent-up, and all deserves to 
be funded. There's far more that could be funded than money 
available, or that even in the President's proposed budget 
would be.
    It really has to be tackled aggressively, so that the cure 
will be delivered as soon as it can be. It's later than it 
should have been, but as soon as it possibly can be.
    So how do you do that? We feel we must focus in on 
Parkinson's specific research because we have been neglected in 
the past. That doesn't mean it should be coming from other 
diseases. What we have to do are the things you recommend, we 
have to work with the budget committees. We have to work for 
the doubling of the NIH. We will do everything we can to work 
with you to do that.
    I'm offering all the help that the Parkinson's community 
can give to lead the battle. Thank you, Mr. Chairman.
    [The prepared statement of Joan Samuelson follows:]


[Pages 1564 - 1574--The official Committee record contains additional material here.]



    Mr. Porter. Ms. Samuelson, I appreciate your testimony. I'm 
glad you brought up Morton Condrachey's wife, because I think 
it's fair to say that there's no one that's been a stronger 
advocate, more persistent, aggressive leader on addressing the 
whole issue of Parkinson's research than Morton Condrachey. 
Largely because of, and I wasn't originally a part of this, but 
my understanding is that largely as a result of his efforts, 
this matter got pushed as far as it has been.
    I want to be very clear about one thing, though. We do not 
fund bills, we fund institutes. As you know, you've alluded to 
this in your testimony, we are very careful to leave the final 
determination of where the opportunities in science lie and 
where the best chance for the funding to make a difference in 
peoples' lives lie with science.
    That does not mean that we simply rubber stamp what NIH 
suggests. As you know, we're very active and very aggressive in 
pushing things that we think are important on NIH, without 
directing. In other words, we don't go the final step and say, 
you have to do this. We believe if we did that, we would be 
substituting our political judgment and we are not experts for 
scientific judgment that always has to prevail in these areas.
    I think it's fair to say, and I think NIH would say that we 
go very close to that, and do suggest very strongly to NIH what 
our thoughts and priorities are in respect to funding. I think 
it's also fair to say that working with NIH, they have 
traditionally been very sensitive to the concerns expressed by 
Congress in the bill and the report accompanying the bill. NIH 
has been very responsive in terms of what our own priorities 
would be in a broader sense of, rather than a disease-specific 
sense.
    I think all of us consider this a very, very high priority, 
and we're going to push very hard for it. As I said, we have 
not only Morton, but we have several members of Congress who 
are very strongly pushing the NIH and the subcommittee on the 
subject. I think the message is being heard, and I think you 
can look forward to Parkinson's being placed at a higher 
priority in the immediate future and the long term future as 
well.
    There seems to be, again, we're not experts, but there 
seems to be so much progress being made, and we're so close, it 
would be a shame if we could not get the additional resources 
placed there that would bring about real serious progress that 
would make a difference in your life and Mr. Cordy's life and 
others who suffer from this disease.
    We'll do our darndest.
    Ms. Samuelson. Thank you, Mr. Chairman.
    I'd love to get you together with those scientists in the 
Chicago area, because they could really describe the 
difficulties they've had in getting their Parkinson's research 
funded. It's partly simply there hasn't been enough money in 
the neurological institutes. Of course, the brain hasn't 
receive the attention it's needed.
    It has seemed to be more than that. The reason, I think, 
there's been the Congressional response. And I know about your 
reluctance.
    Mr. Porter. I'd be happy to meet with them, and if we see a 
problem beyond the simple lack of money, we'd like to address 
that. Absolutely.
    Ms. Samuelson. Great.
    Mr. Porter. You arrange it, and we'll do it.
    Ms. Samuelson. Good deal. Thanks very much, Mr. Chairman.
    Mr. Porter. The subcommittee stands in recess until 2:00 
p.m.

                           Afternoon Session

    Mr. Porter. The subcommittee will come to order.
    This is the eighth of nine sessions hearing public 
witnesses before this subcommittee. We appreciate very much all 
of your attending and providing us with your views and 
knowledge.
    Because we have so many witnesses that want to testify, we 
have to pay very close attention to the time that allot to each 
witness. I will tell you now that the subcommittee is now armed 
with a timing device that you will hear go off if you go beyond 
the five minute time limit. We simply ask that you, in the 
interest of everyone else getting a chance to testify, observe 
as closely as possible the allotted time.
    I suspect that in the course of the testimony, you will 
hear a couple of sermonettes from me that I've given to each of 
the panels. Please bear with me with those.
                              ----------                              

                                       Wednesday, February 4, 1998.

                                WITNESS

CHARLES BALLARD, NATIONAL INSTITUTE OF RESPONSIBLE FATHERHOOD AND 
    FAMILY REVITALIZATION
    Mr. Porter. We'll begin with Charles Ballard, the Founder 
and CEO, National Institute of Responsible Fatherhood and 
Family Revitalization, testifying in behalf of the Institute.
    The Chair recognizes Mr. Stokes.
    Mr. Stokes. Thank you very much, Mr. Chairman.
    It's indeed a real pleasure for me to have the opportunity 
to welcome before this subcommittee a gentleman who comes from 
my Congressional district, and a gentleman for whom I have, 
over a number of years, had the highest esteem. He has been 
founder of an organization that has taught fathers to be 
responsible to their families and to their children in a way 
that I've seen no one else approach that type of 
responsibility.
    His institute has now been the beneficiary of funding 
through this subcommittee on a competitive basis, through the 
Department of Health and Human Services. The program now has 
become so good it has now spread out, it has gone national and 
exists now in several cities.
    I just want to say that Mr. Ballard is an exemplary 
individual, and someone we're very, very proud of. It's an 
honor to have you before us.
    Thank you, Mr. Chairman.
    Mr. Porter. Thank you, Mr. Stokes.
    Please proceed, Mr. Ballard.
    Mr. Ballard. Good afternoon, Mr. Chairman, Mr. Stokes and 
members of the committee.
    It's a great pleasure to appear before you this afternoon 
and share with you the burden of my heart which I think affects 
not only us here but affects America. It's an issue that I call 
fatherlessness. Fatherlessness is not just simply a man not at 
home, but it's even a man at home but he's not being 
responsible for his family. He's not taking care of them, he's 
not being a good nurturer, a good provider, and other kinds of 
things.
    This approach that we take started in Cleveland about 20 
years ago, is helping men of all races, creeds and colors, but 
especially those who are in disrepair, to be good men, and to 
be responsible men toward their children.
    I need to share with you why it's such a burden to me, 
because I grew up in Alabama back in the 1930s, 1940s, and 
1950s. I experienced this same problem. My dad, because of 
whatever reason, became mentally ill and was taken out of the 
home, where he later died in an institution. I grew up without 
a father, and did things that many guys do, got in gangs and 
did drugs and all. Then I got a girl pregnant and ran away, 
joined the armed forces, got more involved in drugs, ended up 
in prison.
    While I was in prison, I met a man who I would have 
considered, someone like Mr. Stokes, who was compassionate, 
understanding, and who reached out to people and who cared. It 
was very unusual for someone behind bars to be that way, so he 
really attracted my attention.
    He worked with me very patiently and gave me a lot of time 
and introduced me to God and Jesus Christ. I overcame drugs and 
alcohol and went back to Alabama in 1959 to get my son. I had a 
prison record, I was undesirably discharged, I hadn't finished 
high school. But I took on my son, I adopted him and began to 
raise him. Of course, with those kind of records, you couldn't 
find jobs.
    I didn't care about that. I was concerned about caring for 
my child and making sure he did not grow up like that. So I 
took any kind of jobs, dishwashing jobs, floor scrubbing jobs, 
and I went on and got my GED, a B.A. degree, and I have a 
masters degree now.
    When I got my masters in Cleveland, I went to a hospital to 
work, my major purpose was to help me to understand that it was 
their job, not government, not welfare, to care for their 
children. I would say, if not for people like Mr. Stokes, who 
not only supported it locally but nationally, I would not be 
here in this place. Because of his support and his direction, 
foundations and governments from around the country have funded 
our program.
    I appear back here today to not only share with you the 
problems, but to show you what we've done and make some 
recommendations. I was amazed to discover that here in America 
we have more women going to prison than ever before. From 1930 
to 1950, we built four women's prisons. From 1980 to 1990, we 
built 33 women's prisons.
    We've built more prisons in a span of 10 years than we did 
in 30 years. One of the reasons I believe is because we have 
many men going to prison and women are following their 
boyfriends and husbands behind bars, and leave the children 
vulnerable for substitute care.
    Just recently, Congress passed a bill and the President 
signed it to have adopted 100,000 children. That's great, out 
of the 60,000 kids in substitute care, mostly African-American 
kids, but we need to go farther. We need to bring fathers back 
to their children as loving, compassionate men. This program 
that we started that has now gone nationwide is designed to do 
just that. Every city we've gone into the last two years, we 
have planned to raise 25 fathers per site. The need is so 
great, the first year there were 65 fathers per site in 6 
cities.
    Now, in coming today, I wanted to look at doing something 
not just to get money, but to do something special. As I sat 
here, people from other States were shaking hands with Mr. 
Stokes. I've seen him do other things with other States, so his 
name is kind of like around this country.
    I was told he's going to retire very soon. To me, that's a 
major tragedy for us as a country, unless somebody replaces him 
that's as good as he is.
    I would like to suggest more funding for this agency to go 
into other sites, other cities. What I want to do is name this 
program the Louis Stokes Responsible Fatherhood Initiative, so 
around the country, as this program spreads out and becomes 
more pervasive, the person who has given us the most support 
out of Cleveland will now have his name in this way around the 
country.
    Here is what I'm suggesting. When I came before, $500,000 
was given to us in Cleveland for that one program. Of course, 
since that time, we have advanced into California, we're in 
Nashville, Tennessee, Milwaukee, Wisconsin, Yonkers, New York, 
here in the District and of course, Cleveland, Ohio. Letters 
are coming from all around the country as we are placed on 
national TV and asking for this program to come to their city. 
We've chosen 10 new cities to go into.
    What we're suggesting is that this committee appropriates 
$500,000 per site, for a total of $8 million, and that the 
committee also appropriate $500,000 to create a responsible 
fatherhood clearinghouse, so that agencies around the country 
can better understand the plight that these men have, seeking 
to be involved with their children. And that we also 
appropriate $500,000 for research and evaluation to see the 
power of this program, and what we actually do with these men, 
so we can replicate it even more into other areas.
    Let me show you why this is so important. Within the first 
six months of this program, men who have not had jobs, will 
find jobs and begin to pay child support. There is a great 
concern about men paying child support in this country. Some 
men cannot, because they don't have jobs. Through our program 
they find jobs.
    Domestic violence, which is a serious issue among women 
that we interviewed, becomes almost zero in six months. Gang 
membership, gang banging, goes to zero. The program not only 
affects the man with his child, but with his girlfriend, with 
the community, and with also getting gainful employment.
    We also discovered that at least 20 percent of these men 
get married. In the welfare reform bill that was authored by 
Mr. Shaw, marriage was one thing they suggested was happening. 
Our guys are getting married, they're coming back home, and 
they're being responsible for their children.
    Thank you very much for this opportunity to share this with 
you.
    [The prepared statement from Charles Ballard follows:]


[Pages 1580 - 1596--The official Committee record contains additional material here.]



    Mr. Porter. Mr. Ballard, tell me again what line item this 
is funded under? Your current funding is under what agency?
    Mr. Ballard. It came under the Health and Human Services.
    Mr. Porter. Innovative programs. All right. Well, we 
certainly share your feelings about Congressman Stokes and the 
wonderful contributions he has made. I think it's a real honor, 
I'm sure he does also, that the program would be named for him.
    Obviously we want to do the best we can to fund programs 
that work for people. We will do the best to look into it 
further and provide the kinds of resources that are needed.
    Mr. Ballard. Thank you very much.
    Mr. Porter. Thank you for coming here to testify.
    [Clerk's note.--Information required pursuant to clause 
2(g)(4) of Rule XI of the Rules of the House of Representatives 
was not received from this witness or from an entity 
represented by this witness]
                              ----------                              

                                       Wednesday, February 4, 1998.

                                WITNESS

WARREN GREENBERG, MENDED HEARTS, INC.
    Mr. Porter. Warren Greenberg, Ph.D., Chairman, Committee on 
Lobbying and Legislation, representing the Mended Hearts, Inc.
    Dr. Greenberg.
    Dr. Greenberg. Thank you very much, Mr. Chairman. My name 
is Warren Greenberg. I am a professor of health economics and 
of health care sciences at the George Washington University. I 
am married and have a 23 year old daughter.
    I am here to testify for an increased appropriation for the 
National Heart Lung and Blood Institute. I am a victim of heart 
disease, and a beneficiary of the efforts of medical 
researchers to overcome this disease.
    I might also add that I am a member of Mended Hearts, a 
support group of 24,000 members throughout the United States, 
including the Chicago area, the Cleveland area, and I have been 
appointed lobbying and legislative chairperson of the Mended 
Hearts group, a volunteer position.
    I am 54 years old. I was born with aortic stenosis, a 
narrowing of the heart valve. Throughout my entire life, I have 
lived with heart disease, often incredibly severe. When I was 
in my early teens, my physicians did not allow me to play high 
school intramural sports, although I was a fine athlete. At the 
age of 18, I was told not to play ball under any circumstances.
    In my early 20s, I was told not to climb more than two 
flights of steps. By my early 30s, I began to climb steps more 
and more slowly, often pausing to rest. I never carried an 
attache case home from work. It was too heavy.
    I would often balance a large book on my hips, rather than 
carrying it outright, in order to blunt the weight. I would 
walk two or three blocks on a level street to avoid going up 
three or four steps at the ends of particular blocks. I could 
barely lift my newborn child. I could not help my wife take in 
the grocery bags.
    In May 1982, at the age of 39, I had open heart surgery at 
the Cleveland Clinic to replace my diseased valve with the 
valve of a pig. After my six week recuperative period, I was 
amazed to find that not only was I able to walk, but was able 
to play tennis, to jog and to exercise. I was able to live a 
normal life.
    By August, 1988, however, my new valve had failed. In 
August, I again had cardiac surgery at the Cleveland Clinic to 
replace the failed pig valve with an artificial plastic valve. 
I am again able to live a relatively normal, very productive 
life. And I am deeply thankful for it.
    I take a blood thinning medicine, coumadin, which helps 
prevent clots on my new valve. At the same time, because of the 
medicine, I must be cognizant and careful of excessive 
bleeding. In 1983, I contracted endocarditis, an infection of 
the heart valve, which kept me in the hospital for six weeks. 
Whenever I have dental work now, I get intravenous penicillin 
to protect me against such infections.
    I realize that my valve, as a mechanical device, might fail 
at any time.
    For nearly 16 years, thanks to the fruits of medical 
research, I have been able to travel abroad at least once a 
year, to jog in the park, to be a productive author of many 
scholarly articles and a number of books on the health care 
economy. I have been quoted often on my views on the U.S. 
health care system, and have made many television appearances.
    If it were not for the advances in research leading to 
improved techniques in open heart surgery, I would not have 
seen my 40th birthday. I would not be able to look forward to a 
life of many rewards and enjoyments.
    As an economist, I always observe the link between monetary 
resources and the development of innovation and technology. 
Health care research and cardiovascular research is no 
exception.
    I also understand as an economist that there are always 
competing uses for the monies that you appropriate. However, 
cardiovascular diseases last year killed more than 960,000 
Americans, of whom more than 154,000 were under the age of 65. 
Despite advances in medical research, these diseases remain the 
number one killer in the United States and a leading cause of 
disability.
    From my personal perspective, and for those at Mended 
Hearts across the country and others in the United States who 
have heart disease, or who will get it in their lifetime, I ask 
for a doubling of the National Heart, Lung and Blood Institute 
budget within five years. To reach this funding goal, I 
advocate a fiscal year 1999 appropriation of $1.825 billion for 
the National Heart, Lung and Blood Institute, to help reduce 
further the incidence and degree of heart disease in this 
country.
    [The prepared statement of Warren Greenberg, Ph.D. 
follows:]


[Pages 1599 - 1605--The official Committee record contains additional material here.]



    Mr. Porter. Perfect timing.
    Dr. Greenberg. Thank you, Chairman.
    Mr. Porter. Dr. Greenberg, thank you for your good 
statement. You're going to be the recipient of my sermonette 
number one.
    This subcommittee has placed, as you know, biomedical 
research at a very high priority. We think that that is proper, 
not only from the standpoint of improving and saving lives, but 
from the standpoint of saving health care costs as well. 
Research saves costs.
    We share the goal that you have just mentioned, at least I 
do personally. I think members of the subcommittee do as well. 
We are going to have a tough time reaching it without getting 
the kinds of allocations from the budget process that we need 
to reach those goals. This applies not just to biomedical 
research, it applies to all the matters under our jurisdiction, 
many important programs that serve people and improve their 
lives, and serve those most at risk in our society.
    Our plea to those who have come to testify and ask for 
greater funding is that they not only pay attention to the 
appropriations process, which obviously they are, but they also 
pay attention to the budget process, which is where the funds 
come from that allow us to do our work. I think everybody 
realizes this, but John Kasich and his subcommittee in the 
House and Pete Domenici and his committee in the Senate are 
very important to all this process, and the place where the 
allocations derive from which we are able to do our work.
    We hope that you will pay as much attention to them as you 
do to us. That's sermonette number one. Two comes later, but 
that's number one.
    Thank you very much, Dr. Greenberg, for your testimony. We 
will obviously do our best.
    Dr. Greenberg. Thank you, Chairman, and members of the 
committee.
    Mr. Porter. Thank you so much.
                              ----------                              

                                       Wednesday, February 4, 1998.

                                WITNESS

MORGAN REYNOLDS, NATIONAL CENTER FOR POLICY ANALYSIS
    Mr. Porter. Dr. Morgan Reynolds, Senior Scholar, National 
Center for Policy Analysis, testifying for the Center.
    Dr. Reynolds.
    Dr. Reynolds. Thank you, Mr. Chairman and committee 
members.
    I appreciate this opportunity to testify today about 
downsizing labor bureaus and agencies of the United States 
Government. My name is Morgan Reynolds, and I am a senior 
scholar with the National Center for Policy Analysis. I'm also 
a professor of economics at Texas A&M University in College 
Station, Texas.
    I've done four books on labor issues, including a recent 
textbook, economics of labor. I'm a member of the board of the 
Journal of Labor Research.
    Last year, the President's Council of Economic Advisors 
wrote in its annual report, ``Over the long run, sound economic 
policies that lead to low levels of unemployment and high rates 
of economic growth are likely to produce gains for most 
workers.'' True enough, but the Council was unwilling to back 
the market wholeheartedly, declaring instead, ``Government has 
a role in lessening the burden that economic growth causes for 
some workers.''
    The Constitution is strangely silent on this Federal 
authority to protect employees from the gales of creative 
destruction that characterize the market process. We've got a 
colossal structure of Federal labor controls that can't 
withstand careful, rational examination. Like the welfare state 
itself, it appears to emotion, rather than reason.
    Why the invisible hand of market competition, aided by 
ordinary property, tort, contract and criminal law, cannot be 
trusted to work out the ordinary difficulties of daily life has 
never been satisfactorily answered. There is no evidence that 
labor markets have failed with consequences so horrendous as to 
call for the daily microtuning by the mighty and mighty 
expensive visible hand of the United States Government. In 
fact, these bureaus depress business growth and thereby 
impoverish Americans.
    Companies, not government, must control hiring, firing and 
promoting employees. As English economist David Ricardo wrote 
in 1817, ``Wages should be the result of a free compact, and 
the contracting party should look to the law to protect them 
from force being employed on either side. Competition would 
not, I think, fail to do all the rest.''
    In the name of protection for workers, regulation begets 
regulation and spending grows. One of the more absurd 
consequences has been an effort to impose our labor protections 
on other nations, long before they can afford such folly. On-
budget spending indicates only the dead weight administrative 
cost of labor regulation, not the full cost to working people.
    Federal agencies by and large serve political rather than 
economic ends, and we lack the ultimate discipline of 
bankruptcy for programs, which we have in the private sector, 
obviously. Every dollar government spends is received by 
someone, and I know that some of them are here today. The 
recipients have more to gain from preserving a losing venture 
than from dissolving it.
    The era of big government, paternal business, and paternal 
unions, has a limited future. We're seeing it being played out 
in Europe at an advanced stage. Existing employment policies 
are 65 years old and based on an outmoded welfare state 
philosophy. Too many Americans live paycheck to paycheck, 
backed precariously by a frayed safety net. It's time to 
implement a new philosophy. We should promote a society of 
free, responsible and self-reliant individuals instead of 
fearful and dependent ones.
    How can we take pride in expanding the Federal Government 
and reliance on it while our wealth grows? We should aim at new 
policies that allow maximum opportunity for individuals, 
families and generations to pay their own way. I call that the 
American way. An empowerment agenda meets the needs of a more 
flexible work force.
    Growth depends on low rates and marginal taxation, 
especially on capital income, to increase capital formation and 
add new technologies through R&D. Improved labor quality must 
come from a competitive, decentralized and innovative 
educational and training system. A stable political environment 
with stable price level and low interest rates must come from 
government, as must reforms in our institutional arrangements 
to increase growth.
    Empowerment for individuals and families awaits expansion 
and enactment of pro-market reforms, such as medical savings 
accounts, privatization of social security and broadening of 
401(k) type accounts. These should be adopted not only to 
rationalize the markets in health care and prefund retirement, 
but to boost total savings and investment and thus jobs, real 
wages and financial security.
    Given this market approach, we obviously have a target rich 
environment for downsizing labor agencies and deregulating our 
labor markets. The Cato Institute has proposed, for example, 
terminating special interest departments like Commerce and 
Labor.
    Thank you.
    [The prepared statement of Morgan Reynolds follows:]


[Pages 1609 - 1614--The official Committee record contains additional material here.]



    Mr. Porter. You didn't have to stop quite that abruptly. 
[Laughter.]
    Dr. Reynolds, first I'd like to ask what bureaus and 
agencies were you specifically referring to in the first part 
of your remarks? Were you talking about OSHA and MSHA and 
NIOSH?
    Dr. Reynolds. Well, I'll take partial or complete repeal of 
the appropriations for agencies. My little laundry list here 
had eliminate Federal training programs and the Federal role in 
unemployment insurance, and leave it to the States to 
experiment, since they will do a better job. Repeal Federal 
regulations governing hours and wages, leaving Americans free 
to bargain for their own terms of employment in a competitive 
market place.
    Take a more neutral position between business and labor in 
their disputes, ending restrictions on employee-employer 
cooperation and negotiation, or even appealing the National 
Labor Relations Act, which is the overarching legislation 
passed in 1935. Yes, eliminate Federal oversight of the work 
place. Relying instead on a combination of tort law, workers 
comp programs and market wage differentials to promote an 
efficient amount of safety.
    Mr. Porter. Let me say, the philosophy I believe you are 
laying before us is maybe not in its pure form, or even close 
to it, but largely being followed. That is, we are attempting, 
as you know, at least for the last three years, to examine 
every way that the Federal Government spends money, go through 
every single program, to wherever possible move programs where 
it makes sense to a different level of government, to the 
States, to the local communities, to the private sector, to 
eliminate those that don't work or are unnecessary, to examine 
all of that in light of are we getting what we're paying for.
    That may be a more pragmatic view than what you would like 
us to do, but I think very definitely there is, and I don't 
like the word devolution, but I think there's very definitely 
an attempt here in the Congress to devolve a good deal of what 
the Federal Government has come to have jurisdiction over to 
State and local governments. We've gone through, as you know, a 
period of history beginning perhaps with the Great Depression 
through World War II through the Cold War that concentrated an 
awful lot of power in Washington that was not originally here, 
and was in fact exercised by the States and local communities.
    I think we're moving in a lot of the directions that you 
have suggested. I personally have the major legislation to 
privatize social security. It's my bill. I introduced the first 
bill to do that in 1989, when nobody even wanted to talk about 
social security, let alone privatizing any part of it.
    I think we are now in a position where in fact we can form 
the kind of social security system that we would have formed in 
the middle of the Great Depression if we could have, and that 
is, a vested, funded system owned by the workers and not by the 
government. I think we're on the verge of being able to do 
that, if people can have a little imagination.
    We've got a foot in the door on individual medical 
accounts, that is a small pilot program, it's true, under 
Medicare. But it's there. I think some progress is being made 
along these lines.
    I don't think I agree personally with the views that you 
have, and I'm not sure whether they're libertarian or laissez 
faire or a combination of the two. But I'm not sure I agree 
that the government can back out of certain worker protections. 
I think that there has been, unfortunately, a history that we 
are largely overcoming, and we can do things entirely 
differently. But until we turn that corner, I think we're going 
to need to provide some basic protection to workers.
    We have an OSHA today for example, that has changed its 
philosophy completely. It hasn't gotten down to the lowest 
levels of enforcement, but if you talk to the director of the 
program, in Washington, the idea is not to have raids on 
employers and fine them for every little thing that they find. 
The idea is to get their cooperation and work with them to 
provide a safe and healthy work place for American workers, and 
only to use the enforcement powers where you have a history of 
not caring about those conditions in the work place that lead 
to greater safety and health.
    I think we're doing things smarter than we did before. 
Maybe our approach is more based on pragmatism than on 
philosophy, as you might wish it, but I think it's moved 
largely and fairly substantially in a short time in the kinds 
of directions where we're doing things better and doing less in 
Washington and leaving more to the private sector and more to 
the other levels of government.
    Dr. Reynolds. If I might respond.
    Mr. Porter. Yes, sir.
    Dr. Reynolds. I certainly agree with that, the trend is 
clear. I also wanted to note that in my prepared statement, I 
say that the harm from labor regulation has been contained 
because the Congressional majority always fears the business 
destruction caused by such regulation, and so limits its 
attempts to put this flawed theory into practice. I think 
that's what's gone on, for example, with OSHA reform.
    Mr. Porter. I also believe, and the real progress isn't 
here in Washington, the real progress is out there in the 
private sector, where we have an employer community that is 
much more progressive and caring about the fate of their 
workers than it used to be, or at least the evidence points to 
a different philosophy in the past than I think is exhibited by 
most business people today.
    The problems that once existed are very much less, because 
I think labor and management increasingly are seeing their 
destines as being tied inextricably and their success dependent 
upon one another, which is exactly where it really has always 
been, very frankly. You can't have one without the other. Both 
have to prosper and go forward.
    Well, we could discuss this at some length. Mr. Miller, I 
expected you might.
    Mr. Miller. One of the frustrations you brought up this 
morning about appropriations versus authorization, and we can 
only do certain things at the appropriations level. We have 
made some progress. You mentioned OSHA. We have shifted 
resources from enforcement, the police action, versus the 
classification compliance, which is a little different from 
sending in the police and such and get people to work to 
resolve an issue. There are problems there.
    You mentioned NLRB. First year we had control to slash the 
budget 30 percent in the House, but it didn't work out in the 
Senate. So it's a frozen budget, and the cost of living changes 
and affects our changes, it really means a cut. There's only so 
much we can do, but we need to keep addressing it.
    A lot of it goes back to laws in the 1930s or 1950s, the 
threshold, for example, one issue we've talked about with NLRB, 
the threshold is like $50,000 in payroll costs before they can 
get involved. Well, that's a very small amount. If you adjusted 
that to inflation, you'd be up at a half a million dollars. 
That's where you should be.
    We're trying. We appreciate your bringing your thoughts to 
us on the issues. Thank you.
    [Clerk's note.--Information required pursuant to clause 
2(g)(4) of Rule XI of the Rules of the House of Representatives 
was not received from this witness or from an entity 
represented by this witness.]
                              ----------                              

                                       Wednesday, February 4, 1998.

                                WITNESS

JOE CIPFL, ILLINOIS COMMUNITY COLLEGE BOARD
    Mr. Porter. Dr. Joe Cipfl, President and CEO, Illinois 
Community College Board, Springfield, Illinois, testifying in 
behalf of the board.
    Joe, nice to see you.
    Dr. Cipfl. Nice to see you, Congressman Porter, and I 
certainly want to express appreciation for having the 
opportunity to appear before you today. I assure you, I come 
before you today proudly from the State of Illinois, the home 
State of Chairman Porter. Certainly, Congressman, we want to 
thank you for your great leadership and the commitment that 
you've given to community colleges in our State.
    What I would like to do this afternoon is to assure you 
that community colleges are prepared for the opportunity to 
play an expanded role as policies and budgets are developed, 
particularly in welfare to work programs and work force 
training programs. Two issues that are fundamentally important 
at this point in time in the history of the State of Illinois, 
and certainly the history of our Nation.
    I think it's important to acknowledge this afternoon that 
community colleges at this point in time are the largest sector 
of higher education in our Nation. Nationwide, in fiscal year 
1997, community colleges enrolled 5.3 million credit students 
and approximately 5 million non-credit students.
    Illinois has the third largest community college system in 
the Nation. This past year, we served in excess of one million 
students, literally one out of every ten Illinoisans are 
currently enrolled in a community college.
    The average age of those Illinoisans is 31 years of age, 
that are enrolled in community colleges, a very adult 
population. A group of individuals who thought they had skills 
to last them a lifetime, and in this technological revolution 
in which we're all trying to survive, found out that they had 
to literally return to the classroom.
    I think it's important to note also in Illinois that 63 
percent of the students enrolled in public higher education are 
attending community colleges. In Illinois and nationwide, we 
are the primary provider.
    Welfare reform ranks high on the national agenda. And it is 
true in Illinois. Helping welfare clients fulfill their 
potential and acquire the skills for gainful employment ranks 
among the top priorities of the Nation's community colleges.
    A work force emphasis accompanies recent legislative 
welfare changes. Illinois community colleges are responding to 
this need with a powerful program called Expanding 
Opportunities. In partnership with the State's department of 
human services, this program places an emphasis on short term 
occupational certificates and skill building courses that are 
designed to help people quickly develop skills for upwardly 
mobile employment.
    Expanding Opportunities has moved literally thousands of 
people from the welfare rolls to the work place. This model 
program can and should be replicated, and it can work in States 
throughout the Union. We need to expand these programs and 
those like it, taking folks from welfare and putting them in 
the work place.
    In one accessible location, community colleges provide the 
array of programs and services necessary to move people, at an 
accelerated pace, from welfare to work. Today's world also 
demands an increasingly skilled work force, and an educated 
citizenry.
    I think it's important to note that by the year 2000, 89 
percent of the jobs in the United States will require post-
secondary levels of literacy and post-secondary levels of math 
skills. Only half of the new workers coming into the work force 
are likely to have those skills.
    This skills gap will create increasing disparity in wages, 
unless corrective action is in fact taken. I would suggest to 
you that community colleges are uniquely positioned to help 
workers compete in a marketplace that demands heightened levels 
of competency. The colleges provide credit generating work 
force training course work in hundreds of different 
occupations. Community colleges also offer customized, 
flexible, non-credit training for business, for industry and 
for government.
    For example, in fiscal year 1997, Illinois community 
college business and industry centers provided technical 
assistance to 2,300 businesses and 76,000 employees. Through 
economic development activities, these centers helped create or 
retain over 165,000 Illinois jobs in the last five years alone.
    This afternoon, I want to applaud your identification of 
education, and particularly higher education, as a top priority 
in the budget process. Our citizens place a great trust in 
community colleges to provide a skilled, American work force, 
one that can compete successful in a competitive, global market 
place. Funding for community colleges helps sustain the 
communities that serve communities from which we all draw our 
educational and our political nourishment.
    One final point, if you will allow me. Nationwide, tuition 
and fees for the average full time community college student 
are only $1,500 a year. This low cost is certainly a remarkable 
educational value. But there is still a very real need for 
financial aid among our students.
    Many low and middle income families are taking advantage of 
the Hope Scholarship Tax Credit and will benefit from 
continuation of this program. Thank you.
    The increase in Pell Grants achieved last session is 
laudable, but more needs to be done. Nationwide, a need exists 
to provide a Pell Grant maximum for fiscal year 1999 that is 
greater than the $3,100 requested by the Administration. 
Providing increased income protection allowance proposed by the 
Administration will also enhance educational access. The Title 
III(a) strengthening institution programs is a key initiative 
for community colleges.
    I urge you to fund it at the $80 million level in fiscal 
year 1999, Congressman Porter, that you support it. Your 
support of Pell Grants, along with other financial aid, such as 
Perkins loans, helps maintain the rich diversity of community 
college student bodies. This aid makes a quality higher 
education truly accessible to all who desire it.
    In summary, I would suggest to you that America's community 
colleges have truly emerged as the vanguard institutions for 
preparing workers and their companies for the challenges ahead. 
Our community college systems exemplify low cost, high quality 
post-secondary educational opportunity empowerment.
    Thank you, sir.
    [The prepared statement of Joseph Cipfl, Ph.D., follows:]


[Pages 1620 - 1622--The official Committee record contains additional material here.]



    Mr. Porter. Dr. Cipfl, can I ask you a question about 
costs? This may not be a fair question for you, but you may 
know the answer to it.
    There's great concern that as we make increases--excuse me 
a second.
    There's great concern that as we increase the assistance 
through Pell Grants and loan programs for students for higher 
education that the costs of that education rise to meet and 
sometimes exceed the increases. We are left not having made any 
progress at all. Can you comment on that generally?
    Dr. Cipfl. I would be happy to comment on that, sir. 
Certainly the suggestion that available dollars cause us in 
higher education to elevate our costs I think is an issue that 
needs to be addressed.
    In Illinois, we've identified two particular initiatives. 
One is PQP initiative, priorities, quality and productivity. 
We're attempting to very carefully examine our unit costs. The 
dollars that it truly takes to provide, literally, a college 
credit hour. Rather than simply elevating those costs, we're 
attempting to document the implication of those costs.
    I believe that is an issue that can be raised, but I think 
the higher education community is prepared to in fact not only 
defend but explain and validate the costs that we're incurring, 
literally, in this technological revolution. I would suggest to 
you today that the strength that this Nation's economy is 
enjoying can be at least in part, I think, attributed to what's 
happening in the higher education arena today. That in fact the 
technology that's being developed, the technology that's being 
impacted, that's impacting the strength of the economy, that 
education has played a role in that. I guess we would ask for a 
reinvestment.
    But I think we're prepared to explain our costs.
    Mr. Porter. Joe, that wasn't a hostile question. It was an 
access question.
    Dr. Cipfl. Oh, I understand.
    Mr. Porter. What we're concerned about is that if the costs 
rise as fast as or faster than the resources we add, we don't 
get the increased access that we're trying to achieve. It's not 
that they're not justified, or that they're not working overall 
in respect to improving the quality of the education that's 
being offered. But how do we get the access if they're 
absorbed. That's really what I was concerned with.
    Dr. Cipfl. Well, since I'm here speaking in behalf of 
community colleges----
    Mr. Porter. As I said, it was probably an unfair question.
    Dr. Cipfl. Oh, no, I love it. You know, the cost of 
community colleges I believe address the access issue. When you 
talk about access, I assume you're talking about student 
access. I think it's important for the community colleges in 
this Nation to continue to elevate their ability to provide. 
Really, when you're talking about that baccalaureate degree, I 
would suggest to you that costs can be considerably curbed if 
the freshman and sophomore year of that baccalaureate degree 
become the primary responsibility of this Nation's community 
colleges. You will save lots of dollars, and we can document 
the quality that you can provide.
    Mr. Porter. You did make that an opportunity question. 
Good. [Laughter.]
    Joe, thank you very much. We very much appreciate your 
testimony.
    Dr. Cipfl. Thanks for your leadership, sir.
    Mr. Porter. The subcommittee will stand in recess for the 
vote that is taking place on the House floor, and the period 
should be about 15 minutes.
    [Recess.]
    [Clerk's note.--Information required pursuant to clause 
2(g)(4) of Rule XI of the Rules of the House of Representatives 
was not received from this witness or from an entity 
represented by this witness]
                              ----------                              

                                       Wednesday, February 4, 1998.

                                WITNESS

WILLIAM H. MAHOOD, M.D., DIGESTIVE DISEASE NATIONAL COALITION
    Mr. Porter. The subcommittee will come to order.
    There's going to be another vote in probably 15 or 20 
minutes, and we're going to try to get two witnesses in in that 
time, and I will try to keep quiet.
    William H. Mahood, M.D., President, Digestive Disease 
National Coalition, testifying in behalf of the Coalition. Dr. 
Mahood.
    Dr. Mahood. Mr. Chairman, thank you for the opportunity to 
appear before you today.
    I am Bill Mahood, I'm a practicing gastroneurologist, just 
outside of Philadelphia, in a little place called Abingdon, 
Pennsylvania. I am the President of the Digestive Disease 
National Coalition.
    We were founded in 1978, 22 professional and lay, that is 
patient-oriented, organizations. Mr. Chairman, the social and 
economic impact of digestive disease is enormous. Digestive 
disorders afflict approximately 62 million Americans, resulting 
in 50 million visits to physicians, 10 million 
hospitalizations, 230 million days of restricted activity, and 
nearly 200,000 deaths annually. The total costs associated with 
digestive disorders is estimated conservatively to be $56 
billion a year.
    With these devastating numbers in mind, I would like to 
take the opportunity to thank you, Mr. Chairman, for what you 
have done in the past for the National Institutes of Health and 
for the Center for Disease Control and Prevention. Regarding 
the coming year, I would like to briefly discuss digestive 
disease research at NIDDK, colorectal cancer screening and 
prevention activities at the CDC, and hepatitis research and 
prevention.
    Millions of Americans suffering from digestive disorders 
are pinning their hopes for a better life or even life itself 
on medical advances made through research supported by the 
NIDDK. Recent breakthroughs in the understanding of 
hemochromatosis, Crohn's disease, pancreatitis and other 
digestive abnormalities reinforce the need for continued 
support of NIDDK.
    Where the fiscal year 1999, DDNC is recommending that the 
NIDDK receive a 15 percent increase over last year. This 
percentage translates into $131 million over 1998. But at this 
point, Mr. Chairman, I would like to make clear that although 
DDNC strongly supports the concept of doubling NIH's overall 
budget in the next five years, we do not believe that these 
increases should come from the expense of other important 
public health service programs.
    Now, colorectal cancer is the third most commonly diagnosed 
cancer for both men and women in the United States. It's the 
second leading cause of cancer-related deaths. But we can 
prevent this caner from killing by proper screening, and we can 
even cure it if caught early. Mr. Chairman, there's a 
tremendous need to inform the public about the availability and 
advisably of screening. We need to educate health care 
providers with respect to colorectal screening guidelines.
    The recently initiated National Colorectal Cancer Screening 
Awareness program at CDC will address these needs. They are 
going to coordinate with national partners like our Coalition 
to develop an information program emphasizing the value of 
early detection. The digestive disease community hopes that 
this new program will do for colorectal cancer screening what 
CDC's breast and cervical cancer program has done for 
mammography and pap screening compliance.
    Mr. Chairman, as the DDNC representative to the CDC 
colorectal screening program, I have seen first-hand the 
ambitious plan that CDC has to reduce the incidence of this 
devastating disease. As a result, we encourage the subcommittee 
to provide CDC with $5 million, an increase of $2.5 million 
over fiscal year 1998 for this vital and important campaign.
    Finally, Mr. Chairman, I would like to talk about one of 
the country's most dangerous and prevalent infectious diseases, 
viral hepatitis. More than five million Americans are currently 
infected with chronic hepatitis B or C. Overall, 165,000 new 
cases a year. Because chronic viral hepatitis can result in 
liver failure, liver transplantation at a quarter of a million 
dollars a case often becomes the only treatment option 
available.
    Already, chronic hepatitis C accounts for one-third of all 
liver transplants being performed in the United States. It's 
estimated that there are up to 10,000 deaths annually from 
hepatitis C. This number is projected to triple by the year 
2010.
    DDNC is pleased that the NIDDK convened a hepatitis C 
consensus development conference last March. We believe that 
priority should be given to supporting the research 
recommendations developed by the consensus panel, particularly 
the development of vaccines for hepatitis C, although we urge 
making existing hepatitis B vaccines available at at-risk 
populations through an expansion of the CDC vaccination 
program.
    I appreciate the opportunity of being before you today, 
sir.
    [The prepared statement of William H. Mahood, M.D., 
follows:]


[Pages 1626 - 1633--The official Committee record contains additional material here.]



    Mr. Porter. Dr. Mahood, thank you very much for your 
excellent testimony. We will certainly take your views into 
account when we come to mark up the bill.
    Thank you for being here.
                              ----------                              


                                       Wednesday, February 4, 1998.

                                WITNESS

MYLES P. CUNNINGHAM, M.D., AMERICAN CANCER SOCIETY
    Mr. Porter. Myles P. Cunningham, M.D., Immediate Past 
President, American Cancer Society, testifying in behalf of the 
Society. Dr. Cunningham, nice to see you.
    Dr. Cunningham. Good afternoon, Mr. Chairman.
    It is indeed a pleasure and an honor to come before this 
committee again. My name is Myles P. Cunningham. I'm a surgical 
oncologist from Evanston, Illinois, St. Francis Hospital. I'm 
here as the immediate past president of the American Cancer 
Society.
    May I please begin with a comment on the new cancer 
initiatives proposed in the President's budget. The American 
Cancer Society supports all initiatives to increase cancer 
research and put cancer prevention into practice. However, the 
American Cancer Society believes that biomedical research, 
access to clinical trials and tobacco prevention and cessation 
programs must be considered and funded on their own merits and 
not be held hostage to the uncertain funding flowing from 
equally uncertain outcomes of tobacco legislation.
    For the first time in history, we have witnessed a 
sustained decrease in cancer mortality and incidence. We know 
why this is so, and we know what we must do to accelerate this 
trend. While fewer people are dying overall, it is 
unfortunately not so true for the poor, the underserved, the 
minority Americans, who bear a disproportionate share of the 
cancer burden. Over and above all other funding priorities, we 
urge you to provide support for those activities, research, 
data collection, clinical interventions, that will let us serve 
those in greatest need.
    Even if treatment for cancer were to become 100 percent 
successful, the simple fact is that most Americans would rather 
not develop cancer in the first place. We can prevent cancer. A 
mountain of epidemiological research has now persuaded us over 
the last 15 years that approximately 70 percent of cancer is 
preventable.
    The impressive decline in lung cancer mortality recognized 
for the last five or six years is due simply to the fact that 
since the Surgeon General's tobacco report in 1964, you have 
been willing to fund tobacco cessation and avoidance programs 
that have worked. That includes programs for both cigarettes 
and smokeless tobacco.
    This is the essence of cancer prevention, cancer prevention 
at its finest. More than any other single prevention 
initiative, we ask that you sustain and expand efforts to 
protect children from the lure of the deadly addition of 
tobacco.
    Mr. Chairman, 38 million Americans do not have a bad 
smoking habit. They are hopeless and craven addicts, addicted 
in their young teens and even earlier years, desperately trying 
to stop smoking and barely able to do so. Our government 
currently spends less than $50 million annually on tobacco 
control. This is less than the tobacco industry spends in just 
four days on promotions and advertising to expand their addict 
class and especially, regrettably, to seduce, to hook our kids.
    Mr. Chairman, we need to improve our support for ASSIST and 
coordinated national programs in an amount not less than $90 
million, a mere pittance compared to the billions spent 
annually by the tobacco cartel. We must expand early detection 
and treatment access by increasing funding through signature 
public programs like CDC's breast, cervical and colorectal 
cancer initiatives. These are especially useful and warranted, 
because they target the underserved.
    Thank you, Mr. Chairman, for the Medicare Benefits 
Improvement Act. I'm provoked in part by my colleague Dr. 
Mahood, I ask that, did you know that screening for colon 
cancer now covered for Medicare beneficiaries is also an 
extremely effective prevention tool, that if widely applied 
could theoretically eliminate colorectal cancer by identifying 
and treating precursor lesions.
    Finally, Mr. Chairman, you are aware that the health care 
industry is now in the throes of blockbuster, mega merger 
deals. This industry is doing these deals because they, more 
than anyone, recognize the truly huge opportunities now 
available to eliminate human disease, especially cancer, 
through biomedical research. Biotechnology, molecular biology, 
gene research and all of the tools of modern scientific 
investigations, have brought us to the threshold truly of a 
revolution in modern scientific opportunity. We must seize this 
opportunity by substantially increasing our funding for cancer 
research.
    We urge you to fulfill your commitment to a doubling of 
funds for both NIH and NCI.
    Cancer mortality and incidents, as I have said, are now 
beginning to decrease. This is an unassailable fact and a sea 
change in the immunology of this terrifying disease. The 
American Cancer Society asks you to join us in our challenge to 
the American people to reduce cancer mortality by 50 percent by 
the year 2050. This goal is a stretch, it's a reach, but it's 
doable if we all get behind it.
    We can meet this formidable goal only if we all do our 
part. Mr. Chairman, thank you for everything you've done in the 
past. Please continue to do your part for a healthy America.
    [The prepared statement of Myles P. Cunningham, M.D., 
follows:]


[Pages 1636 - 1648--The official Committee record contains additional material here.]



    Mr. Porter. Dr. Cunningham, I'll do my very best. We'll do 
our very best to meet the doubling goal that we've set. I don't 
know whether we're going to achieve it, or even a good start on 
it this coming year, but I have a very strong feeling that in 
the next year and the years after, that the chances will be 
quite good. It all depends on a very strongly growing economy. 
It's been doing wonderful, let's all keep it going that way. 
And we have a good chance of generating the resources we need 
to do these things.
    Thank you for appearing here this morning.
                              ----------                              

                                       Wednesday, February 4, 1998.

                                WITNESS

MICHELE LICURSI, FOUNDATION FOR ICHTHYOSIS AND RELATED SKIN TYPES
    Mr. Porter. Next, we have Michele Licursi, Volunteer 
Regional Coordinator for FIRST's National Support Network, 
accompanied by her son, Ryan Licursi, testifying in behalf of 
the Foundation for Ichthyosis and Related Skin Types, which is 
FIRST.
    Nice to see you. Thank you for being with us.
    Ms. Licursi. Thank you. Mr. Chairman and members of the 
subcommittee, my name is Michele Licursi. I am testifying as a 
mother and a representative of the Foundation for Ichthyosis 
and Related Skin Types, which is FIRST. Testifying with me 
today is my son, Ryan. He has a type of ichthyosis called 
epidermolytic hyperkeratosis, or EHK.
    I wish to thank the subcommittee for this opportunity to 
testify regarding funding for skin disease research and the 
budget for NIAMS. Ichthyosis is a family of genetic skin 
diseases characterized by dry, thickened, scaling skin. They 
are caused by genetic defects that are usually the result of 
genetic inheritance. There is no cure for ichthyosis and there 
are no truly effective treatments.
    EHK causes the skin to be fragile. The slightest bump can 
cause the skin to break away. Blisters are common. Scaling and 
flaking are continuous. The skin is tight and cracks. The palms 
and soles are thick, making something as simple as holding a 
pencil or as natural as walking difficult and painful.
    Overheating is dangerous, and infections are a constant 
threat. We're experts now, but 12 years ago, like most people, 
we had never even heard of ichthyosis. We learned together the 
hard way. We found out that diapers rubbed the skin off Ryan's 
leg, that car seats and high chairs had to be lined with 
sheepskin, that his daily skin care routine took several people 
and a couple of hours.
    Relatives had to be taught how to pick him up and how to 
hold him. We no longer shopped for cute little outfits. We look 
for any clothes that his skin would tolerate.
    Shoes were out of the question for years, and still 
continue to be a big problem. Ryan has been hospitalized for 
infections, simple medical procedures are complicated. Our days 
and activities are planned around his skin care. We get stares 
and question from strangers. We have been accused of all kinds 
of child abuse.
    While the physical aspects of ichthyosis are obvious, the 
blows to one's self-esteem can be even more damaging. Ryan 
enjoys school, and has lots of good friends. But that's not the 
case with many kids with ichthyosis who are not as outgoing and 
confident as Ryan. Confident enough to tell you a little bit 
about living with ichthyosis.
    Mr. Licursi. I'm 12 years old and in the seventh grade. As 
you know, I have epidermolytic hyperkeratosis, and it stinks. 
There are many things that other kids can do that I cannot, 
because of my skin. It is very dry, fragile, and I blister very 
easily.
    Any contact sport is out. I can't be on a basketball team, 
because if anyone bumps into me, or knocks me down, my skin 
will rip. I can't be on a soccer team, because if someone kicks 
me or I get hit with a ball, my skin will come off.
    I often have blisters on my feet. I can hit the ball in 
baseball, but getting around the bases is another story. I'm 
always the last one picked for teams in gym class. In the 
winter, I even have trouble writing because the skin on my 
hands gets stiff and cracks.
    Another problem with having EHK is that every day I have to 
get up an hour earlier than all the other kids in order to soak 
in the tub for half an hour, have cream put all over my body 
and let it soak in before I put on my clothes. If I didn't do 
this each day, I would be so stiff and dry that I could not 
stand it. It hurts to do it, but it would be worse if I didn't.
    People in my town and school know me and understand my 
physical condition. When I go to the mall or any other public 
place, people stare and make comments. Any place I go, I leave 
a trail of skin. You will know I was sitting in this chair.
    I would really appreciate any research that can be done to 
cure this condition.
    Ms. Licursi. We recognize this subcommittee's strong 
history of bipartisan support for medical research funding and 
NIH. As a result, researchers have begun to identify the 
genetic mutations that cause EHK and several other forms of 
ichthyosis. We are excited about this progress and about the 
current research into gene therapy. We are hopeful about the 
possibility for an effective treatment or cure, but at this 
point, it's still hope. We continue to be frustrated by the 
lack of effective treatment options.
    We're also discouraged by the lack of available testing 
facilities. Genetic testing is possible today for types of 
ichthyosis for which the specific mutations have already been 
identified. However, these tests are generally unavailable 
except on a research basis.
    FIRST urges a 15 percent increase for NIH funding in the 
next fiscal year. FIRST also supports increased investment in 
translational research which would build upon this new 
scientific knowledge to develop practical applications for 
those with ichthyosis and other skin diseases.
    In 1992, FIRST testified regarding the need for a national 
registry. Today, as a direct result of your interest and 
support, we have the national registry for ichthyosis and 
related disorders, which helps generate researcher interest in 
ichthyosis and provides investigators with a pool of affected 
individuals with a confirmed clinical diagnosis resulting in 
significant savings and research time and dollars.
    Current funding for the registry expires in 1999, but its 
work must continue. Continued funding of skin disease 
registries will ensure these valuable resources will be 
maintained.
    On behalf of our members, those with ichthyosis and their 
families, we thank this Congressional subcommittee for their 
time and attention.
    [The prepared statement of Michele and Ryan Licursi 
follows:]


[Pages 1652 - 1657--The official Committee record contains additional material here.]



    Mr. Porter. Ms. Licursi, thank you for your testimony.
    Ryan, you seem to be doing real well. I think it's great 
that you're here to testify to bring the attention of the 
subcommittee to the disease that you suffer from, because 
you're going to help other kids, because we're going to find a 
way to unlock this key and make certain that this disease 
doesn't exist any more.
    To the extent that we can provide the resources to 
scientists to do that, we are committed to doing just that. So 
we really appreciate your coming to testify. I think it helps a 
lot of other young people and others in your condition. I think 
it's terrific that you and your mom are here. Thanks so much.
    Ms. Licursi. Thank you.
    Mr. Porter. That obviously is another vote. We're going to 
try one more witness and see if we can get her testimony in 
before the bell rings again.
    [Clerk's note.--Information required pursuant to clause 
2(g)(4) of Rule XI of the Rules of the House of Representatives 
was not received from this witness or from an entity 
represented by this witness]
                              ----------                              

                                       Wednesday, February 4, 1998.

                                WITNESS

NANCY MUNRO, AMERICAN ASSOCIATION OF CRITICAL CARE NURSES
    Mr. Porter. Nancy Munro, RN, MN, CCRN, ACNP, Critical Care 
Clinical Nurse Specialist, Georgetown University, testifying in 
behalf of the American Association of Critical Care Nurses.
    Ms. Munro, you're going to have to explain afterwards the 
alphabet that is after your name.
    Ms. Munro. I certainly will. I'm Nancy Munro, I'm a 
clinical specialist at Georgetown University Hospital. I'm 
pleased to be here to present testimony on behalf of the 
American Association of Clinical Care Nurses in support of 
funding for the National Institute of Nursing Research, the 
Agency of Health Care Policy and Research, and the Title VIII 
Health Professions program.
    AACN is a not for profit association dedicated to the 
welfare of people experiencing critical illness or injury. AACN 
was founded in 1969, and has grown to be the world's largest 
specialty nursing organization, with nearly 73,000 members, 
representing the United States and 35 countries.
    Our goal should be to translate the promise of scientific 
discovery into improved quality of life for all Americans. To 
accomplish this, we must continue to invest in medical research 
and the NIH. Towards this end, I encourage the subcommittee to 
support the recommendation of the Ad Hoc Group for Medical 
Research Funding, which calls for a 15 percent increase in the 
NIH budget for fiscal year 1999.
    It represents the first steps to double the NIH budget over 
the next five years. With that increased appropriation, AACN 
will work to ensure that NINR receives its fair share of the 
increase.
    AACN strongly supports NINR's goals of health care 
effectiveness, cost effectiveness, and assuring that the 
scientific agenda has a humane aspect and translates research 
findings into applications that improve the Nation's health.
    As nurses who provide care for the critically ill, one of 
the most important things we can do for our patients is provide 
relief for pain and suffering. Nursing affords a unique vantage 
point to examine which way pain affects patients and their 
families. Pain is a costly health care problem, prompting 
approximately 40 million visits to health care providers each 
year, and over $100 billion annually in lost productivity and 
health care expenses.
    Over the past year, NINR has reported two groundbreaking 
advances in pain research, one showing gender differences in 
response to analgesics, and the second indicating that 
sedatives given before surgery can actually block the action of 
medication given to relieve pain after surgery.
    AACN currently sponsors Thunder Two project, a large multi-
site research partnership project in partnership with several 
other nursing organizations. The purpose of this research is to 
examine pain perceptions and responses in critically and 
acutely ill pediatric and adult patients in selected 
procedures. Data collection is underway and hopefully will be 
completed by 1999. To date, over 200 sites are enrolled in the 
United States, Canada, Australia and United Kingdom.
    AACN also supports NINR's leadership in improving end of 
life care. NINR recently held a state of the science conference 
on symptoms of terminal illness, to address end of life issues 
in four areas: pain, dyspnea, cognitive differences and 
cachexia. AACN firmly believes research is needed to develop a 
scientific basis for critical care nursing practice to achieve 
a broad understanding of the role and impact of critical care 
nurses on patient outcomes.
    Many research projects funded by the AHCPR are gradually 
helping communities to refocus health care so it is truly 
driven by the needs of patients and their families. AACN was 
pleased to see that the patient budget includes $171 million 
for AHCPR and a $25 million increase over 1998.
    As you know, in 1990, Congress passed the Patient Self-
Determination Act, which AACN believes has made significant 
progress in educating Americans about their right to make their 
own health care decisions. This is of particular interest to 
AACN in light of the Robert Wood Johnson study that followed 
9,000 critically ill patients, and found discrepancies between 
the patients' end of lifedecisions and their actual treatment.
    AACN currently is working to educate consumers about the 
Patient Self-Determination Act and its importance. Committee 
support for AHCPR has provided AACN with the resources to 
design a community outreach program to improve completion rates 
for advance directives. AACN's program, in conjunction with 
UCSF research on advance care planning, including advance 
directives, has specific emphasis on education, stressing 
definition and documentation of patient preferences, so in the 
event of a catastrophic event, the individual preferences can 
be honored.
    Additional funds were also received for the project as a 
result of AHCPR funding in 1998. AACN believes that education 
is fundamental for professional growth, and to the excellence 
in clinical practice and optimal patient outcomes. 
Practitioners must confirm to a lifelong learning to assure 
that they remain competent, fulfilling their obligations to 
patients and the families that they serve.
    According to the Bureau of Labor Statistics, the demand for 
health care professions is expected to grow to 47 percent by 
the year 2005, with the need for advance practice nurses among 
the greatest. In addition, an Institute of Medicine study on 
the role of nursing staff in hospitals found that more advanced 
or more broadly trained registered nurse work force would be 
needed in the future. Such training is currently funded under 
programs funded under Title VIII of the Public Health Service.
    AACN is pleased that Congress has provided an increase in 
health professions training, and hopes it will again 
demonstrate support in 1999.
    In closing, thank you, Mr. Chairman, for this opportunity 
and your support of nursing research in the NIH.
    [The prepared statement of Nancy Munro follows:]


[Pages 1661 - 1674--The official Committee record contains additional material here.]



    Mr. Porter. That was perfect, Ms. Munro, thank you.
    I have an RN in mind and CCRN I assume is critical care?
    Ms. Munro. That's a certification by AACN.
    Mr. Porter. What's MN?
    Ms. Munro. Masters in Nursing.
    Mr. Porter. ACNP?
    Ms. Munro. I'm proud to say that I just completed my Acute 
Care Nurse Practitioner certification.
    Mr. Porter. Okay. Just for my education.
    Obviously, we are listening very intently to what you say, 
and we agree with you that a lot of progress has been made at 
the National Institute of Nursing Research. We want to be 
supportive and we really thank you for coming here to testify 
in their behalf today.
    Ms. Munro. We appreciate it.
    Mr. Porter. Also I might add, health professions is a high 
priority. Mr. Bonilla has been one of our leaders on this. I 
think he will tell you as well, that it would be helpful if the 
word got over to our colleagues on the other side of the 
rotunda that this is a very high priority, too.
    Ms. Munro. We're definitely trying.
    Mr. Porter. Thank you, Ms. Munro.
    The subcommittee will stand in recess until these votes 
have been completed.
    [Recess.]
                              ----------                              

                                       Wednesday, February 4, 1998.

                                WITNESS

DONNA A. MELTZER, FRIENDS OF NICHD COALITION
    Mr. Porter. The subcommittee will come to order.
    Our next witness is Donna A. Meltzer, Chair, Friends of 
NICHD Coalition, and testifying in behalf of the Coalition.
    Ms. Meltzer. Thank you, Mr. Chairman.
    I'm pleased to be able to testify today on behalf of the 
Friends of NICHD Coalition, a coalition of nearly 100 
organizations that support the extraordinary work of the 
National Institutes of Health, with a special focus on the 
National Institute of Child Health and Human Development.
    Our coalition, which is in its twelfth year, includes 
scientists, health professionals and advocates for the health 
and welfare of women, children, families and people with 
disabilities.
    A recent quote I saw in a Washington Post article said, I 
will protect my child from everything except a life lived 
passionately. I noted this quote, as it seemed to summarize 
exactly the way my husband and I hope to raise our children. 
While I can encourage my young son to live passionately, the 
opportunity to do so will ultimately be his.
    However, as a parent, it is my job to protect his health 
and nurture his well-being in every way possible. Thanks to the 
work of the NICHD, many parents, including myself, have been 
able to deliver healthy babies and do a better job of 
protecting them. With testing such as that for PKU, a test 
which was developed by NICHD, parents are able to prevent, to 
the best of our ability, the occurrence of mental retardation 
in our babies. We now know that we must put our babies to sleep 
on their backs to prevent SIDS, and we working moms can feel 
better about having our children in day care, thanks to the 
information that NICHD has been collecting in the ongoing child 
care study.
    I'm especially pleased today to be able to thank you for 
your strong support for NIH. In spite of the recent tight 
budgets, you have held fast to your belief in investing in 
America's health. You have turned to us, the Friends of the 
NICHD, to help share knowledge about NICHD's work with you and 
your staff.
    Last winter, we were able to bring nearly 50 appropriations 
staffers to the Bethesda campus, where they were able to see 
first-hand what it's like to be both a patient at NIH as well 
as lab researcher. It is our hope to expand that knowledge to 
all members of Congress and their staff in June, when the 
Friends of NICHD will host, as part of NICHD's 35th anniversary 
year, a scientific exhibition and reception.
    It is unbelievable to all of us to think that just two 
short years ago we had a budget deficit of $292 billion. Now in 
1998, we are hearing a different and exciting word: budget 
surplus. Whether or not a surplus can be made available for 
use, the Friends of NICHD would like to see surplus equal 
solutions. For 35 years, the NICHD has been providing solutions 
through research, solutions for the world, the Nation, and the 
families that live in your town.
    Solutions such as prevention of premature delivery. NICHD 
researchers have found that not only can maternal infection 
cause amniotic infection, but that the actual premature 
delivery can be stimulated by the fetus attempting to escape a 
dangerous uterine environment in order to protect itself. 
However, the resulting premature birth may pose an even greater 
risk to the fetus.
    Therefore, NICHD is developing a rapid method for detecting 
infection, allowing clinicians to intervene with antibiotics 
more quickly, and to help eliminate the infection causing the 
premature birth.
    As you well know, NICHD is home to the Back to Sleep 
campaign. I am thrilled to tell you today that the latest 
statistics show that SIDS deaths have been reduced nationwide 
by 38 percent and brand new data just in from the State of 
California shows a 50 percent decline in SIDS-related death.
    Another public information campaign is finding solutions 
for osteoporosis and bone density loss. The milk mustache 
campaign, targeted especially at getting young women to drink 
milk, is effectively using the media to get across the 
important message that calcium is critical for a healthy adult 
body, and that drinking milk can still be cool.
    NICHD is funding solutions for genetic and related 
disorders like fragile X syndrome, Rett syndrome, Downs 
syndrome and others. NICHD research has linked specific errors 
on human chromosome 15 to highly specific behavioral disorders 
of major health importance. This information can lead not only 
to cures for the syndrome, but other abnormalities that often 
accompany the syndrome.
    Mr. Chairman, these are but a few examples of solutions 
being created through NICHD research. On behalf of the Friends 
Coalition, I urge you to continue your support for more 
advances yet to come and recommend that the NICH receive $776 
million in funding for fiscal year 1999, a 15 percent increase. 
Our recommendation is commensurate with the request of the Ad 
Hoc Group for Medical Research Funding.
    In 1961, President Kennedy said, we have conquered the 
atom, but we have not yet begun to make a major assault in the 
mysteries of the human mind. With your continued support, we 
can make a major assault on those mysteries. We thank you for 
your leadership, which offers healthier futures for all of our 
children.
    Thank you.
    [The prepared statement of Donna Meltzer follows:]


[Pages 1678 - 1686--The official Committee record contains additional material here.]



    Mr. Porter. Thank you very much for your good testimony, 
Ms. Meltzer. Obviously we think very highly of Dr. Dwayne 
Alexander and NICHD. It's wonderful they have friends like you. 
Thank you for being here to testify.
    Ms. Meltzer. Thank you very much.
                              ----------                              

                                       Wednesday, February 4, 1998.

                               WITNESSES

SUSAN SANABRIA
CAROL DOWNING, NATIONAL MULTIPLE SCLEROSIS SOCIETY
    Mr. Porter. Susan Sanabria, Vice President, Advocacy 
Programs Department, National Multiple Sclerosis Society, 
accompanied by Carol Downing, Maryland Chapter Representative, 
of the Society, testifying in behalf of the Society.
    Susan, it's wonderful to see you.
    Ms. Sanabria. As it is to see you, my former boss.
    Mr. Porter. Right. Susan used to be on my staff. Don't 
remind me--well, do remind me of the dates.
    Ms. Sanabria. When you first elected, 1980 to 1981.
    Mr. Porter. Just a short time ago.
    Ms. Sanabria. You look wonderful.
    Mr. Porter. So do you.
    Ms. Sanabria. I'm very grateful for the opportunity to come 
and talk with you about funding for the agencies that are near 
and dear to our heart. The National Institutes of Health, and 
within the Department of Education, the Rehabilitative Services 
Administration and the National Institute for Disability 
Research.
    With me today is Carol Downing, from our Maryland Chapter, 
who will be presenting our testimony.
    Ms. Downing. Thank you, Mr. Chairman.
    I appreciate the opportunity to be here today to speak to 
you on behalf of the National Multiple Sclerosis Society, which 
is an organization that directly supports biomedical research 
and provides services through its chapters across the country 
to a third of a million people with multiple sclerosis and 
their families.
    Let me briefly tell you my story. I was diagnosed with MS 
in 1984. At that time, I was a single mother, just laid off 
from my job as a paralegal and benefits specialist, and not 
surprisingly, under great stress. I was hospitalized for MS 
many times, and I was in a wheelchair for two and a half years. 
I'm now able to use canes or a walker, the mobility impairments 
are still part of my daily routine.
    My close relationship with the Maryland chapter of the MS 
Society began when I discovered that my home of 20 years was no 
longer accessible. Staff at the chapter worked with my family 
to make our new apartment accessible. I'm not a disability and 
research advocate for the Society. My chapter serves at least 
3,500 people and their families throughout the State.
    The chapter raises money for private biomedical research 
contributing to the National MS Society's $18 million research 
budget. As a national research associate at the Maryland 
chapter, I keep up with research trends at both the society and 
at NIH as well as rehabilitation research at the Department of 
Education.
    MS is a progressive, degenerative disease of the central 
nervous system, unpredictable in its course and devastating in 
its impact, since it can cause spasticity, tremors, abnormal 
fatigue, bladder and bowel dysfunction, visual problems and 
mobility impairment. The disease usually strikes between the 
ages of 20 and 40, just as a career and family life begins and 
develops.
    Ending the devastating effects of this cruel disease 
depends on the discovery of a cure or new therapies to control, 
treat and eventually halt its progression. I have participated 
in a number of clinical studies to evaluate new treatments for 
MS. Recently, an FDA advisory panel approved three new drugs, 
Avenex, Betaserin and Copaxone. These injectable drugs have 
shown positive therapeutic effects on the underlying disease in 
some people.
    Building on essential basic and clinical research, 
scientists have made these and other significant strides in 
removing the mystery from this unpredictable, destructive 
disease. We must greatly enhance this progress, as I continue 
to hope that the research I'm asking you to fund today will 
improve my life and those of others living with MS.
    The mission of the National MS Society is to end the 
devastating effects of MS. You have the ability to advance this 
admirable cause by significantly increasing funding for 
research projects and centers at both the NIH and the 
Department of Education on rehabilitation.
    The National Multiple Sclerosis Society believes that the 
following appropriations are needed in order to take advantage 
of current opportunities in biomedical and rehabilitation 
research. First, a 15 percent increase for the National 
Institute of Neurological Disorders and Stroke, where research 
on the nervous system and the brain takes place.
    You may have read in the New York Times last Wednesday 
about a study that further delineates what happens to the 
nervous system of people with MS. The more we know about the 
disease, the more we can target treatments for early 
intervention.
    Second, a 15 percent increase for the National Institute of 
Allergy and Infectious Diseases. MS is an autoimmune disease. 
The results of several important studies at the NIAID are 
leading new possibilities for MS treatments as well as 
knowledge about genetic susceptibility.
    Third, a 15 percent increase for all of NIH, including the 
Center for Medical Rehabilitation Research. Concerning the NIH 
budget as a whole, we at the Society certainly support the 
popular idea of doubling the NIH budget in five years. There 
are many fruitful lines of research to pursue.
    Finally, we ask for a 7 percent increase for the 
Rehabilitation Services Administration and for the National 
Institute of Disability and Rehabilitation Research within the 
Department of Education. With additional funds, we could 
enlarge studies such as the following, the effects of Betaserin 
have now been studied in a group of subjects with early, mild, 
relapsing, remitting MS to test the drug's ability to reduce 
breakdown of the blood-brain barrier. In those studies, all 
have had dramatic reduction in lesions with complete cessation 
of disease activity as measured by MRI.
    These findings suggest an important site of action for beta 
interferons. The studies also provide further evidence of the 
usefulness of MRI. Studies such as these are the foundation for 
more research if there were more resources.
    On behalf of the National Multiple Sclerosis Society, let 
me echo what others have stated at these hearings. Let research 
move forward at a rapid pace.
    Thank you very much.
    [The prepared statement of Carol Downing follows:]


[Pages 1690 - 1695--The official Committee record contains additional material here.]



    Mr. Porter. Sue, I can't remember whether Don Grossman was 
our campaign treasurer at the time you were on staff, but his 
wife, Susan, contracted MS probably about 10 or 12 years ago. 
She had always been a very active athlete, she was a 
championship golfer. It's just been devastating to her and to 
her family.
    So I've had an up-close look at the effects of this disease 
on someone I know very, very well. Believe me, we want to do 
everything we possibly can to get the resources to the research 
scientists who can help.
    We very much appreciate your coming to testify today, Susan 
and Carol both. We'll do our very best to try to reach those 
goals and at least give us a hand with the budget people.
    Ms. Downing. Thank you very much.
    Ms. Sanabria. We promise we will.
    John, if I may speak as a member of your staff, past and 
present, you've done us proud.
    Mr. Porter. You're very kind to say that, Sue. I've had a 
wonderful staff all these years, too.
    Thank you.
    [Clerk's note.--Information required pursuant to clause 
2(g)(4) of Rule XI of the Rules of the House of Representatives 
was not received from this witness or from an entity 
represented by this witness.]
                              ----------                              

                                       Wednesday, February 4, 1998.

                                WITNESS

MIRIAM SCHNEIDMILL, NATIONAL PEMPHIGUS FOUNDATION
    Mr. Porter. Miriam Schneidmill, Member, Board of Directors, 
The National Pemphigus Foundation, testifying in behalf of the 
Foundation. Welcome.
    Ms. Schneidmill. Good afternoon, members of the 
subcommittee.
    My name is Miriam Schneidmill. Before I begin my testimony, 
I would like to thank you, especially Chairman Porter, for your 
strong support of the NIH. I am here today as a representative 
of the National Pemphigus Foundation. The National Pemphigus 
Foundation joins with the Ad Hoc Group for Medical Research 
Funding, the National Institute of Arthritis, Musculoskeletal 
and Skin Diseases, and the Coalition of Patient Advocates for 
Skin Disease Research in asking for a 15 percent increase in 
the budget of the NIH.
    In 1992, I was diagnosed with pemphigus vulgaris, PV. PV is 
one of a group of blistering skin conditions which includes 
pemphigus foliaceous and bullous pemphigoid, among others. The 
National Pemphigus Foundation has been established to encourage 
communication about, and research into, these blistering 
diseases.
    Pemphigus vulgaris is a rare autoimmune disease--I am 
allergic to my skin. People with PV form blisters on their skin 
and mucous membranes. These become sores, lesions, erosions 
that do not heal. Without treatment, the patient suffers the 
fate of a burn victim, infection, shock, andultimately death.
    Before the discovery of the gluticosteroids, PV was 100 
percent fatal. Today prednisone, a gluticosteroid, remains the 
effective known treatment. However, prednisone has many 
devastating side effects. It is associated with osteoporosis, 
diabetes, cataracts, myopathy, mood swings, and even psychosis. 
The adjuvant treatments, often from the chemotherapy shelf, 
like Cytoxan, Methotrexate, and Imuran are associated with 
liver damage and a greater incidence of cancer.
    It took more than 12 months for my diagnosis of PV. I went 
from doctor to doctor and was treated for folliculitis, herpes 
and yeast before someone finally biopsied the lesion on my 
scalp and discovered it was PV. The delay, in my case, was due 
to the mild presentation the disease was making. For those with 
a few lesions in their mouths followed by extensive skin 
involvement, the diagnosis is much quicker, but they are much 
more ill than I was.
    However, the treatment is basically the same for all of us, 
high doses of prednisone. I have been on three courses of high 
dose steroids. Each time, I immediately develop side effects. 
My face became round, I gained weight, my muscles became 
weakened. I was unable to walk more than one block. I was 
fortunate, my friend David, 18 when diagnosed, couldn't walk at 
all. My friend Stephanie died of the complications of treatment 
at age 22.
    Although I am only 48 years old, I have an incipient 
cataract and osteoporosis. I am at risk for spontaneous 
fractures to my spine. My friend Hannah Lisa suffered such a 
fracture less than six months after a bone density scan that 
showed her spine to be above average. As a result, she is in 
constant pain and has lost two inches of height.
    I am here today to talk about what we need and what people 
with other rare diseases need: research. First, we need basic 
research. Today we know that in pemphigus, patients produce 
auto-antibodies to the demecental proteins of the skin. These 
proteins are what hold the skin together.
    However, there is much we do not know. We do not know how 
or why these antibodies form. We also do not know the role that 
environmental factors such as viruses, bacteria, allergens and 
toxins play in this disease.
    Second, we need clinical research. I believe that the NIH 
needs to fund more clinical research, because funds from the 
traditional sources are drying up. In the past, clinical 
research was supported not by the pharmaceutical companies or 
the NIH, but by the academic health centers, AHC. Income from 
patient care was used by the AHC to support clinical research.
    Now, the research function of the AHC is in danger because 
of the low rates of payment made to hospitals by managed care 
organizations. The result of the lower rates is that the young 
clinical investigator is forced to see more patients, so that 
there is neither time nor money for clinical research.
    I am here today to tell you that a better, less life 
threatening treatment for pemphigus can only be discovered by 
continuing to support the basic research mission of the NIH, 
and by encouraging greater support for clinical research. The 
money you make available for research is holding my skin 
together. I hope that for these reasons you will support a 15 
percent increase in the NIH budget.
    [The prepared statement of Miriam Schneidmill follows:]


[Pages 1699 - 1701--The official Committee record contains additional material here.]



    Mr. Porter. We are going to do our best, Ms. Schneidmill. I 
have to say, I'm not personally familiar with PV, but I am very 
familiar with the effects of high doses of prednisone and the 
side effects that that can cause. There's got to be a better 
way to treat this disease. It's a powerful drug that can have 
its own effects on your health in other ways.
    So believe me, we'll do our best. Thank you for coming here 
to testify.
    [Clerk's note.--Information required pursuant to clause 
2(g)(4) of Rule XI of the Rules of the House of Representatives 
was not received from this witness or from an entity 
represented by this witness.]
                              ----------                              

                                       Wednesday, February 4, 1998.

                                WITNESS

W. BRUCE FYE, M.D., AMERICAN COLLEGE OF CARDIOLOGY
    Mr. Porter. W. Bruce Fye, M.D., FACC, Chairman of the 
American College of Cardiology's Government Relations 
Committee, testifying in behalf of the College.
    Dr. Fye. Mr. Chairman, I am Bruce Fye, Chair of the 
Government Relations Committee of the American College of 
Cardiology, a 24,000 member professional society and teaching 
institution. I also chair the cardiology department at 
Marshfield Clinic, a 525 physician group practice in Wisconsin.
    I am here today on behalf of the American College of 
Cardiology to ask you to renew your major commitment to the 
National Heart, Lung and Blood Institute. As the college's 
official historian and the author of a recent book on the 
history of American cardiology, I am especially pleased to have 
this opportunity to speak in support the Institute on its 50th 
anniversary.
    The first Congressional appropriation to NHLBI was just 
$500,000. Since then, thanks to this subcommittee's consistent 
support, the Institute's budget has grown to $1.5 billion. 
Happily, as a result of this Nation's investment in biomedical 
research, the prospects for combatting the catastrophic 
consequences of cardiovascular disease are better than ever. 
There is much to be done, however.
    Today, heart disease claims more lives than any other 
illness. This year alone, one million Americans will die as a 
result of cardiovascular disease. More than 50 million 
Americans, about one-fifth of the population, are living with 
some form of cardiovascular disease.
    Fortunately, most of them are living better and longer 
lives, and more productive lives, as a result of new drug and 
device therapies, surgical innovations, enhanced emphasis on 
prevention, and innovative public educational programs, all 
made possible through NHLBI-funded research.
    Our citizens, many of them potential cardiac patients, do 
not want us to become complacent as we celebrate the many 
advances in the prevention, diagnosis and treatment of 
cardiovascular disease that have resulted from our Nation's 
pioneering research and educational programs. The main goal of 
investing in cardiovascular research is to prevent premature 
death and improve the quality of peoples' lives. We also want 
to control the enormous social and economic burden of 
cardiovascular disease.
    In 1998, the total economic impact of heart disease in the 
United States is projected to reach $175 billion if lost 
productivity is factored into the equation. Medicare paid about 
$29 billion for the treatment of heart disease in 1995 alone.
    Research is a major tool to help us cut these costs. Think 
of the impact that research had on tuberculosis and polio. 
Major public health problems just a few decades ago.
    In this extraordinary era of molecular biology, NHLBI 
funded researchers are on the brink of making many major 
discoveries that should yield significant cost savings in the 
area of cardiovascular disease. Exciting new discoveries by 
NHLBI funded researchers are already having a major impact on 
heart care.
    For example, we know from a recent clinical trial that the 
risk of developing heart failure can be cut in half in older 
persons with hypertension if they are treated with a low dose 
diuretic. The benefits are even greater in patients who have 
had a heart attack.
    Heart failure is regrettably a common and very serious 
problem that we must work harder to prevent. Because there are 
more than 400,000 new cases of heart failure annually in this 
country, the potential benefits from this type of research 
could be enormous.
    Innovative research in human genetics and molecular biology 
holds great promise for the prevention and early diagnosis of 
cardiovascular disease. We are just beginning to realize the 
remarkable potential of this fertile area of research. For 
example, NHLBI-funded investigators recently identified a 
genetic marker for one cause of hypertension. Like other 
genetic markers for diseases that are preventable or treatable, 
this holds great promise for reducing the impact of 
hypertension and its serious consequences.
    Early reports from NHLBI-funded researchers working on gene 
transfer techniques and cardiovascular disease are equally 
promising. Preliminary findings suggest that this innovative 
approach might slow the development of atherosclerosis in 
vascular grafts such as those used in coronary artery bypass 
surgery. Other studies suggest that it may be possible to 
promote recovery of cardiac function after a myocardial 
infarction by introducing healthy heart cells into weakened 
heart muscle.
    By continuing this Nation's major investment in biomedical 
research in general and NHLBI-sponsored research in particular, 
Congress will help literally thousands of investigators make 
discoveries and advance knowledge. As researchers open new 
paths to and through medical frontiers, it is exciting to 
contemplate the implications for the future health of our 
citizens. Already, as a result of a multitude of discoveries 
and innovations, thousands of highly skilled cardiovascular 
specialists are performing procedures such as coronary 
angioplasty and prescribing medical treatments that were 
unimaginable just a few short years ago.
    This is not just about treatment. Health care professionals 
are also promoting powerful prevention strategies that have 
been validated by NHLBI-sponsored researchers. This year the 
Institute will convene a special panel that will help develop 
recommendations for the more rapid dissemination of research 
findings that speak to the important issues of prevention and 
the effective treatment of cardiovascular disease.
    The need to reduce the enormous social and economic costs 
of cardiovascular disease is a compelling reason to increase 
the NHLBI budget significantly. The need has never been 
greater. The United States must prepare itself, both 
scientifically and fiscally, for the inevitable increase in the 
incidence of cardiovascular disease that will accompany the 
graying of the so-called baby boomers generation.
    I hope the subcommittee shares my optimism about the unique 
opportunities that our scientists and clinical investigators 
now have to achieve their longstanding goal of conquering this 
Nation's number one killer. In summary, the American College of 
Cardiology would like to encourage you to continue to 
generously fund the National Heart, Lung and Blood Institute. 
It is a wise investment in our Nation's future.
    Mr. Chairman, I deeply appreciate having this opportunity 
to testify before the subcommittee.
    [The prepared statement of W. Bruce Fye, M.D., follows:]


[Pages 1705 - 1714--The official Committee record contains additional material here.]



    Mr. Porter. Dr. Fye, thank you for your very good 
testimony. I have to say that, I think we've said this this 
morning, sometimes we see so many panels that I don't know what 
I've said to them, but we have historically, you mentioned 
NHLBI increasing from $500,000 to $1.5 billion, if you look 
over the history of the funding of NIH, it has increased on 
average about 3 percent in real terms each year above 
inflation.
    The problem in not being able to fund worthy science is not 
that we haven't increased funding for NIH. We've done that. But 
science has increased the opportunities and the quality of the 
research available to fund faster than we've generated funds to 
keep up with it.
    That's exactly the reason why we have to look at a goal of 
very rapidly increasing overall funding for NIH, because we're 
falling behind the curve of scientific opportunity that's 
available to us. In the process, of course, discouraging a lot 
of young investigators who otherwise would be excited to stay 
in the field if they had an opportunity to see the research 
that they have proposed being funded.
    We're going to do our best to meet that challenge. It's a 
very real and very important challenge. One of the previous 
witnesses had mentioned, and you had mentioned, clinical 
research that we also think is under a great deal of siege by 
reason of the reorganization of our health care delivery 
systems in the country. In a way, it isn't the primary 
responsibility of this subcommittee. But it's certainly a great 
concern of the subcommittee that many of our academic medical 
centers are finding themselves really squeezed by the lack of 
revenues that used to be there under our previous system of 
providing payment for public programs.
    So these are real challenges and we're going to do the best 
that we can to meet them. Thank you for testifying.
    Dr. Fye. Thank you very much.
                              ----------                              

                                       Wednesday, February 4, 1998.

                               WITNESSES

DOUGLAS A. JOHNSON, CENTER FOR VICTIMS OF TORTURE
MANOUCHEHR DUSTI
    Mr. Porter. I'm going to ask Dr. Bisgard if, Mr. Johnson, 
who is witness number 14 on the list, has advised us that he 
has a plane to catch. Is that a problem? Not a problem. Thank 
you very much, sir.
    Douglas A. Johnson, Executive Director of the Center for 
Victims of Torture, accompanied by Manouchehr Dusti, torture 
survivor, small business owner, testifying in behalf of the 
Center for Victims of Torture.
    Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Porter. Thank you for the 
opportunity to discuss the importance of providing 
rehabilitation services for victims of torture. I wish I had 
time instead to hear about Turkey and your trip, but perhaps at 
another point.
    We're referring to people now residing in the United States 
who were tortured by foreign governments, although we would 
include many Americans who we've seen at the center who were 
also tortured abroad. We estimate there are between 300,000 and 
400,000 survivors of government-sponsored torture now residing 
in the United States.
    One of those is Mr. Manouchehr Dusti, of Iran, who's here 
with me today. Besides the very difficult but common challenge 
that he and other refugees have of adjusting to a new culture 
and language in exile, torture survivors must also cope with 
physical pain and often very debilitating emotional impacts of 
torture. Nightmares and flashbacks, anxiety disorders, 
depression, post-traumatic stress disorder, these symptoms can 
adversely affect their relationships with their family, their 
community, and their ability to secure employment.
    These are profound humanitarian issues which should be of 
concern to us. But there are other important reasons for us to 
care about this population. Torture victims are largely 
targeted because they were leaders in their communities, that 
their governments decided to fear what they were doing, what 
they thought about. They were often in the forefront of a 
struggle for democracy and human rights in their societies, 
some were opposition party leaders, others were leaders in 
human rights, workers rights, religious freedom, the media.
    The Center recently concluded a five year retrospective 
study for the National Institute of Mental Health. Those 
findings underscore the previous leadership role that torture 
survivors filled in their societies. Over 50 percent of our 
clients, for example, had college degrees. Twenty percent had 
graduate professional degrees. They had major areas of 
responsibility in their countries. Their societies had often 
invested heavily in them, in their education and in their 
experience before the government decided that they were 
dangerous to the government.
    Nearly all of our clients defined one aspect of 
theirhealing as becoming self-sufficient again, of taking care of their 
families, of making contributions to their community. They've had a 
taste of success and of making a difference. But they're now hampered 
by the symptoms of torture.
    We propose that this means helping survivors of torture is 
also a very good investment for our communities and our Nation. 
They are both highly educated and very highly motivated to make 
a valuable contribution to our society, as demonstrated by our 
clients over and over again. They are now in our communities, 
our neighbors, they're our people, and our people will benefit 
by restoring their health and recovering their leadership.
    There are many other things to be said in our discussion, 
which I will simply leave in the written testimony in order to 
give Mr. Dusti an opportunity to speak about his experience. In 
the past, the appropriations committee has urged ORR to become 
involved in this issue. ORR has issued a very small funding 
request for training. But it has not taken any leadership in 
providing funding for services.
    There are now 15 treatment centers around the United States 
who are providing care for victims of torture. They are all 
doing so without any funding of any support from either their 
State or Federal Governments, and largely are not supported by 
the foundation community, which considers torture and treatment 
to be an operating cost as opposed to a new initiative that 
they would support.
    It is our hope that you will pursue the issue with ORR in 
its future testimony about how they can fulfill the mandates 
that you've laid out for them before. It's also our hope that 
you will earmark funding within HHS that will support direct 
treatment services for victims of torture, to help this 
community recover and also for the U.S. to meet its obligations 
under the convention against torture.
    I'd like to introduce Mr. Dusti, who was a business leader 
in Iran, but became very active in the opposition to Khomeini's 
regime.
    Mr. Dusti. Good afternoon, Mr. Chairman.
    My name is Manoucher Dusti. I came from Iran in 1988 to the 
United States.
    I have been imprisoned and tortured by my government. I 
have been in business long enough, but because of my activity 
against the government, my government, I involved and went to 
prison and torturing.
    When I got to the United States, at Hambling University, I 
had a lot of trouble. The government seized all my assets, all 
my money, everything is gone. Suddenly, I found myself 
homeless, hopeless, like a lot of unknown people who have been 
doing lots of things, but in the same situation, going to bed 
without anyone knowing. That's tough.
    We work all our life, but no one can bring our mind down. I 
find myself in the United States, in the safest country on the 
earth, lonely, homeless and miserable. Some people referred me 
to the Center for Victims of Torture. During a three to four 
years period, I got back on my feet again. I worked hard.
    They gave me hope, trust, how to get back with my life 
without being scared, without nightmares, without lots of 
problems day and night. During the day, I am scared all the 
time, thinking someone will catch me during the night, I get 
nightmares of how they tried to execute me. I wish they did, 
but they never done it. All these things are with me every day.
    Now I'm in the position to control those things. Thanks to 
the Center for Victims of Torture, I believe there are lots of 
people like me around this corner of Washington. Lots of people 
need help. There is no, we need lots of things to get back to 
community and health.
    I am married, I have a beautiful son, and I employ 50, 60 
people now. I have two, three business, from homeless in five 
years, six, got back to business, and giving back to my 
community. This is the place my son is being raised. I hope my 
son one day be like you to help in the community, helping the 
people.
    I take this moment and say it, lots of people are dying 
without anyone knows. They are unknown heroes. If someone is 
executed, something happens, everybody knows it, everybody says 
it. But some people have been tortured and no one knows. They 
go in the darkness and kill themselves, because there is no 
hope in that moment. And it is tough, very tough.
    I believe we need lots of centers around this United 
States. There are lots of people coming down here, this is land 
of opportunity. This is the promised land to us, land of 
freedom. We need that.
    Thank you.
    [The prepared statement of Douglas Johnson follows:]


[Pages 1719 - 1722--The official Committee record contains additional material here.]



    Mr. Porter. Mr. Dusti, thank you for reminding us. I have 
to say that Doug Johnson does some wonderful work, and we want 
to be as supportive as we possibly can of his efforts. You've 
highlighted for us the needs of people like yourself who have 
gone through what you've gone through.
    We'll do our very best to be responsive. Thank you.
    [Clerk's note.--Information required pursuant to clause 
2(g)(4) of Rule XI of the Rules of the House of Representatives 
was not received from this witness or from an entity 
represented by this witness.]
                              ----------                              

                                       Wednesday, February 4, 1998.

                               WITNESSES

GERALD BISGARD
GALE DAVY, WISCONSIN ASSOCIATION FOR BIOMEDICAL RESEARCH AND EDUCATION
    Mr. Porter. Gerald Bisgard, Ph.D., President, Wisconsin 
Association for Biomedical Research and Education, Department 
of Comparative Biosciences, University of Wisconsin, School of 
Veterinary Medicine, accompanied by Gale Davy, Executive 
Director, Wisconsin Association for Biomedical Research and 
Education, both testifying in behalf of the Association.
    Dr. Bisgard.
    Dr. Bisgard. Chairman Porter, we thank you for the 
opportunity to testify today.
    I'm Gerry Bisgard, President of WABRE, Wisconsin 
Association for Biomedical Research and Education, and 
professor of comparative biosciences at the University of 
Wisconsin-Madison.
    WABRE is a non-profit educational organization. Our mission 
is to provide public education on scientific issues to the 
citizens of Wisconsin. The Association is supported by the 
State's academic research institutions, hospitals and clinics, 
bioscience businesses, and community organizations concerned 
with public health.
    Wisconsin scientists have contributed immensely to our 
Nation's public health and scientific knowledge. They are 
helping to map the human genome, creating new drugs and 
prevention therapies for breast cancer, hypertension, coronary 
artery diseases, farmer's lung disease, developing new 
vaccines, developing new techniques for blood transfusions and 
safer anesthetics.
    It should also be mentioned that the drug coumadin, which 
one of our previous testifiers was taking, Dr. Greenberg, was 
discovered at the University of Wisconsin.
    My research focuses on the studies of respiratory illness. 
The University of Wisconsin is one of the leading state 
universities for biomedical research in the Nation. However, 
research is no longer the exclusive purview of academic centers 
in Wisconsin. One of the largest centers for epidemiological 
studies in the world is found in the small town of Marshfield, 
Wisconsin, home of the Marshfield Medical Research Foundation, 
and the National Farm Medicine Center.
    In Wausau, the non-profit CARE Foundation is building on 
research conducted nationwide by expanding clinical research to 
the residents of this small city and surrounding communities. 
For medical school clinics in the central city of Milwaukee to 
a small hospital in the north woods of Rhinelander, more 
Wisconsin patients are receiving the benefits of medical 
research.
    Wisconsin scientists, like scientists throughout our 
Nation, are working diligently in the public interest. But all 
scientists are having a difficult time securing funding for 
this valuable research.
    We support the proposal of the Ad Hoc Group for Medical 
Research Funding, which calls for a 15 percent increase in 
funding for the NIH in fiscal year 1999 as a first step towards 
doubling the NIH budget over the next five years.
    We recognize the difficulty in achieving this goal under 
current spending limits. We don't envy your job. But we ask 
that all members of Congress explore all possible options to 
identify ways to provide the additional resources needed to 
support this increase.
    We recognize the Congress and this committee have been 
supportive of research in the past, and we thank you very much 
for that support. You should know that the public is supportive 
of your efforts as well. A statewide poll commissioned last 
year by Research! America showed that 60 percent of Wisconsin 
residents favored doubling our national spending on medical 
research by the year 2002. Similar polls in Alaska, California, 
Florida, Louisiana, Ohio, Pennsylvania and Texas show similar 
results.
    Medical research is so valuable to our public health, 
medical education, controlling health care costs and work force 
productivity that it provides a remarkable return on our public 
investment. WABRE has recently carried out an analysis of this 
public investment in biomedical research. This study showed 
that Americans earned $81 for every dollar spent on medical 
research and development in direct and indirect economic 
benefit, an incredible return on investment.
    How much would we invest? Studies comparing various rates 
of investment in biomedical research since 1950 show that the 
rate of return remains relatively constant, regardless of the 
investment. In other words, over the course of nearly 50 years, 
we have not yet approached a maximum investment ratio where the 
rate of return begins to decline relative to the value of that 
investment.
    If we increase our investment, we will reap strong health 
and economic return on the investment. That much is not in 
question. What is in question is, how much can we afford to 
invest. That is the question you in Congress must answer.
    Chairman Porter, the last three post-doctoral fellows 
trained in my laboratory to pursue careers in academic research 
have elected alternate careers because they see other young 
researchers failing to obtain funding. And they see senior 
researchers losing funding.
    Increasing the NIH budget will greatly increase our ability 
to keep talented young scientists working where their hearts 
are, in biomedical research in the public interest. On behalf 
of active researchers like me, on behalf of young scientists 
who would like the opportunity to serve the public, and on 
behalf of the people of the State of Wisconsin, WABRE asks your 
support for a 15 percent increase in funding for the NIH.
    Thank you very much.
    [The prepared statement of Gerald Bisgard follows:]


[Pages 1725 - 1728--The official Committee record contains additional material here.]



    Mr. Porter. Dr. Bisgard, thank you for your testimony.
    Am I correct that Dr. Fye, who testified before you, is 
also from Marshfield?
    Dr. Bisgard. We are not from Marshfield, but we were 
delighted to hear that somebody else from Wisconsin was here. 
Gale said she recognized his name but didn't know him.
    Mr. Porter. When you mentioned Marshfield in your 
testimony, I had noticed in his curriculum vitae that he was 
from Marshfield. He's at the Marshfield Clinic.
    Dr. Bisgard. Marshfield is a center of excellence in 
medicine, which is surprising for such a small city.
    Mr. Porter. He lives in Marshfield. I assume that's near 
Madison?
    Dr. Bisgard. No, that's 100 miles or so.
    Ms. Davy. Actually, Marshfield has a very interesting 
story. It was basically founded as a clinic, a rural clinic. 
It's actually in central Wisconsin near the city of Wausau. It 
has just developed an excellent research program. It's actually 
the third largest research center in the State of Wisconsin 
right now, but it's not an academic research center. It's 
affiliated with the clinic and the hospital.
    Mr. Porter. It just happened that you were talking about 
Wisconsin, you mentioned Marshfield, he came from Marshfield 
and you didn't know one another?
    Dr. Bisgard. Independent Marshfield connection.
    Mr. Porter. We appreciate and obviously agree with the 
thrust of your testimony. As I said, we're going to do our very 
best to be there.
    Thank you so much for coming to testify.
    Dr. Bisgard. Thank you.
    [Clerk's note.--Information required pursuant to clause 
2(g)(4) of Rule XI of the Rules of the House of Representatives 
was not received from this witness or from an entity 
represented by this witness.]
                              ----------                              

                                       Wednesday, February 4, 1998.

                                WITNESS

BETTYE GREEN, NATIONAL BREAST CANCER COALITION
    Mr. Porter. To accommodate my colleagues' schedule, I'm 
going to go out of order and call on Bettye Green, member of 
the Board of Directors of the National Breast Cancer Coalition 
and Founder of Women in Touch, an Indiana based breast cancer 
group, to testify in behalf of the National Breast Cancer 
Coalition.
    To introduce her, our colleague Representative Tim Roemer. 
Tim, thank you for coming down.
    Mr. Roemer. Thank you, Mr. Chairman. Thank you for your 
time.
    I'm going to be brief so you can get to my constituent. I 
just want to introduce her to you and to members of Congress 
hearing this testimony. First of all, before I introduce my 
constituent Bettye Green, I want to tell you that she's 
traveled here today with her grandson, sitting to her left, who 
is Anthony Scott from South Bend, Indiana. He looks better than 
I do, Mr. Chairman. Today, he's in that dapper suit. Also her 
cousin Anthony Shern from Washington, D.C., over here to my 
left and your right, Mr. Chairman.
    I know her testimony is going to be of great value to you 
and members of the committee. Bettye Green is not just a 
constituent of mine. She is a strong community leader. She has 
been a valued mentor to me, and I am honored to say she is my 
friend.
    Bettye has taken one of the most devastating events that 
can happen to a human being and turned it into a crusade that 
has educated thousands of people around Indiana and around the 
country. A nurse with over 20 years of experience at St. Joseph 
Medical Center, she also serves on a number of prominent 
national boards that deal with breast cancer awareness and 
education.
    There are too many for me to number in the short time that 
I have here, but I will say that Bettye's talents have caught 
the eye of Cabinet secretaries and Presidents. She has been 
nurse of the year, woman of the year, and founder of the 
program, Women in Touch.
    She is a national leader in the fight for better health 
care for African-American women, and indeed, all women. I would 
conclude by telling my colleagues on this panel that when 
Bettye Green has something to say, and she has a lot to say, I 
know well enough to listen, learn and help. I commend her views 
to you, Mr. Chairman, and I commend you for all the help that 
you've been in this crusade to better educate women around the 
country. You have been a tremendous spokesperson for this 
cause, Mr. Chairman, and we all thank you.
    Mr. Porter. Tim, thank you.
    Ms. Green, if I were you, I would take Tim wherever I go, 
with that kind of introduction.
    Ms. Green. I think you should hear the introduction I've 
given Tim a few times. It's a mutual admiration society. 
[Laughter.]
    I want to thank you, Mr. Chairman and members of the 
committee, for all of your previous hard work and leadership 
and working together with the National Breast Cancer Coalition 
to create support for the battle to eradicate breast cancer.
    I am Bettye Green, a member of the executive board of 
directors of the National Breast Cancer Coalition. I am the 
founder of the Women in Touch breast group, which educates 
African-American women about breast cancer. I'm a wife, a 
mother, a nurse, and a breast cancer survivor.
    I was only 36 years old and still had children living at 
home when my husband and I discovered I was diagnosed with 
stage two breast cancer. Most African-American women who are 
diagnosed with breast cancer at that young stage in their life 
don't live to tell their story. However, I was lucky.
    After receiving chemotherapy and undergoing a mastectomy, I 
have thus far survived my breast cancer and now I am able to 
enjoy what so many people are able to take for granted in life, 
including my grandson Anthony, who is here with me today. That 
is why continued appropriate research is so vitally important.
    As you know, the NBCC, a grass roots advocacy organization 
made up of over 400 organizations and hundreds of thousands of 
individuals, have been working since 1991 toward the 
eradication of this disease through research and access to 
quality health care. Breast cancer costs this country untold 
dollars in medical costs, lost resources, lost productivity and 
in lost lives. The war against breast cancer, the search for 
answers to what causes the disease, how we can prevent it, how 
we can cure it, these are immense issues requiring a concerted, 
coordinated effort on a national level.
    Breast cancer is just not an issue for one month. It is an 
ongoing crisis. However, we believe we are at a brink, a 
historical moment for cancer research. The fight against cancer 
has gained extraordinary momentum at all policy levels. 
Building on the leadership provided by this committee, the 
Administration has announced a new cancer initiative.
    There is a new energy and optimism in the U.S. in both the 
scientific and consumer communities about cancer research, a 
universal feeling that the significant past research 
investments are poised to pay major dividends in the area of 
cancer prevention, detection and treatment. We are closer than 
ever before to reaching our goal of eradicating breast cancer.
    Women are depending on Congress to continue to help make 
that goal a reality. We believe Congress can respond by 
appropriating $650 million for peer reviewed breast cancer 
research for the fiscal year 1999 at NIH, and offering 
significant support for clinical trial programs, so that 
research from the laboratories can be translated into treatment 
for patients.
    As we are increasingly optimistic about the future, we must 
keep in mind the reality that 46,000 women will die of breast 
cancer this year, and that 180,000 additional women will be 
diagnosed with the disease. We must acknowledge that each of 
those women are still receiving the same primitive slash and 
burn therapies as cancer victims did 25 years ago. This disease 
is complex, and there is much work to be done.
    The research simply needs to continue, so that urgently 
needed answers to the questions around breast cancer can be 
found. The women with breast cancer and those who live in fear 
of this disease deserve information they can depend on, better 
quality treatment and answers that come one step closer to 
saving their lives. This can only happen if we have the right 
research.
    Mr. Chairman, you and your committee have been 
extraordinarily supportive of the needs for increased breast 
cancer research funding. The NCI is also acutely aware of the 
need. Breast cancer was cited as a major priority for NCI in 
their budget proposal for fiscal year 1999. The National Breast 
Cancer Coalition is calling on Congress to appropriate $650 
million to NIH for peer reviewed breast cancer research for the 
fiscal year 1999.
    If the funding levels for breast cancer research are not 
increased, the forward progress we have begun to make in these 
past years will be lost. As cancer research funding is 
increased, it is critical to ensure that funding for breast 
cancer research continues to increase. We believe it is 
imperative that as increases are made for cancer research in 
general and NIH and NCI that increases are also made in breast 
cancer research funding.
    The rate of increase for breast cancer research has been 
declining. Yet each year, the committee states unequivocally 
that breast cancer research is of the highest priority. This 
trend needs to be examined and analyzed to ensure that 
imperative research opportunities are not lost.
    We believe strongly that this year the scientific 
opportunities are such that an investment of $650 million for 
breast cancer research can be well spent. As you know, the NBCC 
is resolute in money not being wasted. Last year, when there 
was an attempt to divert $14 million from NCI funds to unneeded 
funds for the National Action Plan on Breast Cancer, we fought 
for that money to stay with NCI for peer reviewed research.
    We also feel strongly that funds appropriated for breast 
cancer must be invested strategically. For years, we have not 
asked for much more money than NCI was spending on breast 
cancer research, but also that that money was being spent well. 
NCI has finally heard our demand.
    We welcome the progress review group, PRG, which Dr. 
Klausner has convened through NCI. And you should be hearing a 
report in 1998.
    We want to say in closing that we like the fact that you 
have heard our word, that you understand what we want, and we 
do want to follow the President's lead on making sure that 
money is available for clinical trials. Because as you know, 
only 2 percent of women participate in clinical trials. If we 
have the money appropriated which the President has asked for, 
we're trying to endorse that, we hope that that money will be 
appropriated for clinical trials and that we do get the $650 
million for breast cancer research.
    And thank you so very much.
    [The prepared statement of Bettye Green follows:]


[Pages 1733 - 1737--The official Committee record contains additional material here.]



    Mr. Porter. Ms. Green, thank you so much. Obviously we're 
going to take your advice to heart.
    Anthony, I want you to do me a favor, and remember as you 
get older what a tremendous advocate your grandmother was for 
breast cancer research. And maybe you'll be able to look back 
and say, I remember when this disease stopped afflicting people 
on this planet, and she helped cause that to happen.
    Tim, thank you for joining us.
    [Clerk's note.--Information required pursuant to clause 
2(g)(4) of Rule XI of the Rules of the House of Representatives 
was not received from this witness or from an entity 
represented by this witness.]
                              ----------                              

                                       Wednesday, February 4, 1998.

                                WITNESS

REVEREND GARY HUTCHESON, NATIONAL PSORIASIS FOUNDATION
    Mr. Porter. Reverend Gary Hutcheson, Member of the National 
Psoriasis Foundation and Senior Pastor of the Woodbridge, 
Virginia, Church of the Nazarene, testifying in behalf of the 
National Psoriasis Foundation.
    Reverend Hutcheson.
    Rev. Hutcheson. Good afternoon, Mr. Chairman.
    As I have sat these last three hours, I have developed a 
real appreciation for your skill in this extended exercise of 
intensive listening. I really appreciate that.
    My name is Gary Hutcheson and I'm here this afternoon as an 
advocate on behalf of the 6.5 million American men, women and 
children who are battling psoriasis, a chronic, debilitating 
skin disease. It is a disease without a cure at the present 
time. And without universally effective treatments.
    Until a cure or more effective treatments are found, 
millions of people with psoriasis face a lifetime fighting this 
debilitating disease. Over $3 billion are spent annually on 
treatments for psoriasis, and each year, psoriasis patients 
make approximately 2.4 million visits to dermatologists in our 
country.
    Psoriasis is unpredictable and unrelenting. Treatments are 
often successful for only relatively short periods of time, and 
then only for some people. The thick, red scaly patches on all 
parts of the body and painful joint movement limit daily 
activities and interfere with physical, occupational and 
psychological functions.
    Physically, skin affected by psoriasis itches, burns, 
stings, cracks and easily bleeds. The occupational impact of 
the disease poses an economic burden for our Nation, and 
significant financial hardships for psoriatic patients. 
Emotionally, psoriasis can be devastating. The social rejection 
and physical suffering of psoriasis has even led some people to 
commit suicide.
    Some types of psoriasis require hospitalization and can 
even be diagnosed as life threatening. Each year approximately 
400 people with psoriasis are granted complete disability 
benefits by the Social Security Administration because of the 
effects of the disease.
    Perhaps even more difficult is the fact that three quarters 
of a million people diagnosed with psoriasis are under the age 
of 10. Though I certainly do not want to sensationalize my 
personal situation, I have had psoriasis for the last 20 years. 
So I can relate something of the pain, embarrassment, and 
private disgust that the vast majority of psoriasis sufferers 
struggle with throughout their lives.
    On two different occasions, I have been hospitalized for 
extended periods of time to treat the disease. On numerous 
occasions, I have received as many as 30 injections directly 
into the psoriatic patches in a single doctor's office visit.
    Early in my career, I was compelled to change my vocational 
direction from working with troubled teenagers due a pastoral 
ministry setting due to the rapid advance of the disease. I 
have even relocated my family at doctors' and clinicians' 
advice from one part of the country to another in an effort to 
find the most advantageous combination of climate, UV radiation 
from the sun, and specialized medical expertise for treating 
this tenacious malady.
    A task as simple as taking a bath has become a painful, 
time consuming ordeal. In fact, the derogatory comments and 
uneasy stares of strangers are not nearly as traumatic for me 
at this point in my life as the countless hours spent 
continually soaking in cold tar baths, applying numerous 
topical steroid treatments, wearing occlusive plastic suits to 
bed, undergoing regularly scheduled liver biopsies, and 
receiving weekly ultraviolet light radiation treatment.
    The vast majority of psoriasis patients are all too 
familiar with the devastating emotional roller coaster ride 
from the trial and failure scenario of current treatment 
options. Now, I know that my experience is certainly not 
unique. Through my affiliation with the National Psoriasis 
Foundation, I have come to understand that my struggle with 
this disease has not been nearly as devastating as that of 
hundreds of thousands of other victims.
    Like diabetes, arthritis and heart disease, psoriasis 
requires lifelong treatment. Unlike these diseases, psoriasis 
is not, or perhaps it would be better stated, has not been in 
the past, a top priority for research. Yet with recent 
excellent research conducted by NIH and NIAMS, effective 
treatment and a cure for psoriasis is within reach.
    Sufficient funding in the future will enable medical 
science to complete the puzzle and find a cure for this 
affliction. This will not only benefit the 6.5 American 
children and adults now suffering with this chronic disease, 
but will also help with the over 200,000 new cases of psoriasis 
diagnosed each year.
    Better treatments or a cure for psoriasis will result in 
both savings to the public and the government in treatment 
costs, lost work days and Social Security disability claims.
    Finally, on behalf of the 40,000 members of the National 
Psoriasis Foundation, and the 6.5 million American citizens 
with psoriasis, I urge you to approve an increase of 15 percent 
over current funding levels for NIAMS in the fiscal year 1999. 
This increase will have significant health and socioeconomic 
benefits for the millions of Americans who are affected by 
psoriasis and by other diseases under the purview of NIAMS.
    Thank you, sir, so much for your attentiveness and your 
support.
    [The prepared statement of Gary Hutcheson follows:]


[Pages 1740 - 1744--The official Committee record contains additional material here.]



    Mr. Porter. Reverend Hutcheson, is there any indication 
about the basis of the disease? Has the research gone far 
enough to give us an indication? Is it genetically based? Is it 
environmental? What do we know about that, if anything?
    Rev. Hutcheson. Just within the last couple of years, sir, 
because of research done by NIAMS, several possible sites for 
genes have been identified that may cause this inherited--it 
does seem to have a link to our heritage, this particular 
condition. But there is no direct known cause for it at the 
present time.
    Mr. Porter. Obviously, the story that you tell is very 
tough and tragic. Obviously, we want to do what we can to try 
to get some resources there, and we'll do our best.
    Rev. Hutcheson. Thank you, sir. We appreciate it.
    Mr. Porter. Thank you for testifying.
                              ----------                              

                                       Wednesday, February 4, 1998.

                                WITNESS

BRUCE DAVIDSON, BLUE CROSS BLUE SHIELD ASSOCIATION
    Mr. Porter. Bruce Davidson, Senior Vice President, 
Government Programs, testifying in behalf of the Blue Cross 
Blue Shield Association.
    Mr. Davidson. Mr. Chairman, I am Bruce Davidson, Senior 
Vice President of Government Programs for Florida Blue Cross 
and Blue Shield. After listening to the testimony here of a 
number of these very distressing diseases and conditions, I am 
not here to talk about that, I'm here to talk about the funding 
for the contractors who pay, hopefully compassionately, wisely 
for the Medicare beneficiaries who are afflicted by many of 
these conditions.
    I'm testifying on behalf of the Blue Cross Blue Shield 
Association, which represents 55 Blue Cross and Blue Shield 
member plans throughout the Nation. We certainly appreciate the 
opportunity to testify on the fiscal year 1999 budget for 
Medicare contractors.
    We come before you this year with an urgent message, 
Medicare contractor funding must be increased significantly in 
1999 to meet all of the new demands facing the contractors, but 
especially to help them combat Medicare fraud and abuse 
effectively. Our written testimony covers several areas, but 
this afternoon, I'd like to focus on the role of claims 
payment. We in HCFA call it program management in anti-fraud 
and abuse efforts.
    Both the Congress and the Administration are exploring ways 
to strengthen the efforts to detect and prevent Medicare fraud 
and abuse. I know this is a high priority of your subcommittee. 
We agree that more can and should be done.
    However, this priority cannot be addressed and the benefits 
of the increased Medicare integrity program funding cannot be 
maximized without an adequately funded program management or 
claims payment function. Many think of program management as 
simply paying claims. While the separately funded Medicare 
integrity, or we call it MIP function, is entirely dedicated to 
the detection of fraud and unnecessary payments, the first line 
of defense is the program management function of the 
contractor. It also has very significant responsibility for 
mopping up, if you will, after the MIP activities, as I will 
describe.
    Let me describe the basic relationships between program 
management and Medicare integrity activities. First, based on 
input from HCFA, the contractor's MIP function and other 
experience, a contractor's program management function puts 
into effect front end edits which stop a claim from automatic 
payment. In Florida's Part B system, there are hundreds of such 
edits. Many of the edits are used nationally, but most are a 
result of local conditions.
    This stoppage of automatic payment results in a denial or a 
review by a claim examiner and then a decision of payment or 
non-payment. More aggressive edits result in more no-payment 
decisions, which increase reviews, inquiries and hearings, all 
of which are program management functions.
    Additionally, many of the edits require that supporting 
documentation be mailed to the contractor, and this reduces the 
automatic payment rate, which has been a prime source of 
contractors' ability to process more claims with less funding.
    Second, a contractor's MIP function will identify providers 
and services which are suspect to fraud and abuse, and review 
all or a sample of claims coming from those providers or from 
those services. This results in claims denials, which then 
create more inquiries, reviews and appeals, again, functions of 
program management.
    Lastly, post-payment reviews by the MIP function result in 
increased over-payment recovery activities which are the 
responsibility of the program management function.
    In 1994, Florida subjected about 4 percent of our Part B 
claims to pre-payment review. Today we're up to 8 percent. We 
estimate that each increase of 1 percent raises program 
management costs by at least $1.4 million. The fact that 
Florida's program management funding is inadequate, and our MIP 
function is very active, is indicated by our rising review and 
appeals backlog. And we're just not keeping up with it.
    In Florida, we have the program management and MIP 
functions split and assigned to two separate managers. I can 
tell you that the MIP manager has a number of edits, suspect 
providers and services that he would like to subject to 
increased scrutiny. However, the program manager does not have 
enough resources to cope with the volume of work that was a 
result.
    This means that we are bypassing the opportunity to save 
Medicare funds because the program management function is not 
funded to match the ingenuity and activity level of the MIP 
function.
    Additional program management funds are needed to handle 
the additional work load generated by the enhanced anti-fraud 
and abuse initiatives. Medicare savings cannot be realized 
unless all segments of contractor operations are adequately 
funding.
    In closing, I would like to underscore that Blue Cross and 
Blue Shield Medicare contractors are proud of their role as 
Medicare administrators. In 1998, contractors' administrative 
costs represented less than 1 percent of total Medicare 
benefits. That's a statistic we can be proud of on the one 
hand, but be worried about on the other. Because we know that 
with more funding, we could achieve much greater program 
savings by reducing fraud and abuse.
    Given the importance of Medicare to its beneficiaries, 
providers and the Nation's economy, it's critical that the 
administrative resources necessary to effectively manage the 
program be provided.
    Thank you very much.
    [The prepared statement of Bruce Davidson follows:]


[Pages 1748 - 1758--The official Committee record contains additional material here.]



    Mr. Porter. Mr. Davidson, the bottom line on the 
president's budget indicates they're suggesting a small cut in 
Medicare contractors. We understand that they're proposing some 
new spending for contractors that is unauthorized, and it's 
funded with user fees. Can you fill me in on that? We don't 
have jurisdiction, obviously, over user fees.
    Mr. Davidson. Right. I was briefed on that just this 
morning. And it was a brief brief.
    My understanding is that the user fees will have to be 
enacted legislatively. Basically they are a tax on providers 
for paying for the costs of being audited, paying for the cost 
of submitting paper claims.
    My knowledge of both of those activities and the providers 
that would be engaged in that legislation would be that it's 
going to be some tough sledding to get that legislation passed.
    Mr. Porter. I will have to try to figure that out, 
obviously, and ask the committee of jurisdiction. I suspect 
that this appropriation will kind of remain up in the air until 
we get to conference and see what has or what might occur.
    But I think you're probably right, my guess is that all of 
the revenue portions of the President's budget probably are 
unlikely to be adopted, although I certainly would stand to be 
corrected on that. My own feeling is, it's unlikely they are 
going to be responsive to those, and that will leave us kind of 
in limbo for a while.
    Thank you for your testimony. We very much appreciate it.
                              ----------                              

                                       Wednesday, February 4, 1998.

                                WITNESS

CAROLINE MYERS, NATIONAL FUEL FUNDS NETWORK
    Mr. Porter. Last but not least, Caroline Myers, Chair of 
the National Fuel Funds Network Board of Directors and 
Executive Director of Crisis Assistance Ministry in Charlotte, 
North Carolina, testifying in behalf of the National Fuel Funds 
Network.
    Thank you for your patience, Ms. Myers.
    Ms. Myers. Thank you, Chairman Porter, for allowing me this 
opportunity to be here. I'm pleased to represent the National 
Fuel Funds Network as its chairperson. We support LIHEAP 
funding, the Low Income Home Energy Assistance Program, at no 
less than $1.3 billion for fiscal year 1999. We are also 
pleased about the fact that there is forward funding to be 
approved for 2000. We would like to propose that that level of 
appropriation be increased to a $1.5 billion figure.
    The National Fuel Funds Network is a membership 
organization comprised of over 200 dues paying representatives 
of private fuel and energy assistance funds, community action 
agencies, social service organizations, utility companies, 
trade associations and private citizens. Our member 
organizations are located in 44 States and the District of 
Columbia. We're concerned with the ongoing energy crisis that 
exists for the poor in America.
    As I've listened to these very moving testimonies that 
you've heard today, I think there is another disease in your 
country called poverty that is very much with us, and to which 
all of these people might be subject as well. I want to tell 
you a little bit about the Crisis Assistance Ministry where I 
have worked in Charlotte since its founding in 1975.
    We provide emergency energy assistance, and several other 
basic needs as well, in an effort really to prevent 
homelessness among our community's low income citizens. Every 
day at this time of year, more than 100 people come to our 
door. There are others on the phone hoping to get a chance to 
get in and to have their needs met. About half of those are 
heat related kinds of needs.
    We've been administering emergency LIHEAP funds since 1982 
for Mecklenburg County. We also administer the local fuel funds 
of Duke Power Company and Piedmont Natural Gas, as well as our 
own fuel funds that we raise from the religious community and 
individuals.
    Ours is an unusually generous, caring and prosperous 
community. We're fortunate indeed to have all those resources 
in place.
    However, the fact is that the need we're seeing even in 
this prosperous community is increasing by about 20 percent. 
We're still not meeting all the need. That is the bottom line. 
We cannot begin to do so without the basic resource of a LIHEAP 
program with increased funding. That has been core to the work 
that we've been doing, but the needis still greater than that 
we're able to meet.
    All the fuel funds get involved in this business of trying 
to find other ways to meet these needs. The families that 
LIHEAP serves and that the fuel funds serve have incomes of 
less than $10,000 annually. The fuel funds themselves make 
heating and cooling assistance payments only of about $72 
million a year. I say only, knowing how hard that is to raise.
    We do that on behalf of about 500,000 families. And that's 
very important money. But it can't begin to approach the 
importance of a $1.1 billion program that is now in place for 
fiscal year 1999 in LIHEAP funding.
    Fuel funds are unable to fill the gap between the need for 
assistance and the available fuel funds. People continue to 
heat with unsafe methods, and I think that you all are aware of 
that. Most of us don't know what it's like to live without 
power. That's what many families really do have to do in places 
where there are no local fuel funds. We read tragic stories 
about the results of that.
    This is one case in point, flipped heater causes fatal 
fire, out of a recent paper, Charlotte Observer.
    As the director of a crisis program, I'm often asked, what 
kinds of folks are these that you're seeing. And here's a 
profile of what they look like. Seventy-one percent of the 
clients that we see are below Federal poverty guidelines, at 
least in the 30 days before they came to our operation.
    They pay as much as 21 percent of their already income to 
heat and light their homes. They have discretionary income 
problems. For them, that means they're trying to make decisions 
about whether to have enough food or whether to have heat, or 
whether to buy medicine. Their dilemma, regrettably, is which 
necessities do we do without.
    Almost 70 percent of the people that we help do have earned 
income, however, a very important fact, I think, to be aware 
of. They do lack reserves and perhaps benefits on their jobs. 
But they for the most part are working, working very hard with 
often heroic efforts to maintain two jobs, so that when the 
hours are cut back on the other job, they'll be able to make 
it.
    Other recipients are disabled and struggling to pay monthly 
expenses in winters when gas or fuel prices might rise by 30 
percent or so.
    I not only represent NFNN here today and Crisis Assistance 
Ministry, but I also feel like I represent the people that we 
serve. Because I've been working with them so long. One of the 
things that our clients do for us is, they write notes as they 
leave. I just wanted to read a couple of those messages from 
those people. I have books of these kinds of testimony, 
actually.
    I just wanted to thank the people who helped me in the 
past, so my children could have power. Signed by Tony. It was 
cold inside and my house felt like ice. But thanks to a very 
special person who cared, Crisis Assistance Ministry was able 
to have my gas restored. Thank you, may God bless you.
    I want to thank Crisis Assistance Ministry for helping me. 
Your assistance helped me get my gas back on. Dear sir or 
madam, thank you for all of your help. In my case, I really do 
thank you. Now my two year old son will be able to stay warm.
    These are the very stories that are out there. There are 
many of them that I could share more with you. But that's what 
I have witnessed over the years.
    We're making generalizations, I know, about the poor. But 
there are just many circumstances that can happen in peoples' 
lives that make it so that for a time being, at least, people 
face this kind of an emergency.
    LIHEAP has just not kept pace with the increased number of 
poor and with the erosion of the income that the poor are 
receiving. The thing that we are really looking at in the years 
ahead is the impact of welfare reform.
    Now that we are doing some very significant things to 
create really perhaps more working poor, they are going to need 
the kind of support system that must be there so they don't 
fall off the edge, so that they can indeed meet the basic needs 
of their families and keep them warm and able to function. 
Alarm clocks don't go off, either, without electricity. So 
LIHEAP must play this increasing role in welfare reform 
transition.
    Former public assistance recipients for the most part will 
make these low wages. In Charlotte, a living wage has been 
determined to be at about $13 an hour. So you see, there is 
quite a gap that's got to be filled somewhere.
    [The prepared statement of Caroline Myers follows:]


[Pages 1762 - 1766--The official Committee record contains additional material here.]



    Mr. Porter. Ms. Myers, is your request the same as the 
President's budget?
    Ms. Myers. The President's budget, I believe is 1.14.
    Mr. Porter. I think it's 1.3.
    Ms. Myers. Is it?
    Mr. Porter. I thought it was.
    Ms. Myers. We have some other folks, Pat Markey may know 
the answer to that better than I.
    Mr. Porter. It's 1.4, then, is that correct?
    Ms. Markey. It's $1.1 million in core funds, plus an 
additional $300,000.
    Mr. Porter. I thought that your request was 1.3, so it's 
1.3 as opposed to 1.1.
    Ms. Myers. Right.
    Mr. Porter. So you're asking for more than what the 
President's asking for?
    Ms. Myers. Exactly. And in the forward funding for 2000, a 
larger increase.
    Mr. Porter. Right. Well, let me say that obviously the need 
is very great. My colleague over on the Senate side, Senator 
Specter, has been a very great champion of LIHEAP funding. I 
think you can probably be pretty well assured that he's going 
to be a champion again this year.
    Ms. Myers. I certainly hope so.
    Mr. Porter. We have not been nearly as strong. But when it 
comes out in the conference, the Senator has consistently been 
there, and been a very strong supporter of LIHEAP. And it 
undoubtedly will end up the same way.
    Ms. Myers. Good.
    Mr. Porter. That's good news.
    Ms. Myers. Thank you.
    Mr. Porter. I personally have some problems with the 
rationale of the program, which I don't think we can debate 
here at this point in time, but I think you're exactly right, 
that the need is very great, the population served must have 
this assistance. And I have been urging the authorizers to look 
at the concepts of the program in a different way for the 
reasons that I believe the rationale has ceased to exist. But 
absolutely, there's no question about the need and the funds 
have to be provided in some way.
    Ms. Myers. And the graying of America certainly impacts 
this program, too.
    Mr. Porter. And you mentioned welfare reform, and of 
course, that's right, also.
    Ms. Myers. Right.
    Mr. Porter. So thank you very much for coming to testify. 
We're sorry you had to wait so long. But it's been a day filled 
with a lot of votes that we simply can't anticipate.
    Ms. Myers. Thank you for your attention.
    Mr. Porter. Thank you so much.
    [Clerk's note.--Information required pursuant to clause 
2(g)(4) of Rule XI of the Rules of the House of Representatives 
was not received from this witness or from an entity 
represented by this witness.]
    The subcommittee will stand in recess until 10:00 a.m. 
tomorrow.
                                        Thursday, February 5, 1998.

                                WITNESS

BENJAMIN PAYTON, TUSKEGEE UNIVERSITY
    Mr. Porter. The subcommittee will come to order.
    This is the final panel of our public witnesses. We have 
heard roughly 160 witnesses to this point, and I want to thank 
all of you for coming to testify.
    I have up to this point been asking a fair amount of 
questions. Today I am not going to be able to do that to any 
extent because I have a speech off the Hill between the morning 
panel and the afternoon hearings, and we are going to have to 
complete our panel by the appointed time.
    I thank you all for coming. We have allotted 5 minutes to 
each witness. Our staff has a new innovation, as you may have 
heard, a timer that will indicate the end of the 5-minute 
period, and we would ask that you complete your thought and 
then complete your statement as promptly as possible.
    Our first witness is Benjamin Payton, president of Tuskegee 
University, representing the university. Dr. Payton, it is nice 
to see you, sir.
    Dr. Payton. Thank you, sir. Good morning, Mr. Chairman, and 
thank you, members of the committee, Congressman Stokes and 
others.
    I want to first express my appreciation to you, Mr. 
Chairman, for the extraordinary leadership that you have 
provided this committee, and I hope you will permit me to say a 
word of special thanks to Congressman Stokes. He has recently 
announced that he is going to be retiring from the Congress 
this year, and many of us feel a deep pain at that, 
Congressman. You have been such an outstanding presence on this 
Hill.
    As a matter of fact, I want to, if you will permit, Mr. 
Chairman, to begin my few remarks by reading a quote from a 
recent article Congressman Stokes wrote in an issue of the July 
Roll Call. He says this, and I quote:

    In recent years, we have seen unprecedented advances in 
biomedical research, the diagnosis of disease, and the delivery 
of health care services. However, African Americans, Hispanic 
Americans, Native Americans, and those of Asian/Pacific 
Islander heritage have neither fully nor equally benefited from 
these new discoveries. Rather, minority Americans continue to 
face historical barriers to good health, such as poverty, poor 
nutrition, and lack of access to quality health care, which has 
severely compromised their health status.

    That, Mr. Chairman, is an excellent summary of the 
biomedical challenges that we face in our society, as so 
eloquently stated by Congressman Stokes.
    I wanted to add to that a new dimension of the whole health 
field that now confronts our society and the entire modern 
world and the entire world, and that is what has come to be 
known as the challenge of bioethics.
    It is now critical that all Americans understand, and 
particularly the health and medical communities, those who are 
not only the deliverers of health care but those who teach it, 
as well as the American society, that science and medicine are 
not autonomous enterprises. These are activities that have to 
function in the context of moral and social values which are 
the texture in which we develop as a people.
    One of the great challenges that we face now is that we 
have developed a new discipline over the past 15 or 20 years 
that is called bioethics, and it means really what it says: 
bios ethic is the ethics of life, it is about bringing the 
disciplines of philosophy and ethics and the humanities to bear 
on the activities which comprise the health and medical care 
establishment.
    Bioethics is important, Mr. Chairman, because we have made 
some grievous errors in this society, particularly with respect 
to African Americans and people of little power. Those grievous 
mistakes have been symbolized, have come to be symbolized in an 
experiment that is popularly known as the Tuskegee experiment.
    I am Benjamin Payton. I am president of Tuskegee 
University. For more than 40 years, the United States Public 
Health Service hid behind the name Tuskegee while it, the 
United States Public Health Service--not Tuskegee--conducted an 
experiment on poor, defenseless black males, illiterate people 
who didn't know really what was going on. And that experiment 
was designed to just see what would happen when syphilis is 
untreated and left to make its own course. Even when penicillin 
and effective treatment became available, that treatment was 
denied these persons who were participants in this experiment.
    This so-called Tuskegee experiment has come to represent 
the height of infamy in the conduct of health and medical 
research in our society. But it has done something else, Mr. 
Chairman. It has created a tremendous undertow of suspicion and 
cynicism among African Americans and many people without power 
in this society and, thus, an unwillingness to participate in 
the kind of trial clinics which are so important if we are to 
continue the process of discovering new cures for disease.
    It is important, if those cures are to be developed, that 
all Americans participate in these trials. So our great 
challenge is how do we overcome this heritage of suspicion, 
rightly rooted, in part, in the abuses of the system, but also 
now forwarded by the absence of significant participation of 
minorities in the bioethics disciplines which make it possible 
for us to understand the new developments that are occurring as 
a result of the impact of science and technology in our 
society.
    To just illustrate quickly that impact, there are articles 
now appearing all over. There is one scientist, for example, 
who wants to clone a human being and says he is going to do it 
in spite of the fact that the President's National Commission 
on Bioethics has recommended that all cloning of human beings 
cease and not occur.
    There are incidences which have occurred right here in 
Washington, D.C., where people from poor families have had 
their deceased relatives in hospitals; the organs have been 
removed, it has been reported, before death in order that those 
who can use them and can pay for them can have access to them.
    We have people who are interested in really doing--a few, 
fortunately not too many, we don't think--what was begun by the 
Nazis in Germany, and that is, to create a science of genetics 
to develop a superhuman race.
    Mr. Chairman, these kinds of issues are the kinds of issues 
that all Americans must become knowledgeable about and trained 
about. Minorities, African Americans and others, particularly, 
have got to understand the protocols governing research so that 
they can respond in intelligent ways to these challenges. Thus, 
they request for this committee for an appropriation to follow 
the $4,000,000 you authorized last year and we have received to 
create the first bioethics center in health care and research 
on a historically black college campus, at Tuskegee University.
    We are most grateful for that, Mr. Chairman, and to this 
Congress. This was announced by President Clinton. It has the 
support of the executive branch. It is a bipartisan effort. In 
order to bring it to completion, we will need appropriations 
this year in the amount of $18,000,000 which we are coming 
forward to ask this committee to give its serious consideration 
to.
    This will be a path-breaking program that would enable us 
to make tremendous progress as a total society, Mr. Chairman.
    [The prepared statement of Benjamin Payton follows:]


[Pages 1772 - 1779--The official Committee record contains additional material here.]



    Mr. Porter. Dr. Payton, thank you very much for your 
testimony. Obviously we cannot change the past, and I don't 
know the facts of the study you mentioned, but we can change 
the future. We will take your thoughts and your testimony into 
account in our deliberations, and let me say I can't agree more 
that--and I told Mr. Stokes this yesterday. He is virtually 
irreplaceable, and I don't know what we are going to do without 
him. But we are going to take advantage of his last year in the 
Congress, and he will continue to be the strong advocate that 
he has always been.
    Dr. Payton. Thank you.
    Mr. Porter. Thank you, Dr. Payton.
    Mr. Stokes. Thank you, Mr. Chairman. If I may?
    Mr. Porter. Mr. Stokes?
    Mr. Stokes. I certainly want to respect the time aspects of 
this morning's hearing. I just want to thank Dr. Payton for the 
eloquent statement he has made here this morning. Mr. Chairman, 
I want to thank you and the other members of the subcommittee 
for the manner in which you responded to the President's 
request and Dr. Payton's request relative to this appropriation 
by appropriating $4,000,000 in the fiscal year 1998 bill.
    Certainly, I hope that we will be able to comply with your 
full request, Dr. Payton, but I certainly appreciate the manner 
in which you have responded, Mr. Chairman, as well as the other 
members of this subcommittee.
    Mr. Porter. Thank you, Mr. Stokes.
    Thank you, Dr. Payton.
    Mr. Payton. Thank you very much, Mr. Chairman.
                              ----------                              

                                        Thursday, February 5, 1998.

                                WITNESS

RICHARD O. BUTCHER, SUMMIT HEALTH COALITION
    Mr. Porter. Our next witness is Richard O. Butcher, M.D., 
President, Summit Health Coalition, testifying in behalf of the 
coalition.
    Dr. Butcher.
    Dr. Butcher. Good morning, Mr. Chairman and distinguished 
members of the subcommittee. Thank you for this opportunity to 
speak with you this morning on behalf of the Summit Health 
Coalition. I am Dr. Richard Butcher, a family practitioner in 
San Diego, California, for the past 30 years. I have served as 
president of Summit Health Coalition since its inception.
    Summit Health Coalition is a network of 50 national, State, 
and community-based organizations, primarily African American. 
Since 1993, our focus has been to advocated for health care 
policies that will meet the needs of underserved populations.
    This subcommittee has supported programs of critical 
importance to the members of our coalition, and we appreciate 
your leadership in this regard, Mr. Chairman.
    We also join Dr. Payton in recognizing the extraordinary 
accomplishment of Congressman Louis Stokes. We can think of few 
Members of Congress, past and present, who have made such a 
lasting contribution. Congressman Stokes, the Summit Health 
Coalition salutes and we thank you.
    Today's headlines announce this as a time of 
uncommonprosperity in America. Unemployment is down, tax revenues are 
up, and there are even projections of a budget surplus. Yet in today's 
booming market economy, some people are still not benefiting. Many of 
them are our constituents.
    At the same time, the passing of the Balanced Budget Act in 
the last session of Congress is bringing about a transformation 
in the way health care is provided in our communities. Many of 
these changes are positive. But a substantial number of our 
constituents are experiencing challenges and disruptions that 
we believe were not intended by Congress. We would like to 
recommend some proposals this morning that will address these 
unintended consequences.
    Our recommendations deal with four areas.
    First, our first recommendation is that Congress provide 
the funds necessary to strengthen HCFA's capacity to protect 
Medicaid and Medicare beneficiaries enrolled in managed care. 
We know that the workload of the Health Care Financing 
Administration has increased dramatically as a result of new 
laws enacted in 1996 and 1997. At the same time, HCFA must take 
steps to ensure that beneficiaries are helped, not harmed, as 
health delivery systems change. These are the reasons we 
support increased funding for HCFA oversight monitoring and 
collection of data on managed care procedures and outcomes by 
race and ethnicity.
    We also urge increased funding for the consumer education 
with respect to managed care. We specifically recommend that 
the HCFA budget for research, demonstration, and evaluation be 
increased by $25,000,000 over last year's level. This increase 
is necessary if HCFA is to respond meaningfully to Congress' 
request made last year. You asked that HCFA demonstrate and 
evaluate community-based model programs to help vulnerable 
populations understand how to use managed care. This is a very 
important need. HCFA also needs to conduct research on the 
impact of managed care on consumers and providers, particularly 
in minority and other underserved communities.
    We also urge consideration by Congress of expanded support 
for insurance counseling assistance programs. Many programs 
have seen counseling requests increase dramatically with the 
coming of managed care while funding has been the same for the 
last 3 years.
    With regard to the Health Resources and Services 
Administration, we strongly urge this subcommittee to continue 
its leadership role in providing support for historically black 
health professional schools and scholarship programs for 
minority students.
    We are very concerned that access to health care in 
minority communities will be severely limited if there isn't a 
concerted effort now to maintain and expand the number of 
African American health professionals and institutions. This is 
why we wholeheartedly endorse the Disadvantaged Minority Health 
Professions Amendments Act of 1997.
    We also urge budget increases for community health centers 
and other essential community providers who provide health care 
to the uninsured.
    With respect to other department initiatives, we strongly 
support the adequate funding for the Office of Minority Health 
and the Office of Research on Minority Health at NIH. We 
enthusiastically endorse the President's initiative on race. We 
believe, in addition, that there must be adequate funding for 
inclusion of African Americans and other vulnerable populations 
in clinical trials.
    Summit will be sharing detailed legislative proposals on 
tobacco control with you in the days and weeks to come.
    Mr. Chairman and members of the subcommittee, we invite you 
to review our written statement for additional information on 
these recommendations. Thank you for this opportunity to bring 
the concerns and proposals of Summit Health Coalition to your 
attention.
    [The prepared statement of Richard Butcher follows:]


[Pages 1783 - 1790--The official Committee record contains additional material here.]



    Mr. Porter. Thank you, Dr. Butcher. That was perfect. It 
couldn't have been better. We will very definitely read your 
written submission and take your views into account when we 
mark up the bill.
    Thank you for coming to testify.
    Dr. Butcher. Thank you, Mr. Chairman.
    [Clerk's note.--Information required pursuant to clause 
2(g)(4) of Rule XI of the Rules of the House of Representatives 
was not received from this witness or from an entity 
represented by this witness.]
                              ----------                              

                                        Thursday, February 5, 1998.

                                WITNESS

MERRILL MATTHEWS, JR., PH.D., NATIONAL CENTER FOR POLICY ANALYSIS
    Mr. Porter. Dr. Merrill Matthews, Jr., Vice President, 
Domestic Policy, National Center for Policy Analysis, 
testifying in behalf of the Center.
    Dr. Matthews?
    Dr. Matthews. Good morning, Mr. Chairman and committee 
members. I would like to take this opportunity to thank the 
committee for this opportunity to testify before the committee. 
My name is Merrill Matthews. I am a Ph.D. I am Vice President 
of Domestic Policy for the National Center for Policy Analysis, 
a nonpartisan, nonprofit research institute based in Dallas.
    In 1995, the Department of Health and Human Services, 
including the Social Security Administration, spent 
$665,000,000,000, according to the Department's own published 
figures. That amount represented 44 percent of the Federal 
budget that year.
    One of the largest agencies under HHS, the Health Care 
Financing Administration, HCFA, had a total budget of 
$269,000,000,000 in 1995, or 16.4 percent of the Federal 
budget.
    I am going to take a little bit different track than my two 
predecessors, and I am going to talk just a little bit about 
how to downsize Government rather than add more. Clearly, Mr. 
Chairman, if Congress is going to look at downsizing 
Government, if it is serious about it, we are going to have to 
look at the Department of Health and Human Services.
    Unfortunately, trends created by both Congress and HCFA 
itself have been moving in the opposite direction. As was 
mentioned just a minute ago, Congress had passed legislation in 
1996 and 1997 which expands HCFA's oversight and is going to 
give them more responsibilities, and they don't have enough 
people probably to handle that.
    In addition, Congress is looking at future things. The 
President has suggested several things in his new budget which 
would increase the oversight and size of the Health Care 
Financing Administration. Congress is also looking at various 
types of consumer protection laws which could create a new huge 
burden on HCFA to oversee the hundreds of managed care 
companies that are out there in the country. That would 
represent a huge growth in HCFA.
    In addition, HCFA itself has not been without some 
responsibility here. They have been seeking to grow internally. 
Even though the new Administrator at HCFA has recently 
expressed the concern they have about the growth that they are 
having to experience, the new responsibility, and the lack of 
funds, in some cases they have actually sought to grow 
themselves.
    In the budget agreement of 1997, one of the things that 
they wanted to do in the Medicare Plus Choice program is to 
become marketers for all the health plans and health insurers 
out there. As you know, the Medicare Plus Choice program gives 
people more opportunities, seniors more opportunities to choose 
between HMOs, PPOs, point-of-service plans, Medicare medical 
savings accounts, traditional fee-for-service.
    In the agreement, HCFA arranged to get $200,000,000 set 
aside a year to market these plans to seniors. Now, we find 
that somewhat strange. Why would the Health Care Financing 
Administration want to try to become a marketer for health 
insurance? Imagine an elderly couple, 70-year-old man, 65-year-
old woman, both going on Medicare. The man has had a history of 
heart problems and other medical conditions. The woman, his 
wife, may have been very healthy, and they decided, What do we 
want? So they are going to call a representative of HCFA to 
find out what of these plans they think would be the best ones 
available for them.
    In this budget, which eventually was negotiated down to 
$95,000,000, HCFA decided that they wanted to have published 
brochures, they wanted to have health fairs, they wanted to 
have a hotline because they were anticipating 6 million calls a 
year from seniors trying to figure out what they should get in 
health insurance.
    It would be bizarre to imagine that people who have never 
been trained in health insurance could sit and answer the 
questions of seniors, many of whom have very difficult 
problems, trying to guide them on what kind of health plan they 
could go in.
    That is an unreasonable approach for HCFA to take, but they 
have wanted to do that, and we suggest that that is not a very 
effective use of their time.
    So not only is Congress imposing new oversight on HCFA and 
they are trying to grow themselves, you are creating a problem 
within the Health Care Financing Administration which should be 
curtailed. So I would encourage you in future legislation to 
consider some of these problems that they are facing.
    In addition, let me take a few minutes just to talk about 
some of the other things that the Department of Health and 
Human Services has oversight on that could be changed in order 
to be able to downsize that whole process. One is Medicare. We 
would suggest that Congress look at the possibility of Medicare 
privatization, that is, giving people the ability to put their 
own money in their own account during their working lives so 
that when they retire, they can use that money to buy health 
care after retirement, rather than having the huge Medicare 
bureaucracy oversee this whole process.
    In 1995, Congress looked at block granting Medicaid to the 
States. That budget was curtailed. It was vetoed by the 
President. We think that it would be a very good time to look 
again at block granting Medicaid to the States in order to get 
the Federal Government out of the Medicaid business.
    With that, I think my time is up now, so I will stop there.
    [The prepared statement of Merrill Matthews, Jr., follows:]


[Pages 1794 - 1801--The official Committee record contains additional material here.]



    Mr. Porter. Dr. Matthews, thank you for your testimony. 
Obviously much of what you say we have been attempting to 
respond to.
    When you talk about the size of the overall budget for HHS 
and for HCFA, you are mainly talking about entitlements or 
mandatory spending over which this subcommittee doesn't have 
control. You also have pointed out some things over which we do 
have control, and I think the points are well taken.
    The intention, of course, is to give more discretion to the 
States. We have done that, not the way we wanted to because the 
President vetoed it, but we have done it by granting a very, 
very strong waiver on Medicaid, and many States are proceeding 
as they basically wish in that area. I think that has been a 
positive development.
    We also have restrained the rate of increase in the 
entitlement programs, not this subcommittee but the Congress, 
which I think has been very necessary.
    Providing to Medicare-eligible seniors a lot of lesser-cost 
alternatives--or at least the hope is that they will be lesser-
cost--I think has been a very, very positive development in the 
program. I don't think it--I think I will disagree on one 
point. I don't think it is a bad thing at all for HCFA to be in 
the market of helping seniors determine which is the best 
alternative. One thing we want to do is to move people out of a 
traditional, very expensive program, into less expensive 
alternatives. If that is the thrust of what we are doing, I 
think that is very, very positive.
    I also think you need a certain amount of ombudsman 
services to seniors who won't understand all of these very 
complex choices, and I doubt that that is something that can be 
done credibly as well in the private sector, but I could be 
wrong about that.
    In any case, we do aim to make our spending at the Federal 
level less, to bring more to the States, to make efficient the 
programs, and the spending that is done at the Federal level in 
such a way that we are saving resources. We have been doing the 
best we can to accomplish those goals.
    So thank you for testifying today. We very much appreciate 
it, Dr. Matthews, and we will continue along those lines.
    Dr. Matthews. Thank you, Mr. Chairman.
                              ----------                              

                                        Thursday, February 5, 1998.

                                WITNESS

SUSAN C. SCRIMSHAW, PH.D., ASSOCIATION OF SCHOOLS OF PUBLIC HEALTH
    Mr. Porter. Susan C. Scrimshaw, Ph.D., Dean, School of 
Public Health, University of Illinois at Chicago, testifying in 
behalf of the Association of Schools of Public Health.
    Dr. Scrimshaw, welcome. Nice to see you again.
    Dr. Scrimshaw. It is good to see you again, Mr. Chairman. 
Senor Bonilla, mucho gusto.
    I am Susan Scrimshaw, Dean, School of Public Health, 
University of Illinois at Chicago, and Chair of the Legislative 
Committee of the Association of Schools of Public Health. And I 
would like to thank you for the opportunity to present our 
statement today.
    With your permission, I am going to submit the written text 
and highlight some of my comments, and the written text 
includes a chart with our recommendations.
    First, health professions education. We strongly recommend 
that Congress tackle a problem that has been left to fester for 
over a decade: lack of adequately trained health professionals. 
You will recall that in 1988 the Institute of Medicine found 
the U.S. public health infrastructure was in disarray and 
identified serious shortages of public health professionals. 
This is even more important 10 years later in the era of 
managed care where still 80 percent of the 500,000 public 
health workforce do not have graduate education in public 
health.
    There are only about 4,000 certified preventive medicine 
physicians in the U.S. The estimated need, however, is around 
10,000.
    My school conducted a study recently and found that only 
about 25 percent of local public health departments had the 
staff to adequately address core areas of public health. So, 
Mr. Chairman, we need your help in seeking solutions to these 
inadequacies.
    We spend over $6,000,000,000 a year to ensure that 
physicians are well trained in the medical sciences to treat 
and cure diseases, and we spend pittances to train 
professionals to prevent those diseases. This doesn't make 
sense. As you are well aware, a dollar spent on measles vaccine 
saves $12 later. Prenatal care saves us $10,000 for every 
premature birth averted. HIV averted saves us $75,000 later on 
in costs. So we respectfully request that Congress appropriate 
at least $50,000,000 to support HRSA's public health training 
programs.
    In the second area of prevention research, as you are 
aware, we have 14 prevention research centers that were 
authorized by Congress, and they are located mostly in schools 
of public health. They bridge the gap between public health 
science, research, and academia and public health practice in 
communities. Our own prevention center at the University of 
Illinois at Chicago is one of the strongest in the country. To 
give you an example of the kind of work we do, we have a 
project that works with grade school children to address 
prevention of violence, drug abuse, premature sexual activity, 
smoking, and alcohol abuse, and promotes self-esteem, 
educational attainment, and a healthy lifestyle.
    This program has been so successful it is being adopted for 
all of the Cook County schools, and other school systems around 
the U.S. are looking at it as an example.
    We have another project in Lake County, Illinois, you may 
be familiar with, and that is successful in promoting breast 
and cervical cancer screening. Mr. Chairman, you presented an 
award at the National Center for Nursing Research to our Dr. 
Michelle Kelley for her transitions to parenthood project.
    We also go on record in support of the administration's 
fiscal year 1999 request to fund CDC's extramural research 
program, but at $100,000,000 instead of $25,000,000. That is 
how strongly we believe in prevention.
    Given the importance of prevention, we respectfully 
recommend that NIH be urged to focus more attention on 
population-based research strategies, and particularly on 
behavioral aspects of research. As an anthropologist, I have 
spent 25 years trying to be a bridge between the health care 
system and behavioral determinants of illness and the 
development of strategies to prevent illness and promote 
healing. We would like to say that we want to promote wellness 
instead of sickness in this country.
    ASPH strongly applauds your efforts to double the NIH 
budget, and we commend your vision and leadership. We also urge 
that equal commitment be given to the NIH partners: HRSA, CDC, 
AHCPR, and OPHS. It is important to improve the health of the 
American people. Research at NIH is biomedical research, but we 
need to do the applied and the community-based research to go 
along with the biomedical.
    To give you two quick examples of how important this can be 
in our own communities, NIOSH funds the ERCs, the education and 
research centers, and our Dr. Daniel Rahorshek heads the ERC at 
University of Illinois at Chicago.
    Our ERC at UIC has NIOSH funding, and last year we were 
asked by the city of Lakeforest to do an assessment of bio-
aerosols emitted by a composting facility. The assessment was 
heavily subsidized by our NIOSH funding. We could not have done 
it without it.
    We also worked on methyl parathion, which was illegally 
applied to hundreds of homes in the greater Chicago area. Dr. 
Rahorshek chaired the CDC expert panel on methyl parathion. 
Again, without NIOSH support, we couldn't be doing this work
    Mr. Chairman, I would like to end my testimony by once 
again commending you and thanking you and the members of your 
subcommittee for supporting public health service programs in 
general, and I would like to remind us that public health 
represents 25 of the 30 years of life expectancy we have gained 
in America this century, and also commend the President for 
increasing the AHCPR budget, but note our disappointment at the 
lack of support for the MCH block grant. We have such a block 
grant in our State, and I think we are a good example of how 
important it is to protect mothers and children with this 
funding.
    As I say, you have a written copy of my testimony. I want 
to thank you very much for your attention and for your hard 
work to promote a healthy America.
    [The prepared statement of Susan Scrimshaw follows:]


[Pages 1805 - 1814--The official Committee record contains additional material here.]



    Mr. Porter. Dr. Scrimshaw, thank you for your excellent 
testimony. We will try to do better than the President did in 
some of those areas, and I think you have put your finger 
obviously on something that is very important, that is, moving 
from the research to the application of that research to our 
lifestyles and our health. And we will do our best in those 
areas, too.
    Dr. Scrimshaw. Thank you very much.
    Mr. Porter. Thank you so much for coming to testify.
                              ----------                              

                                        Thursday, February 5, 1998.

                               WITNESSES

JOSEPH GIAMMALVO, PARENT
MICHAEL GIAMMALVO, PATIENT (SON)
GINA CIOFFI, COOLEY'S ANEMIA FOUNDATION
    Mr. Porter. Joe Giammalvo, a parent, accompanied by his 
son, Michael, to testify in behalf of the Cooley's Anemia 
Foundation.
    Mr. Giammalvo?
    Mr. Giammalvo. Good morning, Mr. Chairman. My name is 
Joseph Giammalvo. With me today is my 6-year-old son, Michael. 
I am also accompanied by Gina Cioffi, the national executive 
director of the Cooley's Anemia Foundation. I am very grateful 
to have an opportunity to thank you for your past assistance 
for Cooley's anemia patients like Michael and to tell you about 
how much more remains to be done.
    At the outset, let me state that because of the work of 
this subcommittee and the National Institutes of Health, 
Michael has a considerably lengthened life expectancy. Cooley's 
anemia patients today often live into their 30s, whereas just 
20 years ago, average life expectancy was mid-teens. A brief 
description of what Michael's life is like will indicate how 
much more there is to do.
    Cooley's anemia is a genetic blood disease that results in 
inadequate production of hemoglobin, the red oxygen-carrying 
substance in blood. This causes severe anemia which requires 
frequent and lifelong blood transfusions to sustain life. 
Because there is no natural way for the body to eliminate iron, 
the iron in the transfused red blood cells builds up and 
becomes toxic to tissues and organ systems, particularly the 
liver and the heart.
    The excess iron must be removed, or the patient will die. 
This is done by infusion of a drug that is administered for 10 
to 12 hours a day by pumping it through a needle inserted below 
the skin or in a vein.
    Michael is my hero. He is the bravest little boy I know. 
Every day he fights to continue to live. It is a struggle, Mr. 
Chairman, and many Cooley's anemia patients do not make it. 
Particularly as they move into their teen years, children tend 
to become less compliant. Compliance hurts. Compliance means 
you can't go spend the night at a friend's house. Compliance 
means you can't be just another kid.
    In my written statement that is submitted for inclusion in 
the record, I go into more detail on the research opportunities 
that exist to improve the lives of young people like Michael 
struggling with terrible affliction. But I would like to touch 
on a couple of those opportunities here.
    Last year, a Special Emphasis Panel was convened by NIH to 
discuss new therapies for Cooley's anemia. The number one 
recommendation of that panel was the creation of a network of 
collaborative clinical centers to study the effectiveness of 
new clinical interventions for Cooley's patients. This approach 
has great merit as it would allow for pooling of patients, the 
creation of common protocols, it would save money and expedite 
research. It must have been a good idea, Mr. Chairman, because 
this subcommittee and your Senate counterpart endorsed it in 
the conference committee report for fiscal year 1998.
    Unfortunately, it has not been done.
    As a taxpayer, Mr. Chairman, I am greatly concerned when 
tens of thousands of tax dollars are spent to bring in experts 
from all over the country to advise the NIH, and their top 
priority recommendation, endorsed by Congress, is not acted 
upon. But as the parent of Michael Giammalvo, I am outraged.
    Since the report was issued, new research identified many 
sickle cell anemia patients who have required the same painful 
treatment as Cooley's anemia patients, greatly enlarging the 
population that would be served by such a network. And the 
network is all the more important because significant research 
opportunities exist.
    According to the Special Emphasis Panel's report and 
according to the independent experts in the field, a couple of 
examples: Opportunities exist to develop an oral drug to remove 
iron so patients like Michael won't have to be hooked up to a 
pump 10 to 12 hours per day. Those opportunities need to be 
pursued aggressively by NIH.
    The use of enhanced fetal hemoglobin could end the need for 
blood transfusion and, therefore, the need for removing iron 
from the body.
    But a vigorous research effort must be made. Opportunities 
exist to find ways to measure the iron accumulation to the 
organs more effectively. Today Michael has to have a needle 
stuck through his abdomen into his liver to get an accurate 
measurement, a painful and costly procedure. There is promising 
new technology called a superconducting quantum interference 
device, or SQuID. But there is only one such machine in 
existence in this country.
    There are more areas of important research, Mr. Chairman, 
in my written statement, but I want to be very clear on my 
basic point: All of us affiliated with Cooley's Anemia 
Foundation are very supportive and grateful for the research 
that has been conducted at or funded by NHLBI and NIDDK over 
the years. We know that it is directly responsible for the 
extended life span of our children. We also know that we are on 
the cusp of many breakthroughs. Important advances can be made 
in treatment for these kids.
    My dreams for Michael are no different than any other 
parents' for their children. I want him to grow up happy. I 
want him to experience all that life in our great country has 
to offer. I do not care if he is a doctor or a Congressman or 
an auto mechanic, so long as he has the same opportunities to 
succeed that everyone else has.
    The creation of a network of collaborative clinical centers 
is the first step in assuring that successful outcome.
    Thank you for your consideration.
    [The prepared statement of Joseph Giammalvo follows:]


[Pages 1818 - 1825--The official Committee record contains additional material here.]



    Mr. Porter. Mr. Giammalvo, thank you for your testimony.
    Has NIH told you why they are not proceeding with this?
    Mr. Giammalvo. I have to field that to Ms. Cioffi.
    Ms. Cioffi. They think that the patient population is too 
small, and actually, I don't think that they recognize all of 
the recommendations out of the Special Emphasis Panel are 
really ready for development. Any number of them can be 
explored at this time. In particular, fertility issues, 
psychosocial issues, the iron measurement issues, they are all 
very ripe for proceeding with a collaborative network.
    Mr. Porter. We will follow up with NIH and stay in touch 
with you regarding all of this because obviously we want to 
give Michael and all the Michaels the greatest opportunity 
possible for them to live normal lives.
    Mr. Giammalvo. Thank you.
    Mr. Porter. We thank you for your testimony.
    Mr. Giammalvo. Thank you.
                              ----------                              

                                        Thursday, February 5, 1998.

                               WITNESSES

J. ALFRED RIDER, M.D., PH.D., CHILDREN'S BRAIN DISEASES FOUNDATION
MICHAEL JOYCE
CHRISTOPHER CAMPBELL
    Mr. Porter. Alfred Rider, M.D., Ph.D., President; Michael 
Joyce, Trustee; and Christopher Campbell, Trustee; testifying 
regarding Children's Brain Diseases.
    Dr. Rider, it is good to see you again, sir.
    Dr. Rider. I am J. Alfred Rider, President of the Board of 
Trustees of the Children's Brain Diseases Foundation. This will 
make the 21st time since 1978 we have been here, and there have 
been tremendous progresses made in the research on Batten 
disease. When we first started in 1978, nobody had heard of the 
disease. There was no treatment, no research going on, and so 
forth.
    As a direct result of this committee's actions, finally, in 
1991 to make specific dollar amount recommendations, 
significant research has been done. Batten disease, as I have 
told you before, is the most common neurogenetic disease in 
children, about 300 children born a year. There are over 
440,000 carriers in the United States.
    In 1995, just to show you how fast things progress, the 
gene defect and the early infantile form of the disease was 
localized on chromosome 1p32.
    In 1996, the gene for the classical infantile form was 
localized on chromosome 11p15, and the gene for the variant of 
the late infantile which lies on chromosome 15q21-23.
    In 1997, a group led by Dr. Pete Lobel, using a much faster 
novel approach of looking at lysosomal enzymes instead of 
concentrating on which of the 100,000 genes are defective, 
discovered the molecular basis for the late infantile form of 
Batten disease by identifying the single protein that is absent 
in this disease.
    It is now possible to make an absolute definitive diagnosis 
and determine carriers in all three childhood forms by a simple 
blood test, and to prevent the disease by genetic counseling, 
including in vitro fertilization.
    In spite of this, in 1997 the NINDS spent $2,838,000, which 
was 13 percent less than in 1994. So we had great impetus 
growing, and now we hope that this trend won't continue.
    If we can continue with that research, we should be able to 
get specific enzyme therapy which will be able to threat these 
diseases. We feel that the diseases drain our national 
resources by approximately $712,000,000 a year.
    Our specific recommendations are these: Although there have 
been four significant breakthroughs with regard to gene 
localization in Batten disease and the identification of the 
single protein that is absent in the late infantile form, we 
were disappointed that the funding for 1997 was approximately 
13 percent less than 1994. As you know, the budget has 
continually increased at the NIH every year. Consequently, we 
would like to suggest that the following wording, similar to 
what we used last year:
    ``The committee continues to be concerned with the pace of 
research in Batten disease. The committee believes that the 
institute should actively solicit and encourage quality grant 
applications for Batten disease and that it continue to take 
the steps necessary to assure that a vigorous research program 
is sustained and expanded. The committee has requested that 
$3,470,000 within the funds available to the NINDS be spent on 
Batten disease research. This represents an average yearly 
increase of 4.1 percent since 1994. This will allow for 
$2,800,000 for continuation and renewal grants and $631,000 for 
new grants.''
    I would like to mention, I have Michael Joyce here and his 
wife, Rosemarie. They are parents of a set of twins, Ian and 
Joey, who have the late infantile form of Batten disease. I 
think they have been here since you have been chairman the last 
several times. I am happy to say they are still alive and doing 
as well as can be expected because they get superior nursing 
care, and there is where tremendous expenses come in.
    I thank you very kindly.
    [The prepared statement of J. Alfred Rider, M.D., follows:]


[Pages 1828 - 1838--The official Committee record contains additional material here.]



    Mr. Porter. Well, Dr. Rider, I have been on this 
subcommittee for 17 years, and you have been coming here longer 
than I have been here. You have been a wonderful, strong 
advocate, and we have attempted, I think, to listen very 
carefully to what you have to tell us. You know that we don't 
direct NIH to do things, but sometimes we can lean a little 
bit. I was not, frankly, aware that they had been spending less 
on this. I am going to look into it personally and find out why 
and assure you that we will do everything we can to continue to 
put this at a high priority at NIH.
    The Joyce family and the boys have touched our hearts many 
times, and we want to respond, obviously, for them and for all 
the children that suffer from this terrible disease. So we will 
do our best, and we just want to say that your advocacy has 
been absolutely wonderful, and we look forward to seeing you--
look forward to progress.
    Thank you, Dr. Rider.
    Dr. Rider. As a transplanted Illinoisan to San Francisco 
and knowing that you are from the Northern Jacoby area, I came 
from Riverside, Illinois, so it is a pleasure to testify.
    Mr. Porter. Very nearby, right.
    Thank you very much.
                              ----------                              

                                        Thursday, February 5, 1998.

                                WITNESS

BOBBY SIMPSON, AMERICAN REHABACTION NETWORK
    Mr. Porter. Bobby Simpson, Director, Rehabilitation 
Services, testifying in behalf of the American Rehabilitation 
Network.
    Mr. Simpson. Thank you, Mr. Chairman, members of the 
committee. It is indeed a pleasure to be here. I am Bobby 
Simpson. I am the commissioner of Arkansas Rehabilitation 
Services, the State vocational rehabilitation agency in the 
fine State of Arkansas, from which Mr. Dickey is a 
distinguished member of this fine subcommittee. Today, I am 
pleased to be representing and testifying on behalf of the 
American Rehabaction Network, the membership of which is 
composed of thousands of dedicated men and women who are 
vitally interested in and supportive of the public vocational 
rehabilitation of persons with mental and/or physical 
disabilities.
    This particular network is the largest and only 
professional development and advocacy organization whose sole 
purpose is to support the public service delivery system of 
services that enables and ensures that hundreds of thousands of 
persons with disabilities have the opportunity to take their 
place in a competitive employment situation as taxpaying 
members of society and have an opportunity to live independent, 
productive lives. That is the whole focus of our testimony 
today, is to urge adequate Federal monies be appropriated under 
Title I of the Rehabilitation Act in order that thousands of 
unserved and underserved Americans with disabilities might take 
their place in meaningful, high-quality jobs.
    You have seen, I think, already this morning, the 
indication of the definite need for an expanded service 
delivery system of vocational rehabilitation services for 
people with disabilities by the individuals who have already 
testified. You have seen young people who, with the right kind 
of medical support and services, are going to grow up into 
adolescents and young adults. They need a strong State-Federal 
partnership of public vocational rehabilitation services in 
order to get the kind of training and the kind of skills they 
need in order to prepare for and enter the workplace and become 
productive, independent, taxpaying members of society.
    Many of these young people you saw in here will end up 
having the opportunity to work if our program is adequately 
funded. To that end, our members are urging the Congress to 
appropriate $3,000,000,000 in fiscal year 1999 for vocational 
rehabilitation services under Title I of the Rehabilitation 
Act.
    Currently, the administration's budget has a proposal for 
$2,300,000,000, approximately, for Title I of the 
Rehabilitation Act. That is just a few pennies above the 
mandatory cost-of-living increase that is contained within the 
program.
    Mr. Chairman and members of the committee, it has been 
extremely frustrating to me, as a person with a disability, who 
has grown up in this system, who would not be working today 
were it not for the public vocational rehabilitation system, 
and now one who has had the opportunity to live independently, 
to live in my own home, to drive my own vehicle, the privilege 
to pay taxes, which I consider to be a privilege, considering 
that well-intended medical professionals indicated I would 
spend my life in a nursing home instead. All that has happened 
because of the strong public vocational rehabilitation program.
    Now that I administer a program in a State agency and my 
counterparts across the entire country--hello, Mr. Dickey. It 
is such a pleasure to see you, sir.
    Mr. Dickey. Hello. How are you doing?
    Mr. Simpson. I am good. I am good.
    I am just frustrated, to tell you the truth. I am tired of 
turning people away with disabilities saying we can't serve you 
because we don't have enough money to assist you to get the 
basic services you need to enter the world of work. I am tired 
of telling folks with disabilities who know they have a 
disability, they have a need for rehabilitation services in 
order to go to work, I am tired of telling them, I am sorry, 
but your disability is just not severe enough because our 
Federal laws and Federal regulations say if we don't have 
enough money, we can only serve those with the most severe 
disabilities.
    Our folks in Arkansas, they don't care whether they are 
classified as severely disabled or non-severely disabled. If 
they have a disability, they want some assistance from us in 
order to enter the world of work. And in order for us to be 
effective in our program and to deliver the kinds of services 
that people with disabilities need, it is essential that we 
receive an increase above the basic cost-of-living increase 
that we find in the administration's proposal.
    So, therefore, Mr. Chairman and members of the committee, I 
don't really want to take a lot of your time, but I really want 
to re-emphasize the fact that with the public vocational 
rehabilitation system having been around for some seven decades 
and transformed itself, streamlined our systems over the years, 
we feel that we have really positioned ourselves to work very 
effectively with people with disabilities, with business and 
industry, with the increasing number of people who will be 
coming to us from the welfare-to-work initiatives. We are well 
positioned to work effectively and put people with disabilities 
to work if we have the resources to do so.
    I am very pleased with the program we operate in Arkansas 
and with the State-Federal partnership that we have consisting 
of individualized, systematic services, leading to employment 
opportunities. We have even been able to show the welfare-to-
work folks how we do it in rehabilitation in terms of a 
systematic plan that results in a positive employment outcome.
    So, Mr. Chairman, again, I urge the committee to seriously 
consider appropriating $3,000,000,000 for the public vocational 
rehabilitation program, Title I, in order that we can go on 
down the road of providing the kinds of services that enable 
people, like those you saw in this room today, to prepare for 
and enter the world of work and become productive, independent, 
taxpaying citizens.
    I greatly appreciate the opportunity to appear before this 
body again and to see our champion and hero in Arkansas, 
Congressman Jay Dickey.
    Mr. Dickey. Did you hear that, Mr. Chairman?
    Mr. Porter. The Chair yields to Mr. Dickey, the hero. 
[Laughter.]
    Mr. Dickey. I apologize for being late. I wanted to 
introduce Bobby, but I think the best introduction was just 
hearing him talk. I think one of the gifts that Bobby has, Mr. 
Chairman, is that he is an advocate and that he fights for 
people who he sees want to improve. And in Arkansas, his 
office, his place of business, is right across the street from 
our office, and we know for sure that Bobby is exhorting 
people, that he is not letting this become just a distribution 
of money, but it is a distribution of opportunity. Bobby 
Simpson is one of the heroes, and I want to put my--whatever--
little influence I have behind this man's testimony. Bobby, I 
want to tell you, I want to thank you, and I want to show you 
my thanks by trying to do what you have asked to get done in 
this committee.
    I wish I had more influence, particularly with that man 
right there, you see. If I had more influence with him, I could 
do more.
    Mr. Porter. Don't every believe that Jay Dickey doesn't 
have a lot of influence.
    Mr. Simpson. Yes, sir. I know he is the master of 
understatement sometimes.
    Mr. Dickey. Thank you, Mr. Chairman.
    Mr. Porter. Mr. Simpson, let me first apologize for not 
stating correctly that it was Rehabaction Network. My notes say 
that, but it is run together, and I thought it was a misprint 
when I first looked at it and I read it as ``rehabilitation.'' 
It is Rehabaction, and I apologize.
    Mr. Simpson. No problem.
    Mr. Porter. Secondly, because you are asking for 
substantially more money than the President's budget has 
suggested, you get Sermonette No. 1.
    Mr. Simpson. Yes, sir.
    Mr. Porter. And that sermonette goes something like this: 
We can only do as well as the resources that we have to work 
with. And there are two parts to this process. One is here at 
the appropriations level, where we look at priorities and try 
to sort them out in a fair and equitable way. And the other is 
at the Budget Committee where they give us the allocation of 
funds that we have to work with. So we urge all--and this is 
not just for you this is for everybody in the room. We urge all 
of you to not only participate in our hearings and impact our 
process, but to also participate in the budget process, because 
what they give us to work with determines largely what we can 
accomplish.
    Mr. Simpson. Absolutely, Mr. Chairman. We will certainly do 
that. I appreciate your time.
    Mr. Porter. Thank you.
    [The prepared statement of Bobby Simpson follows:]
    [Clerk's note.--Information required pursuant to clause 
2(g)(4) of Rule XI of the Rules of the House of Representatives 
was not received from this witness or from an entity 
represented by this witness.]


[Pages 1843 - 1851--The official Committee record contains additional material here.]



                                        Thursday, February 5, 1998.

                                WITNESS

JACK LAVERY, LUPUS FOUNDATION OF AMERICA
    Mr. Porter. Jack Lavery, Chairman, Lupus Foundation of 
America, testifying in behalf of the foundation, and we are 
pleased to welcome our colleague, one of our favorite people in 
Congress, Congresswoman Carrie Meek, to introduce him. Carrie, 
it is nice to see you.
    Mrs. Meek. Thank you very much, Mr. Chairman. It is always 
good to come before you and the committee today as last year, I 
am here to introduce a man I think is a very profound person, 
Mr. Chairman, one who has displayed over the years the 
sensitivity to this disease which doctors have not been able to 
find the cause nor the cure, and that is lupus.
    Mr. Dickey. Excuse me. I am Jay Dickey from Arkansas.
    Mrs. Meek. Hello, Jay. I just saw you this morning.
    Mr. Dickey. I am on this committee, and you have my vote. 
You understand that?
    Mrs. Meek. Good, good. Thank you.
    Mr. Lavery, Mr. Chairman, brings a new dimension to 
testimony before committees. He has had a background in the 
business world and the corporate arena, and he has served as 
volunteer in the movement to help us receive adequate funds for 
lupus.
    I just want to say that to introduce Jack Lavery is to 
introduce a man who has worked so hard with lupus throughout 
this country, and he does his full-time job. He is a senior 
vice president of Merrill Lynch & Company, and he represents 
the Lupus Foundation.
    I won't take a long time, Mr. Chairman, because you know I 
always ask for money, you always give us a little tad, but we 
are happy for that. Whatever you give we are happy for it. I 
want now Mr. Lavery to come up, and you will agree with me that 
he is a very, very outstanding person.
    Thank you.
    Mr. Porter. Thank you, Congresswoman.
    Mr. Lavery?
    Mr. Lavery. Thank you very much, Congresswoman Meek, for 
that nice introduction.
    Good morning, Mr. Chairman, members of the committee. In 
introducing myself, I am Jack Lavery, and my principal role in 
life is as senior vice president of Merrill Lynch & Company. 
But I am here today in my volunteer capacity as chairman of the 
board of the Lupus Foundation of America, therefore 
representing the between 1.4 and 2 million Americans that our 
own marketing research study done by the Lupus Foundation of 
America believes to be the actual incidence of lupus in this 
country. One of those 1.4 to 2 million Americans is my own 
daughter.
    The Lupus Foundation of America is a national advocacy 
organization. It is pursuing finding the cause and the cure of 
lupus. It is also involved in providing patient services and a 
great deal of educational information with regard to lupus.
    Lupus, in a nutshell, is an autoimmune disease. The body, 
in effect, turns on itself, attacking many organs in the body, 
and quite randomly.
    The challenge is, because the cause and the cure 
aren'tknown, the side effects of dealing with this disease, the side 
effects of the current treatments, can be every bit as devastating as 
the disease itself. The principal medication to deal with the symptoms 
relate to steroids, but protracted use of steroids causes 
osteonecrosis, or bone death. And when lupus is active in the kidney, 
the principal medication that current research makes available is 
cytoxan, a highly toxic chemotherapy drug, the side effects of which 
are high risks of sterility, bladder cancer, and lymphoma later in 
life.
    Lupus is a woman's disease, by and large. It doesn't mean a 
lot of men haven't been affected by it. Terrell Davis, the star 
of the Super Bowl, his father passed away from lupus recently. 
Julius Irving, the star basketball player, lost a brother to 
lupus. So it is not uniquely women, but 90 percent of the 
people who have lupus are women.
    The relative incidence of lupus is much greater among 
minority women. Specifically, Hispanic Americans, Asian 
Americans, and African Americans are more likely to have lupus 
than are Caucasian females.
    I want to thank this committee, particularly you, Mr. 
Chairman, and all the committee for your leadership in ensuring 
the continuation of immune system research at the National 
Institutes of Health and NIAMS, the National Institute of 
Arthritis, Musculoskeletal and Skin Diseases.
    I urge your support, very important support, to fund NIAMS 
at the $315,900,000 level recommended by the Ad Hoc Group for 
Medical Research Funding and supported by the NIAMS Coalition.
    NIAMS has already started moving on creating scores, SCORs, 
Specialized Centers of Research, with regard to lupus, and 
NIAMS is also supporting the creation of a lupus registry of 
patient information throughout the country.
    In November of 1997, we had a flagship conference here in 
Washington, D.C., supported by the National Institutes of 
Health. This conference was also cosponsored by the Lupus 
Foundation of America and by the SLE Foundation, standing for 
systemic lupus erythematosus, the technical name of the 
disease, the largest single chapter of the Lupus Foundation of 
America. And that research forum was a landmark scientific 
event because it brought together private and public sector 
folks, research people. Collaboration, we believe, is the key 
to finding the cause and the cure of lupus.
    That research forum in November of 1997 will result shortly 
in output in the form of a definitive white paper, the 
blueprint for the cure, because, Mr. Chairman, I must say, that 
lupus is the prototypical autoimmune disease. If we are able to 
unlock the keys to find the cause and the cure of lupus, the 
beneficial consequence will not uniquely be to lupus patients 
alone, but also to folks with myasthenia gravis, Crohn's 
disease, multiple sclerosis, grave's disease, or any other 
autoimmune disease that I have neglected to mention.
    My own daughter got it at age 13. It wasn't correctly 
diagnosed until she was 19. Typically, it is incorrectly 
diagnosed as juvenile rheumatoid arthritis in the early stages. 
She has had the osteonecrosis consequences. She has had core 
decompressions, drilling of her left hip, right hip, left knee, 
right knee, and left elbow, to try to create renewed blood 
vessel growth. It failed in the hips. She has since had 
bilateral hip replacement. She is only one example.
    But I am inspired by her courageous fight. She has an optic 
neuritis, a lupus flare in the central nervous system that 
caused her permanent blindness in one of her eyes. But she is 
still going forward, teaching high school English. She is 
battling this disease, but we need a great deal of help with 
regard to research. It is absolutely critically important. We 
have started the ball rolling with this tremendous scientific 
conference that the NIH, SLE, and LFA all combined upon in 
November here in this city, and, again, I want to thank the 
committee for its time and attention this morning.
    [The prepared statement of Jack Lavery follows:]


[Pages 1855 - 1860--The official Committee record contains additional material here.]



    Mr. Porter. Mr. Lavery, thank you for not only your 
testimony this morning, but for your tremendous commitment to 
seeing this research through to improve the lives of all people 
afflicted with the autoimmune diseases. We very much appreciate 
it. We are going to take your words to heart and do the very 
best we possibly can to put biomedical research and research on 
lupus in a high priority.
    Mr. Lavery. Thank you very much, Mr. Chairman.
    Mr. Porter. Thank you for coming here to testify.
    The House has two votes on. We will be forced to take a 
brief recess until we can cast those votes and then resume our 
schedule. The subcommittee stands in recess.
    [Recess.]
                              ----------                              --
--------

                                        Thursday, February 5, 1998.

                                WITNESS

JOHN D. AQUILINO, JR., PRIVATE CITIZEN
    Mr. Porter. The subcommittee will come to order.
    Our next witness is John D. Aquilino, a private citizen, 
testifying in his own behalf.
    Mr. Aquilino.
    Mr. Aquilino. On behalf of my son, Johnny, his brother 
Tommy, and my family and myself, I would like to thank the 
chairman for allowing me to testify today before you.
    My son, who is having a constant struggle with phonics, 
couldn't be here today. I didn't want to take him away from 
school. I didn't want him to miss any more.
    I am here primarily to dispel the myth that heart disease 
is a condition confined to people my age and older. It is not. 
Heart disease is America's number one killer of all of our 
people. It is the cause of America's most common birth defects. 
I am here also to plead for increased funding for the National 
Heart, Lung, and Blood Institute and, in specific, its heart 
program.
    Congenital heart defects are the major cause of birth 
defect-related infant deaths. They strike 32,000 newborns each 
year, and they kill more than 2,300 babies before their first 
birthday. Nearly one million children, like my son, bear the 
consequences of those defects.
    My son is almost 8. He plays tee-ball for St. Jerome's 
School in Hyattsville, Maryland. He is the oldest surviving 
patient at Washington, D.C., Children's Hospital, and perhaps 
the east coast, with hypoplastic left heart syndrome, which 
basically means his left heart's major pumping chamber, the 
ventricle, is missing.
    At age 2 days, Johnny spent 6 frantic hours in Children's 
Hospital's emergency room before his condition was diagnosed. 
His heart and lungs stopped twice, and twice they brought him 
back. One week later, he underwent the first of three open-
heart surgeries he received before he was 4. To the degree he 
can, Johnny has also given of himself for biomedical research. 
He participated in a program to develop treatment--I am sorry, 
but all my life, when I talk about it, I have the same 
reaction--for RSV, a condition that debilitates young heart and 
lung patients.
    A few years before Johnny's birth, one of my dearest 
friends, B.J. Pino of Home, Pennsylvania, lost his first son to 
hypoplastic left heart. Barely 3 years before Johnny's birth, 
little or nothing could be done for infants with this 
condition. Thanks to the research funded in great part by this 
subcommittee, and the efforts of a great number of men and 
women, my son is alive and able to suffer the rigors of second 
grade.
    I am here because Federal funding for the Heart, Lung, and 
Blood Institute decreased by 5.5 percent in constant dollars 
from 1986 to 1996. I concur with the American Heart 
Association's recommended funding of the institute at 
$1,825,000,000. I also join the American Heart Association and 
Research!America in asking that NIH funding be doubled in 5 
years.
    The main reason I am here is the fact that I love my son. 
Animal-based biomedical research gave me my son. Over the next 
5 or so years, if you and the Congress allow it, the ethical 
use of organ cloning research, if you allow it to continue, he 
may have a new heart made from his own DNA.
    When my son's condition was diagnosed, he lay connected to 
a tangle of tubes and monitors, looking as sad as any human can 
be. The doctors asked if we wanted him to live. That was the 
single hardest question anyone could ask a new parent. It was 
not hard to answer. From the bottom of my heart then and from 
the bottom of my heart now, I answer yes. Yes, I want my son to 
live.
    Yes, I want the children of fathers and mothers from 
Hyattsville to Harare, Zimbabwe, and all points in between to 
live.
    From my heart and from the love I have for my son, I want 
to thank you for your help in allowing men and women of science 
to be able to do the research that gives the gift of life to 
children like my son. I only ask that you please make this 
America's first priority.
    [The following statement of John Aquilino Jr., follows]


[Pages 1863 - 1869--The official Committee record contains additional material here.]



    Mr. Porter. Mr. Aquilino, we are doing everything we can to 
make it the first priority. I think it is the first priority. I 
think if people in the Congress could have the chance to listen 
to people like you, they would understand much more how much 
these problems touch American families, and they would push it 
to a higher priority. So your advocacy here is very important. 
I wish the whole subcommittee were here to hear you.
    Obviously we need the resources in the jurisdiction of the 
subcommittee to make the kinds of increases that we want to 
make. And I am going to say this to this panel, too. This is 
not just to you, but to all who are concerned about this. I 
think it is going to be very difficult this year, because the 
budget isn't yet in balance, to get the kinds of increases that 
will start us on a 5-year path to doubling the budget for NIH. 
Yet, I think the prospects in a very good economy are that we 
can start on it next year when the budget is in balance, if we 
have the kind of support from the American people that I think 
we need to have. In other words, we need to have this process 
impacted, not just our subcommittee, where we do put it at a 
high priority, but the whole Congress and particularly the 
budget process, which gives us the money that we have to work 
with.
    So I think it depends on how much we can get into the minds 
of the American people that this is something that we can do if 
we want to do it, and that we ought to do it. In other words, 
every Member of Congress has to have it in their mind that 
their constituents want them to do this. If we got them there, 
the job would be done.
    So I say often that we don't make policy here in 
Washington, we merely ratify what the policies of the American 
people are. And to the extent that they can communicate those 
ideas to Congress, Congress is going to respond. So your 
advocacy is terribly important on this, yours and so many 
others, and to the extent that you can impact as broad a 
population as possible, that is what is going to make the 
difference, as it always does.
    Thank you for being here to testify. We are going to do the 
best for your son, John, and all other kids that are suffering 
the same way and do everything we can to provide the resources 
to NIH that they need to address these kinds of problems.
    Mr. Aquilino. Thank you, and I will do what I can from my 
point.
    Mr. Porter. I know. You are doing it.
    Mr. Aquilino. Thank you.
                              ----------                              

                                        Thursday, February 5, 1998.

                                WITNESS

DONALD S. COFFEY, PH.D., NATIONAL COALITION FOR CANCER RESEARCH
    Mr. Porter. Donald S. Coffey, Ph.D., member, Board of 
Directors, the National Coalition for Cancer Research.
    Dr. Coffey?
    Dr. Coffey. Chairman Porter, I am going to discard my 
speech--it is in the record--and just tell you that you are a 
champion of trying to make health funds available, and we 
salute you. And we recognize the problems you face in today 
seeing the people that suffer. You see this every year, and 
this is my first time. But I see it from the cancer standpoint, 
and it is the same thing we see here.
    What I would like to share with you is I represent the 
National Cancer Coalition for Research, and this is 22 
organizations. It is not-for-profit, and it represents about 
55,000 physicians, nurses, and many thousand patients, 40,000 
children, 82 cancer centers and hospitals, and so it is a large 
coalition for cancer research. I am president of the American 
Association of Cancer Research, which is a separate group of 
researchers. But I am here today with the president, Carolyn 
Alders, sitting here, the president of this organization.
    Let me just start by first telling you that what we are 
trying to do is reach out to the House and Senate Budget and 
Appropriations Committees, because we recognize only the pot of 
money they give you to work with. So we are working hard at 
that level, and we are encouraged by what we see.
    But from my heart, let me tell you what I really see. I was 
a young engineer with Westinghouse on October 27, 1957, and we 
had nothing going in space, and I saw the Russians fire up that 
satellite. And the money poured in, and I just could not tell 
you. We went from worrying about whether we were going to hit 
Russian residential areas when we landed on the moon to having 
a car up there in no time flat. Of course, as you know, our 
space efforts are about six times what cancer research is, and 
we know that the funds have to be somehow from the American 
people through Congress redistributed here.
    Now, we are not against space. We are not against military. 
We are not against any other diseases. So what we are pushing 
for is a doubling of the NIH funds overall. We don't want to be 
in a war against all the people suffering in the United States, 
and we push the budget as seen there.
    The great moment in my life occurred when I stood at the 
Children's Hospital in Baltimore and watched five dump trucks 
haul 75 iron lungs to the trash dump that will never be used 
for polio, after having seen some of my classmates in iron 
lungs in Bristol, Tennessee, when I was a kid. I know research 
can do this, and we have cured six cancers. People say, When 
are you going to cure cancer? We have cured testicular cancer, 
which was devastating. We get a lot of lymphomas and leukemias 
in children, and there has been tremendous increases. So we can 
do this.
    The big ones that are tougher--lung, prostate, colon--these 
are the ones we are having trouble with. I cannot tell you what 
is out there. We have made more progress in cancer research 
than has been made in the computer. We have got to bring that 
now to where it impacts on the patient, the same way we did on 
those others. And it can happen.
    Now, what disturbs me is that every time we put in ten 
grants of these young people putting in grants and things, 
seven of those do not get funded; only three get funded. And 
you are aware of that. Actually, it is 23 percent. So we have 
never had a war on cancer. The entire act that we do as far as 
supporting this wouldn't buy two big Stealth bombers. They cost 
more than the whole cancer act. So we recognize it is time for 
America to declare war.
    Now, President Nixon--it was a bold step forward--declared 
this war, but it didn't follow that the money followed that. So 
we went from funding it at 42 percent when he declared the war 
down to 18 percent over the next few--now we are up to 23.
    We think that young people who have a lot of debts for 
their education, they look up and they only have a 23 percent 
chance of being funded, and they have wives and children. They 
are falling out by the droves. And with the medical care 
changes and managed care, it is devastating.
    So what we would like to do is three things to call upon, 
please, sir, is to support the resolution, both in the Senate, 
and you have certainly been on that. That is like asking me to 
support eating with my obesity. You are a man who has really 
supported this. But I am asking you and your committee to 
support that resolution.
    The second thing is the tobacco allotment. I cannot tell 
you the devastation that this has done to the American people, 
and you know that. But when you see it up close, it is beyond 
belief. The number of people dying in this country every day, 
every day from cancer, would fill five Boeing 747s crashing 
with everybody on board. Now, if the people knew that, that 
five Boeing--everybody has to die, but you don't want to die 
from cancer. Five of these go down. Two of these Boeing 747s 
are brought down because of smoking. We just cannot have this 
sort of thing going on. And now none of the money is going to 
go for research.
    We are asking for Congress and these allotments to figure 
out how to put some of this into cancer research and some of it 
into NIH research, and to have it go through the regular peer 
reviews where it will have high quality.
    So we salute you, sir, and your committee, and we are 
working as hard as we can, and we hope that the big changes we 
see in the spirit towards medicine will carry over for all 
these people in this room.
    Thank you, sir.
    [The prepared statement of Donald Coffey follows:]


[Pages 1873 - 1885--The official Committee record contains additional material here.]



    Mr. Porter. Dr. Coffey, you have raised a lot of very 
important issues. You get Sermonettes 2 and 3 on these, I am 
afraid.
    The first one is that if you look at NIH throughout its 
history, 50 years of history, the average rate of increase over 
that period of time in real terms--in other words, above 
inflation--is about 3 percent. So the Congress has made a 
continuous--and administrations have made a continuous 
commitment to increasing the funding for biomedical research, 
and even in the last 3 years in very tough budgetary times, it 
has been put ahead of almost everything else, and we are 
actually having an increase that is in excess of 3 percent, 
even in this time frame.
    The difficulty isn't that we are not giving it more money. 
The difficulty is that there is more good science to be funded. 
And, therefore, as you say, there are fewer chances to get it 
funded. There simply is so much there.
    What that tells me is exactly what it tells you, that we 
have got to dramatically increase the funding because we are 
falling behind even though we have been supporting it very 
strongly. And that is why we need to double the research.
    Sermonette No. 3 says, however, I worry--and this is a 
strategic, political question. I worry that if we don't 
increase funding for all research funded by Government that we 
will set one type of research against another. And I don't want 
that to happen.
    Mr. Coffey. Absolutely not.
    Mr. Porter. While I think that biomedical research, because 
it is a direct effect on the lives of human beings, is the 
highest priority, I believe that we also ought to make a 
commitment to increasing funding of basic research in all 
areas.
    Mr. Coffey. We agree with that.
    Mr. Porter. And that they should come together, because if 
they won't, they will fight one another, and that will make it 
much more difficult.
    Your point about clinical research and what is happening to 
our academic medical centers in this new environment of health 
care delivery is a very good point and something we must worry 
about. This subcommittee can't do a lot about that, but it can 
do something. But I think it is a tremendously important point. 
This is where our resources, our intellectual resources lay, 
and they are under siege because of the changes to managed care 
that have been the hallmark of our delivery system over a long 
period of time.
    The tobacco tax, I sure agree with you, those are funds 
that, by anyone's logic, ought to go to research. We ought to 
raise the tax simply to get young people off of being hooked so 
that they won't be in the clutches of the industry. That lies 
ahead, and that may end up being a part of the research 
portfolio. No one quite knows at this point.
    My own prediction is that nothing will happen on the 
tobacco settlement, but there is some talk--you have to 
consider this in the context--that a tobacco tax will be raised 
in order to use the funds to bring greater tax equity in other 
taxation programs, like the marriage penalty that is in our 
income tax system, and greater relief for families. If that is 
done, it will be revenue neutral and won't have any effect on 
the budget, but it will also make it much more difficult in the 
future to raise tobacco taxes for research purposes, because we 
will have pushed the tax up so high that you begin to get to 
the point of diminishing returns.
    All the points you make are very salient points, things 
that we have to worry about. I thank you for coming to testify.
    Mr. Coffey. Just let me share one last thing, if I might, 
with your permission.
    Mr. Porter. Surely.
    Mr. Coffey. One of the things that has horrified us as 
scientists is discovering in the last 2 years that the lungs of 
former smokers are badly damaging to their DNA, that is, it is 
permanent and not correcting itself. And over half of cigarette 
smoking cancers are occurring in former smokers. We didn't 
realize that this is not coming back to normal like everybody 
thought. And they have to pay for this. Somebodyhas to----
    Mr. Porter. Now you are getting personal, as a former 
smoker----
    Mr. Coffey. Yes, I smoked, too.
    Mr. Porter. How long----
    Mr. Coffey. Even 20 years out you have a 1.5- to four-fold 
increase, and it is not correcting these damages, and we have 
to understand----
    Mr. Porter. How about 30 years out? [Laughter.]
    Mr. Coffey. You are better off. Thank you, sir.
    Mr. Porter. Thank you. I appreciate it very much.
                              ----------                              

                                        Thursday, February 5, 1998.

                                WITNESS

RALPH G. YOUNT, PH.D., FEDERATION OF AMERICAN SOCIETIES OF EXPERIMENTAL 
    BIOLOGY
    Mr. Porter. Dr. Ralph Yount, President, Federation of 
American Societies for Experimental Biology, testifying in 
behalf of the federation.
    Dr. Yount?
    Dr. Yount. Thank you, Mr. Chairman.
    I am Ralph Yount, professor of biochemistry at Washington 
State University, and I am a basic scientist who works on the 
mechanism of muscle contraction. This year I am serving as 
president of the Federation of American Societies for 
Experimental Biology, which is commonly known as FASEB. This is 
the largest organization of life scientists in the United 
States and has over 52,000 members and does the basic research 
that we hope is going to underpin the diseases that we have 
been hearing about today, the cures for the diseases we hear 
about today.
    Like our previous two speakers, I am here to encourage the 
doubling of the NIH budget for fiscal year 1999, realizing the 
difficulties you face in doing this--I am sorry, a 15 percent 
increase in the NIH budget in the next fiscal year, with the 
idea that we can double it in 5 years.
    I think we are also very pleased with the budget request 
for NIH submitted by the President this week and his strong 
statement in favor of biomedical research that he gave in his 
State of the Union address, and we are hopeful that Congress 
can go even further, but we also recognize this is the first 
time since the war on cancer Dr. Coffey talked about that a 
President has aggressively supported funding for the NIH, I 
think due in large part to your leadership and this 
subcommittee.
    It appears that finally the President and the 
Appropriations Committees--both the House and the Senate, and 
both the Republicans and the Democrats--now agree for a large 
increase for NIH. We think this goal is fully justified and 
achievable, and we stand ready to work with you on achieving 
it.
    I think the other thing is that NIH has fostered the 
development of biomedical research which is the envy of the 
world, and the scientific investigations they have supported 
have given rise to the biotechnology industry, fueled the 
activities of the pharmaceutical industry. They have altered 
the daily course of health care of every American. And they are 
even changing the nature of agriculture. So the list of 
discoveries is remarkable, and I just wanted to give you two 
examples of these.
    One is that NIH-supported research led to the development 
of so-called DNA chips, which are defined fragments of DNA on 
computer chips, which promise to revolutionize the detection of 
gene-based diseases such as breast cancer.
    A second example is that NIH researchers developed a 
crucial enzyme called telomerase, which plays a critical role 
in cancer and normal growth and likely in the fundamental 
process of human aging.
    The tragedy of these examples is that many more 
breakthroughs are possible, and they remain elusive due to 
insufficient resources. As Dr. Coffey alluded to, this year NIH 
will fund about three of ten proposals approved by study 
sections, but when you look at young investigators, it is 
substantially less. It is slightly more than one in ten. I can 
tell you as a researcher, these are discouraging, and 
particularly for young faculty members starting out in 
research. These unfunded applications and the unfunded 
researchers we think are the best argument for increased 
support for NIH.
    We also have a view on how these new monies can be best 
utilized, and while we don't have--these are not etched in 
stone, we would like to use these as a starting point for your 
committee and for NIH to consider. They are in seven areas.
    First, fund increased numbers of investigator-initiated 
research grants selected through the competitive review by 
scientific peers;
    Second, adequately fund research projects by increasing the 
average size of grants;
    Third, raise stipends for pre-doctoral and post-doctoral 
trainees to a living wage;
    Four, modernize the research infrastructure, including 
facilities, instruments, and clinical research support 
mechanisms, the things that Dr. Coffey was talking about;
    Five, support a wide variety of new scientific 
partnerships, including more extensive direct support by NIH 
for relevant studies in chemistry, physics, mathematics, and 
computational science--the idea that you were just discussing 
in terms of supporting other areas of science;
    Six, develop and support mechanisms for more rapidly 
translating research findings from the laboratory to the 
patient;
    Finally, increase the average length of grants to create a 
more stable research environment.
    These are our suggestions to you as you begin this 
difficult task of deciding how best to invest the increased 
resources for biomedical research that we all hope can be 
found. We have made other policy recommendations in the formal 
report which we hope you will review carefully.
    In conclusion, as we have heard this morning, I believe 
this point in time is the best opportunity in a generation to 
expand our Nation's efforts to improve America's health using 
the tools of science. We recognize the challenge this 
represents, and we pledge to use all our resources to convince 
Congress to give this subcommittee the budget allocation it 
will need in order to make our mutual goal a reality.
    Thank you very much.
    [The prepared statement of Ralph Yount follows:]


[Pages 1890 - 1896--The official Committee record contains additional material here.]



    Mr. Porter. Dr. Yount, if I can comment just a second on 
the President's budget, I also was encouraged by what he had to 
say about increasing research funding. His proposal, however, 
is to increase it 50 percent over 5 years, which is not, I 
think, enough to close the gap on the number of good science 
proposals being funded, in other words, increasing the 
percentage. I think that is going to fall way short of the 
mark.
    However, this is the first President who has made that 
commitment. The President's budgets in the past 3 or 4 years 
have been way short of what Congress has provided, and so I 
think all of us have been encouraged that it was mentioned as a 
high priority.
    The difficulty with the President's budget is that 
spending, particularly the discretionary spending, depends upon 
a revenue stream that is very unlikely to occur any time soon, 
and maybe not at all. And the proposed increases have about 
$100,000,000,000 of new revenue over 5 years behind them. And I 
don't think that we can count on those revenues being part of 
this budget as the House takes up and the Senate takes up the 
President's proposals. And that means that the spending in--I 
am not talking just about biomedical research. I am talking 
about everything under the jurisdiction of this subcommittee 
that is going to make getting the kind of allocation we need 
much more difficult if we are going to reach the goals that 
have been mentioned by so many witnesses.
    And you said very early you are going to impact the budget 
process as well, and that is exactly what I think we need to 
do.
    Mr. Yount. Right. Well, we stand ready to work with you on 
this, and we realize the difficulties in finding the funds for 
this kind of increase.
    Mr. Porter. Thank you, Dr. Yount. We very much appreciate 
your testimony.
                              ----------                              

                                        Thursday, February 5, 1998.

                                WITNESS

JERRY LAWRENCE, FEDERAL MANAGERS ASSOCIATION
    Mr. Porter. Jerry Lawrence, President, Federal Managers 
Association, Social Security Administration Conference, 
reporting the Federal Managers Association.
    Mr. Lawrence.
    Mr. Lawrence. Thank you, Mr. Chairman. My name is Jerry 
Lawrence, and I am President of the Federal Managers 
Association, Social Security Council. We represent more than 
1,000 Social Security managers who work in our program service 
centers, our office of central operations, and our office of 
hearings and appeals.
    And, at the risk of getting sermonette number four, I will 
avoid that. I have never testified before Congress and we are 
not asking for more funding than is in the President's budget. 
We do have some rather passionate feelings about how the 
funding is going to be spent by the Social Security 
Administration and we do think that the Administration can do 
more in terms of taking a more modernized approach in terms of 
the way it delivers service to the American public.
    Collectively, I guess our average age is about more than 50 
and we have, on an average, more than 25 years of service, 
within the Social Security Administration. We feel that the 
Social Security Administration is on a precipice of moving 
forward with new technology and with a lot of advancements but 
we think that the agency has to come to grips with the way it 
delivers service to the American public.
    Essentially, the way we are operating is the way we 
operated when I first started working for the Social Security 
Administration. We have not taken advantage of the technology 
and we have not really moved forward.
    There have been a number of reasons why we have not done 
that. Some are very valid, others can properly be attributed to 
internal politics within the agency, and we think it is time 
with this Fiscal Year budget to take a serious look at the way 
we are doing business and the way we present service to the 
American people.
    Over the last five years, our 800-number has grown by 500 
percent. Just as an example, in our Kansas City Social Security 
Office, that office took about 500,000 telephone calls in 1992. 
By 1997, they had more than 2.5 million telephone calls. 
Clearly, the American public wants to do business with us using 
the telephone and we want to be able to serve the American 
public that very same way.
    We have the capacity right now to take one telephone call 
from a number of people and resolve most of their issues within 
that one telephone call. But because of internal SSA policies 
and a reluctance to move into the new technology, in many 
instances what we are doing is we are making appointments for 
somebody to call those people back, either several weeks or 
several months hence.
    From our perspective, as experienced mangers working for 
the agency, we really do not think that that is the best way to 
serve the American people. We also have some very strong 
feelings about the quality of our work product and recently a 
number of periodicals, Money Magazine, has highlighted some of 
the issues that we are being confronted with right now in terms 
of our service delivery.
    We think that the agency feels the pressure of trying to 
stay on top of their work loads. In our program service centers 
right now we have approximately 2 million claims from the 
American public that we have not processed yet.
    In our office of central operations, we have more than 1 
million claims. Our office of hearings and appeals also has 1 
million claims pending. Many of those claims, approximately 10 
percent, are more than three months old and there is a number 
of them that are more than a year old.
    We believe that the agency, feeling the pressure of trying 
to push out those work loads, has an expedient not addressed 
the issues of the quality of the product as much as we would 
like to see the agency do. We understand the pressures that are 
on the agency to serve the public the best way that we can and 
we know that sometimes it is important to, well, it is always 
important to process cases timely but it is also just as 
important to process them correctly.
    We think that the new technology offers us a lot of 
challenges and, we think, a lot of opportunities. But we also 
think that we must be mindful of the impact of fraud and 
systems abuse that the new technology could possibly expose us 
to.
    Moving out technology to our field offices without properly 
determining whether there is a potential for fraud and for 
systems abuse will only cause us more problems and will have an 
impact on our Trust Funds.
    We think the agency needs to come to grips with the way we 
do business in the 1990s. The agency has traditionally 
structured their service delivery operation by having 
approximately 1,300 field offices around the country and 38 
tele-service centers. We refer to them, within Social Security, 
as the mom-and-pop stores of America.
    Frankly, we believe that the Walmarts and the Home Depots 
that are opening up all over the country are probably the most 
efficient way to operate. We think the agency must come to 
grips with that. In the New York City area, for example, where 
I'm from, we have approximately 55 Social Security field 
offices serving the American public. When we look at other 
public agencies that provide service to the American public, 
the number of offices are significantly fewer.
    We think that the Social Security Administration pays a 
very high price for having these offices. We think that the 
American public for the most part would prefer to do business 
with us by calling us, by interacting with us using either 
telephones or the Internet.
    We do think that we should have a presence in each 
community but we do have a particular concern about the extent 
of that presence and we think it is costing the American 
taxpayers a significant amount of money.
    We, as managers in the Social Security Administration, also 
have some particular concerns about the number of managers and 
some of the efforts that have come out of the National 
Performance Review in terms of reducing the number of managers 
to employees. In our program service centers, by 1999, we are 
going to have one manager for every 38 employees on the line. 
That will not give us much of an opportunity to do much in the 
way of performance management in terms of working with 
employees and trying to motivate employees to achieve the best 
that they possibly can.
    We think that a lot of the reasons why we are doing this is 
being driven by some arbitrary goals by the National 
Performance Review. We think that there is some room for 
improvement in terms of some of our excess layers. And we do 
believe in efficient government and we believe in lean 
government. But we think that we should take a realistic view 
of how we serve the American public in terms of structuring our 
organizations and we do not believe that we should be totally 
driven by artificial numbers or specific goals that we have to 
achieve.
    We are extremely cognizant of some of the stories that we 
have heard coming out of the Internal Revenue Service these 
days. And we have particular concerns as managers within the 
Social Security Administration about some of the pressures that 
are being brought to bear on some of our managers to achieve 
artificial or arbitrary goals and numerical standards.
    We believe in----
    Mr. Porter. I am sorry to interrupt, but we have to stick 
within our 5-minute time limit. So, if you could finish your 
thought up we would be happy to oblige you.
    Mr. Lawrence. Okay. We do thank the committee for the 
opportunity to speak before it. This is the first time we have 
spoken. We have a full document which we have submitted and we 
would ask the committee to consider our concerns.
    Thank you.
    [The prepared statement of Jerry Lawrence follows:]


[Pages 1901 - 1907--The official Committee record contains additional material here.]



    Mr. Porter. Thank you very much for your testimony, Mr. 
Lawrence.
    [Clerk's note.--Information required pursuant to clause 
2(g)(4) of Rule XI of the Rules of the House of Representatives 
was not received from this witness or from an entity 
represented by this witness.]
                              ----------                              

                                        Thursday, February 5, 1998.

                                WITNESS

WILLIAM W. MILLAR, AMERICAN PUBLIC TRANSIT ASSOCIATION
    Mr. Porter. William W. Millar, President, American Public 
Transit Association, testifying in behalf of the Association.
    Mr. Millar.
    Mr. Millar. Thank you, Mr. Chairman.
    Good morning, Mr. Chairman, I am William W. Millar, and I 
am the President of the American Public Transit Association.
    I have submitted a statement for the record, so with your 
permission, that will go in the record and I will not take your 
time to read it. I am here really today for two reasons.
    First, this is the first time that the American Public 
Transit Association has ever testified before this committee so 
we wanted to introduce our association to you and the members 
of the committee. And, second, we have some suggestions for 
making the very limited funds that you have referred to 
repeatedly through the morning go a little bit further than 
they are able to do now by taking use of the services that our 
members have to offer.
    Before I describe that, I also need to say to you that many 
of our members that are in the Chicago area, when they heard 
that I was coming to testify before you this morning asked that 
I convey their good wishes to you and particularly thank you 
for the strong support that you have given the starting of 
Metro's new commuter rail service up through the North Central 
area, the Northern suburbs. It apparently has been a great 
success. So, we do thank you very much in your other role for 
strong support for public transit.
    The American Public Transit Association is the largest 
trade organization that represents both the providers of public 
transit, such as the Chicago Transit Authority, the Pace 
suburban bus system, those types of operations, but also the 
private sector companies that supply the industry, for example, 
Gen Fare in Elkrow Village, Illinois, is a member of ours. So, 
we have both public sector and private sector members.
    About 90 percent of all the people who use public transit 
in America every day utilize services that are provided by our 
members, just to give you a little bit of background.
    Now, Mr. Chairman, we believe that public transit has much 
to offer. We believe that we can assist the very, very fine 
agencies that utilize the funds that your committee makes 
available to them to serve the American public. We believe we 
can make these limited funds go a lot further if we all work 
together.
    I want to share with you today four specific ideas of how 
that might happen and offer to continue to work with you and 
the members of the committee and others to pursue this.
    First, over the years, we have learned that coordination of 
transportation services is very important and that if the 
coordination is done right, we believe that it can really help 
the money go much further.
    We are very appreciative that this committee, I believe, in 
the 1997 appropriations bill directed that some joint 
coordination guidelines be developed between the Department of 
Transportation and the Department of Health and Human Services. 
However, so far as we know, there has been no significant 
progress made on those guidelines since they were directed to 
develop them and we think they could be extremely valuable.
    Despite not having the guidelines, there are numerous 
examples from around the country of where coordination has 
worked and worked well and, unfortunately, some examples where 
it has not gone so well. Let me give you two examples.
    In Dade County, Florida, the Department of Social Services 
there has teamed up with the Metro Dade Transit Organization in 
Dade County to buy bus passes for Medicare recipients, medical 
assistance recipients. And in doing this and by using the 
services that are already on the street of the public transit 
agency, I understand they have been able to save over 
$16,000,000 that was formerly going into medical assistance 
transportation.
    On the other hand, not that far away in a nearby State, in 
Georgia, there the director of medical assistance without 
proper coordination, without discussing it with the local 
transit agencies or social service agencies merely issued an 
edict that cut the funding for medical assistance 
transportation in half. That may have looked very good in his 
budget but, unfortunately, it meant that many people were left 
without service and the Metropolitan Atlanta Rapid Transit 
Authority suddenly was faced with a $6,700,000 rise in its 
budget and no funding to make up that shortfall.
    Again, we think many of these problems could have been 
solved by proper coordination, by proper sitting down and 
talking and working things out. We think tens of millions of 
dollars still could have been saved in Georgia with a lot less 
heartache.
    Another area that I want to turn to now is the whole issue 
of welfare-to-work. Certainly that has been one of the major 
discussions in this Congress and the previous Congress and 
Secretary Rodney Slater of the U.S. Department of 
Transportation has often said, public transit is the ``to'' in 
welfare-to-work. Well, we agree with him. We believe we can do 
that. We believe that again by coordinating with the agencies 
that have to find the jobs and get people to those jobs, 
transit can be a big help.
    We were pleased recently that the Department of Labor 
issued some regulations on the distribution of funds for this 
effort and they did make transportation an eligible expense but 
they do not allow public transit agencies to apply for those 
funds. So, we would encourage the committee to allow that to 
happen.
    Third, we believe that there are opportunities through 
having as flexible as possible interpretations in HHS 
regulations to take advantage of the ADA, Americans With 
Disabilities Act, paratransit systems that our members are 
already implementing. And, so, we would encourage the committee 
to encourage the flexible interpretation of those regulations.
    I guess my time must be up. Let me get my fourth point in 
if I can and then I will leave you. That is that we understand 
that studies have shown that HHS has over $2,000,000,000 of its 
appropriations go to transportation purposes. Just on the other 
side of this wall there is a committee on transportation 
appropriation that deals with a lot of planning issues to make 
sure that transportation money is properly spent.
    And yet, the HHS money is not involved in that planning 
process, the social agencies that distribute that 
$2,000,000,000 do not sit at the table with the transportation 
planning agencies to see that there is proper coordination and 
proper connection. So, our final point would be that we would 
ask that you encourage both the Department of Health and Human 
Services, as well as the Department of Transportation to bring 
those social service agencies to the table to have them 
participate in the regional planning processes so that together 
we can work out the best possible coordinated services for the 
public.
    We thank you very much for the opportunity to be with you, 
sir.
    [The prepared statement of William Millar follows:]


[Pages 1911 - 1920--The official Committee record contains additional material here.]



    Mr. Porter. Mr. Millar, I think you have made a lot of very 
valid points. And we are delighted that the Public Transit 
Association can be here for its first time but let us make it 
continuous in the future. Because I think you are exactly 
right, there are a lot of savings that can be achieved through 
better coordination. I will follow-up with the HHS and the 
Department of Transportation to see why that has not proceeded 
more quickly. And, obviously, we want to do exactly what you 
said, we want to save as many resources as we possibly can and 
you are, obviously, willing to help us do that, so, we are 
anxious to work with you.
    Thank you so much for testifying.
    Mr. Millar. Thank you very much.
                              ----------                              

                                        Thursday, February 5, 1998.

                                WITNESS

DAVID R. BICKERS, M.D., THE SOCIETY FOR INVESTIGATIVE DERMATOLOGY
    Mr. Porter. David R. Bickers, M.D., Secretary-Treasurer, 
Society for Investigative Dermatology, testifying in behalf of 
the Society.
    Dr. Bickers. Mr. Chairman, thank you very much.
    I am David Bickers. I am a dermatologist. I represent the 
Society for Investigative Dermatology. We have some 2,000 
members nationwide, scientists, researchers and university 
hospitals, industry across the United States.
    We are engaged in research to discover ways to improve the 
quality of life of the American people who suffer from diseases 
of the skin which number in excess of 60 million individuals.
    We do support the Ad Hoc Group for Medical Research Funding 
calling for a 15 percent increase in Fiscal Year 1999, as a 
first step toward doubling the NIH budget over the next 5 
years.
    Mr. Chairman, I have also brought with me today a booklet 
that has been made available, I think, to members of the 
committee that from which most of my testimony will be derived 
and additional copies are available if anyone is interested.
    Basically diseases of the skin produce devastation not only 
because of the damage they do to the tissue, itself, but also 
to the individual's self image. For example, young people with 
severe acne who have resultant scarring may have, and studies 
have shown, difficulty finding employment as compared to 
individuals not so affected.
    Similarly, people who have early premature loss of hair, 
like you and me, are sometimes looked upon as prematurely old. 
And be that as it may, what I would like to focus on for a 
minute or so are some recent advances that highlight the 
potential that exists and also to express gratitude to the 
Congress for the support that led to these discoveries.
    For example, there has recently been discovery of isolation 
of genes that are responsible for skin cancer, the most common 
form of human cancer. With these insights I think it is 
reasonable to predict that we will have better strategies for 
preventing skin cancer in the not too distant future.
    A second very exciting and very recent discovery just 
published last week in Science that, in fact, the discovery of 
a member of my own Department in Columbia, relates to the first 
human mutation for hair loss. And this is actually an 
interesting story of research and international good will. The 
investigator, Dr. Angela, Christiano, herself about two years 
ago, suddenly noticed that she was losing large clumps of hair 
from her scalp. She went into the medical literature to 
ascertain what was known about the condition, in this case, 
Alopecia areata, and was appalled to find how little science 
there was to explain the disorder.
    She, at the same time, found reference to a family or 
several families in Pakistan who had several generations in 
whom individuals were born with hair but subsequently lost all 
of their body hair. She contacted a doctor in Islamabad and 
that led then to a trek into the wilderness of Pakistan in 
which samples were obtained from these family members. Brought 
them to New York and then Dr. Christiano then set about to find 
this gene.
    I am happy to say that in the paper published in Science 
last Friday based on the studies done in this family she was 
able to show for the first time a human gene mutation for hair 
loss.
    While on one level one could say, well, this is a cosmetic 
problem. But, point of fact, this discovery could lead to 
profoundly important insights into regulation of hair growth, 
and since many skin cells originate in hair, it could also lead 
to discoveries that could help us with technologies to, for 
example, find better ways to provide skin replacement for 
patients with burns, et cetera.
    The other point about this research is interestingly we 
hear criticism and concerns about the experiments in animals, 
the final link in the chain finding this gene for hair loss 
came about because of a mouse model in which the hair falls out 
and that gene had been discovered and it helped the doctor to 
find this gene on chromosome 8.
    Finally, let me say that we have, our society has worked in 
close collaboration with the Coalition of Patient Advocates for 
Skin Diseases Research and these individuals have been a 
powerful voice for those who suffer from the ravages of skin 
disease and together we have put together this document that 
highlights not only the achievements but the opportunities that 
are before us.
    Finally, I would like to thank you, Mr. Chairman, for your 
strong and sustained advocacy for bio-medical research. I think 
we are on the brink of discoveries that could profoundly 
improve the health of the American people and our society is 
committed to waging that war with your generous support.
    Thank you very much.
    [The prepared statement of David Bickers, M.D., follows:]


[Pages 1923 - 1929--The official Committee record contains additional material here.]



    Mr. Porter. Perfect timing, Dr. Bickers.
    Let me thank you for your testimony. I appreciate that you 
said my hair loss was premature, I doubt that; I think it is 
probably mature rather than premature.
    We had someone in yesterday to testify from the Alopecia 
Areata Foundation I think it was, and obviously the discovery 
of this gene is extremely exciting and the subjects that you 
raised for us, I think, are important ones. We are going to do 
the best that we can to provide the resources that are needed.
    Thank you very much and thank you for your testimony this 
afternoon.
    Dr. Bickers. Thank you very much.
    Mr. Porter. Thank you, Dr. Bickers.
                              ----------                              

                                        Thursday, February 5, 1998.

                                WITNESS

ANTHONY COLE, HAYMARKET HOUSE
    Mr. Porter. I am going to have to leave to make a speech 
off of Capitol Hill and I am going to ask Mr. Wicker of 
Mississippi to take the chair in just a moment.
    But first I want to introduce our next witness, Anthony 
Cole, the Vice President of Haymarket House, testifying in 
behalf of Haymarket House, and Mr. Cole, it is great to see you 
again. I have been down to Haymarket House in Chicago to see 
the really very effective operation that they run in behalf of 
people at-risk in a number of different ways. And I am sorry 
that I cannot stay to hear your testimony. Mr. Wicker is going 
to take the chair, but Mr. Cole it is really wonderful to see 
you here and we thank you for coming to testify.
    Mr. Cole. Thank you very much, Chairman Porter. And our 
founder sends his best regards.
    Good afternoon.
    I want to thank Mr. Wicker and the other members of the 
committee for providing Haymarket Center with the opportunity 
to present testimony to your subcommittee again this year.
    My name is Anthony Cole and I am Vice President of 
Haymarket. We are a comprehensive substance abuse treatment 
center on the near West side of Chicago. Over the past 23 
years, we have developed several unique programs to address the 
needs of high-risk females and non-violent drug offenders.
    I present this testimony this year to provide a status 
report on Haymarket's ongoing efforts to be innovative and 
effective in our programming. We, at Haymarket believe that the 
treatment community needs to be encouraged to fully develop and 
refine what is called a continuum of care. This continuum is 
the integration of drug abuse prevention, drug abuse treatment, 
health services, including HIV-AIDS, day care, parent training, 
vocational education, job placement and screening for domestic 
violence and gambling addiction.
    We also believe that the treatment community needs to equip 
ourselves with a better understanding of which treatments are 
most effective for which subgroup of users. We need to 
recognize that program models developed to treat a white, male 
population are not directly transferrable to other groups like 
pregnant and postpartum women. These clients bring with them a 
whole other set of clients--their children.
    Haymarket believes that the Federal Government's limited 
prevention and treatment resources need to be targeted toward 
high-risk and hard to place populations such as women and their 
children, especially when one considers that the greatest cost 
savings associated with treating this population.
    In addition to the savings connected to treating the 
mother, there are significant savings to be realized by 
delivering drug-free infants. The expense of intensive hospital 
care for each drug-exposed newborn ranges from $20,000 to 
$40,000. The average total cost of care from birth to age 18 
for each drug-exposed child is $750,000 according to the 
General Accounting Office.
    I also recognize that this subcommittee receives no credit 
or benefit from savings to the Medicaid program resulting from 
an increased appropriation for treatment. This is unfortunate. 
Just look at the numbers. At least one in every five Medicaid 
dollars spent on hospital care is as a result of substance 
abuse, at a cost of $8,000,000,000 a year.
    Haymarket remains concerned that as this trend of shifting 
public health care to managed care continues, little attention 
is being paid to how to effectively transfer managed care 
practices to publicly funded residential treatment settings 
without negatively impacting treatment outcomes.
    We are asking that this committee, that we all know that 
the research shows that the longer length of residential stays 
are highly correlated with successful treatment outcomes. 
Haymarket believes that there is a direct correlation between 
the comprehensive nature of treatment and reductions in the 
recidivism rates.
    Accordingly, we have incorporated a preventive health 
services clinic into our treatment programs. Through the 
establishment of an on-site clinic in partnership with a highly 
qualified community health center in Chicago, we have been able 
to address a variety of medical and health problems which 
impede our clients' treatment progress.
    We urge the committee to encourage the CDC and HRSA to 
continue to work with community-based organizations to control 
the spread of infectious disease, the reduction of chronic 
diseases and the reduction of risk factors through preventive 
and primary health care.
    Finally, Haymarket is looking to expand vocational 
education and job placement services we offer our clients. Once 
we have completed treatment and have begun to address their 
other medical and health-related problems the one impediment is 
a lack of employment opportunities. Haymarket is looking to 
collaborate with the Job Corps center which is scheduled to 
open in Chicago this year in developing an outpatient 
demonstration project. We ask that the committee encourage the 
Department of Labor to consider working with community-based 
organizations in this and other innovative ways.
    Clearly, if welfare-to-work efforts are going to succeed, 
demand for substance abuse treatment will increase and exceed 
the capacity of the current system. For example, the Illinois 
Department of Health and Human Services estimates that 40 
percent of our TANF population has a substance abuse problem 
and is in need of treatment. Thus, for welfare-to-work to 
succeed, it must include substance abuse treatment funding 
increases.
    In closing, Haymarket requests that you help the treatment 
community create a continuum of care for individuals with drug 
abuse problems so those individuals can address their problems 
more quickly and completely.
    Thank you very much.
    [The prepared statement of Anthony Cole follows:]


[Pages 1933 - 1940--The official Committee record contains additional material here.]



    Mr. Wicker. Thank you, Mr. Cole, we appreciate your 
testimony.
                              ----------                              

                                        Thursday, February 5, 1998.

                                WITNESS

KAREN JOHNSON, FSH SOCIETY, INC.
    Mr. Wicker. Our next witness is Karen Johnson, Board Member 
of the FSH Society, speaking to us today. We are delighted to 
have you with us today.
    Ms. Johnson. Thank you, Mr. Wicker. Thank you for letting 
me submit this testimony to you today. As stated, my name is 
Karen Johnson and I am from Bowie, Maryland, and I am 
testifying as a Member of the Board of Directors of the 
Facioscapulohumeral Society, the facilitator for the Mid-
Atlantic FSH support group and as an individual who has this 
disorder.
    FSH disorder, otherwise known as Facioscapulohumeral, 
muscular dystrophy or FSHD, is an inherited neuromuscular 
disorder affecting one in 20,000 people. FSHD causes a 
progressive and severe loss of skeletal muscle throughout the 
whole body. As an American with FSHD and generations of my 
family afflicted with FSHD, I would like to tell Congress just 
how hard it is for a family to deal with this disease.
    FSHD has diminished me physically. There is no cure or 
treatment. I live with physical and emotional pain and the 
frustration of losing independence daily. Both of my brothers 
have FSHD. I watch them endure it for a lifetime.
    My only child has FSHD. I wish that he not see his mother 
progressively weaken knowing that he is watching what is 
certain to be his fate. Surely he knows at his age that without 
a cure he, too, will progressively weaken and be burdened with 
a diseased body.
    It is physically impossible for me to hug my son. I cannot 
tell him any more that it will be all right. I watch helplessly 
as his carefree personality changes into that of a depressed 
young man burdened with the realization that he has inherited 
his disease from me. I worry about the day that he brings home 
his forever love with the fear that she will not be strong 
enough in seeing what he will become.
    I worry for the happiness in future of my grandchildren 
because FSHD is inherited. My husband will soon be my care-
giver for I cannot walk. I cannot roll over or get out of bed. 
I cannot close my eyes to sleep and feeding myself is getting 
more difficult.
    I need assistance with bathing, toileting and dressing. And 
all the while my son sees my pain, my anguish, and my 
increasing disability and I see his fear. How can a mother 
reassure their child if she, too, is unsure?
    Largely, thanks to the efforts of Mr. Porter, the National 
Institutes of Health Researching Fund continues to grow. This 
past year has seen an unprecedented level of communication 
between the research community, the FSH Society, NIH and 
Congress. We are indebted to the members of this subcommittee 
and Representative Edward J. Markey from Massachusetts for his 
support. And for the report language submitted to you last year 
co-signed by Representatives McHugh, Frank, Meehan, Schumer, 
and Wexler.
    While we wait for a formal response to last year's report 
language from Congress to the Director of NIH, we need Congress 
to give NIH resources now for FSHD research.
    Understanding that the process takes time, we are positive 
we will see major initiatives in this area. Today, I am asking 
Congress to communicate to the NIH its awareness of our current 
crisis on research with FSHD.
    Mr. Chairman, there is perhaps $200,000 of funding on FSHD 
from NIH and this is clearly insufficient. Congress must act on 
the one item that we cannot do for ourselves, that is to fund 
research on FSHD. We need a commitment to the FSHD research in 
areas outlined by the international community of scientists 
working on FSHD.
    We ask the subcommittee to assign a dollar amount to FSHD 
research. We request that an amount of not less than $2,000,000 
and not more than $4,000,000 be earmarked for FSHD research.
    The men, women and children who live with this devastating 
disease are taxpayers and contributors to the American way of 
life. With an 88 percent employment rate we personally bear our 
burden of health care costs and training expenses to maintain 
financial and personal independence.
    We implore that the United States Government allocate our 
hard-earned tax dollars commensurate with our numbers and 
valuable contributions to the American way of life and society. 
Time is of the essence now. Lives are in the balance. The FSHD 
community demands bold, persistent and innovative initiatives.
    We ask you to, please, act today for our children, my 
child, and the generations to come. I have brought along a 
statement from the FSH Society to be included in the record. 
And I really appreciate you looking that over.
    Again, I want to thank you.
    [The prepared statement of Karen Johnson follows:]


[Pages 1943 - 1953--The official Committee record contains additional material here.]



    Mr. Wicker. Thank you, Ms. Johnson, for your very effective 
testimony. I am sure that if Chairman Porter were still here he 
would express to you that he intends to do his best as chairman 
of this subcommittee to work with the scientists and physicians 
at NIH to see that these scarce public resources that we have 
are used most effectively.
    And I certainly hope that we can bring some relief to you.
    Ms. Johnson. Thank you.
    Mr. Wicker. Thank you very, very much.
                              ----------                              --
--------

                                        Thursday, February 5, 1998.

                                WITNESS

KAREN HENDRICKS, COALITION FOR HEALTH CARE FUNDING
    Mr. Wicker. Our next witness is Karen M. Hendricks, 
President, Coalition For Health Funding and Assistant Director, 
Department of Government Liaison, American Academy of 
Pediatrics.
    Ms. Hendricks, we are delighted to have you with us.
    Ms. Hendricks. Thank you, Mr. Wicker.
    The Coalition for Health Care Funding is very pleased to 
have an opportunity to present our statement recommending 
Fiscal Year 1999 funding levels for the agencies and the 
programs of the Public Health Service. We sincerely appreciate 
the strong and continued support that this subcommittee has 
given to help discretionary programs.
    This year we celebrate the Bicentennial of the U.S. Public 
Health Service. For 200 years, the Public Health Service has 
been protecting the health of the American public beginning 
with the establishment of the Marine Hospital Service to care 
for sick and disabled Navy men in 1798.
    While we have seen major advances in medical care over the 
past 200 years, the greatest impact on people's lives and well-
being has been in the arena of public health. Since the turn of 
the 20th Century life expectancy of Americans has increased 
from 45 to 75 years. A recent report estimates that five of 
those added years are due to the medical care system but 25 
years are due to the public health interventions.
    Dr. William Foege, a former Director of the Centers for 
Disease Control and now with the Carter Center in Atlanta, 
noted in a recent PBS Television documentary recounting the 
progress of medicine, ``One of the most remarkable things of 
this century of science has not been what happens in the 
emergency room or in an intensive care unit or in the 
laboratory, it is the information now available to the average 
person about how to live longer and stay healthier.''
    Disseminating this information to all Americans is largely 
the work of public health agencies like the CDC and HRSA. The 
Coalition appreciates that many members of this subcommittee 
will want to provide a significant increase in the funding for 
NIH in the coming Fiscal Year. The Coalition agrees.
    However, as we both know, other sources of funding beyond 
the amount available under the current tightly capped 
discretionary accounts will need to be found to support the NIH 
and all other Public Health Service agencies. The Coalition has 
in the past and remains committed to working with the budget 
committees and others to increase funding for NIH in a manner 
that does not rob Peter to pay Paul.
    Biomedical and behavioral research provides the foundation 
that underlines a continuum of public health activities that 
include health services and outcomes research, targeted health 
care delivery to special populations, health professions 
education and training, disease and injury prevention and 
control, and health promotions activities.
    Without these essential public health partners our 
increasing investment in biomedical research will fail to 
achieve the goal of a healthier and more productive nation. 
Recently the Coalition was approached for examples of how our 
investment in NIH-sponsored research eventually translates into 
healthier lives for our citizens through the actions of other 
agencies of the Public Health Service. Let me give you just one 
or two examples.
    We have relied on NIH-sponsored research to identify the 
mysterious and tragic causes of SIDS, deaths in young infants 
but have looked to the Maternal and Child Health Block Grant 
program to deliver and implement the back to sleep campaign 
that has reduced SIDS by approximately 38 percent.
    In the area of chronic disease, our investment in NIH 
research has identified a limited number of unhealthy lifestyle 
behaviors, many adopted early in life, which contribute to 
billions of dollars in direct and indirect costs due to heart 
disease, cancers, diabetes, and intentional and unintentional 
injuries. Investing in nationwide disease prevention and health 
promotion activities to reduce this largely preventable 
national burden would more than pay its way.
    As we stand on the brink of the next millennium, our 
continued investment in a very strong Public Health Service 
will help us address these ongoing challenges and help us deal 
effectively with the newest challenges.
    The challenges of the next millennium include keeping our 
food and water supply safe, discovering effective methods for 
addressing new and emerging and multi-drug resistant infectious 
diseases, and identifying and protecting the work place, our 
homes and communities from chemicals that are harmful to health 
while we continue the effort to provide quality, cost-effective 
health care to all Americans.
    For Fiscal Year 1999, the Coalition is recommending 
$29,000,000 be provided to address the nation's needs in the 
areas of biomedical, behavioral, and health services research; 
disease prevention and health promotion; health services for 
vulnerable and medically under-served populations; health 
professions education and training; substance abuse and mental 
health services; and food, drug and medical device regulation. 
The members of the Coalition for Health Funding look forward to 
working with this subcommittee and meeting the difficult public 
health challenges that are still ahead.
    Thank you.
    [The prepared statement of Karen Hendricks follows:]


[Pages 1956 - 1964--The official Committee record contains additional material here.]



    Mr. Wicker. And we look forward to working with you.
    It is perfectly all right in this building to yield back 
some time. Remind us of that and you will get it back next 
year.
                              ----------                              

                                        Thursday, February 5, 1998.

                                WITNESS

MICHAEL Q. FORD, NATIONAL NUTRITIONAL FOODS ASSOCIATION
    Mr. Wicker. Our next witness, Mr. Michael Q. Ford, 
Executive Director, National Nutritional Foods Association.
    Mr. Ford, we are delighted to have you with us.
    Mr. Ford. Thank you, Mr. Wicker.
    It is an honor to be here and I want to thank the staff, 
too, for their flexibility in changing around the schedule so 
that I could be here today. The National Nutritional Foods 
Association represents about 2,500 health food stores and about 
800 manufacturers, distributors and suppliers of health foods, 
dietary supplements and natural ingredients, cosmetics, and we 
want to talk to you today about increased research on the 
benefits of dietary supplements, particularly nutrient vitamins 
and herbs and other botanicals.
    In yesterday's, sometimes it works out very well, in 
yesterday's Washington Post this article appeared on page A-3. 
The headline says, ``Vitamins Sharply Reduced Risk of Heart 
Attack Study Finds.''
    This was a very large study, 14 years, 80 thousand nurses, 
Harvard School of Public Health, published in the Journal of 
the American Medical Association. And what it says is two 
simple B vitamins, Folic Acid and B-6, taken in amounts 
regularly larger than what is recommended by the FDA as the 
recommended daily allowance, can reduce the risk of heart 
attack by 50 percent. I mean this to us is just a wonderful 
revelation and I think for all Americans it is a wonderful 
revelation.
    We have more than 100 million citizens of this country 
taking dietary supplements, herbs and vitamins, every day and 
the Congress has mandated more research and more service in 
this area, particularly with the passage of the Dietary 
Supplement Health and Education Act of 1994.
    Two scholarly documents have recently been published that 
support more research in this area. One is by the Food and 
Nutrition Board of the National Academy of Sciences which is 
the body responsible for creation of the RDAs. They now, for 
the first time, since the RDAs were created in 1941, are 
talking about optimal health and using nutrients to fight 
chronic disease other than the classical nutrient-deficiency 
diseases, like beriberi and scurvy. And the chairman of the 
Food and Nutrition Board calls this particular report a great 
leap forward and we agree with him.
    Also the President's Commission on Dietary Supplement 
Labels, which was created by the Dietary Supplement Act, has 
come out very strongly in support of increased research in this 
area saying the public interest would be served by such 
research.
    We are looking for a continuum of research in this area 
that goes like this. There is at the NIH the Office of Dietary 
Supplements, again created by the Dietary Supplement Act, which 
is to coordinate and stimulate research on dietary supplements, 
other nutrients and the botanicals. This office is currently 
funded at about $1,000,000 with 1.5 FTEs. We support the 
President's Commission in calling for the full authorized 
funding of this office at $5,000,000, so that they continue to 
stimulate the kinds of research that will give us the results 
as reported in the Washington Post.
    Secondly, the Office of Complementary and Alternative 
Medicine, created in 1992 by Congress as the Office of 
Alternative Medicine, is currently funded at about $20,000,000 
which is very good, but it does not come close to mirroring the 
popularity and importance of alternative providers. The New 
England Journal of Medicine has said that in an average year 
425 million visits are made to alternative providers as 
compared to 338 million visits to contemporary, to traditional 
doctors and primary care givers.
    We would like to see the funding for research in this area 
mirror the national demand for these kinds of services which 
often use nutrients and botanicals and herbs.
    Also, we do support Congressman D'Fazio's H.R. 1055, which 
would elevate the Office of Complementary and Alternative 
Medicine to a center status so that it could make its own 
agenda, have its own peer review panels and let its own grants 
and contracts.
    Once we have the kind of research that is necessary from 
NIH, we would like to see the subcommittee consider directing 
the agency for health care prevention and research to look at 
the feasibility of cost effectiveness studies of some of the 
products that are bringing such relief to people with chronic 
illnesses and doing a great job of preventing. For example, Saw 
Palmetto is a botanical which is shown to be much more 
effective with no side effects with respect to treating benign 
prostate enlargement. We think that there would be cost 
effectiveness and the AHCPR would find this because people will 
take their medicines when there are not the kind of side 
effects that come so often with prescription drugs.
    We would hope with the cost effectiveness shown the 
committee would eventually consider some sort of demonstration 
project through Medicare and Medicaid and the Health Care 
Financing Administration.
    Thank you for your time and I would ask that in addition to 
our formal statement, we have submitted a copy of this article 
from the Washington Post about the Harvard study and I would 
like that to be made a part of the record.
    [The prepared statement of Michael Ford follows:]


[Pages 1967 - 1975--The official Committee record contains additional material here.]



    Mr. Wicker. Thank you. That will be received.
    [The article from the Washington Post follows:]


[Pages 1977 - 1979--The official Committee record contains additional material here.]



                                        Thursday, February 5, 1998.

                                WITNESS

JUDITH S. STERN, Sc.D., AMERICAN OBESITY ASSOCIATION
    Mr. Wicker. We will now hear Judith Stern, Dr. Judith 
Stern, Vice President, American Obesity Association.
    And at the end of Dr. Stern's testimony I may have to make 
a mad dash on the floor to vote.
    Dr. Hadley, who is our final witness will testify at 2 
o'clock and at the conclusion of Dr. Stern's testimony we will 
stand in recess until 2 o'clock.
    Dr. Stern. Thanks, Mr. Wicker.
    I am reporting the American Obesity Association and it was 
founded in 1995 to serve as an advocate for millions of persons 
in this country suffering from obesity. I am also a professor 
of nutrition and internal medicine at the University of 
California, Davis, and I have served as Presidents of the 
American Society for Clinical Nutrition and the North American 
Association for the Study of Obesity and I am a member of the 
Institute of Medicine, National Academy of Sciences.
    Today, I have come to talk with you very briefly about the 
growing epidemic of obesity in America where obesity affects a 
minimum of 58 million adults and 5 million children. And if 
this were tuberculosis nobody would doubt that it was an 
epidemic. Former Surgeon General Dr. C. Everett Koop has taken 
up this banner and he has pointed out that obesity is 
prematurely killing 300,000 Americans each year, and Dr. Koop 
knows that I am here this morning and supports my testimony.
    Obesity is second only to smoking as the leading cause of 
preventable death but obesity does not appear on the 300,000 
death certificates. People are dying of diseases casually 
linked to obesity like heart disease and hypertension and 
stroke and Type 2 diabetes and certain cancers and these are 
the diseases that appear on death certificates.
    Putting this in perspective this is the equivalent of four 
Oklahoma City bombings a day for a year. It is a lot.
    Why do people die of obesity? There is no longer any doubt 
that obesity interferes with a number of physiological 
functions and metabolic processes. Cardiovascular, respiratory, 
they are all negatively impacted.
    The utilization of nutrients, especially glucose, is 
abnormal and the result is hypertension, and dyslipidemia, and 
atherosclerosis and eventually heart disease and diabetes.
    Obesity increases the risk for all of these diseases. Once 
they are established weight gain makes it worse, and a little 
bit of weight loss improves it but what I am really here for 
today is to really object to the fact that the NIH is devoting 
far too few resources to obesity research especially in 
relationship to the number of premature deaths and the costs of 
obesity are staggering.
    The best figures we have are from 1986 and more than 
$67,000,000,000 a year and including $22,200,000,000 for the 
cost of obesity related to heart disease; $11,300,000,000 per 
year spent to treat and manage Type 2 diabetes, nearly all of 
whom are obese; $2,400,000,000 for gallbladder disease 
associated with obesity; $1,500,000,000 for the treatment of 
high blood pressure and it goes on.
    Now, Mr. Wicker, the NIH only spends $92,000,000 a year for 
obesity research. You work it out. That is a $1.46 per obese 
person. Compare that $1.46 to $20 per diabetic person, $40 on 
each patient with heart disease; $338 for cancer; and $2,101 
for each patient with HIV-AIDS.
    So, I think the Department of Health and Human Services 
needs a complete reevaluation of its response to this obesity 
crisis and NIH must have a budget that appropriately reflects 
the prevalence, health consequences, and costs of obesity. 
Funding is vitally needed for basic and clinical research in 
obesity, prevention and intervention research. So, in 
conclusion, on behalf of the 63 million obese Americans, who 
are living and dying prematurely with this disease, we urge 
this committee to make a five-fold increase in the money that 
NIH spends on obesity research. It would only raise it from the 
current $92,000,000 to $460,000,000 in Fiscal Year 1999.
    Mr. Wicker, I really thank you for your time and attention 
and I would like to urge you to recall that one of three out of 
your constituents is struggling with this disease. It is an 
awful.
    [The prepared statement of Judith Stern follows:]


[Pages 1982 - 1988--The official Committee record contains additional material here.]



    Mr. Wicker. Dr. Stern, if a person can get through 
childhood and adolescence without having obesity, are their 
chances of becoming obese as an adult reduced dramatically?
    Dr. Stern. Somewhat, but 53 million of the 58 million obese 
adults became obese as adults. There are only about 5 million 
obese children and I think it is, Mr. Wicker, genetics is 
important, that sort of loads the gun, but environment pulls 
the trigger. There is a problem with inactivity and food intake 
but there is that underlying genetics. And we can make great 
progress, we need the money.
    Mr. Wicker. I hope we can be of service.
    Thank you very much for your testimony and this 
subcommittee stands in recess until 2 p.m.
    Dr. Stern. Thank you.
                                          Thursday, April 30, 1998.

                    TESTIMONY OF MEMBERS OF CONGRESS

                                WITNESS

HON. FRANK PALLONE, JR., A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW JERSEY
    Mr. Porter. The subcommittee will come to order. We 
continue our hearing on the appropriations for fiscal year 
1999, and we will hear this morning and this afternoon from 
Members of Congress, and we are pleased to welcome our 
colleague, Frank Pallone of New Jersey. We will allocate 5 
minutes to each of our witnesses.
    Frank, please proceed.
    Mr. Pallone. Thank you, Mr. Chairman and members of the 
committee. Hopefully I won't use the 5 minutes. I will submit 
my statement for the record and just highlight four areas of 
concern.
    One is impact aid. I have a number of towns in my district 
that received impact aid because of the soldiers or sailors 
that are stationed there, and I am just requesting that the 
subcommittee provide the level of funding that has been 
recommended by the Impact Aid Coalition, which I understand is 
887 million for the fiscal year, as opposed to I guess 609 
million that the President has requested. I know that your 
subcommittee usually does better than what the President 
requests on that, and I would just hope that you do that once 
again.
    The second issue is what we call RUNet 2000, which will be 
based at Rutgers University, which is the State university in 
my district. RUNet 2000 is basically a comprehensive, 
integrated, voice video data and communications network.
    Rutgers, although the major campus is in my district, it 
also has campuses in Newark and Camden, New Jersey. And 
basically this is a way of sort of linking not only the three 
campuses at Rutgers, but also with other institutions of higher 
education. It is essentially a creative approach to share 
research expertise and instructional talents with people far 
beyond the university.
    Very quickly, this is a 5-year plan. To put this together, 
it will cost $100 million. We are looking for 10 percent of the 
funding or $10 million from the Federal Government, strictly 
for capital costs, not for actual operations of this network. 
It is something innovative; I would like the subcommittee to 
look at it and consider it.
    The third thing I wanted to mention is the Job Corps. I 
know you have been very supportive of the Job Corps program and 
I just wanted to say that it works very well in my district. I 
get a lot of information from the Edison Center, which has been 
very successful in terms of the opportunities for the 
individuals that have been involved.
    Just to give you an idea, 75 percent of the students in 
this program went on to join the work force, the Armed Forces, 
or to continue their education. It has just been a very 
successful program in terms of people's futures, as well as the 
hands-on activity they are involved with, and I would just ask 
that you continue to support the program by providing $1.3 
billion for the next fiscal year.
    The last thing I wanted to mention is harmful algal blooms. 
They call them HABs, another acronym. This has plagued humans 
for a long time. But the biggest problem now--you remember in 
Chesapeake where we had the Pfisteria blooms and in the Gulf of 
Mexico we had the red tide. In both cases, there have been a 
lot of chronic illnesses that have resulted from exposure to 
these harmful algal blooms, and they are known to be 
responsible for about five different types of seafood 
poisoning.
    What I am asking for is more money to do research on the 
consequences of these harmful algal blooms. The National 
Institute of Environmental Health Sciences--I am sorry, the 
National Institute of Environmental Health Sciences is, of 
course, part of the NIH and they are the institute that has the 
mandated permission to address these harmful algal bloom 
issues. Basically there is not a lot of research on it right 
now, because these environmental problems from the algal blooms 
are increasing. I am asking that you put a $10 million increase 
into this institute, specifically to address the effects of 
these harmful algal blooms on humans.
    There are a lot more studies that need to be noted and, of 
course, you have seen in the papers these have received a lot 
of attention lately, and I am concerned it is a growing problem 
that needs more attention at the National Institute.
    That is all I wanted to address and I appreciate all your 
efforts in the past, certainly.
    [The prepared statement of Congressman Frank Pallone, Jr., 
follows:]


[Pages 1993 - 1996--The official Committee record contains additional material here.]



    Mr. Porter. Frank, thank you for your testimony. Obviously 
we have agreed with you on Impact Aid and Job Corps being high 
priorities. Depending on our allocation, we will hope to agree 
with you again and certainly look into the RUNet 2000 and--it 
is HAB; right?
    Mr. Pallone. Right.
    Mr. Porter. With which I was not familiar.
    Mr. Pallone. I was not going to use the acronym because it 
is not familiar to me either.
    Mr. Porter. We will do our best to respond in both those 
cases.
    Mr. Pallone. Thank you.
    Mr. Porter. Thank you, Frank.
                              ----------                              --
--------

                                          Thursday, April 30, 1998.

                                WITNESS

HON. BILL GOODLING, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    PENNSYLVANIA
    Mr. Porter. Next we are pleased to welcome the Chairman of 
the authorizing committee, Education and the Workforce, 
Congressman Bill Goodling of Pennsylvania.
    Bill, it is good to see you.
    Mr. Goodling. Thank you, Mr. Chairman. I will take my 5 
minutes.
    Mr. Porter. Very good.
    Mr. Goodling. First, I want to thank you for having the 
opportunity to testify. I would like to first focus on IDEA and 
first, by thanking you and your committee for your efforts in 
the last couple of years. The more than 1.4 billion funding 
increases you have given since we have been in the Majority 
certainly is very, very helpful not only to the children, but 
also to the local school districts. As you know, when it was 
passed in 1975, we said we would send 40 percent of the excess 
costs, since we sent 100 percent of the mandates; and thank 
goodness, at least in the last 2 years, we are now up to 9 
percent, a long way from 40 percent, but we are getting there.
    If we have another 1.1 billion in IDEA part B, we trigger 
in a new formula and that will get us away, hopefully, from 
identification of students. The new formula also will be able 
to help local school districts because it will be the first 
time they will be able to reduce their spending. Not the 
States. They have to continue with the local district, and so 
they will be able to do all those wonderful things the 
President talked about in the State of the Union that are none 
of our business in the first place. But they can do pupil-
teacher ratios, improve school buildings, and new buildings and 
so on, if we send them what we promised we would send them when 
we sent the mandate.
    A good example is the city of York, which is a small city. 
They spent about 16 percent of their entire budget on our 
mandate from the Federal level. We sent them about 7.5 percent 
of the money. If we sent the extra money that we promised, 
there would probably be another million dollars, and they could 
do all sorts of things to improve teacher training, they could 
do all sorts of things to reduce pupil-teacher ratio, all the 
things the President talked about.
    Mr. Porter. Did you say that if we add $1.1 billion----
    Mr. Goodling. No; if we ever got to the 40 percent.
    Mr. Porter. Oh, if we got to the 40 percent.
    Mr. Goodling. The 1.1 billion will at least help them to 
reduce their spending on special ed so they can do some other 
things for all the rest of the students that they have. So it 
would be very helpful if we can continue what you started 2 
years ago toward that promise.
    The second issue I would like to talk about is I hope we 
have put testing to bed until the authorizing committee 
authorizes. We had a big vote again in the House. The Senate 
also voted, I believe, 52 to 47 to follow our lead. So I would 
hope now it would be a joint effort on the House and the Senate 
side to make sure we don't move ahead without authorization on 
any field testing and any pilot testing, anything.
    Mr. Porter. You are saying we will need a provision in the 
bill this year to continue what we started, what you started 
last year.
    Mr. Goodling. We will----
    Mr. Porter. On testing.
    Mr. Goodling. Right. You will need to make it very clear 
that you are abiding by the will of the House and the will of 
the Senate in relationship to funding for testing.
    Let me then go on to something very near and dear to me, 
which is Even Start. We finally found a family literacy program 
that works, after all these years, and I have given you copies 
of the evaluation; a very outstanding evaluation. Now instead 
of saying what they said about Head Start so many years when we 
didn't have quality in the program--they would always say there 
is no Head Start by the time they get to third grade. This 
evaluation indicates from all the teachers and administrators 
that what they have gained in Even Start is a continuation 
beyond third grade, that they really hold onto what they gain, 
and we make the parents better parents and improve their 
literacy so they can be the child's first and most important 
teacher.
    So instead of the $9 million cut--which I assume was 
sending a message to me--in the President's budget, I would 
recommend a $9 million increase, because we finally found 
something that works. It is amazing because last year he asked 
for an increase, because he told the Secretary that he really 
liked the program in Ireland where they had the parents over 
here working with them and the preschool children over here and 
they bring them together. And, of course, I said, Mr. 
Secretary, they stole that from us, you know. We have been 
doing it for 10 years and it has been very effective.
    The next area I would like to mention is Chapter 2; it is 
now Title VI. I see he zeros that out. But, again, it is that 
block grant that really gives the local school district an 
opportunity to improve their teaching, and so I would hope that 
we would not pay attention to his budget.
    I would also like to point out migrant education. When you 
talk about disadvantaged, these are the most disadvantaged of 
all, nobody looking out for them. They haven't gotten any 
increase in the last 2 years. Of course, they have a tremendous 
increase in numbers, but no increase as far as money is 
concerned. So I would hope that we can take a look at that.
    Since I don't have time to get into the work force issues, 
I would merely say that I would refer you to my written 
testimony for fuller explanation.
    I just simply want to emphasize the Department of Labor 
funds should focus on helping employers, employees, and unions 
voluntarily comply with and better understand workplace laws. 
That is the drive we have on, we have gotten them away from 
this business of the more fines they get, the better they can 
run their department, so those are the areas that I want to 
highlight.
    [The prepared statement of Congressman William F. Goodling 
follows:]


[Pages 2000 - 2008--The official Committee record contains additional material here.]



    Mr. Porter. Bill, thank you. I think that we can, depending 
on our allocation, we can be responsive in each of these areas, 
and we certainly agree with you on IDEA and how it frees up 
funds at the local level to do things that otherwise couldn't 
be done. And certainly testing, Even Start, Title VI, all these 
are things that we very much agree with you on.
    Mr. Goodling. Just one other statement. At 11 o'clock last 
night, I reminded them on the floor they are their making each 
other feel good with some of these programs that they are now 
accepting in our higher ed bill. I would just encourage you not 
to pay any attention to those whatsoever, because I reminded 
them that if you would appropriate, then they are going to come 
from some other place and it just might be one of their 
favorite programs where they had to take money in order to 
ignore these amendments for a couple of them that were accepted 
because they don't merit your recognition. Thank you.
    Mr. Porter. All right. Thank you.
                              ----------                              

                                          Thursday, April 30, 1998.

                                WITNESS

HON. BUCK McKEON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Porter. Next we are pleased to welcome our colleague 
from California, a member of the authorizing committee, 
representative Buck McKeon. Buck, good to see you.
    Did he say something he shouldn't have said?
    Mr. McKeon. No; we were just kidding about that.
    Mr. Chairman, thank you for the opportunity to speak before 
your subcommittee this morning. I am pleased to testify this 
morning with my colleagues on the Committee on Education and 
the Workforce on the fiscal year 1999 funding priorities for 
postsecondary education and adult training programs.
    As you are aware, the Higher Education Amendments of 1998 
are currently being considered on the House floor. This bill 
was adopted by the full committee with strong bipartisan 
support, passed out of committee 38 to 3.
    It brings us closer to my goal of ensuring that every 
American who wants a quality education at an affordable price 
will be able to get it.
    I would like to take the opportunity today to briefly 
explain the changes we have made in this important piece of 
legislation.
    The committee is proud of the accomplishments made to date 
in making college affordable for all students since the 
Republicans gained control of the Congress. For example, Pell 
grants and college work study are funded at all-time highs, 
while provisions in the Taxpayer Relief Act created education 
IRAs and other tax credits to help low- and middle-income 
students obtain a postsecondary education.
    The Higher Education Amendments will build on these 
achievements by continuing the important programs that serve 
students well and by reforming burdensome requirements to best 
meet the needs of students, families and colleges across the 
country.
    The Higher Education Amendments of 1998 will simplify the 
student aid system. Our legislation will eliminate 45 unfunded 
programs, including the State postsecondary review entities, 
and terminate 11 studies and commissions. It will bring our 
student financial aid delivery system into the next century by 
creating a performance-based organization within the Department 
of Education, focused on providing quality service to students 
and parents.
    For the first time, the day-to-day management of our 
student aid programs will be in the hands of someone with real-
world experience in financial services. This individual will be 
given the hiring and contracting flexibility necessary to get 
results and will be paid based on performance.
    For the first time, the Department's student financial aid 
systems will be run like a business. This performance-based 
organization will manage the Department'scomputer systems and 
ensure that the Department of Education does not waste money due to 
poor contract management or duplication. I don't know why we have to do 
this. In law, it seems to me like that would have been something they 
would have already done but they didn't, so this will improve that 
system.
    The bill also requires the Secretary to work with the 
higher education community to adopt common and open electronic 
data standards for important parts of the delivery system. By 
adopting these common standards, we can greatly simplify the 
student aid system by eliminating paper forms and unnecessary 
steps in the process. The student will fill out one piece of 
paper that will work for all their financial needs, instead of 
having to respond to many different forms.
    Many other improvements we made in the bill, I do not have 
time to discuss in detail this morning. My written testimony 
provides more specific information and I would ask that it be 
entered into the record.
    Mr. Chairman, I hope the Pell grants once again will be 
given top priority for funding increases in your bill. Last 
year's increase of $300, for a maximum of 3,000, was the single 
best step taken to help low-income students have an opportunity 
to obtain a higher education. Continuing the trend started by a 
Republican Congress to provide increases to the Pell maximum is 
a clear indication of the Republican commitment to this 
important program that helps needy students obtain a 
postsecondary education.
    As in the past, I also hope the College Work Study and the 
TRIO will continue to be a funding priority of your committee. 
I really would like to stress the Work Study. I think the more 
we can do in that area, I think that is the best program out of 
all of these.
    Finally, I will briefly mention the Employment Training and 
Literacy Enhancement Act of 1997. As you know, the House passed 
this bill last May and it is currently pending in the Senate. 
We understand the Senate will consider it shortly. This bill is 
an important step in addressing the Nation's long-term work 
force preparation needs by helping States and local communities 
to make sense out of our current confusing array of employment 
training and literacy programs.
    The bill accomplishes long overdue reform, consolidating 
over 60 Federal programs through the establishment of three 
block grants to States and localities for the provision of job 
training services. This legislation is written to empower 
individuals, and not the Federal Government, to make decisions 
about their own lives and their individual employment and 
training needs. It will go far to help States and local 
communities to reform employment, training, and literacy 
programs and address the individual skill needs of their 
citizens, and it will go far to empower individuals to break 
the cycle of dependency that has plagued our country for far 
too long.
    I trust that you will be able to conference this bill 
quickly and that the President will sign this legislation into 
law soon. I hope that your fiscal year 1999 appropriations bill 
will continue to provide sufficient funding for the important 
programs it reauthorizes.
    Thank you, Mr. Chairman, for the opportunity to testify 
before you today. I would be happy to answer any questions that 
you may have.
    [The prepared statement of Congressman Howard P. ``Buck'' 
McKeon follows:]


[Pages 2012 - 2016--The official Committee record contains additional material here.]



    Mr. Porter. Well, that was perfect timing. Buck, I think we 
are tracking one another on each of the concerns that you have 
addressed in your testimony and, again, we are going to do the 
best we can. The allocation, obviously, is our limiting factor, 
but we will do the best we can within the resources we have. 
Thank you for coming.
    Mr. McKeon. And all kidding aside, I seconded what the 
Chairman said as he was leaving.
    Mr. Porter. Thanks, Bud.
    I am informed by staff our colleague Frank Riggs has a 
child that is ill and he can't be here for oral testimony. We 
will accept his written testimony for the record at this point.
    [The prepared statement of Congressman Frank D. Riggs 
follows:]


[Pages 2018 - 2023--The official Committee record contains additional material here.]



                                             Thursday, April, 1998.

                                WITNESS

HON. JAMES P. McGOVERN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MASSACHUSETTS
    Mr. Porter. Next is Representative James P. McGovern of 
Massachusetts, and we are happy to see him.
    Your timing was impeccable.
    Mr. McGovern. I hope so.
    I want to thank you, Mr. Chairman, for all the great work 
you do on behalf of medical research, which is very important 
to my area and also your great work on behalf of children's 
health, which is something I care very much about. I am going 
to abbreviate the testimony I submitted because I know you are 
backed up here.
    I am here today seeking support for two vitally needed 
health care initiatives in western Massachusetts, which is in 
my district, and I am also here to urge that this committee 
provide a $100 million increase for the Consolidated Health 
Centers program overall.
    First, I request $3 million for the health facilities 
construction program from the Health Resources and Services 
Administration for the recently merged University of 
Massachusetts Medical Center and Memorial Health Care in 
Worcester, now the largest provider of health care delivery in 
central Massachusetts.
    These funds would help support an $11 million renovation of 
UMASS-Memorial City Campus which operates and maintains 
programs dedicated to meeting the needs for ambulatory medical 
services, mental health services, and associated social 
services for Worcester's disadvantaged residents, and I am 
confident that the subcommittee's efforts to assist with this 
worthy project would have tremendous returns.
    I also want to applaud you and the subcommittee for having 
increased the Consolidated Health Centers program by $68 
million in fiscal year 1998. It is my opinion every dollar our 
government invests in this program brings a return of 
incredible savings, health care savings, and it is for this 
reason I strongly urge the subcommittee to increase this 
program additionally for fiscal year 1999.
    My second request represents an ideal example of how the 
consolidated health centers program would be successfully 
utilized, and I urge the subcommittee to provide a $1 million 
health facilities construction grant to the Great Brook Valley 
Community Health Center to help them expand and meet the needs 
of the growing number of patients they serve, more than double 
in the past. This facility serves the poorest population in the 
city of Worcester. I mean, close to 50 percent or more of the 
people they serve do not have insurance, and it is an 
incredible institution in the city of Worcester.
    I know that there are budgetary constraints and I know 
everybody comes before you and asks for things, but these 
projects that I have just mentioned I would hope would get your 
consideration, and whatever you can do, I would appreciate it.
    [The prepared statement of Congressman James McGovern 
follows:]


[Pages 2025 - 2027--The official Committee record contains additional material here.]



    Mr. Porter. Jim, thank you. I have to say I am very pleased 
to be able to work with you on a bipartisan basis on children's 
health and I know of your very strong concern about the 
consolidated health centers and we will do our best.
    Mr. McGovern. I appreciate it very much. Thank you very 
much, Mr. Chairman.
    Mr. Porter. Thank you.
                              ----------                              

                                          Thursday, April 30, 1998.

                                WITNESS

HON. STEVEN R. ROTHMAN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW JERSEY, COMMUNITY HEALTH CENTERS
    Mr. Porter. Next we are pleased to welcome Congressman 
Steve Rothman from New Jersey, who came before our committee 
and provided us--I guess it was last year, Steve--with very, 
very poignant testimony on autism, and we appreciate your 
counsel in this area.
    Why don't you proceed with your statement?
    Mr. Rothman. Thank you, Mr. Chairman. I too am grateful for 
your commitment to children's diseases and finding the cures 
for them, and I am profoundly grateful and appreciative of your 
bipartisan spirit and your kindness that you show to Members of 
both parties who come before you and this committee, so I am 
very grateful, Mr. Chairman.
    Last year my brother and I came before you. My twin brother 
gave testimony about one of his three sons, the one who is 
autistic. His name is Jack. I have, since Jack's birth 7 years 
ago, met dozen and dozens of families in my district alone who 
are living with a child with autism. It is an excruciating, 
heartbreaking situation. You have a child who looks normal. If 
you saw this child on the street, you would say this is just a 
normal kid. The child is in his or her own world. There is all 
different levels of functioning. Five percent of them actually 
can be trained and educated, 5 percent. Yet we never know until 
the child is older, perhaps in his or her teens, whether they 
will be one of the 5 percent, so you are taking every single 
penny you can possibly get your hands on to invest in training 
and tutoring on a daily basis, lest you miss something, lest 
you miss a time in that child's life when that bit of tutoring 
or education could have flicked the switch. So it is a constant 
state of unknown that goes on, and you are constantly wondering 
am I doing enough, have I found the right research, because 4 
or 5 percent, they do realize this progress.
    Four hundred thousand people in the United States are 
afflicted with autism. One in 500 children born today will be 
on the autistic spectrum. Though 5 percent will make strides 
with early intervention, the remaining 95 percent will never 
marry, never have a meaningful job, never live on their own, 
more than half will never learn to speak.
    Until a few years ago, there was no hope for people with 
autism. For 30 years, psychiatrists thought it was an emotional 
problem or a problem of bad parenting. As a result of this 
tragic mistake, parents did not organize, medical research was 
not funded, scientists were not encouraged to enter the field, 
and a generation of autistic children was lost. While autism 
affects more people than multiple sclerosis, cystic fibrosis, 
or childhood cancer, autism still only receives less than 5 
percent of the Federal research funding for these other 
decisions.
    Recently, with your help, Mr. Chairman, and the help of 
your committee, the plight of autism and the need to vigorously 
pursue research in this area was recognized on a level never 
before achieved. Last year, the NIH announced it is undertaking 
a 5-year research effort focusing on neurobiology and genetics 
of autism, again with your prompting and your efforts.
    Last summer, NIH held a conference aimed at improving 
autism research efforts. While we applaud these efforts as 
important first steps, we must recognize them as what they are: 
first steps. We need more research into the genetic, 
biochemical, physiological and psychological aspects of autism 
so that we can provide the more complete view of the disorder. 
Through this research we can identify genes and factors that 
cause autism, which can lead to earlier diagnoses and 
treatments or even prenatal gene therapy. In an age when 
important discoveries are being made in other diseases every 
day, we cannot allow autism, which affects so many Americans, 
to be left behind.
    Mr. Chairman, there is still a major deficiency in the 
current spending on autism, despite last year's profound and 
terrific efforts on your behalf. I hope that this committee 
will again support strong report language encouraging the NIH 
to redouble its efforts in the fight against autism. I would 
encourage this committee to consider establishing Centers of 
Excellence for Autism Programs modeled after the very 
successful NIH centers programs for Alzheimers. These centers 
would provide an infrastructure that would allow clinical and 
basic research to take place in one site. In addition, training 
and demonstration of advanced diagnostic prevention and 
treatment for autism could be done at the centers. Data could 
then be shared between sites, and collaborative research 
projects could be organized across multiple sites.
    If there is one thing everyone involved with autism is in 
agreement upon, it is that with continued medical research 
there will be treatment, there may even be a cure for autism. 
It is only a question of time, energy, money, and will. I know 
that there are so many diseases that are worthy of your 
attention, Mr. Chairman, and that of your committee. I know 
that every disease of a child is a source of unbelievable pain 
for the parent. This human suffering is not a competitive sport 
or one to be ranked one against the other. But in autism, we 
have been so far behind for so long, and there is so much 
progress that was kept in abeyance because of our own ignorance 
of our own society. Now that we are opening our eyes, with the 
scientists' help for the first time, and we see how far behind 
we are, perhaps it is still appropriate to raise the level of 
attention and funding for autism which, as you know, will not 
only result in breakthroughs for autism but other neurological 
and brain disorders.
    Mr. Chairman, again I want to thank you for allowing me to 
come before you and your committee, and I want to thank you 
again for your very sincere and widely acknowledged concern for 
childhood diseases and for your sincere and widely acknowledged 
reputation for bipartisanship.
    [The prepared statement of Congressman Steven R. Rothman 
follows:]


[Pages 2031 - 2034--The official Committee record contains additional material here.]



    Mr. Porter. Let me thank the gentleman for those very kind 
comments. Let me say it wasn't my leadership, but your own, 
that got us moving in the right direction on autism, and we 
learned a lot by listening to you last year and this year as 
well. And I think that is what made the difference. We are only 
responding to the things that we hear.
    I have to say, as I listened to your testimony both years, 
it strikes me that there are the same kind of similarities 
between Alzheimers and autism. They both are such heart-rending 
diseases not only for the individual afflicted, but for the 
family. And you referred to the mirroring of the centers' 
approach for Alzheimers in your testimony concerning autism, so 
we are listening very carefully to what you say.
    I would appreciate your giving us some suggested language 
on this for the report, and we will work with you and do 
everything we can do advance the cause. Thank you for your 
tremendous advocacy, Steve.
    Mr. Rothman. Thank you, sir.
                              ----------                              

                                          Thursday, April 30, 1998.

                               WITNESSES

HON. LEE H. HAMILTON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    INDIANA
HON. JOHN N. HOSTETTLER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    INDIANA, ACCOMPANIED BY JOHN MARVEL, CHAIRMAN OF THE BOARD OF THE 
    INDIANA SOCIETY OF RADIATION ONCOLOGY
DR. ALLAN THORNTON, RADIATION ONCOLOGIST AT HARVARD MEDICAL SCHOOL
DR.WILLIAM SMALL, RADIATION ONCOLOGIST AT NORTHWESTERN UNIVERSITY 
    HOSPITAL
    Mr. Porter. Next we are pleased to welcome our colleague 
from Indiana, Congressman Lee Hamilton, one of our favorite 
people in this institution. I am sorry; is Mr. Hostettler 
appearing with you? Are you all together?
    Mr. Hamilton. Well we are all together on the project, I 
know that.
    Mr. Porter. I am sorry. My staff informs me I should 
welcome John as well. With Congressman Hostettler is John 
Marvel, Chairman of the Board of the Indiana Society of 
Radiation Oncology; Dr. Allan Thornton, Radiation Oncologist at 
the Harvard Medical School; and Dr. William Small, Radiation 
Oncologist at Northwestern University Hospital. So we are 
having a full panel here.
    Mr. Hamilton. Mr. Chairman, thank you very much. I ask that 
my statement be made a part of the record and I will be very 
brief.
    We are requesting $10 million to fund the Midwest Proton 
Radiation Institute at Indiana University in Bloomington. We 
are joined here by the gentlemen you have just introduced, who 
are the experts in this area, and who will discuss the project 
in more detail. I am delighted to work with my colleague, 
Congressman Hostettler, to advance this project.
    I don't pretend to be any kind of expert here, Mr. 
Chairman, but proton therapy, as I understand it, focuses a 
beam of accelerated protons on certain cancer growths and can 
effectively radiate tumors in a way that conventional radiation 
cannot.
    The proton beam focuses cleanly on the tumor, causing 
little damage to surrounding tissues and organs.
    There are proton therapy facilities in Massachusetts and 
California. We don't have any in the Midwest. I think these 
gentlemen will be able to indicate the success of these 
facilities on the two coasts.
    The Midwest Proton Radiation Institute in Bloomington 
involves a unique collaboration of physicians and scientists 
from throughout the Midwest providing access to proton therapy 
treatment of various cancers. It will serve over 60 million 
people in the Midwest, including my State of Indiana and your 
State of Illinois.
    The advantage of this is that the Indiana University 
already has the proton accelerator on site. The cost of 
upgrading it, I think, is $20 million. We are asking for $10 
million from the Congress. An additional $10 million will be 
made available from non-Federal sources.
    If you had to have a new facility, it is my understanding 
the estimate would be about $65 million dollars for that 
facility.
    This is an enormously important project for us and, more 
importantly, for Illinois or for Indiana, just for millions and 
millions of people I think who would benefit over a period of 
years, of course.
    So it is a project of personal interest to me, it is of 
great importance, and I want to urge you to do what you can, 
with all of the competing pressures upon you, to help us out.
    Mr. Chairman, I am involved in another hearing, so I will 
excuse myself, with your permission, and perhaps Congressman 
Hostettler would like to join in as well.
    [The prepared statement of Congressmen Lee H. Hamilton, 
John N. Hostettler, John Marvel, M.D., Allan Thornton and 
William Small, Jr., follows:]


[Pages 2037 - 2042--The official Committee record contains additional material here.]



    Mr. Porter. Thank you, Lee.
    John.
    Mr. Hostettler. Thank you, Mr. Chairman and members of the 
committee, and I thank my colleague, Congressman Hamilton, for 
being here as well and lending his bipartisan support to this 
very important project.
    Mr. Hamilton capsulized very well what we are going to hear 
about with regard to the expertise and experience of this fine 
panel that includes Dr. John Marvel, chairman of the board of 
the Indiana Society of Radiation Oncology; Dr. Allan Thornton, 
who is a radiation oncologist at Harvard Medical School; and 
Dr. William Small, who is a radiation oncologist at 
Northwestern University Hospital.
    Mr. Chairman, if it please the committee, I lend the rest 
of the time of Mr. Hamilton and myself to the testimony of the 
following witnesses.
    Dr. Marvel. Mr. Chairman, It is a privilege to be here. 
Thank you.
    Mr. Porter. Are you Dr. Marvel, since you don't have name 
plates?
    Dr. Marvel. I am Dr. Marvel.
    It is a great opportunity to give testimony for a facility 
that will provide care for millions of citizens in Indiana, 
Wisconsin, Kentucky, of course your State, and surrounding 
midwestern States.
    You already have my written testimony. I will try to be 
brief.
    We formed a consortium of physicians and scientists 
throughout the Midwest to put together the Midwest Proton 
Radiation Institute, MPRI. The purpose is to bring to the 
Midwest access to proton therapy, which is currently only 
available on each of the coasts, in California and 
Massachusetts.
    When compared to conventional X-rays, if I could present 
myself as a target, ordinary X-rays enter and deposit most of 
the dose and then fall off with depth. Protons, conversely, 
enter at a lower dose, build up to a maximum right where you 
want them to stop, and fall off so there is no exit dose. You 
focus your dose at the tumor and you minimize collateral 
damage.
    Proton beam therapy is a preferred treatment choice at 
selected treatment sites, including base and skull tumors, 
ocular tumors, paraspinal tumors, some head and neck cancers 
and some brain tumors. It is useful for many pediatric cancers. 
There are promising results published for prostate cancer and 
macular degeneration. There is active interest in treating lung 
patients with it. If widely available, it would undoubtedly be 
the treatment of choice at many additional sites.
    We learned long ago as physicians and radiation 
oncologists, we are limited in the doses we can safely deliver 
to cure patients. We are forced to accept some acute and 
chronic side effects in the hopes of better local control. Many 
patients live with acute effects during therapy. A lot of them 
have chronic side effects, such as dry mouth, outer bowel 
habits, loss of sexual function, limited respiratory reserve. A 
few patients suffer the ultimate complication, death. My wife's 
first husband, treated for Hodgkin's Disease, developed bowel 
complications, a fistula peritonitis, and death.
    A good friend, John Kiger, was cured of testicular cancer, 
but a decade later developed a radiation-induced cancer in 
field, and he died. Proton therapy minimizes the dose to 
healthy tissue and minimizes this risk.
    As a physician in Indiana, my patients have no regional 
access to this form of cancer treatment; therefore, with the 
others on this panel, I am asking you to provide $10 million to 
be matched by non-Federal funds for the conversion of the 
cyclotron facility at Indiana University into a proton therapy 
facility so that citizens in the Midwest have the same access 
to this form of cancer treatment as do individuals in South 
Africa, Japan, Europe and the east and west coasts of our great 
Nation. I also have written testimony from Dr. John Cameron, 
the director of the Indiana University Cyclotron, that I would 
like to submit concerning the concept of funding and 
organization. Thank you.
    [The information follows:]


[Page 2045--The official Committee record contains additional material here.]



    Mr. Porter. Thank you.
    Dr. Thornton. I am Dr. Allan Thornton, a candidate for 
medical directorship of the Midwest Proton Radiation Institute, 
and I appreciate the time you have given to convey our support 
for the Midwest Proton Radiation Institute.
    The MPRI is a consortium of physicians and oncologists 
really from the entire Midwest, extending from Wisconsin down 
through Kentucky and into Pennsylvania, who have banded 
together to support the conversion of a cyclotron machine on 
the Indiana University campus in Bloomington into a truly 
state-of-the-art facility to provide proton therapy.
    The most prohibitive elements in the establishment of a 
proton beam facility is the cost of the accelerator itself, and 
in the case of the MPRI, Indiana University is offering that 
accelerator to the consortium for use in the proton therapy 
treatments. This dramatically reduces the cost from an 
estimated $65 million to about $20 million. As the State of 
Indiana has been targeted for half of this need, our request is 
for an appropriation of an additional $10 million from the NCI 
to allow the conversion of the cyclotron facility to begin.
    As you will recall, the facility I am familiar with, the 
Massachusetts General Proton Therapy Facility, was initiated 
through the efforts of this very subcommittee in 1989. Language 
was included in the fiscal year 1990 Labor-HHS-Education 
appropriations bill which targeted the National Cancer 
Institute, which lauded the potential for proton beam therapy 
as a treatment option for certain tumors and vascular diseases. 
Funding was included in each of the subsequent appropriation 
bills to construct and equip the proton facility at Mass 
General Hospital, and I am pleased to announce the facility 
will open in September of this year.
    As a bit of insight into the need for this facility, we 
currently at Mass General have a 5-month delay in the treatment 
of our patients waiting for beam time, which will be reduced 
with the new facility's opening in September. However, patients 
from the Midwest are not served by this facility, and I know 
this well through my own patient referral basis.
    During my tenure at the University of Michigan and at Mass 
General Hospital, my colleagues have increased the 4-year 
control rates of paranasal sinus tumors and base-of-skull 
tumors by 30 percent with the use of proton beam therapy, and 
this has been peer reviewed in journals. My colleagues have 
performed dosimetric studies, comparative studies, on patients 
with pediatric malignancies and gynecologic malignancies, 
indicating approximately a 50-percent reduction in the normal 
tissue irradiation that is achieved with the use of proton 
therapy over conventional therapy, which should reduce 
significantly the risk of second malignancies many years later. 
This is only possible with particle beam proton therapy.
    While we appreciate the many competing priorities your 
subcommittee faces, we request the inclusion of the $10 million 
in the fiscal year 1999 Labor-HHS-Education appropriations 
measure to aid in the conversion of the accelerator on the 
Bloomington campus into a facility dedicated to the treatment 
of cancers and other afflictions with the use of proton beam 
therapy. Thank you.
    Mr. Porter. Thank you very much, Dr. Thornton.
    Dr. Small. Thank you for the opportunity to testify and 
support the Midwest Proton Radiation Institute. I am William 
Small, Jr., M.D. I am an attending physician at Northwestern 
University Medical School and assistant professor at 
Northwestern University in Chicago.
    My support for the MPRI centers on the fact of the 
establishment of this facility in close proximity to 
Northwestern would allow my patients access to this proven form 
of cancer therapy. From a practical point, it is very difficult 
to get a patient to go to Boston, even if we note the critical 
importance for their treatment, as the travel and lodging costs 
are sometimes quite prohibitive to patients.
    As Dr. Thornton indicated, MPRI is made up of a consortium 
of physicians and oncologists from throughout the Midwestern 
States. Because of this consortium approach, patients receiving 
treatment can remain under the supervision of their physicians 
in St. Louis, Chicago, Detroit, Louisville and other midwestern 
cities.
    This unique model creates a joint center, operated by 
several institutions, and offers an enormous and continuing 
increase in knowledge and expertise.
    I am also supportive because the facility will generate 
useful clinical research. Partnership agreements between the 
MPRI facility and other institutions in the region will allow 
for comparison studies between proton radiation therapy and a 
much a wider range of treatment options, and I know 
Northwestern would be very happy to participate.
    The accelerator to be used in this facility was originally 
developed through the National Science Foundation over many 
years and has concluded the studies for which it was designed. 
However, in addition to the existing equipment, the large body 
of top scientists from around the world who can enhance 
research programs at the MPRI remain on staff. Using these 
medical accelerated research experts, the MPRI will be able to 
conduct studies to create a more powerful and adaptable 
facility than is currently available in the U.S.
    This consortium approach also encourages a wider sharing of 
resources among the institutions located within the region. 
These factors, combined, will accelerate the development of 
this technology in a manner that increases the rate of 
technology transfer and affordability reduction, while at the 
same time expanding access to this treatment.
    The fact the facility could be up and running with just a 
$10 million Federal investment far short of the $60 million-
plus needed to develop a new functional facility, is a definite 
advantage. I hope you will be able to provide the $10 million 
through the NCI to make the facility a reality for those who 
are geographically isolated from the existing U.S. proton beam 
facilities. Thank you very much.
    Mr. Porter. Thank you, Dr. Small.
    Can I ask John several questions? First of all, is the 
cyclotron accelerator, once it has been converted, is it then 
to be exclusively used for this purpose, or will it continue to 
have other research applications? In other words, will it be 
devoted solely to proton therapy, So from then on it would be 
used just for that purpose?
    Secondly, let me ask: Is this therapy covered by Medicare 
and Medicaid payment and insurance; in other words, is it 
established therapy that is included within those reimbursable 
structures?
    Dr. Marvel. It has been paid for on each coast by Medicare. 
We talked with the carrier in Indiana and the plan is to 
basically bill at the same rates we would be billed for 
conventional therapy and it is our understanding it will be 
covered.
    Mr. Porter. I talked yesterday with some physicians and 
scientists about boron therapy for malignant brain tumors. Is 
there any relationship between this type of therapy and that 
type of therapy?
    Dr. Thornton. Perhaps I better answer that. Not 
particularly. The theory with boron neutron capture therapy is 
the neutrons are trapped by chemicals that are taken up by 
tumor cells within the brain, the theory being that neutrons 
will preferentially be distributed within the brain in that 
area. Protons, ounce per ounce, are no better or worse than 
conventional therapy. It is their accuracy of delivery and dose 
delivery that is crucial and it is proven in protons, in over 
35 years of work at Mass General Hospital, whereas boron 
neutron capture therapy is still very much in the developmental 
phases and we do hope it will be successful, but it is far from 
having been demonstrated as a success.
    Mr. Porter. Is there any possibility, and I understand the 
need to verify its application, but is there any possibility 
that that application to malignant brain tumors could be 
expanded in the future to other types of cancerous tumors or 
cells; in other words, is this therapy--I didn't ask them, so I 
will ask you--a possibility of a much broader application?
    Dr. Thornton. You are asking about boron. They are looking 
at that currently in the melanoma trial, looking for skin 
cancer; there are compounds that are preferentially uptaken in 
the skin, and they are looking at that in an initial phase with 
melanoma.
    Mr. Porter. If that therapy were to develop along those 
lines, would it be a possibility to replace proton radiation 
therapy, or do they do entirely different things?
    Dr. Thornton. They are really entirely different. The 
difficulty is most of the tumors that we treat with proton 
therapy are next to critical structures. When I treat patients 
with head and neck tumors, paranasal sinus tumors, I am 
treating 1 to 2 millimeters away from the visual system. We 
have very little likelihood of developing an agent, a drug, 
that will be so preferentially absorbed in one tissue and not 
in another, but one and two millimeters apart. I think the 
likelihood of BNCT, which is what we call it, effectively doing 
the same job is unlikely.
    BNCT will be used, if it is successful at all, in 
relatively global tumors, over a large area, that are very 
resistant to conventional radiation therapy. Proton therapy is 
effective for tumors that are responsive to regular radiation, 
but for whom you cannot give a high enough dose of regular 
radiation because you are next to critical structures. A 10-
percent increase makes the difference between cure and failure 
in these patients, and that is the patient population we are 
really speaking of with proton therapy.
    Mr. Porter. See, John, I get a medical education if I 
listen carefully.
    Mrs. Northup.
    Mrs. Northup. Mr. Chairman, I would like to speak on behalf 
of this and submit the testimony of Dr. Joes from the 
University of Louisville. He happened to have treated my 
daughter at the Brown Cancer Center. He was the radiation 
oncologist, and unfortunately she had conventional treatment 
and will always suffer the lung, the heart, the back-of-the-
neck damage that comes with that kind of treatment. I would 
like to speak on behalf of this and pass this testimony on to 
submit.
    Mr. Porter. Thank you, Mrs. Northup.
    One final question. I wasn't sure that I understood 
correctly. Does NCI already have money--have they already put 
money into this project?
    Mr. Hostettler. My understanding is no.
    Mr. Porter. But they have put money in the past in your 
project.
    Dr. Thornton. In the Mass General project.
    Mr. Porter. So there is a precedent for this type of 
investment through NCI?
    Mr. Hostettler. In fact, there has been significant 
investment recently in a machine from Belgium, is my 
understanding, to be placed at Mass General, and that was new 
machinery, new hardware going in place. This project, much of 
the hardware is already in place, and a significantly smaller 
investment by NCI will be necessary to make this a reality for 
the Midwest.
    Mr. Porter. John, thank you very much. Let me thank each of 
the physicians that have appeared here today, and as I say, I 
have learned a great deal and we will do our best to be 
responsive.
                              ----------                              

                                          Thursday, April 30, 1998.

                                WITNESS

HON. JAMES E. CLYBURN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    SOUTH CAROLINA
    Mr. Porter. Next is Congressman James E. Clyburn of South 
Carolina, who will testify on several projects of interest.
    Mr. Clyburn. Thank you, Mr. Chairman. Mr. Chairman, I 
appreciate the opportunity to appear before you today on behalf 
of a project which is of vital importance not only to the Sixth 
District of South Carolina but the entire State.
    I am here to ask you to consider an appropriation of 
$358,000 for a research initiative for child and family studies 
at University of South Carolina's College of Social Work.
    The center is the State's premiere research and training 
unit in family dynamics. The research initiative the center 
seeks to develop will increase knowledge of intrafamily 
violence, lead to more effective treatment and prevention of 
violence, and increase faculty capacity for further research.
    This research will focus on the following three types of 
intrafamily violence: child abuse, spouse abuse, and elder 
abuse. The objective of the research will be to study violence 
in the family over the lifespan, with an ultimate goal of 
developing appropriate treatment methodologies to address these 
forms of intrafamily violence; thereby, this treatment will 
allow us to respond to this societal ill in a more cost-
effective manner.
    Mr. Chairman, in my written request to you, I submitted 
more detailed information on this proposal, which I instructed 
the university to prepare and I would refer your staff to that 
package. If you need additional information beyond that, I 
would be happy to provide it to the subcommittee.
    Mr. Chairman, I would be personally grateful for any 
consideration you may extend to this worthwhile and dynamic 
initiative.
    [The prepared statement of Congressman James E. Clyburn 
follows:]


[Page 2051--The official Committee record contains additional material here.]



    Mr. Porter. Well, thank you. That is the project that you 
are interested in testifying on behalf of today?
    Mr. Clyburn. Yes.
    Mr. Porter. We have several here. This is the one you are 
focusing on?
    Mr. Clyburn. Yes, sir.
    Mr. Porter. Thank you, Congressman Clyburn. We will do our 
best, as I say, to respond; and this is obviously a very 
important area.
    Mr. Clyburn. Thank you very much, Mr. Chairman.
    Mr. Porter. Thank you.
                              ----------                              

                                          Thursday, April 30, 1998.

                                WITNESS

HON. BILLY TAUZIN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    LOUISIANA
    Mr. Porter. Next we are pleased to welcome our colleague 
from Louisiana, Congressman Billy Tauzin, Chairman of the 
Telecommunications Subcommittee of Commerce. And Billy, it is 
good to see you.
    Mr. Tauzin. Mr. Chairman, I noticed the chairs here have 
ashtrays on the back of them. I thought that was rather 
strange.
    Mr. Porter. That is strange. I didn't know that.
    Mr. Tauzin. In the Commerce Committee, we are struggling 
with the tobacco issues ourselves.
    I wanted to thank you for allowing me to come today. I am 
accompanied today by my office manager and her husband who have 
particular interest in my comments to you today, because their 
son has recently been diagnosed with Friedreich's ataxia. 
Recently, as you know, Dr. Varmus appeared before this Congress 
and testified and used Friedreich's ataxia to make his points 
about NIH funding. He used Friedreich's ataxia as his focal 
point because, in fact, this is a genetic disorder that is 
going to leave this young boy incapacitated. By the time he 
hits his twenties, he will be in a wheelchair, all his muscle 
functions are eroding, and it is genetic. It is a genetic 
disease that affects Cajuns at 2\1/2\ times the national rate, 
and it is because of this particular feature of the people I 
represent, for whom I come, the Cajun population of Louisiana, 
that I appeal to you today.
    We are really in a unique position with the unique Cajun 
population, which is still very closely organized and 
associated in South Louisiana. The oil and gas industry allowed 
them to sort of live together for many, many family generations 
and not to have to move to seek employment or locate somewhere 
else, and the particular community is one that is ideal for 
genetic studies.
    There are a number of diseases in the Cajun population--
cancer, diabetes, heart disease, as well as Usher syndrome and 
Friedreich's ataxia. Many diseases affect our population at 
2\1/2\ times the national rate, and these genetic connections 
are what Dr. Varmus talked about.
    In that regard, I would like to bring to your attention 
again this unique scientific opportunity in terms of examining 
genetic diseases in the context of studying through the history 
of these families inside Louisiana the connection between these 
diseases and genetics and the gene pool.
    In that regard, I am here, along with five members of the 
Louisiana delegation, to petition you for money for the LSU 
Medical Center in New Orleans, $6 million in 1999, and then $3 
million per year for the following 3 years, for the 
establishment of the Acadiana Medical Center to indeed assist 
NIH and the whole medical community in the identification of 
the genetic connection to the diseases.
    LSU Medical Center is committed to the goals of the center. 
They are going to provide the space and a million and a half a 
year in support of it. It is again an extraordinary opportunity 
to find answers to these genetic problems, not only answers as 
to how they arise, but how to deal with them; and perhaps even, 
before this young man is totally incapacitated, perhaps some 
cure.
    Recently in Washington, you recall, members of the general 
disorder community, families who are suffering Friedreich's 
disorders and others, were here in Washington, and we saw 
firsthand what an awful impact it has on so many families in 
our country.
    This center in New Orleans is indeed exactly what Dr. 
Varmus talked about when he came and testified, when he talked 
about the need to broadly identify the impact of genetic 
disorders in our society, and it could lead to important work 
across America in the discovery, the diagnoses, the treatment, 
and eventually the cure of many of these diseases.
    I also wanted to put in a good word for the community 
health centers and funding, Mr. Chairman. I am strongly in 
support of your efforts to increase funding for the 
Consolidated Health Centers Program by $100 million each year, 
bringing the total to $926 million.
    I represent rural America along the bayous in Louisiana. 
There are places I represent, sir, that you can't get to from 
here; you have to go somewhere else before you can get there. 
Most of my communities are along bayous that sort of stretch 
out like fingers of a hand, and you can't get from here to 
there without going back up the bayou and going down the bayou. 
It is very difficult to reach many of these Cajun populations 
on the edges of bayous and swamps and marshes in south 
Louisiana, and the community health centers provide incredibly 
important medical assistance to those families. Health care 
prevention--disease prevention, rather, and those sorts of 
things are coming to the bayou communities because of community 
health centers.
    Use of emergency rooms are way down. Federal funds to the 
centers in fact, in several of the centers, is decreasing each 
year because of the success of the center movement. And I would 
just encourage you, to the extent you can, to assist in 
encouraging the establishment and success of the centers across 
rural America. In the bayous, they are literally essential to 
good health care practices for our citizens.
    [The prepared statement of Congressman Billy Tauzin 
follows:]


[Pages 2054 - 2057--The official Committee record contains additional material here.]



    Mr. Porter. When you were talking about the bayous, I was 
thinking how vast this country is and how different it is, and 
each of us have to understand that the needs of our 
constituents may be different than the needs of each other, and 
be prepared to respond to that.
    Can I ask one question about the Friedreich's ataxia, and 
that is has the gene been identified yet? It has been.
    Mr. Tauzin. About 2 years ago.
    Mr. Porter. And is there followup work being done to see 
what can be done to change that so that the disease can be 
avoided?
    Mr. Tauzin. In fact, Dr. Varmus testified that in some 
very--I mean, work that was not even connected to this, they 
discovered valuable information. The protein has been 
identified that is lacking in the genes. They were doing some 
other research. It was with yeast. They were doing yeast 
research, and Dr. Varmus--this was the whole center of his 
testimony before Congress when he came. What they found in the 
yeast research was yielding incredibly valuable information 
with reference to the protein that was identified, that was 
connected to what is missing in the cells because of the defect 
in the genes. And so they are beginning to make the links.
    I guess what I am trying to tell you is when you have a 
population like that, that is closely associated, 2\1/2\ times 
the national average in all these diseases, you have a unique 
laboratory to find out what the links are all about and how to 
cure them.
    Mr. Porter. It is also fascinating, the serendipitous 
nature of research and how people look for one thing and find 
something they weren't looking for at all.
    Mr. Tauzin. So there is hope. I mean, here is a young 
family. Rachel has served me in Louisiana, has come to 
Washington to serve our office here, and she is my oldest in 
seniority employee going way, way back, and she is much younger 
than her years with me would tell. But the bottom line is she 
married here in Washington, only to find out this fellow she 
married had Cajun genes, and one of their children is diagnosed 
with this genetic disorder. And we learned through her about 
it. We learned how Cajuns all over my district were suffering 
at abnormally high rates in this disorder and other disorders.
    So this young family's experience, as they watch their son 
lose his bodily functions--he can no longer ride a bike and has 
great difficulty riding--they are watching him deteriorate. It 
is something our office is--all of us are experiencing together 
with them, and it has brought to us in a very personal way how 
urgent the need for this research to advance is.
    It is possible, Mr. Chairman, if we do this right, if we 
find these connections, it is possible we can reverse this and 
have this young man lead a normal life instead of seeing him 
continually wither away. I can't tell you in a personal way any 
more than that, we are all experiencing the suffering of this 
child and the suffering of this family and, through them, the 
suffering of so many other Cajun families and Americans. And 
here is a potential way of reaching a solution for them and I 
don't want to pass it up.
    Mr. Porter. We will do our best to respond to you. I feel 
very strongly that, as resources become available, we really 
want to increase funding for biomedical research. There are so 
many areas like this one where we are on the edge of making the 
discovery that really will make a difference in terms of the 
effect on others, and we will do our best to respond.
    Mr. Tauzin. You have been very kind. Thank you, sir.
    Mr. Porter. Thank you.
                              ----------                              

                                          Thursday, April 30, 1998.

                                WITNESS

HON. RICK LAZIO, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    YORK, THE NATIONAL SERVICE CORPS, AIDS DRUGS ASSISTANCE PROGRAM, 
    RYAN WHITE CARE ACT, AND HIV/AIDS RESEARCH
    Mr. Porter. Next we are pleased to welcome Congressman Rick 
Lazio of New York to testify on the National Service Corps, 
AIDS Drug Assistance Program, Ryan White Care Act, and HIV/AIDS 
research.
    Your timing was impeccable. We were just about to go to the 
next witness.
    Mr. Lazio. Thank you, Mr. Chairman.
    I appreciate very much the opportunity to testify before 
the committee, and I want to begin by complimenting you for the 
fine work you have done in some difficult circumstances over 
the last few years as you manage what I think is one of the 
more important portfolios in the appropriations 602(b)'s.
    As you mentioned, Mr. Chairman, I am here to just ask for 
your continued assistance. You have been a strong supporter of 
virtually all these programs as we move toward the cycle, and I 
know we don't know exactly what we are going to be dealing with 
until we have the budget adopted, but there are certain 
programs that I think have been remarkably successful and 
deserve the committee's full support.
    Let me list, first of all, in no particular order, frankly, 
but let me acknowledge that the National Senior Service Corps, 
which is responsible as the umbrella organization for many 
different programs, particularly the foster grandparent 
program, which has been leveraging volunteerism--and if you 
have had the opportunities I have, to go into a classroom to 
see a foster grandma or grandpa connect with these kids, they 
provide assistance and allow the teachers to focus on some 
special needs that they have in the classroom. It gives 
incredible meaning to the seniors. I have had more seniors come 
to me and say, ``It gives me a reason to get up in the morning, 
I feel loved and important.'' It provides incredible, I think, 
leverage to our educational opportunities, over 119 million 
hours of service to our communities, and it is estimated about 
1.5 billion dollars is saved through the use of this 
volunteerism. It is also expected new funding will generate 
14,000 new volunteers, with about 3.5 million hours of work.
    Let me also ask if you would continue to provide your 
support and your leadership, which you have in the past, for 
cancer research to the National Cancer Institute, certainly our 
premier global institutions in terms of research. I know 
without your leadership, we would not be in a position where we 
are today, where we are on the verge of numerous breakthroughs.
    I want to just touch on a few that I know that you have 
been incredibly supportive of: the human genome project and the 
gene therapies that really hold extraordinary promise in terms 
of our ability to find what has been described as a repair 
manual for the human condition.
    On Long Island, we have an extraordinarily high instance in 
mortality rate of breast cancer, so we are very focused on this 
issue. This is a national problem, it transcends breast cancer 
to ovarian cancer, prostate cancer, lung cancer, which 
continues to be the number one killer, and the progress being 
made through NCI deserves our continued support.
    The next program, which I would ask for the committee's 
support would be through the ADAP program, the AIDS Drug 
Assistance Program. One of the frustrations, as we move toward 
these cocktails of medication, these integrated therapies that 
are showing extraordinary promise for people who are living 
with the HIV and AIDS, is that the cost of the program often is 
a very significant barrier to treatments. So some people know 
it is there, that they can benefit from it, it can save or 
prolong their life, and yet they can't quite afford to do that.
    Many States have stepped forward, New York is one of those 
that I think has been cooperative on this, and I would ask the 
committee to continue to support this program. Through this 
program, we establish a network of providers for treatment, and 
especially important are the new protease inhibitor drugs which 
are widely credited with reducing the AIDS mortality rate.
    Last year we had about a $21 million shortfall. Last year 
about 26 States implemented emergency measures due to financial 
shortfalls. Ten States are closed to new enrollment and two 
States remain without protease inhibitor coverage. So there is 
some very extreme need in the case of some of these areas, some 
of these States.
    The next program that I ask the Chairman's support and the 
committee's support on is an FDA hotline. Last year, as part of 
the FDA reform bill, I was able to have a bill that I had 
filed, an amendment adopted, which would create a one-stop 
information hotline over at NIH to provide the public with the 
latest information about scientific research efforts designed 
to combat all life-threatening illnesses. It would provide a 
human contact for people who are interested in clinical trials, 
not just publicly financed, but privately financed clinical 
trials, to give them information how they could participate, 
what is going on, and what hope is out there. I will be 
forwarding to the subcommittee a strategic plan with specific 
funding requests in the coming days to try and help with that.
    And, finally--I am trying to move through this quickly and 
trying to be sensitive to your time--Job Corps, which has in 
the past enjoyed the Chairman's support and the committee's 
support, has enabled more than 69,000 economically 
disadvantaged young people to receive education, vocational 
training, social skills training, and job placement assistance. 
About 80 percent of its graduates are placed. It is, I think, a 
very fine alternative to what might otherwise be the 
alternative in the streets.
    I would say just briefly, in visiting Job Corps centers--
and I don't have the advantage of having one yet in my 
district, but I will say that one in the south Bronx is really 
doing some fantastic work--I have spoken to some of the young 
people there who never knew how to open a checking account, do 
a job interview, interact with a boss, resolve conflicts with 
colleagues, the things many young people take for granted but 
because of their upbringing and the communities in which they 
are raised, they don't have that.
    One young woman said, ``The only time I go home anymore is 
to go to a funeral for one of my friends,'' and that is not the 
environment we want for our young people to be part of a global 
work force.
    So I ask for your continued support for these programs. I 
think they are extraordinarily important. I know you have shown 
leadership on these in the past, I salute you for that and I 
ask for your sustained support of these programs.
    [The prepared statement of Congressman Rick Lazio follows:]


[Pages 2062 - 2066--The official Committee record contains additional material here.]



    Mr. Porter. Rick, thank you very much for your testimony, 
and we will do the best we can within our allocation. I talked 
to John Kasich yesterday about a budget resolution, and he 
tells me it is still a long way off. So while we are going to 
complete our hearings next week, we may have to wait quite a 
while before we can mark up.
    Mr. Lazio. You can count on my support, Mr. Chairman, to 
ensure your allocation is properly protected.
    Mr. Porter. Thanks, Rick.
                              ----------                              --
--------

                                          Thursday, April 30, 1998.

                                WITNESS

HON. ROBERT A. WEYGAND, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    RHODE ISLAND
    Mr. Porter. Let me tell members that we are proceeding in 
order of the time slots assigned to members, and if a member 
does not arrive or is not available when they are called, then 
they have to go to the end of the list. So we will proceed as 
we have been on our list.
    Congressman Robert Weygand of Rhode Island, who has been 
very patient here.
    Mr. Weygand. Thank you very much, Mr. Chairman. I want to 
thank you for the opportunity to testify again before you. I 
have submitted testimony in greater detail for the staff and 
committee's review. I would just like to highlight a couple 
points, because I know your time is of the essence and I know a 
couple of my colleagues here would really like to testify as 
well.
    I would like to first start off talking about an issue, not 
just in the State of Rhode Island but all throughout the 
country. Telemarketing fraud, you have heard and I know the 
committee members have heard, costs consumers tremendous 
amounts of money every year. Approximately $40 to $50 billion 
every year, the FBI indicates, is a result of telemarketing 
fraud and scams throughout the country. Over 50 percent of 
those people that are scammed are over the age of 55, which 
means approximately $15 to $20 billion every year.
    There are stories, horrendous stories, that I could tell 
you about from Texas to California to Rhode Island; but just a 
couple. Just last year, a man in Florida was put in jail for a 
scam that robbed elderly citizens in eight States throughout 
the South of over $1 million, elderly citizens. A 74-year-old 
woman in Texas recently lost $74,000 to phony telemarketers; as 
well as in Rhode Island a little while ago, a prisoner, while 
in prison serving time, scammed elderly residents in six other 
States of $95,000.
    We have some very good laws with regard to, once we catch 
the people, putting them in jail. The problem we have is trying 
to alert elders in terms of an education and awareness program 
on how to prevent telemarketing fraud. We have been working 
with the Office on Aging within HHS to create a bill, 3134, 
which I think we have around 50 or so cosponsors on it right 
now. What this would do would be providing $10 million--and 
that is why I am asking you for this support, Mr. Chairman--in 
the bill, $10 million to the Department for purposes of 
conducting extensive outreach programs to senior citizens 
across the country, to educate them about the dangers and also 
some of the techniques and tricks that they can use to prevent 
scamming.
    And when it is costing us, our taxpayers, billions of 
dollars, to invest $10 million throughout the country is really 
a very, very small amount, although it is substantial with a 
very, very tight budget, but it will bode well for this 
Congress to show to the public that we really want toprevent 
these. Catching them afterwards is fine, but when elders give out all 
of their money--and many times it is their life savings on some of 
these scams--hoping they are going to be able to have a very good final 
few years of their life, and they lose it all, we need to educate them 
about telemarketing scams. We hope you will support the provision that 
will provide for another $10 million within the Office of the 
Administration on Aging.
    Another area, very important, I was very happy to hear my 
friend and colleague from Long Island talk about is Job Corps. 
Forty-six of the States have Job Corps centers. We are 
requesting that you fully fund the administration's request on 
Job Corps.
    Rhode Island is one of only four States that does not have 
a Job Corps center. We are now under application to the 
Department of Labor for one. But for all the reasons Rick Lazio 
mentioned, it is an important program to get our youth into; 
first of all, knowing how to go to work in the morning; 
secondly, giving them the kind of skills they need to be able 
to become a productive part of society. Job Corps centers 
really do that in many different ways. By fully funding the 
administration's request, we as well as three other States will 
be able to have Job Corps centers that will truly help many 
intercity youth in ways many of the programs that are out there 
could not.
    The last program I would like to leave you with is home 
delivery meals. My wife and my children and I have worked many 
years with Meals on Wheels and many of the other meals 
programs. Most of these are staffed by volunteers, RSVP 
programs, and a host of others. We find that there are waiting 
lists on nearly 41 percent of all of our meal sites throughout 
the country, waiting lists for seniors who really do need 
nutrition programs.
    This is really important for a lot of reasons. First of 
all, having reasonable nutrition programs is good for the 
seniors, but many of these programs are the first warning signs 
of what may be going wrong in a home or with some of our 
seniors. They help us prevent people going into a nursing home 
by alerting to some of the health care centers and other people 
what is going wrong with our seniors, and so therefore, they 
help them with home care and less expensive means than putting 
them into nursing homes.
    The second thing many of the meal sites do is provide an 
emotional and cultural and social support for seniors that in 
many cases they don't have. They do not have sometimes the 
family support, and they rely upon the sites not only for 
nutrition, but for social interaction and emotional support. It 
is a wonderful, wonderful program that yields us many dividends 
in terms of other things we as taxpayers don't have to pay for 
by having these problems.
    So I ask you on that program, Mr. Chairman, to fully fund 
that as well, and sincerely appreciate your time for allowing 
me to testify here today.
    Mr. Porter. These are all important priorities. You said 
there is authorizing legislation introduced on telemarketing 
fraud?
    Mr. Weygand. Yes, it is called the PASS Act, Protection 
Against Senior Scams. But we have not moved very far on the 
authorization, Mr. Chairman; that is why it would be so 
important to have it within this piece of legislation. And 
quite frankly, I am not so sure it will move alone by itself.
    Mr. Porter. We can't put authorizing language in without 
the authorizers telling us we should.
    Mr. Weygand. But the authorizing bill may exist within the 
Administration on Aging. They may be able to do it if they have 
the additional money without authorization language; that is 
what our hope is. If there is money in there to allow them to 
do it, they think we could be able to--if we don't get the 
authorizing language, and we hope we will, they believe we may 
be able to do it even with the additional money. We have been 
working closely with the Administration on Aging on it.
    Mr. Porter. Why don't you have the administration send us a 
letter telling us under what authority they could act if that 
is the case? That would help us.
    Mr. Weygand. I will be happy to do that, Mr. Chairman. 
Thank you very much.
    Mr. Porter. Thank you very much.
    [The prepared statement of Congressman Bob Weygand 
follows:]


[Pages 2070 - 2075--The official Committee record contains additional material here.]



                                          Thursday, April 30, 1998.

                                WITNESS

HON. J.D. HAYWORTH, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ARIZONA
    Mr. Porter. Next our colleague from Arizona, Congressman 
J.D. Hayworth. You have been very, very patient.
    Mr. Hayworth. Mr. Chairman, I thank you very much, and I 
would also like to point out the patients of some of my very 
important constituents who join us today; not to violate any 
protocol, but I think we should recognize some exceptional 
young people who are here under the Close Up program from both 
the Loop and Rough Rock community schools of the Navaho 
nations. Would you stand up to be recognized today? I love to 
show off my constituents who are here.
    Mr. Porter. We are delighted to have them and we welcome 
each one of them.
    Mr. Hayworth. Thank you, students, and thank you, Mr. 
Chairman. I hope it wasn't too great a violation of protocol, 
but they are very important, and I think for purposes of my 
testimony today, they put a very human face on a very real 
need.
    I am pleased to have this opportunity to testify today, Mr. 
Chairman, on two very important programs to the people of the 
Sixth District of Arizona: impact aid and community health 
centers.
    Mr. Chairman, on behalf of all the members of the Impact 
Aid Coalition, I want to thank you for your continued support 
for the Impact Aid Program and for helping us secure $808 
million for fiscal year 1998.
    As you know, the coalition recently sent you a letter in 
support of $887 million in funding for the Impact Aid Program 
for fiscal year 1999, and I hope you will help us secure that 
amount. Later today, members of the coalition will testify on 
the importance of the Impact Aid Program, and instead of 
rehashing their testimony, I would like to focus my remarks, as 
I did last year, on section 8007, the school construction 
portion of Impact Aid.
    Mr. Chairman, as you know, my district is unique because it 
has the largest Native American population in the 48 contiguous 
States. The Navaho nation, from which my special guests come 
today, stretches across four States and is roughly the size of 
West Virginia, and is one of the largest and most economically 
challenged of the sovereign Indian nations, with staggering 
unemployment rates which can run as high as 50 percent, 
depending on the season. Education is the only way for the 
students here with us today and so many others on the 
reservation to escape a life of poverty.
    The other 7 tribes, I represent, in my sprawling district 
face similar hardships and depend on impact aid to help educate 
their youth.
    Mr. Chairman, part of our treaty obligations to the Indian 
tribes includes educating these children. Without impact aid, 
the Federal Government cannot live up to its treaty 
obligations. I support the coalition's goal of securing at 
least $887 million for this important program. While that money 
will help educate impacted children in my district, I think we 
all can establish the fact that they need to learn in a safe 
and healthy environment.
    Many school buildings on the Navaho nation and on other 
Indian reservations are cracking, leaking, and, simply stated, 
falling apart. They are in decrepit conditions, and frankly, 
most of these buildings should be condemned. Nevertheless, 
students must be educated even if their schools are sadly in 
substandard conditions.
    I recently examined five school districts--Chinle, Red 
Mesa, Sacaton, Pinon, and Window--to determine what their 
school construction needs are. And, Mr. Chairman, I am glad you 
are sitting down. The total need was an incredible $179 
million. And, Mr. Chairman, sadly, some of the problems include 
the use of so-called temporary buildings for the last 30 years. 
It is simply unacceptable.
    The coalition is asking for an increase from $7 million to 
16 million in section 8007 funds. This increase will help 
alleviate some concerns, but the reality is this program hasn't 
received increases in the past, and sadly, it will hardly make 
a dent in the sad state of federally impacted schools in my 
district and across the United States.
    Now, ladies and gentlemen, for the record, I note the 
average school in the U.S. costs nearly $6 million to 
build.With the coalition's request for 16 million, we would only be 
able to build the equivalent of three schools each year. There is 
certainly a need for more than three schools a year in my district 
alone. Section 8007 must be increased substantially if we are to 
effectively educate our children on Federal lands in a safe and healthy 
environment.
    I respectfully request this subcommittee fund Section 8008 
and Section 8007 of Impact Aid at a minimum of $25 million for 
fiscal year 1999. With this increase, we could start to repair, 
renovate, and build new schools that are badly needed in my 
district and across the country.
    On another issue, Chairman Porter, I am pleased to testify 
before you in support of an increase of 100 million for a model 
program that is the epitome of what a government program should 
be: the Consolidated Health Centers Program. I come before you 
today on behalf of the citizens of the Sixth District to thank 
this committee for past investments made in the program.
    Over the last 2 years, you have provided health centers 
with $68 million in funding increases. As a result of your wise 
generosity, three new health centers were fully funded and 
constructed in my district. Thanks to the consistent 
investments made by this committee, Arizona has 11 health 
centers serving 150,000 people. And for my medically indigent 
constituents, this means no longer having to drive significant 
distances to receive affordable medical attention that quite 
often has literally made the difference between life and death.
    In addition, each community health center serves as a prime 
example of how a Federal program should work in three important 
ways: cost-effectiveness, local control, and quality.
    First of all, when it comes to cost-effectiveness, health 
centers primarily serve minority and low-income populations; 
but for less than 76 cents per patient per day, health centers 
provide preventive service to uninsured and underinsured, even 
in the face of language and cultural barriers.
    Second, local control. The Federal Government has provided 
seed money to empower communities to establish their own local 
boards to govern these health centers, thus linking the 
community to patients and local citizens who in turn have a 
real voice in the works of the center.
    And, third and certainly not least in this, quality. Mr. 
Chairman, studies show that Medicaid beneficiaries who are 
regular patients of health centers have fewer chronic diseases, 
use the emergency room less, have fewer costly complications of 
diseases and ailments, and have fewer hospital admissions than 
those Medicaid patients who are not regular users of health 
centers. However, without significant increases in grant 
funding, the utilization of community health centers has the 
potential of overwhelming the ability of health centers to 
provide quality care.
    As Dr. Marilyn Gaston, director of the Bureau of Primary 
Care, pointed out to this committee, 5 percent of health 
centers are bankrupt and between 5 and 10 percent more soon 
will be, due to fiscal constraints. Health resources and 
services administrator, Dr. Claude Earl Fox, indicated that it 
is his professional judgment that health centers need a $200 
million increase in fiscal year 1999 to meet the demands.
    Mr. Chairman, simply stated, you face a daunting challenge, 
and that is perhaps the understatement of this legislative 
session. But on behalf of my constituents, I would like to once 
again thank you for allowing me this opportunity and honor to 
highlight the importance of providing this program with an 
increase of $100 million for fiscal year 1999, for you 
responding to the challenges of Impact Aid, and again for you 
so graciously and warmly welcoming my constituents to today's 
testimony.
    [The prepared statement of Congressman J.D. Hayworth 
follows:]


[Pages 2079 - 2082--The official Committee record contains additional material here.]



    Mr. Porter. J.D., thank you very much for your testimony. I 
have been slowing us down by commenting on everybody's 
testimony. I will have to keep quiet for a while and just 
listen. Thank you. We will do our very best.
    Mr. Hayworth. Thank you, Mr. Chairman.
                              ----------                              

                                          Thursday, April 30, 1998.

                                WITNESS

HON. ELIZABETH FURSE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    OREGON
    Mr. Porter. Congresswoman Elizabeth Furse of Oregon to 
testify on the subject of education.
    Elizabeth, nice to see you.
    Ms. Furse. Nice to see you, Mr. Chairman. Thank you. I am 
going to try to rush through this. I know we have a vote.
    Every year, I have come before your committee to support 
education and ask for your support, so there are a number of 
programs I am just going to touch on that I am very, very 
supportive of. Federal funding for Head Start. We just recently 
received notice that the State of Oregon was going to give 
additional funding for Head Start because of the Federal help 
that they had received, so that matchup is so important.
    School construction initiatives, of course, I am very, very 
supportive of. We have seen some problems with a real danger in 
our schools. I would request that the committee fund civic 
education. There is a Senate level of $7 million, and this 
would be very helpful for programs such as We the People. That 
is a program that really teaches kids civic values and it has 
been one we have had in Oregon a lot of experience with.
    TRIO, Mr. Chairman. I always come and talk about TRIO. In 
Oregon, our successes are very, very impressive. We had over 
3,800 students engaged in TRIO. TRIO not only exposes kids to 
college, it gives them some special skills and some help where 
they need a little extra help.
    The President's request is $583 million and if that is 
possible, Mr. Chairman, we would love to see that. Just 
unfortunate about Upward Bound is that so many kids qualify and 
so few can actually use it. In one program alone, 500 children 
qualified; there were only 55 slots, so it would have been 
great for them.
    Job Corps. I am very supportive of Job Corps. We have a Job 
Corps center in Astoria, Oregon, and over 80 percent of their 
graduates receive jobs, go to the military, or advance in 
education.
    We have a number of financial aid issues which obviously 
are so important for students going to college. A Pell grant--I 
would like to urge the committee to increase the Pell grant to 
3,100, although I would love to see it go to the authorized 
level of 4,500. That would be great.
    State-issued incentive grants. We use those in Oregon 
tremendously. We have a lot of students who are involved in 
that. Portland State University is requesting $750,000 in 
special purpose funding.
    Obviously we use a lot of these urban community service 
grants. They have made a great improvement in the lives of 
young people and I hope that the $10 million will be included.
    Now, Mr. Chairman, I would like to focus on one program. As 
you know, I support you tremendously in trying to increase 
medical research funding, especially in diabetes, but in order 
to complete the picture for medical health improvement, we need 
to invest in infrastructure. The health facilities program of 
the HRSA Administration is the avenue for your committee.
    We have a program in Oregon, the Oregon Health Sciences 
Program, that has managed to pull together about $30 million in 
donated services, in donated land. It is going to be a 
wonderful program. It is a women's health program and it will 
be the full continuum, both research and care; a Federal 
investment of just $3 million. A one-time investment will help 
us complete this whole picture. Thirty million will come from 
our community. And it is an ideal model of HRSA funds. It is a 
private-public partnership, and I would like to have your 
attention to that.
    Those are just a few of the issues, Mr. Chairman. I don't 
want to take more of your time. I will submit a full statement, 
but again I want to thank you for all you have done in the past 
for the First Congressional District of Oregon. We are deeply 
grateful.
    [The prepared statement of Congresswoman Elizabeth Furse 
follows:]


[Pages 2085 - 2088--The official Committee record contains additional material here.]



    Mr. Porter. Thank you, Congresswoman Furse. Elizabeth, you 
covered a lot of ground there. They are all important 
priorities, very definitely.
    We do have a vote on. We have Congressman Cliff Stearns 
next; then Congressman Davis; then Congresswoman Slaughter; 
then Congresswoman Thurman.
                              ----------                              --
--------

                                          Thursday, April 30, 1998.

                                WITNESS

HON. CLIFF STEARNS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    FLORIDA
    Mr. Porter.  Cliff, good to see you. Please proceed.
    Mr. Stearns. Thank you, Chairman Porter. I am pleased to be 
here and want to thank you for allowing us.
    I come here, quite simply, to ask for increased funding for 
the NIH budget. I think when we look politically across the 
spectrum, you say either you are a fiscal conservative or you 
believe in more Federal spending, but I think the longer you 
are here in Congress, you start to realize that depending upon 
the issue in your congressional district is perhaps more 
important than anything because you are trying to represent 
those people.
    I just am here to say that I think we need an additional 7 
percent a year increase for the NIH. When you look at the 
overall NIH budget compared to foreign aid, they are almost 
comparable in size, and I think the NIH budget should be a lot 
higher, and I can't understand why we continue to fund NIH at, 
I think, a very tepid pace. I am suggesting, as well as our 
Senator from Florida, Connie Mack, to increase NIH funding. I 
hope, having said all that, you will realize the enormous 
implications that the NIH funding would have for Americans, 
particularly for senior citizens, Florida, who are coming into 
the Medicare program, and in the area of the genomics, which is 
one of the most exciting and promising developments in 
molecular medicine. Once a map of the human genes is made 
available within the next few years, we will be able to make 
comparisons with our own genetic, unique genetic blueprint.
    Mr. Chairman, this will herald in a new era of computer 
collaboration with molecular medicine to develop a DNA chip, 
transferring the functions of the human genome to a computer 
chip to be run for comparison for diagnostic and treatment 
purposes against our own genetic map. The NIH is funding the 
genome center.
    I have a bill dealing with genetic privacy. I am chairman 
of the Genetic Privacy and Health Records Task Force of the 
Commerce Committee, and I can't tell you, after having been to 
NIH, how important it is for you to consider increasing funding 
for the NIH, and I think perhaps my brevity will make the 
point. Thank you, Mr. Chairman.
    Mr. Porter. Cliff, I can't agree with you more. I think you 
are exactly on point, and we are going to do the best we can to 
do exactly what you and Senator Mack want us to do.
    [The prepared statement of Congressman Cliff Stearns 
follows:]


[Pages 2090 - 2092--The official Committee record contains additional material here.]



    Mr. Porter. Off the record for a moment.
    [Discussion off the record.]
    Mr. Porter. The subcommittee will stand in recess.
    [Recess.]
                              ----------                              --
--------

                                           Thursday, April 30, 1998

                                WITNESS

HON. DANNY K. DAVIS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ILLINOIS
    Mr. Porter. The subcommittee will come to order.
    We continue our hearings with Members of Congress and are 
pleased to welcome our colleague from Chicago, Representative 
Danny Davis, to testify on federally qualified health centers.
    Mr. Davis. Thank you very much, Mr. Chairman.
    Let me thank you for the opportunity to be here this 
morning. I certainly want to thank you and the committee for 
the support that you have given to the programs that I am going 
to touch on over the years.
    I am here this morning to ask that we increase the funding 
for our community health centers by at least $100 million, and 
I do so not only on the basis of the research and statistics, 
but also on the basis of my personal experiences with community 
health centers, with which I have been associated for more than 
30 years now. As a matter of fact, I had the good fortune to 
work in one, become the member of a board, and ultimately to 
become president of the National Association of Community 
Health Centers. So, I have traveled around the country and I 
have seen them extensively, and I have seen what they bring to 
especially underserved communities and what they bring to poor, 
rural, migrant, urban, inner-city communities all over the 
country. They have proven themselves to be the very best that 
we have seen in terms of the ability to deliver quality health 
care to large numbers of poor people. All of the indicators 
suggest that, all of the statistics suggest it, and what we 
need in order to keep them viable and keep them moving is, in 
fact, an increase.
    I was pleased to hear the testimony of my colleague from 
Arizona, who just testified a few minutes ago about the need 
for the centers in areas that he represents. So we would hope 
that we could get at least 100 million additional dollars that 
would ultimately save at least $1.2 billion, according to all 
of the estimates that we have, because now we are going to 
catch people at the early stages of their illnesses, we are 
going to do prevention, we are going to keep them out of the 
hospital, and we are also going to revitalize and redevelop 
these communities, because community health centers are 
economic tools that are used in many instances to help 
redevelop communities that otherwise would lie stagnant. So we 
appreciate the opportunity to convey and share this information 
and this position.
    I would also urge that we increase funding for the TRIO 
programs, for the Pell Grant programs, and for medical 
research. I was pleased to be at an affair not very long ago 
for the opening of a new research center at the Rush 
Presbyterian St. Luke's Hospital. When they talked about 
support they had received, they mentioned you most prominently 
and indicated that I somehow or another was being thrown into 
that same category, although being a new Member of Congress. 
So, I am very pleased to join with you in supporting these very 
worthwhile ventures, and I appreciate the opportunity to 
testify this morning.
    Mr. Porter. Danny, thank you.
    [The prepared statement of Congressman Danny K. Davis 
follows:]


[Pages 2095 - 2098--The official Committee record contains additional material here.]



    Mr. Porter. I was at a community health center in the city, 
and I think it probably was in your district on Erie, just west 
of the Loop, and they were doing wonderful things. They were 
doing outreach through volunteers and bringing people in who 
wouldn't otherwise be served, and the level of quality care 
that they were providing was just wonderful. So I am very 
impressed with what community health centers are doing, and we 
want to obviously continue to give them the kind of support you 
are suggesting.
    Mr. Davis. Thank you very much. That was the Erie Family 
Center, and they are indeed doing well. Thank you.
                              ----------                              --
--------

                                          Thursday, April 30, 1998.

                                WITNESS

HON. LOUISE McINTOSH SLAUGHTER, A REPRESENTATIVE IN CONGRESS FROM THE 
    STATE OF NEW YORK
    Mr. Porter. Next is Congresswoman Louise Slaughter of New 
York.
    Ms. Slaughter. Thank you.
    Mr. Porter. Who returned just in time.
    Ms. Slaughter. In the nick of time. I have disappointed 
several of my colleagues with my timing, Mr. Chairman.
    I appreciate this opportunity to testify before you again. 
Before I say anything, I want to say to you how grateful I am 
to you for your work as an outspoken advocate for the most 
vulnerable in this society, and the work you have done for 
homeless, the elderly and low-income families is very 
important. You have also been a very good friend for those of 
us who are trying to bring new attention to neglected issues 
like women's health, and I thank you for that.
    I am going to be very brief because I know how busy you 
are, but there are a number of things I wanted to bring to your 
attention.
    As the head of the Task Force on Women's Health in the 
House, I wanted to talk about the Office of Women's Health at 
the NIH. It was established in 1990 to coordinate, facilitate 
and improve the quality of women's health research, and it 
certainly has, but I am concerned that since its inception, it 
really has not received a meaningful budget increase, and 
particularly as the prominence of women's health has increased 
and women are taking more active interest in their own health.
    The administration is requesting 19.2 million for this 
office for 1998, which is an increase of only 4 percent over 
the previous fiscal year, and I would like to urge the 
subcommittee to provide a budget increase proportional to that 
increase given to NIH as a whole. We are way behind.
    Federal research into the effects of the drug 
diethystilbestrol are still yielding important insights into 
the action of environmental estrogens on the human body. As you 
know, that awful drug was given to millions of pregnant 
American women between the years of 1938 and 1971 to prevent 
miscarriage, but it didn't; it cause cancers in their children. 
So we would really appreciate for you to continue that funding.
    Eating disorders are a growing problem in our Nation, 
particularly among young women, and I appreciated the 
committee's inclusion in last year's conference report the 
language encouraging the National Institute of Mental Health 
and the National Institute of Child Health and Human 
Development to coordinate the eating disorders research.
    I am also grateful that last year's report instructed the 
Secretary of Health and Human Services to pursue eating 
disorders education efforts. When we have children as young as 
7 and 8 years old going on diets, we have a critical problem. 
It is a serious health problem. So I am sure that once again 
you will show your concern.
    Colorectal cancer, Mr. Chairman, is another neglected 
health issue. Ninety-seven percent of the persons diagnosed can 
be cured. The difficulty is getting people to be screened. We 
need to make sure that women understand it is not just a man's 
disease, but it strikes men and women at equal rates, and it is 
the number three cancer killer of the Nation's women. It has to 
have renewed attention, so we are working very hard to raise 
the education program from 2.5 to 5 million. We think we will 
save a lot of lives with that.
    Menopause is another issue we are just beginning to look 
at. Aging women still don't feel able to discuss it, even with 
their own doctors. Women need to have full factual information 
about normal changes that can be expected with menopause and 
the treatment that is available to provide relief for some 
symptoms. So we would appreciate some attention on that 
research as well.
    I have some information about the National Technical 
Institute for the Deaf, but you have been kind enough to hear 
me on that before, and I know you like them as much as I do.
    One of the things I do need to talk about is your support 
for the homeless children's bill, and, Mr. Chairman, although 
that is kind of an orphan bill, your support of that has meant 
the world to me as author of that bill in 1986, as part of the 
McKinney Act. We are asking for 30 million this year, which is 
still not very much, but the little money we have given, we 
have reduced the number of homeless children now to 14 percent. 
We need to reduce it to zero.
    We found the homeless education program is working. It is 
improving regular school attendance, and grades, and scores in 
high school graduation and GED completion rates, and we hope 
this may be a phenomenon of the past and that now that the 
employment is good, the economy is good, we are going to see 
fewer and fewer families that are homeless.
    I want to show you how this program worked. His name was 
James. He was a 10th-grader staying with a family friend while 
his mother and sister stayed in a shelter. It was all women, so 
James couldn't stay there. He had to stay with a friend, and he 
didn't go to school at all, and he was ill. When he was finally 
able to go to school, he was tired and coughing, his clothes 
were soiled and ripped, and he didn't have any books or pens or 
anything to write with.
    The vice principal called in the person in charge of 
homeless education, Mr. Sayles, and in accordance with the bill 
that has been written, Mr. Sayles helped him get an appointment 
with a physician at a neighborhood health clinic. They let him 
pick out clothing, alarm clocks, school supplies and hygiene 
products that they had put aside for children, and he is now a 
more productive student as a result of support received from 
the adults around him. And that is just one of the many ways 
this program provides education, but it makes sure children are 
looked after and have the opportunity to get educated.
    I think it is an important component of welfare reform, 
because we think children who are obviously unhealthy, 
uneducated and untrained are probably going to grow up to be 
tomorrow's welfare recipients, and if we can do anything to 
stop that--and, frankly, every American child should be allowed 
to get a good education in the United States. We can't leave 
any part of that population out, and homeless children have 
been neglected.
    In regard to the 21st Century Community Learning programs, 
they are very important, have done wonderful things already, 
but there are going to be $40 million in it this year, and 
there are over 2,000 applications already, and out of that, 
only 13 percent will be funded this year, so we really need to 
increase that. I urge you to consider increasing the funding to 
200 million for year 1999, because we need to expand the after-
school programs which promote safe and nurturing activities for 
young people during the nonschool hours.
    We all know the crime rate in this country goes up every 
day between the hours of 3 and 7 p.m. when children are out on 
their own. If we can offer them positive alternatives, and give 
them some tutoring, and make sure they have homework and are 
ready for next day's school, and give them something besides a 
television set for company, we will be doing a great thing for 
the future generations. Art projects are there that help them 
develop their minds.
    So that is the request I have for you today, Mr. Chairman, 
and thank you again for your unfailing kindness.
    [The prepared statement of Congressman Louise M. Slaughter 
follows:]


[Pages 2102 - 2104--The official Committee record contains additional material here.]



    Mr. Porter. Louise, that is a pretty good list. I have to 
tell you, and you know this, when we first talked, this is 
probably 3 years ago now, about homeless children's education, 
frankly, I was very skeptical about needing another program and 
thought they could be served within existing programs. And you 
convinced me very, very quickly that this is probably a prime 
example of how, since they don't have any homes, they don't 
have any school districts, and they fall right between the 
cracks, and you have been exactly right in that, and we 
appreciate your tremendous leadership in that area.
    Ms. Slaughter. I thank you for that.
    Mr. Porter. As well as so many others.
    Ms. Slaughter. I appreciate that. But it is true, too many 
school districts, if you don't live in that school district, 
you can't go there. So a lot more children need our help, and I 
know you will be there to help us, and thank you.
    Mr. Porter. We are going to do our best.
    Ms. Slaughter. Thank you very much.
    Mr. Porter. Thank you, Louise.
                              ----------                              

                                          Thursday, April 30, 1998.

                               WITNESSES

HON. KAREN L. THURMAN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    FLORIDA
DR. STEPHEN SOMLO, ALBERT EINSTEIN COLLEGE OF MEDICINE
    Mr. Porter. Representative Karen Thurman of Florida 
testifying on polycystic kidney disease.
    Ms. Thurman. Mr. Chairman, thank you.
    I just want to note that that exchange just a few minutes 
ago was so good to hear. So many times we do come up here with 
preconceived ideas, and I think that is a shame, and if we keep 
our minds open, it is amazing what we can do. So what Louise 
had to say about you says a lot about who you are, and it says 
a lot, and I just wanted you to kind of know that.
    Mr. Chairman, we have talked a little bit about this issue 
before on polycystic kidney disease. It certainly is one that I 
deal with on an everyday basis with my husband. He now has had 
a transplant, so we have been one of the fortunate groups. We 
also have two children, though, and because it is genetic, and 
this is kind of a late disease to find out what is going to 
happen, but there is the potential either one of my children 
might have it, or they might not have it at all.
    The other issue from a standpoint of just policy is looking 
at the amount of people that have PKD, it is about 600,000 
people. It can attack as many as 12.5 million worldwide, and it 
costs the American taxpayers about $1.5 billion annually.
    I really want to emphasize this because I was a little bit 
disturbed after I found this out--this committee really did do 
some good work in this area, and they specifically asked NIH 
and NIDDK to redouble their efforts in this area, and that, in 
fact, did not happen. I know that you don't and I agree that we 
shouldn't be earmarking, because none of us want to see, quote, 
the disease of the month, but on the other side, you did make 
it clear we should have some redoubling. That has not happened, 
and I hope we can let the folks know there is some real reason 
why that was done that way.
    But I think also in this process sometimes that we don't 
always see the end results of things, or, you know, you always 
hear about what people want and not necessarily what has 
happened since you have helped them along the way, so today I 
have Dr. Stephen Somlo, actually from Albert Einstein College 
of Medicine, is accompanying me, and he is going to give you 
kind a little update as to where we are and why the redoubling 
of these efforts are so important.
    [The prepared statement of Congresswoman Karen Thurman 
follows:]


[Pages 2107 - 2109--The official Committee record contains additional material here.]



    Dr. Somlo. Chairman Porter, my name is Steve Somlo, and I 
am a physician scientist conducting research in polycystic 
kidney disease at the Albert Einstein College of Medicine in 
the Bronx. It is my honor to come before you to report on the 
progress that I and my colleagues in the PKD research community 
have made in recent years.
    It is my goal to convince you of the promise of this field 
and of the merits of redoubling efforts to ensure continued 
growth of funding for PKD research. The recommendation is 
mentioned that your committee made as recently as last year.
    Whether it is the high blood pressure or the acute ataxia, 
severe debilitating pain, that results from the rupture or 
bleeding of cysts, PKD patients have a decades-long losing 
battle with consequences of their genetic makeup. PKD is the 
third leading cause of renal failure in the U.S., and our 
available therapies of dialysis and transplantation have their 
own spectrum of complications.
    As a physician, my goal is to prevent disease progression, 
not just to treat its ravages along the way, yet as a physician 
treating PKD patients, all I really can do is the latter.
    Ten years ago, I resolved not to be only a nephrologist in 
PKD patients, but also an investigator working to discover 
treatments to change the course of polycystic disease. To my 
great satisfaction, this past decade has seen tremendous 
scientific progress in PKD research. I have had the good 
fortune of being part of this progress supported by three NIH 
research awards, one of which I obtained through the last round 
of RFA for PKD.
    The application of the advances of the human genome project 
to the problem of PKD had been the focus of my studies. Genome 
chromosome 16 that accounts for 85 percent of PKD families was 
discovered in 1993, and its gene product, the proteins, 
heretofore unknown proteins, are currently under intense 
investigation.
    In 1996, my laboratory succeeded in identifying a second 
gene for PKD accounting for the disease in the remaining 15 
percent of families. It also uncoats an unknown protein. 
Working with investigators at John Hopkins, we were able to 
show that the two proteins, the first and second genes for 
polycystic kidney disease, interacted directly; that is to say, 
they talk to each other through direct physical contact inside 
cells. This discovery has profound implications for an 
understanding of PKD.
    Most recently, my group has inactivated the mouse copy of 
the PKD gene and in the process has successfully reproduced the 
human polycystic disease state in the mouse. This achievement 
will enable us to study PKD in ways that we cannot do in 
humans. The mouse model has already taught us PKD occurs by a 
mechanism that had previously only thought to be operational in 
cancer syndromes, the so-called two-hit hypothesis.
    PKD patients inherit one bad copy of the gene from their 
affected parent and one good copy from their other parent. With 
the passage of time, the good copy also gets inactivated in 
some cells in the body, and this is the second hit. These 
individual cells with the two bad copies of the PKD gene are 
the ones that multiply and go on to form cysts.
    The fundamental change in our understanding of cyst 
formation has caused us to rethink approaches to therapeutic 
strategies. Slowing the occurrence of these second inactivating 
mutations in the next 5 to 10 years could change the course of 
PKD in affected patients.
    The PKD mouse model also provides a system in which we can 
develop and test novel directed therapeutic strategies without 
exposing patients to any risk. Therapy, whether it is small 
molecules, that is to say drugs, or gene replacement that shows 
promise in treating the disease in the mouse can subsequently 
be pursued for safety and efficacy in human subjects, and to my 
mind, this is the definition of translational research from the 
bench to the bedside. In my opinion, the polycystic research 
community is poised to make that trip within the next decade.
    Perhaps our most willing partners in all this research have 
been the PKD patients themselves. They supported us both 
financially and through organ donations, and they did it for 
themselves and for their children.
    So, Mr. Chairman, when we are moving so fast and getting so 
close, I hope that we can convince NIH and NIDDK to share in 
this enthusiasm and increase funding for polycystic kidney 
disease research.
    That concludes my statement.
    Mr. Porter. Doctor, I don't have your name before me. Can 
you tell me it again?
    Dr. Somlo. Steve Somlo, S-O-M-L-O.
    Mr. Porter. Well, thank you, Dr. Somlo. We appreciate your 
testimony.
    Karen, I wasn't aware until you told me that they have not 
proceeded. I have asked staff to find out so we will know, and 
we will follow up on that and do what we can to straighten that 
out.
    Thank you very much for your testimony.
                              ----------                              

                                             Thursday, April, 1998.

                                WITNESS

HON. DON YOUNG, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF ALASKA
    Mr. Porter. Don, you have been very, very patient and long-
suffering in waiting for us to get to your point in the 
testimony. Why don't you proceed.
    Mr. Young. Thank you, Mr. Chairman. I would like to submit 
the testimony of Doug Bereuter on the same subject.
    Mr. Porter. It will be received.
    [The prepared statement of Congressman Doug Bereuter 
follows:]


[Pages 2112 - 2113--The official Committee record contains additional material here.]



    Mr. Young. I ask unanimous consent to submit for the record 
my written statement.
    Mr. Porter. Without objection.
    Mr. Young. Number one, Mr. Chairman, since you have been 
Chairman, and when you were Ranking Member, we have asked for 
support from this committee on the Allen Ellender Fellowship 
Program, and the Close Up Foundation administrates the program. 
This program is probably the most--I think the most rewarding 
program for young people across this Nation. In Alaska, we have 
had 9,000 students since 1979 attend this program here in 
Washington, D.C. Today, I have 55 Close Up students today from 
all over from the State of Alaska that get a better 
understanding of what you and I are doing, what the committee 
members are doing, and how the system works. And I think that 
is crucially important now during this period of what I call 
cynicism about politics. I have had a lot of follow-up 
conversation with students through the correspondence and 
personal discussions about their attitude towards our 
government and towards the workings of Congress, and I have 
never had one that came away negative.
    So there is a request for a $3 million from you to continue 
this program, this scholarship program, or fellowship program, 
and I would suggest it is probably the best money invested. 
Every time I come to testify before you, I listen to all the 
other people testifying, and they all have worthwhile projects 
and worthwhile suggestions in asking you for the request of 
money. But I am speaking now of the future of those people who 
will lead this Nation, and the more we can get away from 
cynicism, the better off we are.
    The Close Up program really does the job it was set out to 
do, and that is expose young people to the better parts of our 
government, the United States Congress, of course the 
administrative end of it, and the executive branch and the 
judicial branch.
    So I can only say that without the money that I am 
requesting, a lot of the students across this Nation would not 
be able to attend. It is not a freebie, it is matched money. 
There is a lot of effort put forth by each student. Some of our 
students in some of my other areas have to go out and raise 
their dollars. They do a good job, but without this money, a 
lot of the students would not be able to come down to 
Washington, D.C. to see us operate.
    With that, Mr. Chairman, I just want to thank you for your 
efforts, and I guess I can afford to be patient when it is a 
worthwhile project.
    [The prepared statement of Congressman Don Young follows:]


[Pages 2115 - 2116--The official Committee record contains additional material here.]



    Mr. Porter. I think Close Up does a super job, and I think 
all of us put young people who come to Washington at a very 
high priority and want to give them a good feel about what we 
do, and I think Close Up really helps us do that. I know that 
the money that they receive from our grant is only a small 
proportion of the money they raise and provide for young 
people, and I want to do my best to provide and share support 
for their very important mission.
    So we thank you very much for testifying and for your 
patients and for your advocacy for Close Up.
    Mr. Young. Thank you, Mr. Chairman.
    Mr. Porter. Thank you.
                              ----------                              

                                          Thursday, April 30, 1998.

                                WITNESS

HON. JOHN F. TIERNEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MASSACHUSETTS
    Mr. Porter. Congressman John Tierney of Massachusetts 
testifying about a building at Salem State College; is that 
correct?
    Mr. Tierney. How are you, Mr. Chairman?
    Mr. Porter. Fine, thank you. How are you?
    Mr. Tierney. Fine. I thank you for giving me this 
opportunity to speak before your committee and you in 
particular. You and I have had some involvement in the past 
with regard to the comprehensive schools, and I applaud you for 
working to make sure that that project went through.
    The public schools, I think, are critical to the backbone 
of this country and to our moving forth as individuals in 
society, but also economically. It is in that regard that I 
come before the committee today, because just as we are 
supportive of our public schools, the elementary and the 
secondary level, I think there is a place for us to be somewhat 
helpful and supportive at the college level. Salem State 
College is indicative of that.
    I come before the committee today asking for $4.8 million 
for so-called smart building work to be done at Salem State 
College in Salem, Massachusetts. This Federal money would be 
used to help toward the construction and equipment cost of that 
project.
    In the reauthorization of the Higher Education Act, H.R. 6, 
I am pleased to say that we were able to get language in 
establishing a mechanism for Title III schools for the 
participation of the Federal Government in such projects.
    Smart buildings, if I can just define them, make provision 
for computer technology to be incorporated in the planned 
construction of a building, and that computer technology might 
be for multiple ports, laptops in every classroom, allow access 
to computer network and Internet. The classrooms' computers 
have wiring for hardware and software necessary to use the 
technology in every aspect of instruction; connects the faculty 
office with the college's computer network and Internet; 
implements computerization of the campus security, janitorial 
services, heating, ventilation and air conditioning; and makes 
available student services through kiosks in the corridors, 
giving them information on financial aid, class registration 
and tuition payments; and essentially brings us into the next 
century and lets us be competitive with those private 
institutions that are able to get enormous endowments to put 
these types of facilities together so we can have students that 
go to public colleges that qualify into Title III to have the 
same type of facilities going forward.
    In this particular project, the State has stepped forward 
and given substantial funds for the purchase of the site, which 
Salem State College is expanding. They have given an enormous 
amount. There has been a private effort to raise money for 
this. Salem State will be moving its business courses and 
section over to the performing arts area and is going to have 
an incubator business segment of the college campus that allows 
businesses to come in and start up, use the students as 
interns, and get new businesses going, use the technology, and 
have the students benefit in that way.
    I think not only will the college benefit, obviously, and 
the students that attend, but the business community and the 
North Shore around Salem will be able to get people out for the 
work force developed and ready to go to work and to enhance the 
number of small businesses that have been generating so much 
for the economy around there. And that is really what this is 
about, trying to get an opportunity for students to come out 
ready to go to work at well-paying jobs and businesses in the 
area to benefit from having those students trained.
    There has been a greatness of cooperative efforts. Salem 
State College has been around since 1854. It started as a 
normal school, and we have been trying to define that term 
since then. It is now a fully accredited 4-year college; has 
been for some time. It is an institution that has an enrollment 
of 9,200 full-and part-time students. It is well-known 
nationally for some of its courses in geography, in nursing, in 
education and in business, as well as other areas of social 
work and the sciences and liberal arts.
    I would ask this committee give serious consideration to 
participating in that with the $4.8 million. I think it will be 
a worthwhile project, and I think it will be an indication of 
what we can do to share a role in making sure that people have 
the kind of education we talk about down here a lot to move 
forward and be productive.
    [The prepared statement of Congressman John F. Tierney 
follows:]


[Pages 2119 - 2120--The official Committee record contains additional material here.]



    Mr. Porter. John, this is going to be authorized in the 
Higher Education Act that we are dealing with right now.
    Mr. Tierney. That is correct. The language is in there, and 
it looks like it will be authorized, and it is a good 
opportunity.
    Mr. Porter. I can't speak for the East, but in the Midwest, 
normal schools were schools to train teachers.
    Mr. Tierney. That's exactly what it was in Salem, and we 
have expanded out considerably since then. It still maintains a 
good national reputation, particularly in early childhood 
education.
    Mr. Porter. This is a fascinating concept as you described 
it. You know, sometimes you think you are born too late.
    Mr. Tierney. I went there and I graduated from there, so it 
is particularly interesting for me to see the school expand in 
this way and have those kinds of opportunities for students. I 
went there for the reason a lot of Title III schools exist: It 
was the only choice that we had. It was the place I could 
afford and the opportunity that we could do. I really think it 
would be a shame for us to miss this opportunity to let those 
students have the kind of educational facility that others who 
go to tremendously well-endowed schools get on a regular basis.
    Mr. Porter. Thank you for your testimony. We will again do 
our very best.
                              ----------                              --
--------

                                          Thursday, April 30, 1998.

                                WITNESS

HON. SUE W. KELLY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    YORK
    Mr. Porter. Congresswoman Sue Kelly of New York, testifying 
on the Impact Aid Program, particularly on section 8002.
    Mrs. Kelly. Thank you, Mr. Chairman.
    Mr. Porter. Sue.
    Mrs. Kelly. I thank you for providing me with the 
opportunity to testify this morning. While there are a number 
of important programs under your jurisdiction that I would 
gladly speak to, I want to focus my remarks on two specific 
issues that concern my district. The first one is Impact Aid; 
the second one is Lyme disease research.
    First, I would like to thank you, Chairman Porter, for the 
sensitivity you have shown to the importance of funding the 
Impact Aid Program. Without this program, specifically the 
section 8002 program, the Highland Falls-Fort Montgomery School 
District in Orange County, New York, could not keep its doors 
open.
    The school district is literally surrounded by Federal and 
State lands and the Hudson River, leaving no room for 
expansion. About 93 percent of the lands within the school 
district are nontaxable, making it increasingly difficult for 
the school system to raise the revenues necessary to provide 
our children with the quality education they deserve.
    Three years ago, the school system was struggling, laying 
off teachers, closing buildings, neglecting maintenance 
andcurriculum development. The district had protracted contract issues 
with its teachers, had a staff with a very low morale, was experiencing 
strained relationships with its neighborhoods and partners. The 
children were using outdated textbooks, and test scores were really 
suffering.
    What a difference a couple of years makes. Thanks to the 
good work of this subcommittee in the past 2 years, I come 
before you today to tell you about a true success story, a 
story of renewed community spirit and children learning in a 
better, cleaner, safer and healthier environment. Because of 
the committee, this subcommittee and this Congress, the 
commitment you have made to us over the past 2 years to fund 
the Impact Aid Program, I can today tell you all about the new 
textbooks and the new teachers development program that the 
school has that I have been able to implement. I can tell you 
about the new social worker they were able to hire that has 
affected the greater drug intervention programs that they have; 
the two new advanced placement classes; the eight new elective 
classes. This summer is the first summer they are going to be 
able to offer summer school for remediation.
    In addition to the academic improvements, the school system 
has been able to address some long-neglected physical plant 
improvements as well. New tiling has been installed, and 20-
year-old carpeting has been replaced, which, according to our 
school nurse, has significantly reduced the number of asthmatic 
incidences.
    The list of improvements goes on and on, but please don't 
take my word for it. I want to quote briefly a summary of the 
Educational Vistas Incorporated, who conducted independent 
evaluations of the Highland Falls-Fort Montgomery Central 
School District curriculum. They do this every 2 years, and 
this is what they said: ``The Highland Falls Fort Montgomery 
School District is a decidedly different district than the one 
visited 2 years ago. Today, while still facing a number of 
challenges, it has a `renewed' teaching staff, many of whom are 
actively engaged in self-reflection, professional growth and 
school improvements. It emphasizes collaboration and 
partnership at the building level and at the district level.''
    Still quoting: ``A caution, there is no `miracle' performed 
here. The district has only begun a journey long delayed and 
long neglected, but it has begun strongly. The district should 
now commit to moving to the next level.''
    These results were largely due to the renewed commitment 
that Congress made to the Impact Aid Program. Through the 
Impact Aid funds provided the school district, we have placed 
these schools and especially the children who attend them on 
the right track. It will take additional funds and time to get 
them where they should be, but look at what a difference 2 
years of funding have made in my school district.
    I join with all of my colleagues in the Impact Aid 
Coalition in requesting $887 million for the Impact Aid Program 
in fiscal year 1999, which represents a very modest increase in 
funding over 1998. I also would urge this subcommittee to 
ensure this increase is spread fairly to ensure that all 
impacted communities, including land-impacted communities, 
receive the funding that they need and deserve.
    Finally, Mr. Chairman, I would like to touch upon the 
importance of funding for Lyme disease research. I speak not 
only as a Member of Congress, but as one who has suffered from 
Lyme disease. This disease has reached record levels in 1996, 
with 16,000 diagnosed cases, and probably approximately 100,000 
unreported cases, because it is very difficult for the doctors 
to diagnose these cases.
    I strongly urge the committee to support increases in the 
CDC and NIH funding. I also ask that the committee encourage 
both agencies to renew their commitment to the study of 
emerging diseases, such as Lyme disease. In Congress we talk 
about reducing the cost of health care in this country. What we 
need to realize is that the most effective way to do so is to 
invest in medical research and prevention and education.
    Mr. Chairman, those affected with Lyme disease feel 
abandoned. As a resident of one of the most Lyme-affected 
areas, I have a responsibility to see this disease gets the 
attention it deserves so we can stop the suffering and find a 
cure. Please help us.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Congresswoman Sue W. Kelly 
follows:]


[Pages 2124 - 2127--The official Committee record contains additional material here.]



    Mr. Porter. Sue, that was an excellent statement. Let me 
say that it wasn't the leadership of this subcommittee, it was 
your leadership and your advocacy for funding for Impact Aid, 
and particularly 8002, that has made a difference in that 
school district, and we want to obviously put the resources 
there to help you make that school district even better, and we 
will do our best to do that.
    Mrs. Kelly. Thank you very much.
    Mr. Porter. Thank you, Sue.
                              ----------                              

                                          Thursday, April 30, 1998.

                                WITNESS

HON. HAROLD E. FORD, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TENNESSEE
    Mr. Porter. Next, Representative Harold E. Ford of 
Tennessee testifying regarding the Job Corps.
    Harold, nice to see you.
    Mr. Ford. Good to see you, Mr. Chairman.
    I won't take up much of your time because I know, as a new 
Member, that you bring the experience and the knowledge and the 
commitment in more amount of time than I have been actually 
been on this Earth, being 27.
    You are one of the main reasons, if not the principal 
reason, that we have a Job Corps Center in the 9th District, 
with the help of my father over the past few years, and I thank 
you for your leadership there and thank you also for your 
leadership on the floor as it relates to all education issues.
    I would only just really reemphasize or reiterate some of 
the points that I am certain you are fully aware of. Job Corps 
Centers throughout this Nation have really served as a force 
for economic and educational development for a group of young 
people, many of them who look like me, young African American 
males who have been really written off largely by a large 
segment of society and have been labeled as incorrigibles. But 
this program, as you well know, sir, has worked and has been 
able to reach out to many who have been locked out of the 
mainstream and in some cases have felt hopeless that their 
chances of integrating or finding some long-term participation 
has really been nil.
    Seventy-eight percent of Job Corps participants are high 
school dropouts; 66 percent have never held a full-time job; 73 
percent are between 16 and 19 years of age. Although Job Corps 
has resources to assist fewer than 2 percent of eligible youth, 
of that 2 percent, 80 percent leave the program to join our 
work force or to further their education.
    I had the privilege of visiting my Job Corps Center some 
several weeks back during one of our most recent recesses and 
had an opportunity to visit with teachers who indicated it was 
the most pleasant teaching environment, and they have never 
seen students more eager to learn and to absorb than what they 
have experienced. These are teachers with vast teaching 
experiences and educators with vast teaching experiences, all 
attesting to the fact that Job Corps Centers work.
    My Center--I shouldn't say my Center, the Center that you 
helped create, Mr. Chairman, is one of only three Centers in 
this Nation that trains young people in the computer service-
computer repair industry for those jobs. The President later 
today will announce a 4.2 percent increase in GDP growth and 
credit this expansion with the robust demand for computer 
goods.
    You know better than anyone, Mr. Chairman. I just hope that 
this committee is able to fund the request the administration 
has asked for, the increase of $61.4 million.
    Lastly, one of the reasons, I think, that they have asked 
for the increase, as you well know, Mr. Chairman, is the need 
to meet some of the child care and Head Start challenges as 
many of the young people move toward trying to better 
themselves and trying to cost us less on the front end than 
they will on the back end.
    With that I say thank you and hope that you are able to, as 
you have been able to in the past, gain this committee's 
support and this Congress's support.
    [The prepared statement of Congressman Harold Ford, Jr., 
follows:]


[Pages 2130 - 2132--The official Committee record contains additional material here.]



    Mr. Porter. Harold, thank you for your advocacy and your 
father's advocacy and others who strongly support Job Corps. We 
think the same thing about this program as you do, that this 
really works for kids that are most at risk in our society.
    The thing that all of us have to do, because there is so 
much negative news on our television screens every night, is to 
get the media to look at things that work and are really 
inspiring and help young people find their way when otherwise 
they wouldn't. I think the American people, if they knew more 
about Job Corps, the support would be even stronger. But we put 
it at a very high priority, and we will continue to do so.
    Mr. Ford. These young people at the Center, Mr. Chairman, 
if you don't mind, are deeply, deeply appreciative of the 
Federal efforts. They understand where the commitment comes 
from, the business community back home, particularly our 
computer service industry. We are the home to Federal Express 
Corporation, which creates the lion's share of the jobs in our 
local economy, and they have also helped to really create and 
spawn a new sort of job creation effort there in the Memphis 
area. With the continued support of this Center and some of the 
other efforts under way, hopefully the region will continue to 
grow and live down the fact that regrettably Dr. King was 
assassinated in my district some 30 years ago and many of the 
challenges that we face.
    I thank you again, Mr. Chairman, and look forward to 
working with you on this issue.
    Mr. Porter. Thank you, Congressman Ford.
    That completes our morning's session. We will stand in 
recess until 2:00 p.m.
    On the record, and let me retract the recess, I wanted to 
say on the record that Representative Pete Stark of California 
talked to me informally on the last vote about the matters that 
he wanted to testify in respect to particularly HCFA, and the 
funding of ombudsman services for seniors when the choices in 
Medicare are offered, and we will receive his testimony in the 
record and appreciate his advocacy.
    [The prepared statement of Congressman Pete Stark follows:]


[Pages 2134 - 2136--The official Committee record contains additional material here.]



    Mr. Porter. Now we stand in recess until 2:00.
                              ----------                              

                                          Thursday, April 30, 1998.

                                WITNESS

HON. GEORGE NETHERCUTT, JR., A REPRESENTATIVE IN CONGRESS FROM THE 
    STATE OF WASHINGTON
    Mr. Porter. We continue our hearings on the fiscal year 
1999 appropriations and hearing testimony of Members of 
Congress.
    I am pleased to welcome George Nethercutt of Washington to 
testify on NIH and NIDDK.
    Mr. Nethercutt. Thank you, Mr. Chairman and Mr. Stokes. I 
am delighted to be here and testify today and to express my 
support for biomedical research and translation funding at the 
National Institutes of Health and the Centers for Disease 
Control and Prevention.
    I do have a prepared statement which I would ask to be 
entered into the record, and I will try to summarize it as best 
I can.
    As the Chairman knows and Mr. Stokes knows, the incidence 
of serious diseases enters most of our lives at one time or 
another. It affects us no matter our political affiliation and 
race or gender.
    I have had some personal tragedy in my life, relatives who 
have contracted serious disease. My dad died of lung cancer 20 
years ago, and I have a daughter who is diabetic, and it 
touches all of us. That is why I have been so committed, Mr. 
Chairman, to seeing the greatest resources in our Nation for 
health care research.
    The National Institutes of Health function effectively and 
have a mission of curing disease. The NIH research, the CDC 
activities are essential to finding cures and advancing better 
treatments for these serious diseases.
    I was pleased to see last year that the final 
appropriations legislation increased NIDDK funding above that 
to NIH overall, even though it was smaller than we wish it 
could be, but we also got some assistance through the Balanced 
Budget Act for diabetes research and especially Native American 
diabetes research which I think will be very helpful.
    Last night, I was in attendance at part of the hearing and 
operation of the diabetes working group, which convened here 
again yesterday at NIH, and was encouraged by what I saw in the 
time that I was there. They met from early in the morning until 
late at night.
    This subcommittee approved legislation that directed their 
formation and directed that working group to look at the cures, 
the best evidence of cures for diseases like diabetes--
specifically diabetes, and also collected great scientific 
minds from around the country to do just that.
    I can report to you both that the committee working group 
was enthusiastic, tremendous brain power, great ideas not 
restricted by convention necessarily but really were free 
thinking and being imaginative how we can chart a course to 
cure diabetes.
    Diabetes funding has been on a trend downward. I believe it 
is on a trend upward now because of the seriousness, and it 
affects so many institutes, I think eight or nine at least, and 
it also affects 16 million people in our country and countless 
others who die or are afflicted by the consequences of 
diabetes.
    About 2 weeks ago, Mr. Chairman, I went out to NIH and had 
a very good meeting with Dr. Varmus; and I sat with the 
representatives of the institutes, in many cases directors of 
the various institutes at NIH and talked to them about their 
mission, some of the progress they are undertaking and 
achieving and talking with them about my support and the 
support in Congress for doubling the research funds over the 
next 5 years. I think it is a wonderful goal, and we ought to 
do it.
    There is an issue that this subcommittee has faced before 
and would look at again, and that is the issue of who has 
ultimate responsibility for how the funding goes. While I 
understand the arguments against making it a political 
judgment, it is the Members of Congress who have to make the 
judgment and answer to the citizens about how much money we 
spend on various diseases, and so I think Congress has a very 
important role to play in that decision.
    We don't want to micromanage these various agencies, but 
there is a role that we need to play to make clear to the NIH 
and other research entities that there are priorities in the 
country that need to be addressed, and so my statement speaks 
in more detail about that, but I want to summarize that we have 
a responsibility as Members of Congress to make sure that the 
money is spent wisely.
    I am serving as co-chair of the caucus. We have 158 Members 
who have signed on, and we are delighted that it is such a 
force, and I think we need to really mobilize not only 
diabetes-interested Members of Congress but people with 
Multiple Sclerosis and Alzheimers and all of the other diseases 
out there to get on board this idea that we need to assist this 
great research effort at NIH.
    Because I speak here today in support of diabetes, I can 
certainly verify the statistical information that is out there 
about how the disease directly causes 180,000 deaths a year and 
permanently 75,000 people are disabled because of diabetes. It 
costs us about $37.1 billion from disability, diabetes does, 
and it is a leading cause of many problems in our health 
condition in the country.
    So I will just close by saying, Mr. Chairman, Lou Holtz met 
with me and perhaps with the two of you earlier this year. His 
son has diabetes and he said, ``If enough people care, you can 
solve anything.''
    This is true. We have a lot of people who care in the 
Congress, and I know the two of you do and this subcommittee 
does, and I would just urge that additional funding be 
dedicated to diabetes and we move toward increased funding for 
NIH overall, and I thank you both for your attention today.
    Mr. Porter. George, thank you for your very good statement.
    [The prepared statement of Congressman George Nethercutt, 
Jr., follows:]


[Pages 2139 - 2141--The official Committee record contains additional material here.]



    Mr. Porter. I know that you know that we will do everything 
that we can to respond to it positively and that we share your 
concern that we need to strongly encourage NIH to put more 
resources into diseases that effect people more broadly. As you 
and I have discussed, we are doing that.
    We think that the allocations previously were justified 
under circumstances that existed previously, but we think that 
circumstances have now changed and that there is no question 
that we need more money for research into diabetes and cancer 
and heart disease and others, that perhaps because of the AIDS 
epidemic and the lack of knowledge at the beginning and for 
some time as to how it would effect broad populations prevented 
us from doing that.
    Now, I think, we need to move back to where we would have 
been and to try to make up some of that lost ground, and we can 
do that best by substantially increasing the money that we put 
into NIH and then encouraging that money be put into research 
and diseases like the ones that we have been discussing.
    Mr. Stokes.
    Mr. Stokes. Thank you, Mr. Chairman.
    I would just like to take a moment and commend Mr. 
Nethercutt for his testimony here today. He has appeared before 
us on other occasions, and you have always been an ardent 
advocate on behalf of the diseases. I quite agree with you that 
diabetes is one of the most devastating diseases that one can 
incur.
    You mentioned the fact that most families have some type of 
experience with it, and I have a brother who passed 2 years 
ago. Although he incurred cancer later, he also had diabetes, 
and so I am familiar with the devastation this particular 
disease brings upon those it afflicts.
    I appreciate so much your testimony today.
    Mr. Nethercutt. Thank you.
    Mr. Porter. You have been a real leader, and your 
leadership on the task force has been appreciated, and we want 
to work closely with you to see if we can't all do a better job 
of directing and providing resources to NIH.
    Mr. Nethercutt. Thank you very much.
    Mr. Porter. We have no other Members here. We are about to 
have a vote, and we will stand in recess until after the vote.
    [Recess.]
                              ----------                              --
--------

                                          Thursday, April 30, 1998.

                                WITNESS

HON. TIM ROEMER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF INDIANA
    Mr. Porter. The subcommittee hearing will come to order, 
and we will continue the testimony from Members of Congress, 
and in the order specified, we are pleased to welcome 
Congressman Tim Roemer to testify regarding the Close-Up 
Foundation.
    Mr. Roemer. Thank you, Mr. Chairman.
    I would, first of all, ask unanimous consent to revise and 
extend and have my entire statement be entered into the record.
    Mr. Porter. Without objection.
    Mr. Roemer. Thank you, Mr. Chairman.
    First of all, I would like to thank you and your staff and 
the other members of the committee for all the hard work you do 
and the hard decisions that you face on this committee. You 
have very, very many tough choices and important programs to 
try to fund, and you listen to the different testimony by 
Members of Congress all day, and we appreciate your 
understanding and your sensitivity and your difficult decision-
making process.
    Thank you again for your invaluable work you and the 
subcommittee members such as Mr. Stokes make on a daily basis.
    I want to start off by recommending, Mr. Chairman and Mr. 
Stokes, the full level of funding for the Close Up program. My 
statement has been entered into the record so I want to say, 
and hopefully in an eloquent way, how important this program is 
for those underserved and at-risk young students to get them 
involved in understanding government and eventually 
participating in civil responsibility.
    We find out more and more every single year about the 
capability of young people. We find out that now two and three 
years old might be the best time for them to learn a foreign 
language.
    We understand in science in order to get young children 
interested in becoming a scientist, you have to capture them at 
the third and fourth grade level. In order to play T-ball, we 
are now starting them, and I am a coach, at five years old.
    In order to get them involved in music, the governor of 
Georgia is handing out tapes of Mozart to parents to play music 
for young people to increase their linear thinking.
    We are finding out how important it is to get this early 
learning going, yet in education for civic responsibility and 
political participation which the Close-Up Foundation 
encourages, we are not doing as much as we might be able to.
    This program is one of the few in the country that achieves 
the objective of getting people involved by bringing them to 
Washington, D.C., targeting underserved populations and at-risk 
populations, exposing them to Capitol Hill, showing them the 
good things that happen up here and then seeing them get 
involved later on in their lives.
    UCLA sponsored a study earlier this year that shows that 
only 26 percent of the freshman class thought that government 
was relevant to their lives, the lowest figures I believe since 
the study has been done.
    Now that shows that we are not starting early enough and 
getting our young people involved in the political process, and 
this is a non-bipartisan way that leverages private dollars 
that concentrates on the most at-risk population and one that I 
think has done some great service for our community and country 
in the past, and I would strongly encourage you to consider 
full funding of the program, and I thank you for your time.
    Mr. Porter. Tim, thank you very much for your testimony.
    [The prepared statement of Congressman Tim Roemer follows:]


[Pages 2144 - 2146--The official Committee record contains additional material here.]



    Mr. Porter. Don Young was in this morning to iterate the 
words that you said about Close-Up, and obviously there is very 
strong bipartisan support for a program that really touches all 
of us, and we hope we influence the young people that come to 
visit us as well.
    Thank you for your testimony this afternoon.
    Mr. Roemer. Thank you.
    Mr. Porter. Mr. Stokes.
    Mr. Stokes. I just wanted to commend Tim for his testimony 
here on behalf of Close-Up. I happen to think it is one of the 
finest programs that I have had the chance to participate in. 
Oftentimes now, I have a young person who is a professional, 
lawyer, doctor, some other professional, and they come up and 
say, the first time I met you was when I came to Washington 
with the Close-Up Foundation, and they still recall the Close-
Up program which put them in touch with Washington the first 
time, and it is an excellent program.
    Mr. Roemer. We will miss you, Mr. Stokes, when you go back 
to private life in Ohio, and I am sure that the Close-Up people 
will, too.
    Thank you, Mr. Chairman.
                              ----------                              --
--------

                                          Thursday, April 30, 1998.

                                WITNESS

HON. DARLENE HOOLEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    OREGON
    Mr. Porter. Just to inform the Members who are here to 
testify, we are going to go through the list as the time slots 
are set, and any Member who is not here at the time will then 
drop down in the order and have to testify later.
    Next will be Congresswoman Darlene Hooley. She is 
testifying on certain projects.
    Ms. Hooley. Mr. Chairman, thank you very much for letting 
me have the opportunity to testify today.
    I am here to respectfully request inclusion of several 
projects that are administered by the Departments of Health, 
Education and Human Services.
    The first is a program called Distance Education Alliance. 
What it will do is link all of Oregon's higher education 
institutions into that partnership that will establish a degree 
program using existing distance technologies. Oregon is a 
rather rural state--and it will allow access to education for 
an advanced degree for individuals so they can have the ability 
to have access to education.
    What this program is about, this Alliance, is they want to 
develop about 200 courses for delivery in this distant 
education mode. I am seeking $3 million to implement the 
program. This would be under the President's Learning Anywhere 
Any Time Program, and the purpose would be to support the 
faculty training, the course development and technology 
expenses to make those degree programs possible.
    I am also seeking support for a program at Western State 
University, a Spanish Language Training Institute. The purpose 
is to offer intensive language courses to civil service and 
judicial personnel.
    This university is located in the middle of an area that 
has a lot of Hispanics and Latinos. This program would help 
communities in the Willamette Valley overcome significant 
language barriers by ensuring that our civil service and 
judicial personnel have the communication skills to provide 
those services. I am requesting $350,000 to help establish the 
institute, and hopefully this could be part of the Professional 
Development Program under the Bilingual and Immigrant Education 
Program.
    The next thing I am looking at, is an initiative to help 
forge partnerships between institutions and smoothing the seams 
for students between educational levels.
    So those students going into community colleges or colleges 
and those going from community colleges to higher education, it 
is a way to improve their transition so it is seamless. The 
program works to provide strong support services, develop 
cross-institutional faculty and student services to help ease 
those transitions of students between educational levels.
    We have institutions already working on this, and I am 
requesting $750,000 for a pilot program to enable the expansion 
of the partnership. Again, we would be happy, once we go 
through this pilot project, to make sure that we spread that 
information throughout the United States.
    Another program that we are asking funding for is the 
Environmental Health Science Education Program at Oregon State 
University. It focuses on increasing the public's ability to 
understand and make informed decisions on environmental factors 
contributing to health and diseases. I am requesting $300,000 
for this program.
    Finally, I am joining the entire Oregon congressional 
delegation to request money for a one-time grant of $3 million 
to help build a Women's Health Center in Portland, Oregon.
    This facility is for the entire State. It would be a 
distribution point for patient education materials, serve as a 
conduit for public education. It would be an asset to our 
community to improve women's health, and I urge this committee 
to support its construction. There are lots of partners, and we 
are hoping that the Federal Government can also be a partner.
    Thank you for the opportunity to testify, and you have my 
full written testimony.
    Mr. Porter. Thank you, Congresswoman Hooley. We will 
consider your requests.
    Ms. Hooley. Thank you.
    [The prepared statement of Congresswoman Darlene Hooley 
follows:]


[Pages 2149 - 2151--The official Committee record contains additional material here.]



                                          Thursday, April 30, 1998.

                                WITNESS

HON. JAMES L. OBERSTAR, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MINNESOTA
    Mr. Porter. I am not going to comment on the testimony 
because it slows things down, and we are so far behind because 
of the votes. I will just call on each Member and listen.
    Representative Jim Oberstar, testifying on breast cancer, 
energy assistance, library services, rural health programs and 
adoption opportunities. Jim, nice to see you.
    Mr. Oberstar. Thank you very much. You just about gave my 
testimony right there.
    You have been very kind and thoughtful for so many years on 
the subcommittee as I come here in memory of my late wife Jo to 
talk about the need for breast cancer research funds and this 
committee has responded to the challenge.
    When Jo first self-diagnosed by accident her breast cancer, 
there was only about $35 million for research funding in NIH 
for that little-known, little-understood area of public health. 
In the 8 years that she coped with breast cancer treatment, 
surgery, radiation, chemotherapy and hormone treatments, 
300,000 women died of the disease, and it finally claimed her 
life.
    We have three daughters, and as each one turned 21, knowing 
that there was the history of breast cancer in her family, her 
mother had it, she died of it, each of those girls has gone to 
have a base-line mammogram. Mammograms weren't even available 
when Jo was diagnosed.
    That old adage, you can't throw money at problems, if you 
don't have money, you can't address the problems, and the level 
of $500 million of funding for breast cancer is a reasonable 
level to request. This is not throwing money at problems. This 
is engaging the best minds of America to approach the issue 
from its multi-dimensional aspects, to look at it, each 
researcher, from a different aspect.
    I have spent days at NIH at different times going through 
their laboratory and their programs, the research protocols, 
and at other research centers across the country doing the 
same, and I know that it is going to be a continuing, long 
struggle. We are getting closer.
    As Dr. Steve Rosenberg, chief of surgery at the National 
Cancer Institute said, we have begun to make a wedge in the 
bleak stone face of cancer. Our task now is to widen that 
crack, and this is funding to do it.
    The Women's Health Initiative that is looking at a broad 
range of women's health concerns, funding at the $200 million 
level I think would be the largest research initiative on women 
anywhere in the world.
    The early detection program for Centers for Disease 
Control, I appeal to the committee to give it the funding that 
it requires.
    Energy assistance, we had a mild winter, but we in the 
Northern tier States, Mr. Stokes included, know that every year 
the glacier makes a comeback, starting in November in my part 
of the country. While the level of funding is in the range of a 
billion dollars, 10 years ago we had $2 billion funding for 
LIHEAP.
    The needs of elderly and low-income families have not 
diminished or gone away again. They haven't benefited from this 
great economic recovery we have had, and I know families who 
have been saved by the funding.
    I also appeal for continuing your--at least for this year, 
the disproportionate share payments for Minnesota hospitals 
which were affected by a reporting error in the 1997 balanced 
budget agreement. You addressed that issue last year. The State 
needs this one additional year of transition to address the 
problem, and I think the reporting error issue will then be 
resolved.
    The Community Health Centers Section 330 Program Grants, I 
just cite because I was there recently on the northern tip of 
Lake Superior, Minnesota, Grand Marais, a small community of 
1,250 people, it is 76 miles to the nearest health facility 
along a two-lane road, 110 miles to the next hospital.
    Without the Community Health Centers grant program, those 
people would be without health care, and communities die when 
they don't have it. It has made all the difference in the world 
to this little community who is totally dependent on the health 
facilities at that one place.
    And, finally, do continue the Impact Aid program. It is 
vitally important to the small towns in my district, like the 
county in which Grand Marais is located, it is 96 percent 
public ownership, most of it Federal. Without the Impact Aid, 
they can't provide the services that the communities need. They 
don't have the tax dollars. Four percent of the land is private 
ownership. Without the aid that you provide through this 
program, they don't have libraries. They don't have all of the 
other public facilities.
    I know that my time has expired, and I appreciate your 
consideration.
    Mr. Porter. Jim, thank you very much for your testimony.
    [The prepared statement of James Oberstar follows:]


[Pages 2154 - 2158--The official Committee record contains additional material here.]



    Mr. Porter. The one that you mentioned that is a problem is 
the disproportionate share because last year we realized that 
this was a problem, but we felt that we could only address it 
on a one-year basis and that the authorizers have to correct 
the problem.
    Mr. Oberstar. That is fair enough.
    Mr. Porter. We will keep an open mind on it, but that one 
may be a problem.
    Mr. Oberstar. I understand, and I can appreciate that.
                              ----------                              

                                          Thursday, April 30, 1998.

                                WITNESS

HON. ELIJAH CUMMINGS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MARYLAND
    Mr. Porter. Congressman Cummings of Maryland to testify on 
Healthy Start.
    Mr. Cummings. Thank you, Mr. Chairman.
    I have only one issue, a very important issue, Mr. 
Chairman, and I have introduced H.R. 3724, the Healthy Start 
initiative continuation, which would establish a permanent 
authorization for this program.
    In my district, Baltimore, Healthy Start has been extremely 
effective. So often when I visit elementary schools and I see 
little children who unfortunately were damaged in the womb, 
they are starting 30 feet behind the starting line of life. It 
really does concern me greatly.
    In our district, Healthy Start has succeeded in reducing 
Baltimore's infant mortality rate. The pre-Healthy Start 
baseline infant mortality rate of 20.1 infant deaths per 1,000 
live births in a Healthy Start project area was reduced to 13 
by the end of 1995, a 35 percent reduction.
    Healthy Start also assisted Baltimore City in preventing 
instances of very low birth weight babies. According to the 
Johns Hopkins University School of Hygiene and Public Health, 
Healthy Start has lowered the incidence of low birth weight 
babies by nearly 67 percent.
    I believe that all of us in this Congress and most 
Americans believe that--they don't mind being taxed, but they 
want to make sure that we spend their dollars wisely and that 
we are efficient and cost-effective. When you think about the 
cost of a low birth weight baby, trying to bring that baby up 
compared with the money that we are spending compared with 
Healthy Start, there is no comparison. That doesn't even go 
into saving the pain and the anguish that these children go 
through.
    In the City of Baltimore, about 35 percent of the women 
enrolled in Healthy Start have problems with drugs and alcohol. 
The evaluation data suggested Healthy Start is just as 
effective in women who abuse controlled substances as compared 
to women who do not.
    On September 27, 1997, the Secretary of Health, Donna 
Shalala, when announcing the new Healthy Start grants totaling 
nearly $50 million to 40 new communities with high infant 
mortality rates, stated and I quote, ``The five-year Healthy 
Start Initiative has demonstrated what works. The best way to 
make sure that babies are healthier is for all pregnant women 
to get early prenatal care, adequate housing, and support from 
family and friends.''
    Mr. Chairman, I also want to applaud you and Mr. Stokes and 
other members of the committee for having a concern about this 
very important initiative. I understand that we have a 
commitment to the American taxpayer to effectively use those 
tax revenues that they entrust to us. The Healthy Start program 
has proved to be a success. It saves lives and makes for a 
healthy beginning into parenthood for both low income women and 
infants, and so I ask that you take into consideration this 
legislation, because, again, I think that it has been 
effective. It is one of the many things that we can point to 
from a bipartisan standpoint that this Congress has done to 
really make a major difference in the lives of children and 
parents.
    Thank you.
    Mr. Porter. Congressman Cummings, thank you for your good 
testimony.
    [The prepared statement of Congressman Elijah Cummings 
follows:]


[Pages 2161 - 2165--The official Committee record contains additional material here.]



    Mr. Stokes. This testimony, Mr. Chairman, is so important 
because, through this particular program, we have been able to 
see a reduction in the infant mortality rate, particularly in 
the Northern communities and all of the inner cities in which 
the program was originally established. This is one program 
which has been effective in terms of making a difference, and 
we appreciate your testimony.
    Mr. Porter. Thank you very much.
                              ----------                              

                                          Thursday, April 30, 1998.

                                WITNESS

HON. CARLOS A. ROMERO-BARCELO, A REPRESENTATIVE IN CONGRESS FROM THE 
    COMMONWEALTH OF PUERTO RICO
    Mr. Porter. Carlos Romero-Barcelo of Puerto Rico, 
testifying on the Frank Tejeda Scholarship Program.
    Mr. Romero-Barcelo. Thank you, Mr. Chairman and Mr. Stokes. 
I appreciate the opportunity to testify before you today.
    I am appearing to discuss the Frank Tejeda Scholarship 
Program. I am requesting that the committee provide $5 million 
for fiscal year 1999 for this important program.
    This March, the House Committee on Education and the 
Workforce voted to establish the Frank Tejeda Scholarship 
Program in the Higher Education Act. The Frank Tejeda 
Scholarship Program honors the memory of our former colleague, 
Frank Tejeda, who died last year while serving the 28th 
District of Texas. As a national leader and role model to the 
Nation's students, it is fitting that this program carry his 
name.
    Under the Frank Tejeda Scholarship Program, scholarships of 
$5,000 per academic year for up to 4 years would be awarded to 
students who are proficient in Spanish and English and who want 
to be teachers in our Nation's public schools. The award 
recipients must agree to teach in public schools that have a 
need for teachers and other professionals and others who are 
proficient in Spanish. This is directed to providing the 
schools the opportunity to have teachers who understand the 
language of those students who are being taught English. 
Sometimes they are teaching to a student who doesn't know 
English. A teacher who doesn't know Spanish would have a 
difficult time teaching Spanish students.
    Also, a teacher proficient in Spanish would provide the 
ability for those students who have difficulty communicating in 
English with a counselor in school so we don't have children 
leaving school at an early age.
    Congressman Frank Tejeda was a person of tremendous courage 
and conviction. Like too many Hispanic youth today, he dropped 
out of school, but he persevered. At the age of 17, he 
volunteered for the Marine Corps and served a tour of duty in 
Vietnam. For his courage in battle, he received the Bronze 
Star. While in the military, he received the highest grades 
ever in the Marine Corps Officer Candidate School.
    When he returned to the U.S., he returned to San Antonio 
and graduated from St. Mary's University with a bachelor of 
arts degree. Congressman Tejeda then went on to receive a law 
degree from the University of California at Berkeley, a 
master's degree from Harvard and an LLM from Yale.
    The Frank Tejeda Scholarship Program embodies the academic 
excellence that Frank Tejeda pursued throughout his life and 
his commitment to helping others achieve their personal and 
professional goals.
    Under the Frank Tejeda Scholarship Program, funds would be 
awarded to students who are low-income or eligible for a Pell 
Grant; U.S. citizens; enrolled or accepted for admission, full 
or part-time, at a graduate or undergraduate level at an 
institution of higher education that has an accredited teacher 
preparation program; and can demonstrate English and Spanish 
proficiency. The Tejeda scholars would be students who have 
demonstrated outstanding academic achievement.
    From the sums appropriated for this program, the Secretary 
of Education would allocate to each State an amount equal to 
$5,000 multiplied by the number of scholarships determined by 
the Secretary to be available to such State, which shall bear 
the same ratio to the number of scholarships made available to 
all States as the State's population ages 5 through 17 bears to 
the population ages 5 through 17 in all States, except that not 
less than 10 scholarships shall be made available to any State.
    For Hispanic Americans, it is imperative that bold steps be 
taken now to bridge the educational and economic gaps that 
separate Hispanics from the rest of the Nation. Undoubtedly, 
staying in school is a key to helping to improve the quality of 
life for Hispanic Americans. There is an urgent need to educate 
and train persons at the college level who are willing to go 
into urban and rural settings that are in need of teachers who 
are proficient in both Spanish and English. For all these 
reasons, the Frank Tejeda Scholarship Program is supported by 
the Congressional Hispanic Caucus.
    Hispanics now are the fastest-growing population in the 
Nation and by early in the 21st century will be the largest 
minority population in the United States. The number of 
Hispanic school age children is growing rapidly as well. In 
1980, more than 4 million Hispanic children between the ages of 
5 and 17 were enrolled in the Nation's public schools. By the 
year 2005, this population is expected to double.
    How this population of students fares in the Nation's 
schools will have great national implications in the 21st 
century and beyond. The Hispanic student dropout rate, the 
highest of any group in the Nation, is a matter of great 
national concern. The availability of well-qualified teachers 
who can serve the needs of this student population can make a 
tremendous and positive impact on the lives of these children 
and play a significant role in keeping them in school.
    Thank you, Mr. Chairman.
    Mr. Porter. Thank you, Mr. Romero-Barcelo.
    Is this program authorized by the Higher Education Act we 
are considering right now?
    Mr. Romero-Barcelo. Yes. It is on the floor right now.
    Mr. Porter. Thank you very much for your good testimony.
    Mr. Romero-Barcelo. Thank you very much.
    [The prepared statement of Congressman Carlos Romero-
Barcelo follows:]


[Pages 2169 - 2171--The official Committee record contains additional material here.]



                                          Thursday, April 30, 1998.

                                WITNESS

HON. BERNARD SANDERS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    VERMONT
    Mr. Porter. Arriving just in time, Congressman Bernie 
Sanders of Vermont, testifying regarding the Social Security 
Administration; and it looks like you brought a significant 
entourage that you should introduce.
    Mr. Sanders. These are young people from the State of 
Vermont. We have about five separate schools here today, and I 
would like to introduce the young people to Chairman Porter and 
Mr. Stokes and Congresswoman Pelosi from California.
    Mr. Porter. We welcome each one of you.
    Mr. Sanders. Thank you very much, Mr. Chairman.
    Mr. Chairman, let me put my discussion into context, and 
the context regarding senior citizens is that, in my view, in 
the last few years the United States Congress has largely not 
been friendly to senior citizens if you look at the $115 
million cut in Medicare that was passed last year; and the 
implications are now being seen in Vermont, cuts in home health 
care, and in veterans' care and we are seeing that in VA 
hospitals around the country; if we look at the consistent 
attacks, and I think your committee has been strong in 
resisting that, but attacks to cut back on LIHEAP, for example; 
if we look at what is going on in senior citizen housing and 
the fact that we are not building senior citizen housing 
despite the enormous backlog and waiting lists; if you look at 
an issue that has not been getting the attention that it 
deserves in that the Bureau of Labor Statistics is 
reconfiguring, if you like, what inflation is, and their work 
has resulted in a 0.7 percent reconfiguration lowering for 
Social Security.
    Add all of those things together, I think we have not been 
treating seniors well, 50 percent of whom have incomes of less 
than $15,000 a year.
    Now, having said that, it seems to me that no matter what 
our political point of view, we should appreciate that the 
Conduit Meal Program is a fantastic program. Not only is it the 
humane and right thing to do, but it is cost-effective.
    Conduit Meal Program deals with two issues. Number one, 
seniors come together for meals. Now, in Vermont, we have 
centers to provide meals one day a week, sometimes five days a 
week. What is important is not only that seniors get nutrition, 
good meals, but social workers see them and directors. They can 
say, you are not feeling well, Mr. Jones; go to the doctor.
    So the Conduit Meal Program is very important. It allows 
seniors to socialize, and I think we can make the argument that 
it is cost-effective. We gain more than we lose.
    Obviously, I don't have to tell you very much about the 
importance of the Meals-on-Wheels program. What kind of country 
are we if we are not taking care of low-income senior citizens 
who do not get enough food, who do not see people and live in 
isolation?
    I would argue that, given the cuts that have taken place to 
various senior citizen programs, that, no matter what our 
political persuasions may be, I think it is appropriate to say 
that in America we are going to substantially increase funding 
for the Conduit Meal Program. I think it is a very good 
investment. If we understand that we are talking about a 
program which, combined, probably is 5 percent of one B-2 
bomber, I think it is a good investment; and I would hope that 
you would stand up for America right now and say, look, we are 
not going to ignore the seniors any more. That is issue number 
one.
    The second point that I would like, and with your 
permission, Mr. Chairman, I will give you my written remarks 
for the record, deals with the administration of Social 
Security, and we are not talking about the Social Security but 
the administration of.
    My reaction is that, last year, there was in the Balanced 
Budget Agreement, my recollection is that there was--what would 
amount to a 23 percent cut in the administration for Social 
Security.
    My concern there is we will agree or not agree with what is 
going to happen with Social Security, but I get a real concern 
when folks in my office and perhaps in your office, a 
constituent calls and they have a problem with Social Security. 
Your caseworker gets on the phone, and it is going to take 
quite a while to get a response, and that is from a 
congressional office. What happens when Mrs. Jones herself 
says, I have a question about Social Security?
    I think the evidence is pretty clear that, right now, we 
are not doing a good enough job in terms of having the 
personnel out there to respond quickly. That is not a secret. 
It is not just Vermont that has that problem. Why then are we 
cutting back substantially on the administration of Social 
Security?
    I hope very much that this is not just a back doorway to 
make people feel less kindly toward Social Security. I would 
hope that is not the case. But it seems to me if anybody has a 
concern about Social Security, they should be able to get a 
prompt and accurate response from a qualified Social Security 
employee.
    So those are my two concerns, Mr. Chairman; and I thank you 
very much for hearing me out.
    [The prepared statement of Congressman Bernie Sanders 
follows:]


[Pages 2174 - 2175--The official Committee record contains additional material here.]



    Mr. Porter. Congressman Sanders, I think you will find that 
we have not cut back on the administration of Social Security. 
We consider it just as high a priority as you do. In fact, we 
have been providing Social Security with substantial increases 
for the computers that they need to do their job better.
    So, in any case, we do hear what you are saying very 
clearly; and we agree with you that it is a very high priority 
that people get served very promptly and efficiently by the 
Social Security.
    Mr. Sanders. My understanding is that, according to an 
analysis by minority staff, and I don't know if Ms. Pelosi and 
Mr. Stokes want to comment about this, but the freeze, the 2002 
freeze reflected in last year's budget for discretionary funds 
for Social Security would result in a cut baseline of 23 
percent.
    Mr. Porter. The staff tells me that it was in the budget 
agreement, but we didn't follow the budget agreement.
    Mr. Sanders. I am glad to hear that. So, in fact, it is a 
cut that did not take place?
    Mr. Porter. That is correct.
    Mr. Sanders. That is a wise decision.
    Mr. Porter. It is a high priority.
    Mr. Sanders. In terms of the Conduit Meal Program, I think 
it is a cost effective and important program.
    Mr. Porter. Thank you, Congressman Sanders, for testifying 
today. We definitely will take your testimony into account and 
will be marking up as soon as we get a budget resolution which 
may be sometime soon and may not be. Thank you very much.
    Mr. Sanders. Thank you very much, Mr. Chairman.
    This is 38 percent of our entire State's population.
                              ----------                              --
--------

                                          Thursday, April 30, 1998.

                               WITNESSES

HON. GLENN POSHARD, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ILLINOIS
HON. JIM NUSSLE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF IOWA
    Mr. Porter. I want to ask the Members who have been waiting 
very, very patiently, one of our Members has informed us that 
she has a very serious time problem, and she has the 
demonstration that she wants to show on the monitors that have 
been set up here and that they have to complete that and be 
finished by 4:00.
    Therefore, with your permission, I would like to take 
Juanita Millender-McDonald--she is not here in the room?
    I am sorry, I just assumed that she was in the room. Okay, 
she is not in the room. Let me take that all back.
    Congressman Glenn Poshard of Illinois and Congressman Jim 
Nussle on the Rural Health Care Coalition. Thank you for your 
patience.
    Mr. Nussle. Thank you, Mr. Chairman, for allowing us to 
come here and testify on the Rural Health Care Coalition.
    I want to thank my friend Glenn Poshard who has been my co-
chairman in this endeavor. I know that he is looking for 
another endeavor these days, but I want to tell you that he has 
been a true friend to rural health care issues during his 
tenure here in Congress, and, regardless of outcomes, we will 
be very sorry to lose his leadership on that coalition.
    I know that you know that, Mr. Chairman, coming from the 
same State, but I just wanted to say that, Glenn, it has been a 
real pleasure working with you.
    Mr. Chairman, we have 140 members of the Rural Health Care 
Coalition, and we want to thank you for your leadership and the 
committee's leadership. In the past year, you have been very 
supportive of our issues and have demonstrated that in the 
priorities that you have placed in the appropriations bill.
    By the way, most of our requests are continuing requests; 
and certainly they come with additional dollars. We believe 
that they could be heightened, but I am sure that is true with 
a number of different programs and entities that come to you 
around the table. But we did want to highlight that for you and 
give that to you in written form, which we have done.
    Just to put it in context, and I thought it was kind of 
interesting, I read a news story not too long ago about a 
suburb in New Jersey--and this is not to be disparaging towards 
New Jersey; this could happen anywhere--but there is a major 
controversy going on involving an ambulance that took 11 
minutes to arrive at the scene of an accident, of a call, and 
it was a major controversy that it took so long, 11 minutes, 
and what I found interesting about that controversy is that is 
health care delivery in urban and suburban areas.
    In rural areas, as you know, Mr. Chairman, 11 minutes would 
be a Godsend. If you have a tractor roll over on top of you 
during planting season or you have a heart attack in your home 
in Ryan, Iowa, and you have to get up to Manchester, Iowa, that 
would be an 11-minute trip one way for the ambulance, let alone 
the return trip to get you to the emergency room, and that is 
why rural health care is so important.
    We need different answers and solutions, and that is why 
the programs that we advocate are for flexibility and for new 
ideas and for grants to test new theories and new deliveries.
    One that is in the budget that I want to highlight, because 
the rest are continuing requests, is called the Medicare Rural 
Hospital Flexibility Program, which was part of the Balanced 
Budget Act of 1997, and it is intended to recognize that there 
are hospitals in rural areas that are not going to look like or 
be like hospitals in suburban or urban areas. They are just not 
going to possibly be able to provide the same kind of services 
and yet the emergency basis of those clinics, of those 
hospitals need to be there for the clients and for the citizens 
that they serve.
    So, basically, what we are trying to do is improve the 
access to this essential health care service through critical 
access hospitals and rural health care networks; and this 
program through Medicare would allow us to do just that.
    With that, let me just yield my time, whatever is left, to 
my friend, and you know this issue very well. I thank you for 
your support and your patience, and I will let Glenn finish 
off.
    [The prepared statement of Congressman Jim Nussle follows:]


[Pages 2178 - 2179--The official Committee record contains additional material here.]



    Mr. Poshard. I appreciate that, Jim; and, Mr. Chairman, let 
me thank you and other members of the committee for being very 
sensitive to the Rural Health Care Caucus over the years. We 
are very appreciative of it.
    Just to mention a few things here. The National Health 
Service Corps. As you know, it is very difficult for us to 
recruit doctors into the underserved areas of this Nation. The 
ability for us to help doctors get through medical schools and 
then relocate in these medically underserved areas is very, 
very critical; and we want to continue as much funding as we 
possibly can in that area.
    The new designation that we came up last year in the budget 
which you supported, the Rural Critical Care Hospital, we all 
know that it is not possible for a rural hospital that has 40 
beds and maintaining an inpatient service, it is not possible 
for them to exist much longer; and the new critical care status 
allows reimbursement primarily for emergency room care and 
outpatient, which is what is going to be essential for keeping 
our hospitals in the small rural communities at least open to 
the capacity that we can continue to provide adequate services 
for them. That is real important.
    I want to just mention one other thing in the time that we 
have remaining. This is not part of the Rural Health Care 
Caucus program, but I serve a large coal mining district, and 
my father's generation just saw thousands of young people go 
down into the mines and come up when they were 35 years old 
with black lung disease and be dead before they were 40-45 
years old. The black lung clinics that you folks fund in the 
coal-producing States around the Nation are so important.
    Black lung is a respiratory disease that coal miners get 
which is worse than anything that you can possibly imagine; and 
if you ever visited these clinics and saw these people barely 
having the capability to stay alive, you would know how 
important they are. So if we can maintain that $5 million 
funding for those clinics, it is a huge, huge issue in some 
poor regions of the State that are all rural. It is not in 
Caucus bills, but it is real important to me and the coal 
mining areas of the country, and I want to implore you not to 
cut any of those funds if you can keep from doing it at all.
    [The prepared statement of Congressmen Glenn Poshard and 
Jim Nussle follows:]


[Pages 2181 - 2184--The official Committee record contains additional material here.]



    Mr. Porter. Let me thank both of you for your testimony, 
and again we will do the best that we possibly can in each of 
those areas.
    Let me say, Glenn, you have been, as Jim said, a tremendous 
advocate for rural health programs; and I am going to get a 
chance to say this many more times, but we are going to miss 
you around here.
    Mr. Poshard. Thank you. I appreciate that.
    Mr. Nussle. Thank you, Mr. Chairman.
                              ----------                              --
--------

                                          Thursday, April 30, 1998.

                                WITNESS

HON. JUANITA MILLENDER-McDONALD, A REPRESENTATIVE IN CONGRESS FROM THE 
    STATE OF CALIFORNIA
    Mr. Porter. Now Representative Millender-McDonald is here. 
We are going to put you on ahead of time alone, and you have a 
video that you want to show us.
    Ms. Millender-McDonald. That is right.
    Mr. Porter. Please proceed any way you want.
    Ms. Millender-McDonald. Mr. Chairman, thank you very much, 
and to the ranking member and all the committee members, I want 
to thank you for this opportunity to join me today to discuss 
how telemedicine can improve the accessibility and quality of 
health care provided to numerous Americans.
    Telemedicine improves health care to patients by shortening 
the time between diagnosis and treatment, lowers cost for 
treatment by detecting conditions before they become serious or 
lead to emergency room visits, and expands opportunity for 
continuing education for health care providers. It can be used 
in home health care to monitor medications, blood pressure, and 
for more serious conditions such as diabetes, which causes 
blindness, kidney failure and amputations among far too many 
African-Americans today.
    Telemedicine can also be used to educate and care for the 
underserved communities in the areas of pediatrics, prenatal 
care, cardiology, depression and dermatology.
    In addition to the immediate health benefits and long-term 
financial savings that are natural outcomes of this medical 
care, telemedicine creates jobs. The telemedicine sites can 
provide jobs for those who are moving from welfare to work 
through technical training and the use of telemedicine 
equipment. In fact, a telemedicine site that is run by Drew 
University in my district has done just that.
    I have Dr. Charles Flowers, who is the founder of the 
first-ever urban telemedicine site in the country, who is 
joined by two women who have made the very successful 
transition from welfare to meaningful, self-sustaining and 
rewarding employment. This was launched in 1996.
    The Drew University and the Community Development 
Commission County of Los Angeles' telemedicine site is focused 
on providing preventive eye care and treating serious eye 
conditions. It is located in a public housing unit and has 
already served hundreds of patients, the majority of whom made 
their first visit for an ophthalmologic examination at this 
site. Dr. Flowers and his colleagues at Drew University have 
diagnosed hypertension retinopathy, cataracts and preventable 
blindness caused by HIV, which continues to be the number one 
killer of African-American women aged 25 to 44.
    I would like to have Dr. Flowers demonstrate how this urban 
telemedicine project works.
    Dr. Flowers.
    [Telemedicine demonstration.]
    Ms. Millender-McDonald. As you can see, the telemedicine 
site, as with many others throughout the country, provides the 
medical attention that is not only equivalent to, but 
oftentimes better than a regular physician's visit. By taking a 
picture of the eye, Dr. Flowers or any other doctor has a 
visual image of the eye that is saved on a regular personal 
computer that can be used in the future for follow-up treatment 
or additional diagnosis. This is a clear benefit over doctors 
relying on their memory and their notes.
    This urban telemedicine site helped numerous people in and 
near my district, while this project has provided a critical 
service, as Dr. Flowers noted. Telemedicine, and urban 
telemedicine in particular, improves the rate of early 
diagnosis, enhances disease surveillance and closes the gap 
between the poor, underserved and predominantly minority 
communities that are continually denied access to health care 
or are provided with less-than-adequate health care.
    I want to thank you, Mr. Chairman, and the ranking member. 
I know that you are committed to improving this Nation's health 
care in the most cost-effective way. I hope after today's 
telemedicine demonstration you are as compelled as I am to 
ensure that we provide the necessary funding for both rural and 
urban telemedicine for those most in need.
    Thank you very much.
    [The prepared statement of Congresswoman Juanita Millender-
McDonald follows:]


[Pages 2187 - 2188--The official Committee record contains additional material here.]



    Mr. Porter. I can tell you right now, Congresswoman 
Millender-McDonald, that we are just as impressed as you are 
with the technology, and its application fits right in--we just 
had the Rural Health Care Coalition, Jim Nussle and Glenn 
Poshard, and it fits right in with what their needs are as 
well.
    Ms. Millender-McDonald. Thank you. We have worked very well 
with the rural community, and so thank you very much for this 
opportunity to come before you.
    Mr. Porter. Thank you.
    Mr. Stokes.
    Mr. Stokes. I just want to associate myself with your 
remarks and concur. I want to compliment you on your statement 
and how impressive the presentation is and how much it ties 
into our work.
    Ms. Millender-McDonald. Thank you.
    Mr. Porter. Thank you, Mr. Stokes.
                              ----------                              --
--------

                                          Thursday, April 30, 1998.

                               WITNESSES

HON. RANDY ``DUKE'' CUNNINGHAM, A REPRESENTATIVE IN CONGRESS FROM THE 
    STATE OF CALIFORNIA
HON. CHET EDWARDS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF TEXAS
    Mr. Porter. The Impact Aid Coalition, represented by 
Congressman Duke Cunningham and Chet Edwards.
    Mr. Edwards. Duke had to leave because of another meeting, 
Mr. Chairman.
    Mr. Chairman, I will be very brief because I know that time 
is limited.
    Two things I would like to say in addition to submitting 
Mr. Cunningham's and my testimony.
    First, I wish any cynic about Federal programs would have 
sat here as I did through the last number of witnesses talking 
about black lung clinics, Healthy Start programs and medical 
and breast cancer research at NIH. I have great respect for the 
work of this committee, although I do not envy you in having to 
weigh these incredibly difficult priorities.
    Quite frankly, I was one of those voting against the 
highway bill because I was afraid that, ultimately, it would 
take money away from the incredibly important programs that you 
are supporting.
    The second thing I want to say to you, Mr. Stokes, is thank 
you for your leadership on the Impact Aid program. Mr. 
Chairman, you have especially gone the extra mile to speak for 
those who otherwise wouldn't have a voice, and of all of the 
deserving groups in America I can think of few more deserving 
than the children of military families.
    I am going to catch the first plane home so I can be with 
my children, because I hate being away from them for 3 days and 
2 nights, but yet, in just a few weeks, I am going to have to 
see 2,000 to 3,000 parents off in Fort Hood in my district who 
will be serving their country at the President's request in 
Bosnia for the next 6 months, and I can't imagine leaving my 9-
month-old baby now and coming back when he is nearly a year and 
a half.
    I don't think that we can put a dollar value on the kind of 
sacrifice those military children make; and, as both of you 
know, because of cuts in the defense budget, military families 
are spending more time away from their families today than they 
did a year ago or 2 years or 3 years ago.
    The final point I would say is, considering the number of 
Native American children served by this program and the fact 
that one-third of our military families are minorities, the 
Impact Aid program is not only good for helping military 
children, Native American children and minority children and 
improving the ability to bring the best and brightest in our 
military, this program is truly one of the largest minority 
education programs in America--regardless of race or 
background. I can think of few groups more deserving than those 
who make the sacrifices of our military children.
    For those reasons, I would urge you for full support of the 
requested budget this year. Most importantly, I want to say 
thank you. The program would not be where it is today had it 
not been for your help and the work of this committee.
    [The prepared statement of Congressmen Randy ``Duke'' 
Cunningham and Chet Edwards follows:]


[Pages 2191 - 2193--The official Committee record contains additional material here.]



    Mr. Porter. Chet, I very much appreciate your testimony and 
also your tremendous advocacy on behalf of Impact Aid which has 
been constant throughout all of the time that we have been in 
Congress.
    I wish that the President had done a little bit better job 
for us because it makes--even though we will tell you we don't 
listen very much to the President's numbers, it makes it more 
difficult for us to get to the kind of position where we want 
to be in the absence of strong support from the White House.
    Mr. Edwards. I would like to find, with your help, Mr. 
Chairman, the person down in the bowels of the OMB office that 
each year zeros out Part B Impact Aid. It has happened for 
years now, but I understand your comment.
    Mr. Porter. We will do the best that we absolutely can on 
this.
    Mr. Edwards. Thank you. You always have.
                              ----------                              

                                          Thursday, April 30, 1998.

                                WITNESS

HON. NANCY JOHNSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CONNECTICUT
    Mr. Porter. There is a second bell already rung. We are 
going to have to stand in recess.
    Mrs. Johnson. Can I just make my presentation? I am going 
to have trouble coming back.
    Mr. Porter. Sure. Congresswoman Nancy Johnson.
    Mrs. Johnson. I think I can do this in 2 minutes. Thank you 
very much.
    Other members of the Caucus will testify when you 
reconvene, at least I suppose that they will, but I want to go 
through, quickly, a few things. I will just enumerate them and 
leave my longer testimony.
    I have testified before you many times in support of Title 
X funding being. I feel as strongly about Title X funding as I 
ever have. There are more and more low income women depending 
on these clinics for their primary health care. Likewise with 
the Community Health Center program. That is just critical to 
the well-being of our inner city families.
    The Office of Women's Health has done an enormous amount to 
reach out and develop national centers of excellence, women's 
health information centers, improve the quality of mammograms, 
and is about to launch a national osteoporosis education 
campaign, a totally preventable disease with sufficient 
education.
    I want to mention two other things.
    NIH funding. I know how you are committed to NIH funding. I 
have a little bill that needs attention, and we hope to get it 
through the Congress this year. Because, as we increase NIH 
funding, we must also provide better support for clinical 
research because the managed care competition has pressed down 
on the resources of our medical centers to support clinical 
research, and the system of clinical research has atrophied. It 
is critical to translating to basic research into 
pharmaceuticals and other things that will improve the quality 
of our health.
    Also, for NIH research, please, we have to have some money 
for contraceptive research.
    NIH has to be reminded that that is one of the legitimate 
areas of research. Because they have dedicated so little 
attention to it, the private sector dollars have atrophied and, 
to this day, sterilization is the most common form of 
contraceptive, 42 percent. It is really an outrage.
    Lastly, education; I would urge you to focus on special ed. 
Increase the money for special ed. Then towns can hire more 
teachers and fix their buildings and do what they need to do. 
But if we could somehow find the money to get special ed up to 
40 percent, then communities like mine, a small city of 70,000, 
could have a lot of choices, including private property tax 
cuts.
    Very briefly, the President cut the Services Block Grant 
money, critical as we try to get people off welfare, cut 20 
percent. I know how hard it is to add it back, but if you could 
that and pay attention to the need for better day-care funding. 
Those two things, the child care and development block grant 
money, those two things are critical to the success of welfare 
reform. If we don't have funding for the vouchers for low-
income working people, then we can't support people in getting 
off welfare. No one can pay day-care for three kids on a 
minimum wage job or starting job.
    I know how hard it is to get the social service dollars 
back; and I suppose, in some ways, the day-care dollars are 
more important, then voucher dollars, but that group of people 
is really terribly important if independence is going to 
succeed. Thank you very much for your attention.
    Mr. Porter. Thank you, Congresswoman Johnson.
    We will stand in recess for these votes.
    [The prepared statement of Congresswoman Nancy L. Johnson 
follows:]


[Pages 2196 - 2199--The official Committee record contains additional material here.]



                                          Thursday, April 30, 1998.

                                WITNESS

HON. CHARLIE RANGEL, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    YORK
    Mr. Porter. The subcommittee will come to order.
    We continue our hearings of Members of Congress, with the 
Congressional Black Caucus; and Congressman Rangel, for the 
moment, you are able to----
    Well, Congresswoman Millender-McDonald has already 
testified. She can testify again if she would like.
    Ms. Millender-McDonald. With reference to HIV and AIDS.
    Mr. Porter. No, this is the Black Caucus. Then we are going 
to have the Women's Caucus after that.
    Ms. Millender-McDonald. However, I am a member of the 
Congressional Black Caucus.
    Mr. Porter. Well, you can talk on either one. Why don't you 
testify now on whatever you would like to add to what you 
testified to before?
    Mr. Porter. Representative Rangel.
    Mr. Rangel. Mr. Chairman, thank you so much for having 
these hearings and allowing the Congressional Black Caucus to 
be here and also to, once again, publicly thank Mr. Stokes. In 
my opinion, Mr. Stokes will always be with us. Mr. Chairman, I 
would like to thank him for his sensitive leadership and 
inspiration he has given to our Nation over the years he has 
served and, most importantly, on this committee.
    It is always a problem when someone is testifying and 
wondering how far they have to go in the facts because they 
don't know whether the person listening understands how serious 
the problem is. But when you see that Lou Stokes is around and 
the life that he has given to these problems in trying to find 
some solution, it makes our political lives and legislative 
lives a lot easier.
    I am here to advocate that, wherever you can, try to find 
adequate appropriations for education and drug rehabilitation. 
I cannot think of a more serious problem that our Nation is 
facing as we move into the next century than the moral 
indictment that we have in jail of a million and a half young 
people.
    I remember when I was briefed before I went to Cuba with 
the Pope, and I was asked, if you see Mr. Castro, make certain 
you bring up the question of political prisoners. I said I 
don't mind bringing up that question, but what happens if they 
ask us about our one and a half million political prisoners?
    Because the truth of the matter is that we are talking 
about hopelessly unemployed young people that really have given 
up on their lives, and we find our country moving more to give 
priorities on the local, State and Federal level to jails than 
they are to education. It seems to me that we cannot sit down 
at the table of international competition with this heavy 
burden on us, losing out on productivity, losing out on revenue 
and that, at our present costs, just talking about the jail 
maintenance, of $350 billion a year.
    In New York City, we pay $84,000 a year to keep a bum kid 
in detention, and it is hard for us to get more than $7,000 a 
year to keep a kid in school. If we can get these youngsters in 
school to even dream and to believe that they can become part 
of the general society--these are the kids that are not making 
the babies, doing the drugs and doing the abuse. They are 
dreaming, they are moving and they are providing an exciting 
contribution to America.
    But if we give up on these kids in school, and the school 
budgets are a total disaster, then they find themselves in the 
street, without role models, without jobs; and, quite frankly, 
drugs and violence is not a serious problem for them to deal 
with as many, many kids are going to more funerals than they 
are to graduations.
    I don't know what it is going to take to jolt this country 
into believing that this is not just a racial community 
problem, it is a national problem. It has economic impact.
    This committee has the ability to establish priorities 
through appropriations. We can go to the floor and talk about 
what is not happening in the District of Columbia, but I had 
hoped that maybe if they made the District of Columbia a model 
city, with model public schools, with model job training and 
model opportunities, as we have the greatest minds in the world 
here in the Nation's Capital, that maybe the other cities could 
see the potential that we have.
    But if we are going to fight as to who is getting the next 
prison and ignore the needs of our kids, you can be assured 
that the prison population will increase and that our 
competitive edge will decrease, and the differences between 
those that have and those that don't have is going to widen, 
and when the kid doesn't give a darn about living, then the 
rest of us got a heck of a problem to live with.
    So, Mr. Chairman, you have proven your sensitivity on these 
issues. I guess the real question is, what can we do to get the 
message out there that this is not a parochial interest; 
indeed, it is a national security interest.
    Once again, Mr. Stokes, you have done far more in the time 
you have been here than I could ever dream about doing; and I 
guess all of us will have to try to get together and fill the 
big shoes that you leave here.
    Thank you, Mr. Chairman.
    Mr. Porter. Thank you, Congressman Rangel.
    [The prepared statement of Congressman Charles B. Rangel 
follows:]


[Pages 2202 - 2204--The official Committee record contains additional material here.]



                                          Thursday, April 30, 1998.

                                WITNESS

HON. MAXINE WATERS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Porter. Congressman, Millender-McDonald.
    Ms. Millender-McDonald. I would like to refer to our 
chairwoman for her remarks.
    Mr. Porter. Congresswoman Maxine Waters of California.
    Ms. Waters. Thank you very much. I appreciate that.
    Chairman Porter, I appreciate the opportunity to be before 
you this afternoon. But, I certainly do appreciate Congressman 
Stokes, who organizes this panel of the Congressional Black 
Caucus every year. Not only does he provide leadership as we 
address our needs here in appropriations, but he provides 
leadership for all of us in our caucus and, of course, in the 
Congressional Black Caucus as well as the Democratic Caucus and 
this entire House. As a matter of fact, each time I have to 
admit that he is retiring, it makes me sad, because his 
leadership is going to be sorely missed.
    Let me just say, having the opportunity to come before you 
today, I would like to follow up on the testimony that you just 
heard. Each time you have seen me come, I have made a case for 
funding our efforts to get rid of drugs in our community.
    It is no secret to anybody that the Congressional Black 
Caucus, in the development of its agenda for the 105th 
Congress, made the eradication of drugs our number one 
priority; and we have been saying it over and over again, not 
only in all of the relevant appropriations subcommittees and 
committees but in all of our public speeches and everything 
that we do. We have tried to sound the alarm that America must 
be about the business of dealing with the eradication of drugs.
    So with that being our number one priority, with 27.8 
million Americans needing treatment, the untreated substance 
abuse costs America more than $167 billion annually in lost 
productivity, law enforcement, criminal case processing and 
health care.
    We are here in support of SAMHSA. The President's request 
is $40.5 million, but particularly important is the request to 
increase the substance abuse block grant by $200 million. We 
think this is very critical to meet the current treatment gap.
    Federal block grants provide about 44 percent of all 
national funds for substance abuse and supports treatment for 
some 3.8 million persons, and it is vital for local and State 
organizations and agencies trying to help people take back 
their lives from the ravages of drug addiction and prevent our 
youth from turning to drugs.
    Let me just move on. We have had a debate on the floor of 
Congress, I guess it was just a day or so ago, about needle 
exchange. Well, whether we approach the problems of HIV and 
AIDS from one direction or the other, there are people who 
believe that needle exchange will make a difference. There are 
people who take the opposite point of view. The fact of the 
matter is, we have got to be serious about this issue. We have 
got to take our heads out of the sand. There are dramatic 
increases in HIV/AIDS infection and really is devastating the 
African American and minority communities.
    AIDS is now the number one killer of African Americans 
between the ages of 25 and 44, and we believe that the Federal 
funds must go where the problem is.
    What we are finding, in addition to all the work we do here 
to try to get those funds into our communities, something is 
wrong in the system that is not allowing our local groups to 
access the dollars in the way that they should.
    I called together all of the AIDS groups in my community 
over a year ago to find out why I was constantly getting calls 
about the inability to get dollars to deal with the problem. 
Well, what I discovered was this:
    When the money goes down from the Federal Government to the 
State, each of the States have different systems by which to 
get the money into the community, and you have got to now be 
sophisticated and learn how these systems work, and the people 
who manage the systems have got to be open to allowing new 
people to come in and not just those who started early in this 
funding game.
    So the commissions and the task forces that design the RFPs 
and change the direction, sometimes from treatment, from 
outreach to treatment, they do this oftentimes without some of 
the very local groups knowing what direction the funding is 
going in, and they miss the ability to respond to a request for 
a proposal, and they are left out there trying to serve 
populations.
    I think, as we look at this funding, we are going to have 
to be advocates for several things, technical assistance and 
the kind of outreach and education that will help to teach 
communities about the systems that impact their districts.
    In addition to that, let me make a case for the trauma that 
we are experiencing in the African American community as it 
relates to almost every disease that you can mention.
    The papers are constantly reminding us or alerting us to 
the fact that African Americans are dying at high rates for 
cardiovascular diseases, HIV and AIDS. We are high on the list 
for diabetics, even though I don't think we are number one. But 
we are right up there with a lot of amputations taking place, 
you name it.
    In almost every category of disease, African Americans are 
number one, and we get less treatment. We can't get the 
transplants, many of the life-saving therapies and new 
technologies that can save lives. We are the last to get it.
    I was reminded of this attending the Health Brain Trust 
that has been led by Mr. Stokes for so many years, and I sat 
there, and I became overwhelmed with hearing the information 
one more time. So the President, as part of his race 
initiative, has included a proposal for $80 million to set up 
some demonstration projects, to foster more outreach and access 
to health care in minority communities. This is desperately 
needed.
    African Americans are dying from preventible diseases, and 
the money that the President is requesting would be a portion 
between the Centers for Disease Control and the National 
Institutes of Health and other agencies within Health and Human 
Services.
    I wish that I could come before this committee this year or 
in the next few years and say, Mr. Chairman, it has been done, 
we are making headway, but today I can't say that. Today I am 
overwhelmed, somewhat frightened, but determined that we direct 
the resources toward these problems, that we get on top of the 
problems; and, of course, your decisions are crucial and 
critical to our ability to do that.
    I appreciate your listening one more time, but I would 
appreciate even more your support for these and other 
initiatives that will help with the problem.
    Mr. Porter. Congresswoman Waters, thank you for your 
statement.
    [The prepared statement of Congresswoman Maxine Waters 
follows:]


[Pages 2208 - 2209--The official Committee record contains additional material here.]



                                          Thursday, April 30, 1998.

                                WITNESS

HON. JUANITA MILLENDER-McDONALD, A REPRESENTATIVE IN CONGRESS FROM THE 
    STATE OF CALIFORNIA
    Mr. Porter. You are the chair of this panel. I would plan 
to call on people in the order of their arrival, but you might 
want to vary that. I will follow your lead on that.
    Ms. Waters. Oh, please, in the order of arrival would be 
fair.
    Mr. Porter. That would be Congresswoman Millender-McDonald.
    Ms. Millender-McDonald. Thank you so much, Mr. Chairman; 
and let me please associate myself with the testimony that has 
taken place here already.
    We do know that education is the liberating tool that would 
bring people out of welfare to work. We recognize that under 
the rubric of education comes job training, comes counseling, 
comes after school programs; and we are really encouraging you 
to encourage all those on this panel, on this committee, to be 
sensitive to the needs.
    We come here every year asking for the same thing, so, 
obviously, that money is not coming down to where it is really 
needed. It is needed solely in our communities. We are trying 
to fight the drugs, HIV and other serious diseases; and we 
cannot do that without help, without resources, financial and 
other resources. So I just ask you, you have been very 
sensitive to the requests that I have made before your 
committee since I have been here, and I ask that you continue 
to do that.
    We are losing a giant among us. Mr. Stokes has been a 
national leader. I knew him before I got here, and I tell you, 
I look up to him all the time, not because he is six whatever 
but because he has made giant steps in this House, and he has 
certainly served us well. We want to continue to make sure that 
his presence is here on this committee when we come before you 
touting the critical concerns that we have about the ills of 
our community.
    I did not come with a prepared speech, but when you call 
the Congressional Black Caucus, of course I am a member of 
that, and I do thank you very much for this opportunity.
    Mr. Porter. Thank you, Congresswoman Millender-McDonald.
                              ----------                              

                                          Thursday, April 30, 1998.

                                WITNESS

HON. JOHN CONYERS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MICHIGAN
    Mr. Porter. Next would be Congressman John Conyers.
    Mr. Conyers. Thank you, Mr. Chairman.
    Say it isn't so, Lou. We may have to use extraordinary 
means to get you to reconsider. This is one of the few times I 
have disagreed with your judgment in these 20-something years.
    But I come here on a local note, just to tout where some of 
these Health and Human Services appropriations go in the 
Departments of Labor and Health and Human Services. In Detroit, 
there are three areas that I just want to mention; and my 
remarks will be in the record.
    The Focus: HOPE job training center, that serves as an 
international model, Mr. Chairman. They started off with the 
late father, Bill Cunningham, started off feeding, and then he 
went into pharmaceuticals, and then he started doing some kind 
of job--he was getting a few labor grants for jobs, and then he 
started pulling in the retiring vice presidents and sometimes 
CEOs of the auto corporations, and then the training program 
grew from just apprenticeship to an engineering-certified, 
degree-granting institution. We have had everybody in there 
from the President and Colin Powell; many of our colleagues 
have come in. The late Secretary Brown took this plan over to 
South Africa to present to President Mandela's government. When 
the students finished this really grueling program, they walked 
across the stage into the arms of an employer.
    If you have an engineering degree from Focus: HOPE, you 
have a degree that is more welcome in the ranks of the auto 
industry than the degree-granting institutions of Wayne 
University, U of M, and MSU. Because this has been developed by 
auto management executives, so it is tailored exactly for what 
they need this kind of skill for.
    The other success story in metro Detroit is the Job Corps 
Center. It has really done great work with kids through 16 to 
24. They receive a basic education plus vocational education, 
plus counseling, plus placement. So it is a really gratifying 
institution.
    The other is the medical grants that have come our way. 
Henry Ford Hospital has research grants for vision research, so 
it was no accident that the senior senator of Michigan brought 
the Chinese dissident, Wang Dan, who was flown straight into 
Detroit to the Henry Ford Hospital, for the very necessary 
treatment that he needed.
    On the policy front, we are asking the committee to look 
into the inability of HHS to allow its community development 
corporation grantees to retain their assets, which of course 
allows them to grow. Example, if a development corporation 
happens to make a profit off of their enterprise, it shouldn't 
be required to return the money to HHS. I mean, it seems to me 
that this undercuts the entrepreneurial spirit that we spend a 
lot of time around here promoting. Development corporations 
ought to be permitted to retain and reuse the money.
    So I am happy to join and affiliate myself with the remarks 
of our chairperson, of the gentlelady, Ms. Millender-McDonald, 
from Los Angeles, and all of us who have really, under Mr. 
Stokes' guidance, have provided some of the fundamental basic 
policy directions in the delivery of all of these very 
important services in health and in labor as well.
    Thank you for allowing this intervention.
    Mr. Porter. John, thank you very much.
    [The prepared statement of Congressman John Conyers, Jr., 
follows:]


[Pages 2212 - 2213--The official Committee record contains additional material here.]



                                          Thursday, April 30, 1998.

                                WITNESS

HON. EDDIE BERNICE JOHNSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF TEXAS
    Mr. Porter. Next, Congresswoman Eddie Bernice Johnson of 
Texas.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    I serve as an officer in the Caucus and the vice chair of 
the Health Brain Trust of the Caucus; and I want to just say, 
very quickly, the uniqueness of program needs for the minority 
community is that the population that is becoming infected by 
HIV/AIDS now is a population that many of us don't come in 
direct contact with. It is not like addiction to smoking where 
professionals will see other professionals and they can talk 
about it or even the addict that is a professional.
    This is a unique population because you have to go into 
very difficult areas, into specific communities and 
neighborhoods and areas to attempt to find the people.
    Many of the addicts, and this is what is causing most of 
the infection now with women and children, don't have that 
information. That was the value of having the needles. Because 
just as you can't stop smoking without help and you can't stop 
prescription drug addiction without help, you really cannot 
stop other drug addiction without help. It becomes an illness. 
It becomes a way of life. So that is one of the uniquenesses, 
that any poor population, especially a minority population, has 
to be individually targeted in order to touch that particular 
population.
    What we are dealing with now is block granting going to the 
States. We don't have as much expertise in the black community 
in grant writing. We have not had the experience. We have not 
been doing it as long. And, as a consequence, our population 
that is infected is growing very, very rapidly.
    It is being transmitted through sexual contact and needle 
infection of men to wives and children. We have the largest 
number of children being born infected with that virus. The 
incidence among black women now is higher than their population 
percentage in the population. It is serious.
    Somehow we have got to educate our colleagues well enough 
to understand that some specific areas must be considered when 
you are attempting to get to a population that cannot be 
accessed in any other way except one on one, people actually 
going to the street and finding these people and going into 
particular isolated neighborhoods, where they tend to be, and 
without the knowledge of how they can help themselves and often 
without the knowledge that they even carry the virus.
    I thank you so much for your past consideration. I thank 
you for the time.
    Mr. Porter. Thank you, Congresswoman Johnson, for your good 
statement.
    [The prepared statement of Congresswoman Eddie Bernice 
Johnson follows:]


[Pages 2215 - 2226--The official Committee record contains additional material here.]



                                          Thursday, April 30, 1998.

                                WITNESS

HON. DONALD PAYNE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    JERSEY
    Mr. Porter. Congressman Don Payne.
    Mr. Payne. Thank you, Mr. Chairman.
    Let me say, first of all, that we really appreciate the 
support that we have gotten from this subcommittee through the 
years and appreciate your interest in our issues, and we are 
simply Stokes soldiers out here trying to carry this on to 
victory. I don't know what we are going to do without our 
esteemed leader, but we will have to come up with--maybe it 
will take 10 of us to step in his shoes, he is such a great 
man.
    Let me also commend the Chairperson of the Congressional 
Black Caucus for her fine leadership.
    Let me just move quickly into a statement that we all know 
that we are privileged to be living in a time of great 
prosperity in this country, experiencing unprecedented economic 
growth and the lowest unemployment rate in decades. 
Unfortunately, this prosperity has not spread to our inner 
cities. In fact, the overall unemployment rate for African 
American teenagers continues to hover around 30 percent. In 
urban and rural areas of concentrated poverty, joblessness is 
even more pervasive.
    Surveys conducted by the Department of Labor and selected 
inner city neighborhoods in Chicago, Houston, Los Angeles, 
found unemployment rates for out-of-school youth of only 39 
percent, with only 29 percent employed full time. Now is the 
time the economy is strong to begin addressing the issues of 
joblessness and poverty in our Nation's most impoverished 
areas. If we can't do it now, we will never be able to do it.
    The effects of joblessness and poverty on our society are 
staggering. I believe that education and employment are the 
keys to fighting poverty in racial and ethnic inequities in our 
country.
    Therefore, I come before the subcommittee today to support 
the Department of Labor's $250 million appropriation for the 
President's Youth Opportunity Areas initiative. This initiative 
specifically addresses the issues of poverty and joblessness. 
It targets funds directly to high-poverty urban and rural 
areas, and its goals are to increase the employment rate of 
out-of-school youth ages 16 to 24 in high-poverty neighborhoods 
from the current levels of less than 50 percent to a level of 
80 percent--that is in the goals of this bill--equal to what we 
would find among youth with at least a high school diploma in 
nonpoverty areas. The Department of Labor estimates that 50,000 
youth could be served at this funding level of $250 million.
    The Youth Opportunity Areas initiative should have strong 
appeal to both Democrats and Republicans, because its main 
emphasis is work, and I think all of us believe fundamentally 
in the importance of work and work effort. It also has a strong 
emphasis on the private sector for employment, so, therefore, 
the core of this initiative is working to place and keep out-
of-school youth in private sector jobs.
    The Department of Labor has made three initial pilot 
programs. One is in Boston, one is in New York City, and one is 
in rural Kentucky.
    The Houston site, in particular, is very promising because 
the program has 14 case managers. Job developers are working 
with youth. They have placed 220 persons in jobs, 150 other 
youngsters are working in other areas, 78 are enrolled in job 
training, and 60 have GED classes, and another 60 are at the 
point of getting work. This is a specific pilot that we could 
look at. It is quantitative. We can see that it works.
    So, once again, I just appeal to you that the Youth 
Opportunity Areas pilot sites could be duplicated and 
replicated if we can get the $250 million that the President is 
asking for.
    I have some other material, but since there are other 
members of our committee I would simply, once again, thank the 
committee for allowing us this opportunity, once again, we 
appreciate your previous support; and we hope it continues in 
the future. Thank you very much.
    Mr. Porter. Thank you, Don.
    [The prepared statement of Congressman Donald M. Payne 
follows:]


[Pages 2229 - 2233--The official Committee record contains additional material here.]



                                          Thursday, April 30, 1998.

                                WITNESS

HON. MAJOR OWENS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    YORK
    Mr. Porter. Next, our colleague from New York, 
Representative Major Owens.
    Mr. Owens. Mr. Chairman, members of the committee, I want 
to thank you for this opportunity; and I am going to be brief 
and not repeat things you know very well.
    I want to talk about the TRIO programs, and you are quite 
familiar with that. You have been a guardian of this program 
and nurtured it along through some very difficult periods while 
other programs were being cut. I am here to talk about the fact 
that everybody agrees on the Education and the Workforce 
Committee that this is an exemplary program that works. The 
Higher Education System Act is now being considered on the 
floor. We were there until midnight last night, I understand, 
and will be back next week.
    It is important to note that H.R. 60 is basically a good 
bill. My problem is, I think we missed some golden 
opportunities to move forward; and, most of all, we should have 
provided more opportunities for more people to go to college.
    When you consider how complicated the world is becoming and 
the fact that we can point to specific areas where there are 
large shortages now of trained personnel, especially in the 
information technology industry where there are now about 
300,000 vacancies right now and they expect, in the next 3 or 4 
years, you will have as many as a million vacancies--these are 
unfilled positions. They project there won't be people coming 
out of college who will fill them if you keep the present 
number of people in college at the same level.
    We need more people going to college. It is true we have a 
lot going in this country, more than most industrialized 
nations, but still less than 10 percent of the population goes 
to college. Certainly we want the segment of the population 
that has been locked out before, those people whose parents 
didn't go to college are the ones that TRIO focuses on. TRIO, 
which now, as you know, is no longer TRIO, it is about six 
different programs, but the heart of TRIO is still Talent 
Search and Upward Bound, and it works.
    The authorizing committee did a very unusual thing when we 
had it before us. We voted unanimously, both parties, to 
increase the TRIO program from the level of $560 million down 
to $800 million. The authorization has been raised to $800 
million by unanimous consent on the authorizing committee, 
which held fast and didn't increase anything else, by the way. 
But it recognized it works.
    There was a discussion, some people felt the TRIO programs 
have proceeded very well, and they wanted to disqualify and 
defund some of the existing programs so that new areas where 
people had been disadvantaged and are not as sophisticated and 
didn't get in on the proposal writing and qualify first, they 
should be given preferential treatment and funded instead of 
the old areas.
    We are not in favor of that, and that was rejected by the 
committee. Instead, we unanimously authorized an increased 
amount of money. And although we didn't have a vote on it, 
there was a general sentiment that the increased money, the new 
money, should go to areas, and they should be picked on the 
basis of the most disadvantaged areas that had been left out 
before, who had not been funded before, and some kind of system 
should be developed to guarantee those people get a fair share.
    So we would like to see the Appropriations Committee, which 
has always been very supportive of TRIO, follow through on the 
unprecedented, bipartisan cooperation of the authorizing 
committee and sustain the $800 million funding we have asked 
for.
    I would appreciate your efforts in direction.
    Mr. Porter. Thank you, Major.
    [The prepared statement of Congressman Major Owens 
follows:]


[Pages 2236 - 2241--The official Committee record contains additional material here.]



                                          Thursday, April 30, 1998.

                                WITNESS

HON. ROBERT SCOTT, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    VIRGINIA
    Mr. Porter. Congressman Robert Scott of Virginia.
    Mr. Scott. Thank you, Mr. Chairman.
    I am pleased to join my good friend, Louis Stokes, in his 
tireless effort to improve the health of disadvantaged 
individuals and groups. I am sure you will agree with me when I 
say that, as a result of his efforts and leadership, there is a 
much greater awareness in Congress and in the Nation of the 
health needs of disadvantaged children and adults.
    We held a Congressional Black Caucus Brain Trust on Health 
last Friday; and, unfortunately, it went much longer than we 
had anticipated because all of the 200 participants there felt 
individually compelled to go on and on about the accolades for 
the leadership and hard work of the chairman of that Brain 
Trust, Congressman Stokes, and how disappointed they were at 
the news he is not seeking reelection. And because of those 
accolades--I mean, you tried to stop it, and somebody else 
would jump up and go on and on about the hard work. So we have 
a lot of work to do in joining the others in expressing their 
dismay that Congressman Stokes is not running for reelection.
    Mr. Chairman, while the health status in the general 
population of the United States has improved, the health 
indicators for minorities overall and African Americans in 
particular have not kept pace. We heard at that Congressional 
Black Caucus health forum a long list of disparities in health 
status indicators between disadvantaged minority populations 
and the general population.
    There are three specific initiatives before the 
subcommittee that will help close those gaps: the Healthy Start 
program, Minority Health Professions Training Initiative, and 
the Youth Violence Prevention.
    The Healthy Start program has been recognized and funded by 
this subcommittee, started as a program to improve infant 
mortality rate in high infant mortality communities. It has 
brought a significant drop in infant mortality and low birth 
weights.
    The second initiative, research has shown that most health 
care to minorities is provided by minority health 
professionals. So another way to effectively address the 
disparities in health status is to increase the number of 
minority health professionals. The program, under the 
Disadvantaged Minorities Health Improvement Act of 1997, 
designed to increase the number of minority health 
professionals, is an important initiative to achieving that 
goal.
    I would also ask that the subcommittee support funding of 
the Youth Violence Prevention Initiative, developed by the 
gentleman from Ohio. Violence has reached almost an epidemic 
proportion in some of our communities, and far too much of it 
involves young people on both sides of it. Research has shown 
that early, comprehensive, family-based interventions for at-
risk youth will have a significant impact in reducing violence 
and other crimes and at a much lower cost than the ineffective, 
after-the-fact approaches on which we are now spending billions 
of dollars.
    Mr. Chairman and Mr. Stokes and Ms. DeLauro, I appreciate 
the opportunity to provide this testimony and hope you see fit 
to fund the Healthy Start program, the Minority Health 
Professionals Training and Youth Violence Prevention 
Initiatives.
    Thank you, Mr. Chairman.
    Mr. Porter. Thank you, Bobby.
    [The prepared statement of Congressman Robert C. Scott 
follows:]


[Pages 2244 - 2247--The official Committee record contains additional material here.]



    Mr. Porter. Lou might be reconsidering his decision here. I 
don't know. Lou, would you like to respond?
    Mr. Stokes. Thank you, Mr. Chairman.
    Mr. Chairman, let me take just a moment. You have been very 
gracious with your time that you have extended to each of my 
colleagues; and I don't want to take up too much time, 
particularly knowing you have got to make a very important 
call.
    But, I do want to take just a moment to say to my 
colleagues in the Congressional Black Caucus how much it has 
meant to me that, each year when I have requested you to appear 
here as a panel, that you have been responsive in coming here 
and testifying on the programs that you have addressed here 
this afternoon.
    It has been difficult over the last 20 years to sit here 
each year, day after day, year after year, listening to the 
testimony of the secretaries of the various departments, the 
heads of all the NIH departments, as they, in response to 
questions posed by me, reiterate the devastating condition of 
minorities in this country. Whether it be in the area of labor, 
health, human services or education, we are the bottom rung of 
the ladder.
    I need not say that to you because I know, on the 
committees where you work, you are carrying out the same type 
of work that I carry out here, pointing out the disparities in 
life in America for minorities. So your presence here today is 
very, very important to me.
    Many of the programs you have responded to, I have to give 
credit to this subcommittee. I don't know of any subcommittee 
or committee in the Congress that has been more responsive than 
this committee has been to the kind of concerns that I have 
expressed and you have expressed here today.
    In particular, I want to commend Chairman Porter. He and I 
have sat on this committee together many, many years, even 
before he became chairman of this committee, but he has always 
been responsive and sensitive to these areas of concern which 
you have addressed here today, and I want the record to show my 
appreciation for his response to these areas.
    While I will not be here to carry on this fight, as I have 
in the past, it will be extremely important in my absence that 
you continue to be as vocal and as articulate and as vigilant 
as you have been in the past to see that this type of concern 
and sensitivity is brought before this subcommittee.
    I thank you for your appearance.
    Mr. Porter. Lou, it hasn't been the subcommittee or the 
chairman, it has Lou Stokes and his advocacy, believe me; and 
you know we are going to miss you and the leadership that you 
have provided.
    Mr. Stokes. Thank you, Mr. Chairman. Thank you.
    Mr. Porter. We will have a chance to dwell on that a little 
bit more.
    Ms. DeLauro.
    Ms. DeLauro. Very, very briefly, I would like to say to the 
Black Caucus what an honor it has been for me to serve on this 
committee with Lou Stokes. I sit at this end, and he is there, 
but he is always a mentor.
    I listen carefully when he speaks, and don't let anyone be 
misled, he knows the absolute big picture. He focuses in on the 
questions about what is going on in the lives of minorities, 
men, women and children, in this country. Those issues have 
always been at the forefront of his agenda. He has taught me a 
lot, and I will deeply miss him. He has been a mentor to me.
    And I say to the Black Caucus, whether it is education or 
the TRIO or the drug issue and so forth, whatever happens in 
this committee, everything affects everyone's lives personally 
when it comes before us. You have focused foursquare on making 
sure that those are the issues that you spend your time and 
your emphasis on. Thank you for being here, and we will do the 
very, very best we can for you on this committee.
    Mr. Stokes. Thank you.
    Mr. Porter. Ms. Lowey, do you want to add anything at this 
point? You certainly may.
    Mrs. Lowey. First of all, I want to apologize for not being 
here for my good friends' testimony; but I have worked with 
these outstanding Members of Congress; and I can almost write 
the testimony, knowing that they care passionately, and I mean 
passionately, about the issues we are dealing with.
    The only problem with this committee is there is a constant 
trade-off between the great issues we all care about. We care 
about schools, we care about education, and we care about child 
care. We would like to make sure that our schools are open 
until 7:00, all of them, so we can have real, constructive 
after-school programs and child care within the schools.
    So I just want to thank you for your advocacy, thank you 
for your agenda, thank you for your heart, thank you for your 
commitment, and I just want to assure you that there are many 
of us on this committee that are going to continue to advocate 
for your agenda because we care as well.
    We are all so sad that our star is going to be retiring. 
Lou Stokes has not only been a star in the entire Caucus but he 
is such an eloquent advocate on this committee, a good friend 
of ours, and we are going to miss him. We will work very hard 
to try to achieve just a fraction of what Lou Stokes has 
achieved in the service to this committee.
    So I want to thank you for appearing before us; and we 
thank you, Lou Stokes, for being on our committee; and we will 
try and work hard to carry on your good name. Thank you.
    Thank you, Mr. Chairman.
    Mr. Porter. Thank you, Ms. Lowey.
    Thank you everybody who has testified.
    Mr. Scott.
    Mr. Scott. I have testimony I would like to have as part of 
the record that goes in a little more depth than my statement.
    Mr. Porter. Without objection, it will be received.
    Mr. Payne. Mine also, Mr. Chairman.
    Ms. Waters. Thank you very much.
                              ----------                              --
--------

                                          Thursday, April 30, 1998.

                                WITNESS

HON. ELEANOR HOLMES NORTON, A DELEGATE IN CONGRESS FROM THE DISTRICT OF 
    COLUMBIA
    Mr. Porter. Some of you are also staying for the next 
panel, the Congressional Caucus for Women; and whomever is 
here, we will next hear from.
    Ms. Norton, you are the chair, are you not?
    Ms. Norton. Yes.
    Mr. Porter. Well, we will next hear from the Congressional 
Caucus for Women; and we are pleased to welcome the Chair, 
Congresswoman Eleanor Holmes Norton of the District of 
Columbia.
    Ms. Norton. Thank you very much, Mr. Chairman. I hope you 
will indulge me so that I can say at least a half a minute 
about Mr. Stokes. Because of a dinner in my district, I may 
have to leave before all of my colleagues in the Caucus 
testify.
    That special word, Lou, is simply that if there was a 
tradition in the House of hanging up and retiring the shirt, 
yours would have to be gone. We are going to leave your chair 
there, but, for some of us, it is going to be a chair that will 
never be filled. The esteem in which you are universally held 
does not come simply because of your remarkable personality. It 
comes because of your work and your brain and what you have 
earned in that esteem. You will be missed across this body.
    Mr. Chairman, the Congressional Caucus for Women's Issues 
very much appreciates the opportunity once again to testify 
before you. Today, we carry on a great tradition in the Women's 
Caucus in which your subcommittee has kindly indulged us. As we 
come before you once again to continue the fight for important 
initiatives which are vital to meeting the needs of women, 
children and families, we stress the unique bipartisan nature 
of our Women's Caucus and its strength and solidarity and 
growing numbers that has helped bring about many changes for 
women, many of them with the help of this very subcommittee.
    This necessarily means, of course, that not all issues are 
Women's Caucus issues. The issues of this subcommittee, 
however, are quintessentially Women's Caucus issues.
    This year, we celebrate a record number of women in the 
House. We are 55 strong and growing. All three special 
elections this year were won by women. Our growing numbers have 
strengthened our issues and strengthened our resolve.
    For the first time in 20 years, the Women's Caucus 
initiated informational hearings of its own in the 105th 
Congress to put us on the cutting edge of issues for women, 
children and families. All of our hearings share individual 
subject matter under your purview. We have had hearings on 
child care for 0 to 3-year-olds, contraceptive research, 
coverage and technology, Title IX, Federal procurement for 
women-owned businesses in a town meeting on economic equity.
    Earlier today, we had our latest informational hearing on 
exciting new developments in drug technology for the prevention 
of breast cancer. The Tamoxifin breakthrough on breast cancer 
is the kind of issue we particularly seek for our own 
informational hearings.
    No subcommittee has proved more critical to our work than 
this subcommittee. We want to offer our very special 
appreciation for the way in which you, Mr. Chairman, and this 
subcommittee have been responsive to the concerns of women and 
families.
    Members will be testifying today about issues of special 
concern to them personally. Our co-chair, Nancy Johnson, will 
be testifying about Title X, an issue of great importance to 
our Caucus.
    Through our hearings on contraceptive research, we learned 
publicly funded family planning prevents 1.2 million unintended 
pregnancies a year.
    There are a few members who have had to leave, and I won't 
call their names because they will be submitting testimony 
directly to you, Mr. Chairman.
    The former co-chair of the Caucus, Representative Connie 
Morella of Maryland, will testify about osteoporosis, AIDS and 
domestic violence. Representative Eddie Bernice Johnson of 
Texas will testify about HIV and AIDS. Representative Juanita 
Millender-McDonald of California will testify about 
telemedicine. Representative Carolyn McCarthy will testify 
about breast cancer. Representative Sheila Jackson Lee of Texas 
will cover domestic violence. Representative Lucille Roybal-
Allard of California will identify her concerns in her 
testimony.
    Mr. Chairman, I would like to conclude by thanking you and 
the ranking member for the extensive work you have done through 
these tough budget years to salvage the priorities of women and 
families. We appreciate just how difficult this task has been. 
We urge you to focus on and to emphasize the important 
priorities we bring to you today and that we think fairly 
represent the priorities of women in the country.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Delegate Eleanor Holmes Norton 
follows:]


[Pages 2252 - 2262--The official Committee record contains additional material here.]



    Mr. Porter. Congresswoman Norton, you are the chair and if 
you wish, you can call on members in the order you wish to 
present them or I will call them in the order in which they 
arrived.
    Ms. Norton. You may do that, Mr. Chairman. I prefer you do 
that, except Ms. McCarthy apparently has to get a plane.
    Ms. McCarthy. I have to get a vote first.
    Ms. Norton. Well, then I think they shouldn't be called out 
of order.
    Mr. Porter. Congresswoman Millender-McDonald has been with 
us all afternoon, and this is her third appearance, so she is 
next.
    Ms. Millender-McDonald. Does that mean I get a seat up here 
perhaps?
    Mr. Porter. Pretty soon, right.
                              ----------                              --
--------

                                          Thursday, April 30, 1998.

                                WITNESS

HON. JUANITA MILLENDER-McDONALD, A REPRESENTATIVE IN CONGRESS FROM THE 
    STATE OF CALIFORNIA
    Ms. Millender-McDonald. I thank you so much, Mr. Chairman 
and members and all of the women on this great committee, for 
the opportunity to bring together the women of the House, who I 
am proud to say are now 55 members strong.
    Although I would like to discuss the dire need of school 
construction, the climbing rate of teen pregnancy, the serious 
health disparities that exist for minorities and women and 
numerous other important health and education issues, I will 
limit my comments to the problem of AIDS.
    Just this past weekend, I led the Second Annual AIDSWalk 
for Minority Women and Children in Los Angeles to address this 
issue in my community and the State of California. While the 
number of national AIDS cases declined among most populations 
in the past couple of years, the number of cases actually 
increased among women by 2 percent.
    African American women are nearly 15 times more likely to 
have AIDS than that of white women. Women die 33 percent faster 
than men from AIDS. This is a dangerous national trend that is 
hitting the 37th district of California particularly hard. In 
Los Angeles alone, there are an estimated 25,000 AIDS cases.
    Earlier today, I shared with you a remarkable resource for 
inner cities that is run by Drew University in my district, the 
first-ever urban telemedicine project in the country. In 
treating and preventing severe loss of vision and blindness 
resulting from AIDS, telemedicine is just one of the many ways 
underserved communities can obtain the medical care they need.
    The other resources that are critical in lowering not just 
the death rate but also the transmission rate among women and 
children include allowing States to fund needle exchange 
programs and providing the necessary funds for the Ryan White 
CARE Act.
    Particularly, I am requesting a $105.2 million increase 
from last year's appropriation for Title I and a $36.7 million 
increase for last year's appropriation for Title III.
    There are 51 metropolitan areas eligible to receive Title I 
funds that provide emergency assistance care to 74 percent of 
all reported AIDS cases in the United States. Each year, HRSA 
estimates 20 percent of Title I clients are new cases.
    Title III of the CARE Act serves the hardest to reach 
communities. Approximately 80 percent of Title III clients have 
incomes below 300 percent of the poverty level, and 25 percent 
of Title III HIV patients are women of child-bearing age.
    These Title III primary care programs in 43 States provide 
early diagnosis, treatment and ongoing care for people with 
AIDS, which extends lives and saves money. Early diagnosis and 
treatment for almost 100,000 people reduce hospitalization by 
up to 75 percent.
    I need not go on and on. It is also important that you know 
of the funding that is critically needed for AIDS and the drug 
assistance program under Title II; and I thank you, Mr. 
Chairman, for your sensitivity to this issue.
    Mr. Porter. Thank you again, Congresswoman Millender-
McDonald, for your good testimony.
    [The prepared statement of Congresswoman Juanita Millender-
McDonald follows:]


[Pages 2265 - 2266--The official Committee record contains additional material here.]



                                          Thursday, April 30, 1998.

                                WITNESS

HON. EDDIE BERNICE JOHNSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF TEXAS
    Mr. Porter. Congresswoman Eddie Bernice Johnson of Texas.
    Ms. Johnson. Thank you very much, Mr. Chairman, for 
allowing me an opportunity to speak on behalf of the Women's 
Caucus on the critically important issue of HIV/AIDS and its 
devastating effects upon American women.
    The number of AIDS cases among women is swiftly increasing 
and growing more rapidly than in men. Women are the fastest-
growing population of HIV-infected persons, and the number of 
AIDS cases among women is doubling every 1 to 2 years.
    The Centers for Disease Control preliminary data indicates 
HIV/AIDS continues to be the fourth leading cause of death 
among women 25 to 44 years old. In 1995, African American and 
Latino women represented 78 percent of all U.S. women diagnosed 
with AIDS. A recent report on the AIDS epidemic in Dallas 
County, where I reside, revealed the proportion of African 
American women living with AIDS is greater than the proportion 
of African Americans in the general population.
    Federal funding for biomedical and behavioral research is 
crucial in order to combat this disease. Research priorities 
for HIV/AIDS must include studies that identify patterns of 
behavior and social conditions among cultural and age-based 
groups of women that determine their risk of infection. Serious 
focus must be placed on issues such as power in various 
relationships, physical and sexual abuse, substance abuse and 
economic inequities between men and women.
    In fiscal year 1998, Congress provided welcomed increases 
in HIV/AIDS research prevention and care. However, more is 
needed if we are to combat this ever-evolving epidemic and take 
full advantage of the medical advances that are beginning to 
emerge; and I would certainly urge this committee to support 
funding for the Centers for Disease Control and the National 
Institutes of Health. The agencies must receive the highest 
priority in order to address this number.
    I am close to this issue because of my profession. I 
understand the devastating effect it has on the entire 
population and certainly these people and their families.
    Through the increased funding of the Ryan White Program and 
prevention activities initiated by NIH and the Centers for 
Disease Control, I believe it will be accomplished and that we 
can find a vaccine and that, eventually, we will find a cure.
    So, again, I thank you very much for your sensitivity and 
interest in this.
    Mr. Porter. Thank you, Congresswoman Johnson.
                                          Thursday, April 30, 1998.

                                WITNESS

HON. CAROLYN McCARTHY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW YORK
    Mr. Porter. We have a vote on, and we have probably 6 or 7 
or 8 minutes.
    The order that I have is Carolyn McCarthy, then Sheila 
Jackson Lee and then Connie Morella.
    Congresswoman McCarthy.
    Mrs. McCarthy. I am known to be extremely fast.
    Mr. Porter. You have been very patient. You have been here 
a long time.
    Mrs. McCarthy. I will submit my full testimony.
    I am here to represent the women certainly of this country 
but also the women of Long Island and New York State on breast 
cancer. Unfortunately, on Long Island, we have an extremely 
high rate of breast cancer. Many of us feel it has to do with 
our environment; and we are looking for, obviously, funding, 
again, within NIH to look into this.
    Not only does breast cancer affect women, it affects all 
the families. I myself am a nurse, and I know a lot, and I 
examine a lot. Every year I go for my mammogram, I always 
wonder, am I going to be next? We have one out of nine women on 
Long Island that come down with this terrible disease. I happen 
to believe research can come up with why are we getting it.
    Only 10 percent of women actually have breast cancer 
because of their genetic makeup. There are many other reasons. 
We have to find this out. The money we spend on research and 
maybe the connection between environmental causes will save 
this country billions and billions of dollars through, 
certainly, our lifetime. I just want to put my strong support 
onto research.
    I don't envy any of you in your jobs. I sit here listening. 
Every single project that we have is important to the people of 
this country; and, unfortunately, you have to make those 
choices. It is tough, and God bless you.
    Mr. Porter. Thank you, Congresswoman McCarthy.
    [The prepared statement of Congresswoman Carolyn McCarthy 
follows:]


[Pages 2269 - 2270--The official Committee record contains additional material here.]



                                           Thursday, April 30, 1998

                                WITNESS

HON. SHEILA JACKSON-LEE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TEXAS
    Mr. Porter. Sheila Jackson-Lee of Texas.
    Ms. Jackson-Lee. Mr. Chairman, thank you very much; and we 
should offer our great appreciation for this committee's work. 
It is the heart and conscience of America, seriously, on the 
kinds of programs--and let me associate myself with the remarks 
of the Congressional Black Caucus and the Chairwoman of the 
Women's Caucus and tribute to Lou Stokes. I would want to stand 
up and retire shirts and say a whole lot of things, but I hope 
we will have times to come. And the women on this panel, in 
particular, I do thank you for your leadership.
    I would like to talk in a bionic minute to say the domestic 
violence programs are enormously important; and I would like to 
submit into the record, if I could, more information on that.
    Ms. Jackson-Lee. Because I have an additional cause I would 
like to raise to this committee's attention, and it impacts 
women. It is the Comprehensive Community and Mental Health 
Services for Children and Their Family's program. This actually 
deals with mothers and families but children with emotional 
disorders. Eleven million children who need to be diagnosed in 
this country are not. This legislation was authorized in 1992, 
and it has not gotten its full appropriations.
    I want to thank the committee for what it has done, but we 
are talking about situations where 1 in 20 children will have a 
severe disorder by the age of 18 and from ages 9 to 17 may have 
a serious emotional disturbance as well. The children usually 
wind up in the juvenile justice system. Suicide is the fourth 
largest cause of death among teenagers.
    This program is only in 22 States and helps to go into 
communities and work with parents and schools and churches to 
embrace the child who has an emotional disorder.
    I encourage your support along with support for the Head 
Start program and support for funding for NIH in order to have 
more testing of the cause of the impact of silicon breast 
implants, and I would greatly appreciate the committee's review 
of that issue as well.
    Mr. Porter. Thank you, Congresswoman Jackson-Lee.
                              ----------                              

                                          Thursday, April 30, 1998.

                                WITNESS

HON. CONNIE MORELLA, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MARYLAND
    Mr. Porter. Congresswoman Morella.
    Mrs. Morella. Thank you, Mr. Chairman.
    I echo everything that has been said laudatory about Mr. 
Stokes. I am going to miss him as a constituent, too. He used 
to give me an idea of what was happening in the community, but 
he has been a great statesman and a very good friend.
    Mr. Chairman, you are certainly one of the top 
congressional supporters of the National Institutes of Health; 
and I appreciate it very much. I commend you for ensuring such 
a generous increase of NIH funding in fiscal year 1998 and I 
know you will continue to make biomedical research a priority.
    We ask you continue your strong support for the Public 
Health Service Office on Women's Health, the NIH Office of 
Research on Women's Health and the other offices of women's 
health within the Public Health Service agencies.
    I will pick up on the concept of AIDS, too. It continues to 
be the fourth leading cause of death that was mentioned among 
young women, the fastest growing group of people with HIV and 
AIDS. It is the leading cause of death in young African 
American women.
    I particularly urge your continued support for the 
development of microbicide to prevent the transmission of 
HIVand sexually transmitted diseases at a level of $50 million.
    Secondly, we urge this subcommittee to provide adequate NIH 
funding for the Women's Interagency HIV Study, the natural 
history study of HIV in women.
    We commend the increases for research, prevention and the 
CARE Act in fiscal year 1998 and hope that that momentum will 
continue into fiscal year 1999.
    I also want to point out a couple other items briefly.
    Sexually transmitted diseases. Unbelievably, the rate of 
STDs in the United States is the highest in the industrial 
word, and it approximates the rates in the developing world in 
some populations. STDs cause infertility, cervical cancer, 
infant mortality. They are also fueling the HIV epidemic.
    I have testimony which I will submit to you. I think it is 
all pretty shocking with regard to STDs and chlamydia in young 
people.
    [The prepared statement of Congresswoman Connie Morella 
follows:]


[Pages 2273 - 2277--The official Committee record contains additional material here.]



    Mrs. Morella. From 1988 to 1995, there was a drop of 65 
percent in chlamydia positivity in the Pacific Northwest where 
the program was first implemented, and that is the Infertility 
Prevention Program administered by the Centers for Disease 
Control. We are asking it to be funded at $60 million to reduce 
the severe and costly burden of STD-related infertility.
    Also, we fully support the syphilis examination program at 
$25 million. The highest incidence of syphilis is confined to 
specific regions, particularly in urban centers in the 
Southeast.
    Osteoporosis, with continued funding we hope for research 
and public education.
    Breast cancer, as has been mentioned, women continue to 
face a 1 in 8 chance of developing breast cancer during their 
lifetimes.
    Of course, we are asking that you fund shelters for 
battered women and children at $120 million and the National 
Domestic Women's Hotline at $1.2 million in fiscal year 1999.
    I very much appreciate, along with my colleagues in the 
Women's Caucus, the opportunity--every year we look forward to 
presenting to you many things that this committee already 
knows, but it is nice to know that we continue to push for it 
and you continue to follow through.
    You have a good subcommittee, and you are great at the 
helm, thank you.
    Mr. Porter. Thank you, Congresswoman Connie Morella and all 
those who testified. We will do our very best to respond to 
your priorities.
    Thank you all very much. The subcommittee will recess until 
2 next Wednesday.
    Mrs. Morella. Can we make my full statement a part of the 
record?
    Mr. Porter. Yes.
    [Additional testimonies were prepared to be submitted for 
the record:]



[Pages 2279 - 2898--The official Committee record contains additional material here.]












                           W I T N E S S E S

                               __________
                                                                   Page
                                                                   Page
Abbott, Quincy...................................................   995
Ahkter, M. N.....................................................  2692
Allen, Terry.....................................................  1177
Allen, W. R......................................................  2679
Ambach, Gordon...................................................  1095
Ammann, A. J.....................................................   927
Ammerman, H. K...................................................  2468
Aquilino, J. D., Jr..............................................  1861
Bagley, Bruce....................................................   504
Bahreini, M. H...................................................  2409
Balkam, R. M.....................................................  2388
Ballard, Charles.................................................  1576
Barron, Dorothy..................................................  2598
Bassett, Helen...................................................  1395
Becerra, Hon. Xavier.............................................  2290
Beck, David......................................................   660
Belleto, Peter...................................................  2492
Bereuter, Hon. Doug..............................................  2112
Berg, S. R.......................................................  2608
Bickers, D. R....................................................  1921
Bisgard, Gerald..................................................  1723
Bosch, Erin......................................................   541
Brady, J. S......................................................  2702
Brewer, Eileen...................................................  1051
Browman, Sara....................................................    82
Brownstein, Alan.................................................   293
Bruckman, T. M...................................................   330
Bufalino, V. J...................................................   304
Burns, Roger.....................................................   193
Butcher, R. O....................................................  1780
Bye, Dr. R. E., Jr...............................................  2657
Calkins, C. L....................................................  2359
Cameron, John....................................................  2045
Campbell, Christopher............................................  1826
Carey, R. M......................................................  1202
Carlson, B. M....................................................   360
Carty, Rita......................................................   822
Cassell, G. H....................................................   571
Castle, Hon. M. N................................................  2322
Chader, G. J.....................................................   199
Chavez, Linda....................................................   672
Cheney, L. V.....................................................  1086
Christensen, B. M................................................   256
Cioffi, Gina.....................................................  1815
Cipfl, Joe.......................................................  1617
Clapp, K. N......................................................  2542
Clyburn, Hon. J. E...............................................  2049
Cody, Jannine....................................................   711
Coffey, D. S.....................................................  1870
Cohen, E. G......................................................   811
Cole, Anthony....................................................  1930
Coletti, Shirley.................................................   869
Coller, B. S.....................................................   111
Collins, Father T. B.............................................  2418
Conn, P. M.......................................................  2711
Conyers, Hon. John...............................................  2210
Cordy, J. T......................................................  1515
Crawford, J. M...................................................    28
Crook, Dr. Errol.................................................   695
Cummings, Hon. Elijah............................................  2159
Cunningham, Hon. Randy ``Duke''..................................  2189
Cunningham, M. P.................................................  1634
Davidson, Bruce..................................................  1745
Davis, F. J., Jr.................................................  1282
Davis, Hon. D. K.................................................  2093
Davis, William...................................................  1286
Davy, Gale.......................................................  1723
Day, A. L........................................................  1159
Day, Osborne.....................................................  2874
De La Cruz, Antonio..............................................  1210
Dearborn, Dorr...................................................  1177
DeBakey, M. E................................................2477, 2582
Delgado-Vega, Debbie.............................................   293
DeSarno, Judith..................................................   546
Digiusto, Walter.................................................  2432
Dinsmore, Alan...................................................  2522
Donaldson, Dr. P. J..............................................  2822
Dorsey, Vera.....................................................  1418
Downing, Carol...................................................  1687
Downs, Hugh......................................................  1373
Drugay, Marge....................................................  1113
Duckles, S. P....................................................  2456
Dusti, Manouchehr................................................  1715
Edwards, Hon. Chet...............................................  2189
Ehrlich, Dr. Michael.............................................  1737
Eknoyan, Dr. Garabed.............................................   787
English, Hon. Phil...............................................  2296
Epstein, S. S....................................................  2838
Erickson, A. G...................................................  1229
Fernandez, H. A..................................................  2410
Flader, Debbie...................................................  1221
Flink, Judith....................................................  1260
Florentz, S. M...................................................  2375
Flynn, Laurie....................................................  1524
Ford, Hon. H. E..................................................  2128
Ford, M. Q.......................................................  1965
Foreman, Spencer.................................................  2672
Franklin, Patricia...............................................  2801
Fraser, Heather..................................................   632
Furmanski, Philip................................................  1304
Furse, Hon. Elizabeth............................................  2083
Fye, W. B........................................................  1702
Geisel, R. L.....................................................  2871
Gekas, Hon. G. W.................................................  2302
Gennarelli, T. A.................................................   407
George, Father. W. L.............................................  2418
Gerone, Dr. P. J.................................................  2420
Giammalvo, Joseph................................................  1815
Giammalvo, Michael...............................................  1815
Gipp, D. M.......................................................  2483
Gonzales, Rachel.................................................  1065
Goodling, Hon. Bill..............................................  1997
Gorosh, Kathye...................................................  2400
Graham, Hon. Lindsey.............................................  2312
Grant, G. A......................................................  2659
Green, Bettye....................................................  1729
Greenberg, Warren................................................  1597
Greenberger, Phyllis.............................................   650
Guinane, Kay.....................................................  2728
Gustafson, J. S..................................................  1021
Hadley, Jack.....................................................  2577
Haley, Melissa...................................................  2355
Hamilton, Hon. L. H..........................................2035, 2299
Hansen, Hon. J. V................................................  2314
Hayworth, Hon. J. D..............................................  2076
Henderson, C. C..................................................  2552
Hendricks, Karen.................................................  1954
Hendrickx, Dr. A. G..............................................  2420
Herndon, Ron.................................................2331, 2834
Herrera, Stanley.................................................  2385
Hihnshaw, A. S...................................................  1040
Hirsch, Dr. Jules............................................1315, 2340
Hobbs, Dr. Joseph................................................   495
Hodge, Scott.....................................................   733
Holtz, Lou.......................................................  1183
Hooley, Hon. Darlene.............................................  2147
Hopkins, E. C....................................................  2564
Horne, Audrey....................................................   906
Hostettler, Hon. J. N............................................  2035
Hunt, Dr. R. D...................................................  2420
Hunter, Kathy....................................................  1167
Hurst, Brenda....................................................  1286
Hutcheson, Rev. Gary.............................................  1738
Ikenberry, S. O..................................................   598
Insel, Dr. Thomas................................................  2420
Izay, J. R.......................................................  2328
Jackson-Lee, Hon. Sheila.........................................  2271
Jacob, Dr. H. S..................................................   103
Jacobs, Jeff.....................................................   779
Jacobson, J. S...................................................   270
Janger, S. A.....................................................  2537
Javits, J. M.....................................................   125
Jenich, A. L.....................................................   607
Johnson, D. A....................................................  1715
Johnson, Hon. E. B...........................................2214, 2267
Johnson, Hon. Nancy..............................................  2194
Johnson, Karen...................................................  1941
Johnson, Susan...................................................  1013
Jollivette, C. M.................................................  2850
Jose, Dr. Babe...................................................  2588
Joyce, Michael...................................................  1826
Judson, J. M.....................................................  2775
Kalabokes, Vicki.................................................  2741
Karcher, Brett...................................................  2661
Kelley, R. O.....................................................    49
Kelly, Hon. S. W.................................................  2121
Kemnitz, Dr. J. W................................................  2420
Kennemer, B. R. ``Pete''.........................................  1464
Kenney, K. K.....................................................   395
King, Dr. T. E., Jr..............................................  1451
Kingsley, R. P...................................................  2437
Kramis, R. C.....................................................   622
Kraut, A. G......................................................   157
Krueger, G. G................................................2735, 2844
Lancaster, R. B..................................................   845
Langan, M. S.....................................................  1360
Lavery, Jack.....................................................  1852
Lawrence, Jerry..................................................  1897
Lazio, Hon. Rick.................................................  2059
Lehrmann, Eugene.................................................  1136
Levand, R. F.....................................................  2474
Lewis, D. E......................................................  2528
Lewis, Rosalie...................................................   722
Licursi, Michele.................................................  1649
Licursi, Ryan....................................................  1652
Lieberman, Trudy.................................................  2462
Lindley, B. D....................................................  2645
Lokovic, J. E....................................................  2596
Ludlam, Chuck....................................................  2661
Lurie, Dr. Nicole................................................   478
Lynch, Dr. J. H..................................................   832
Mahood, W. H.....................................................  1624
Mallory, S. C....................................................   854
Maloney, Hon. Carolyn............................................  2286
Marvel, J. E.....................................................  2040
Mason, Russell...................................................  2483
Matthews, Merrill, Jr............................................  1791
Mauderly, Joe....................................................  1491
McCarthy, Hon. Carolyn...........................................  2268
McCoy, Clyde.....................................................  1189
McGovern, Hon. J. P..............................................  2024
McInerney, K. G..................................................  1505
McKeon, Hon. Buck................................................  2009
McNulty, Joseph..................................................  1013
Meltzer, D. A....................................................  1675
Mendell, Dr. L. M................................................   235
Millar, W. W.....................................................  1908
Millender-McDonald, Hon. Juanita.......................2185, 2210, 2263
Miller, C. E.....................................................    82
Miller, Mike.....................................................    16
Mirin, Steven....................................................   964
Mitchem, Arnold..................................................  1401
Modell, Vicki....................................................   955
Morella, Hon. Connie.............................................  2271
Morton, Dr. William..............................................  2420
Moss, Sharon.....................................................  2437
Munro, Nancy.....................................................  1658
Murdock, N. H....................................................  1104
Murray, Karen....................................................   171
Myers, Caroline..................................................  1759
Myers, Terry-Jo..................................................   530
Neal, Hon. R. E..................................................  2309
Neilson, Eric....................................................    58
Nethercutt, Hon. George, Jr......................................  2137
Neylan, J. F.....................................................    92
Niesing, Ronald..................................................   246
Norton, Hon. E. H................................................  2250
Nussle, Hon. Jim.................................................  2176
O'Toole, Patrice.................................................  2619
Oberstar, Hon. J. L..............................................  2152
Orth, D. N.......................................................  2769
Owens, Hon. Major................................................  2234
Paisley, J. E. C.................................................   854
Pallone, Hon. Frank, Jr..........................................  1991
Paulson, Jerome..................................................     1
Payne, Hon. Donald...............................................  2227
Payton, Benjamin.................................................  1769
Pease, Joanne....................................................   418
Pebley, Dr. A. R.................................................  2822
Peck, S. B.......................................................   340
Pescovitz, Ora...................................................   224
Peterson, Betsy..................................................  2356
Pierce, D. H.....................................................   458
Pierson, Carol...................................................  2488
Podrabsky, Mary..................................................  2459
Poretz, D. M.....................................................   214
Porter, R. P.....................................................  2380
Poshard, Hon. Glenn..............................................  2176
Potaracke, George............................................2817, 2867
Prothrow-Stith, Dr. Deborah......................................  1395
Puckett, Marianne................................................   426
Purjes, Dan......................................................  1441
Quigley, C. N....................................................   584
Quinn, Hon. Jack.................................................  2297
Raezer, J. W.....................................................  1272
Rangel, Hon. Charlie.............................................  2200
Rasmussen, Dwight................................................  2828
Recker, David....................................................    36
Reich, G. E......................................................  1441
Reuter, Peter....................................................   640
Reynolds, Morgan.................................................  1606
Rhodes, David....................................................  1353
Rich, R. R.......................................................    70
Richter, M. K....................................................   798
Rider, J. A......................................................  1826
Riggs, Hon. F. D.................................................  2018
Robb, L. J.......................................................  1004
Roemer, Hon. Tim.................................................  2142
Rogers, P. G.................................................2477, 2582
Romero-Barcelo, Hon. C. A........................................  2166
Rothman, Hon. S. R...............................................  2028
Ruben, R. J......................................................  1219
Rumery-Rhodes, Alison............................................   270
Salazar, Javier..................................................  1148
Samuelson, J. I..................................................  1562
Sanabria, Susan..................................................  1687
Sanders, Hon. Bernard............................................  2172
Saperstein, Dr. L. W.............................................  2533
Savage, C. M.....................................................   319
Schacke, Douglas.................................................  1126
Schagh, Catherine................................................  2497
Schneidmill, Miriam..............................................  1696
Schwartz, Dr. Peter..............................................   686
Scott, Hon. Robert...............................................  2242
Scrimshaw, S. C..................................................  1802
Sellers, Julie...................................................   891
Sever, Dr. J. L..................................................  1429
Shalita, Alan....................................................  2753
Shapiro, Jan.....................................................  1539
Shokraii, Nina...................................................  1410
Silver, H. J.....................................................  2570
Simpson, Bobby...................................................  1839
Skwierczynski, Witold............................................  2631
Slaughter, Hon. L. M.............................................  2099
Small, Dr. William...............................................  2035
Smith, Dr. M. S..................................................  2420
Smith, Hon. Chris................................................  2292
Snyder, E. L.....................................................   139
Somlo, Dr. Stephen...............................................  2105
Spare, Polly.....................................................   749
Stark, Hon. Pete.............................................2134, 2325
Staton, J. D.................................................2590, 2597
Stearns, Hon. Cliff..............................................  2089
Stephens, Michael................................................  2874
Stern, J. S......................................................  1980
Stevens, Christine...............................................  2446
Stevens, Martin..................................................  1533
Stillman, Robert.................................................   917
Stotzer, B. O....................................................  2472
Stratton, R. J...................................................   765
Street, Anna.....................................................   449
Suki, Dr. W. N...................................................   116
Suttie, John.....................................................   360
Tauzin, Hon. Billy...............................................  2052
Taylor, S. D.....................................................   558
Terry, Sharon....................................................  2366
Teter, Harry.....................................................   348
Thomas, Robert...................................................  1418
Thornton, Dr. Allan..............................................  2035
Thurman, Hon. K. L...............................................  2105
Tierney, Hon. J. F...............................................  2117
Tobias, R. M.....................................................   944
Towns, Hon. Ed...................................................  2279
Trueheart, W. E..................................................  1004
Trull, Frankie...................................................   235
Tutt, J. M.......................................................  2648
Van Zelst, T. W..................................................  2880
Ventre, F. T.....................................................  2891
Viste, Dr. K. M., Jr.............................................  1332
Walker, D. K.....................................................   182
Wallace, S.......................................................  2639
Wallace, S. B., IV...............................................  2369
Wansley, R. A....................................................  2782
Waters, Hon. Maxine..............................................  2205
Watkins, Jane....................................................  2828
Watts, Hon. J. C.............................................2289, 2317
Weinberg, R. A...................................................  1479
Weisenburger, Joseph.............................................   371
Weygand, Hon. R. A...............................................  2067
Whiston, David...................................................   436
Whitfield, Hon. Ed...............................................  2300
Williamson, D. E.................................................  1074
Wilson, J. J.....................................................  2350
Wilson, Mark.....................................................   517
Wilson, Robert...................................................   468
Woolley, Mary....................................................  1242
Yager, D. V......................................................  1549
York, Nan........................................................  2828
Young, C. E......................................................   886
Young, Hon. Don..................................................  2111
Yount, R. G......................................................  1887
Zeddun, W. E.....................................................   280
Zitnay, G. A.....................................................  2602














                 O r g a n i z a t i o n a l  I n d e x

                              ----------                              
                                                                   Page
Ad Hoc Group for Medical Research................................    58
ADAP Working Group...............................................  1148
Advocates for Epilepsy...........................................  1221
AIDS Action Council..............................................   779
Air Force Sergeants Association..................................  2590
Alamo Navajo School Board, Inc...................................  2385
ALS Association..................................................   125
Alzheimer's Association..........................................   458
American Academy of Dermatology..............................2735, 2844
American Academy of Family Physicians............................   504
American Academy of Neurology....................................  1332
American Academy of Nurse Practitioners..........................  2335
American Academy of Orthopedic Surgeons..........................  1373
American Academy of Otolaryngology-Head and Neck Surgery, Inc....  1210
American Academy of Pediatrics...................................     2
American Academy of Physician Assistants.........................  2450
American Association for Dental Research.........................    28
American Association of Anatomists...............................   360
American Association of Blood Banks..............................   139
American Association of Colleges of Nursing......................  1040
American Association of Critical Care Nurses.....................  1658
American Association of Dental Schools...........................   765
American Association of Health Plans.............................  2722
American Association of Immunologists............................    70
American Association of Neurological Surgeons and Congress of 
  Neurological Surgeons..........................................  1159
American Association of Nurse Anesthetists.......................  2625
American Association of Retired Persons..........................  1136
American Cancer Society..........................................  1634
American Chemical Society........................................  2894
American College of Cardiology...................................  1702
American College of Preventive Medicine & Association Teachers of 
  Preventive Medicine............................................  2442
American College Rheumatology....................................    36
American Council on Education....................................   598
American Dental Association......................................   436
American Dental Hygenists' Association...........................   340
American Enterprise Institute for Public Policy Research.........  1086
American Federation for Medical Research.........................   695
American Federation of Government Employees......................  2631
American Foundation for AIDS Research............................   927
American Foundation for the Blind................................  2522
American Gas Association.........................................  2895
American Heart Association.......................................   304
American Library Association.....................................  2552
American Liver Foundation........................................   293
American Lung Association and American Thoracic Society..........  1451
American Nurses Association......................................  1113
American Obesity Association.....................................  1980
American Optometric Association..................................  2516
American Physiological Society...................................  2815
American Psychiatric Association.................................   964
American Psychological Association...............................  2758
American Psychological Society...................................   157
American Public Health Association...............................  2692
American Public Power Association................................  2424
American Public Transit Association..............................  1908
American Rehabaction Network.....................................  1839
American Society for Clinical Nutrition......................1315, 2340
American Society for Microbiology.............................571, 2859
American Society for Nutritional Sciences........................   380
American Society for Pharmacology and Experimental Therapeutics..  2456
American Society for Reproductive Medicine.......................   917
American Society for Clinical Oncology...........................  2512
American Society of Clinical Pathologists........................    82
American Society of Hematology...................................   103
American Society of Nephrology...................................   116
American Society of Pediatric Nephrology.........................  1051
American Society of Transplant Physicians........................    92
American Society of Tropical Medicine and Hygiene................   256
American Speech-Language Hearing Association.....................  2437
American Tinnitus Association....................................  1441
American Trauma Society..........................................   348
American Urological Association..................................   832
American Vocational Association..................................  1286
Area Health Education Centers....................................  2782
Association for Health Services Research.........................  2577
Association for Professionals in Infection Control and 
  Epidemology, Inc...............................................   891
Association of America's Public Television Stations..............  2747
Association of American Medical Colleges.........................    49
Association of American Universities.............................  1202
Association of Anorexia Nervosa and Associated Disorders.........   607
Association of Foster Grandparent, Senior Companion & Retired 
  Program Directors..............................................  2828
Association of Independent Colleges of Art and Design............  1353
Association of Independent Research Institutes...................   660
Association of Maternal and Child Health Programs................   182
Association of Minority Health Professions Schools...............   845
Association of Professor of Dermatology..........................  2753
Association of Schools of Public Health..........................  1802
Association of State and Territorial Health Officials............  1074
Association of University Programs in Health Administrations.....  2410
Autism Society of America........................................   906
BioTechnology Industry Organization..............................  2661
Blue Cross Blue Shield Association...............................  1745
Brain Injury Association, Inc....................................  2702
Case Western Reserve University and Rainbow Babies & Children's 
  Hospitals of Cleveland.........................................  1177
Center for Civic Education.......................................   584
Center for Equal Opportunity.....................................   672
Center Point, Inc................................................   558
Center for Victims of Torture....................................  1715
Children's Brain Diseases Foundation.............................  1826
Chromosome 18 Registry and Research Society......................   711
Chronic Fatigue and Immune Dysfunction Syndrome Association......   395
Cities Advocating Emergency AIDS Relief..........................  2564
City of Compton, California......................................  1418
City Newark..................................................2653, 2659
Close-Up Foundation..............................................  2537
Coalition for American Trauma Care...............................   407
Coalition for Health Care Funding................................  1954
Coalition for Heritable Disorders of Connective Tissue...........   171
Coalition of EPSCoR States.......................................  2645
Coalition of Higher Education Assistance Organizations...........  1260
Coalition of Northeastern Governors..............................  2641
Coalition of Patient Advocates for Skin Disease Research.........  2741
College on Problems of Drug Dependence...........................   640
Committee for Education Funding..................................  1505
Consortium of Social Science Associations........................  2570
Cooley's Anemia Foundation.......................................  1815
Council of Chief State School Officers...........................  1095
Crownpoint Institute of Technology...............................  2648
Cystic Fibrosis Foundation.......................................   632
Digestive Disease National Coalition.............................  1624
Dystonia Medical Research Foundation.............................   722
Endocrine Society................................................  2769
ESA, Incorporated................................................  2432
FDA-NIH Council..................................................    16
Federal Managers Association.....................................  1897
Federation of American Societies of Experimental Biology.........  1887
Federation of Behavioral, Psychological and Cognitive Sciences...  2619
Fibromyalgia Network.............................................   619
Fleet Reserve Association........................................  2359
Florida State University.........................................  2657
Foundation for Ichthyosis and Related Skin Types.................  1649
Fraxa Research Foundation........................................  2542
Friends of NICHD Coalition.......................................  1675
Friends of NIDRR.................................................  2602
Friends of the National Library of Medicine..................2477, 2583
FSH Society, Inc.................................................  1941
General Internal Medicine........................................   478
Haymarket House..................................................  1930
Health Professions and Nursing Education Coalition...............  2718
Helen Keller National Center for Deaf-Blind Youths and Adults....  1013
Humane Society of the United States..............................  2612
Illinois Community College Board.................................  1617
Immune Deficiency Foundation, Inc................................   418
Infectious Diseases Society of America...........................   214
International RETT Syndrome Association..........................  1167
Interstate Conference of Employment Security Agencies............   371
Interstitial Cystitis Association................................   530
Jeffrey Modell Foundation........................................   955
Joint Council of Allergy, Asthma and Immunology..................  2795
Joint Steering Committee for Public Policy.......................  1479
Juvenile Diabetes Foundation International.......................  1183
Labor Policy Association.........................................  1549
Lovelace Respiratory Research Institute..........................  1491
Lupus Foundation of America......................................  1852
Lymphoma Research Foundation of America..........................   811
Medical Library Association/Association of Academic Health 
  Sciences Libraries.............................................   426
Mended Hearts, Inc...............................................  1597
Metropolitan Family Services.....................................  1229
Minann, Inc......................................................  2880
Montgomery County Stroke Club, Inc...............................  2891
National Alliance for Eye and Vision Research....................   199
National Alliance for the Mentally Ill...........................  1524
National Alliance to End Homelessness, Inc.......................  2608
National Alopecia Areata Foundation..............................  1539
National Association for State Community Services Programs.......  2886
National Association of Community Health Centers.................  1065
National Association of Independent Colleges and Universities....  1126
National Association of Nutrition and Aging Services Programs....  2459
National Association of Pediatric Nurse Associates and 
  Practitioners, Inc.............................................  2801
National Association of State Alcohol and Drug Abuse Directors, 
  Inc............................................................  1021
National Association of State Long Term Care Ombudsman.......2817, 2866
National Association of State Universities and Land-Grant 
  Colleges.......................................................  2533
National Breast Cancer Coalition.................................  1729
National Center for Policy Analysis..........................1606, 1791
National Coalition for Cancer Research...........................  1870
National Coalition for Heart and Stroke Research.................   854
National Coalition for Promoting Physical Activity...............  2667
National Coalition of State Alcohol and Drug Treatment and 
  Prevention Associations........................................   869
National Coalition of Survivors of Violence (Youth Violence 
  Prevention)....................................................  1395
National Congress of American Indians............................  2679
National Consumer Law Center.....................................  2728
National Council for Community Behavioral Healthcare.............  1464
National Council of Educational Opportunity Associations.........  1401
National Council of Social Security Management Associations, Inc.   246
National Council on Rehabilitation Education.....................  2426
National Depressive and Manic-Depressive Association.............  2807
National Family Planning and Reproductive Health Association.....   546
National Federation of Community Broadcasters....................  2488
National Foundation for Ectodermal Dysplasia.....................   798
National Fuel Funds Network......................................  1759
National Head Start Association..............................2331, 2834
National Hemophilia Foundation...................................  2696
National Indian Education Association............................  2764
National Indian Impacted Schools Association.....................  2492
National Institute of Responsible Fatherhood and Family 
  Revitalization.................................................  1576
National Job Corps Coalition.....................................   449
National Kidney Foundation.......................................   787
National Latino Communications Center............................  2472
National Medical Association.....................................  1104
National Military Family Association.............................  1272
National Minority Public Broadcasting Consortia..................  2787
National Multiple Sclerosis Society..............................  1687
National Nutritional Foods Association...........................  1965
National Organization for Rare Disorders, Inc....................  1360
National Parkinson Foundation, Inc...............................  1515
National Pemphigus Foundation....................................  1696
National Psoriasis Foundation....................................  1738
National Public Radio............................................  2528
National Rural Health Association................................  2875
National Stone Association.......................................  2350
National Treasury Employees Union................................   944
New York University..............................................  1304
NOVA Southeastern University.....................................  2474
Organizations of Academic Family Medicine........................   495
Parkinson's Action Network.......................................  1562
Population Association of America and Association of Population 
  Centers........................................................  2822
Prostatitis Foundation...........................................  1533
Public Policy Council............................................   224
PXE International, Inc...........................................  2366
Reading is Fundamental, Inc......................................  1004
Recording for the Blind and Dyslexic.............................  2871
Reflex Sympathetic Dystrophy Syndrome Association of America.....  1282
Research Society on Alcoholism...................................  2811
Research! America................................................  1242
Rock Point Community School Board................................  2415
Rotary International.............................................  1429
Sinai Family Health Services.....................................   319
Society for Animal Protective Legislation........................  2446
Society for Investigative Dermatology............................  1921
Society for Neuroscience.........................................   235
Society for the Advancement of Women's Health Research...........   650
Society of Gynecologic Oncologists...............................   686
Society of Toxicology............................................  2804
State Commission for the Blind...................................   886
Sudden Infant Death Syndrome Alliance............................   270
Summit Health Coalition..........................................  1780
Texas Public Policy Foundation...................................  2775
The ARC of the United States.....................................   995
The Hormone Foundation...........................................  2711
Tri-Council for Nursing..........................................   822
Tuskegee University..............................................  1769
United Distribution Companies....................................   280
United Tribes Technical College..................................  2483
University of Medicine and Dentistry of New Jersey...............  2854
University of Miami..........................................1189, 2850
Urologic Research and Care Coalition.............................   330
Voice of the Retarded............................................   749
Wilson Associates................................................   468
Wisconsin Association for Biomedical Research and Education......  1723

                             <all>
</pre></body></html>
